<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                          ______________________

                         SUBCOMMITTEE ON DEFENSE

              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

  KAY GRANGER, Texas                 PETER J. VISCLOSKY, Indiana
  ANDER CRENSHAW, Florida            BETTY McCOLLUM, Minnesota
  KEN CALVERT, California            STEVE ISRAEL, New York
  TOM COLE, Oklahoma                 TIM RYAN, Ohio
  STEVE WOMACK, Arkansas             C. A. DUTCH RUPPERSBERGER, Maryland
  ROBERT B. ADERHOLT, Alabama        MARCY KAPTUR, Ohio
  JOHN R. CARTER, Texas
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking
 Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees.

            Rob Blair, Paul Terry, Walter Hearne, Tim Prince,
    Brooke Boyer, B G Wright, Adrienne Ramsay, Megan Milam Rosenbusch,
                     Collin Lee, and Cornell Teague,
                             Staff Assistants

                   Sherry L. Young, Administrative Aide

                         ____________________

                                  PART 2

                                                                   Page
  United States European Command.................................     1
                                                                
                                                                      
                                        
  Missile Defense Agency.........................................    31
                                                                 
                                                                     
                                        
  Fiscal Year 2016 Army Budget Overview..........................    55
                                                                 
                                                                     
                                        
  Defense Health Program.........................................   137
                                                                 
                                                                    
                                        
  Testimony of Members of Congress...............................   297
                                                                
                                                                    
                                        
  Public Witness Statements......................................   405
                                                                 
                                                                    
                                        
                               ______________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  97-458                  WASHINGTON : 2015

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey                NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                        MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                 PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                          JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                        ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                            DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                              LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                            SAM FARR, California
  TOM COLE, Oklahoma                                 CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                         SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                      BARBARA LEE, California
  TOM GRAVES, Georgia                                MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                                BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                             STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                         TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                          C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                  DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                  HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                               CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                       MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                              DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  
                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2016

                              ----------                              

                                          Thursday, March 19, 2015.

                     UNITED STATES EUROPEAN COMMAND

                                WITNESS

GENERAL PHILIP M. BREEDLOVE, U.S. AIR FORCE, SUPREME ALLIED COMMANDER 
    EUROPE (NATO), AND COMMANDER, U.S. EUROPEAN COMMAND

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Meeting will come to order. This morning 
the committee will hold a hearing on the posture of the United 
States European Command.
    First I want to recognize Mr. Visclosky for a motion.
    Mr. Visclosky. Mr. Chairman, I move that those portions of 
the hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Frelinghuysen. So ordered.
    Our sole witness this morning is General Philip Breedlove, 
United States Air Force. He is Commander of the United States 
European Command in NATO and the Supreme Allied Commander 
Europe. General Breedlove is a command pilot, a warrior who is 
superbly prepared to lead USEUCOM at this perilous time in 
history.
    General Breedlove, welcome. It is a real pleasure to have 
you here. Thank you for your 37 years of service to our Nation.
    General, I am sure that when you assumed command in the 
spring of 2013 you did not expect to encounter some of the 
political and military situations you see today. After decades 
of keeping the peace, EUCOM faces threats on many fronts. Your 
command must face down naked Russian aggression from the Black 
Sea to the Baltic. You must also focus your resources on 
supporting military intervention against the Islamic State by 
assisting CENTCOM to support the so-called moderate Syrian 
opposition and degrade and ultimately destroy ISIL. And to keep 
an eye out as well for the growing role of the Qods Force in 
Iran and around the world. And, may I say, I suggest keeping an 
eye on the issue of returning fighters.
    Finally, you play a key role in assisting CENTCOM and 
AFRICOM with crises in the Middle East and Africa. In short, 
your responsibilities are not limited to the critical role you 
play in helping to stabilize Europe.
    Last week, as you know, General, eight members of this 
committee traveled to Eastern Europe, the Mediterranean, and 
North Africa, including Cypress and Ukraine, in order to see 
the situation firsthand, meeting with our embassy people, our 
teams, as well as the leaderships of those countries.
    In Egypt, we discussed military equipment from the United 
States that has been paid for but not delivered. In Cypress, we 
explored opportunities for the United States in that country to 
develop a closer mil-to-mil relationship. In Ukraine, we saw 
the invasion of a sovereign country by Russian military forces 
acting through surrogates or on their own. So we speak with you 
today with the benefit of seeing firsthand some of the 
challenges you face every day.
    Of course, EUCOM has received Army, Air Force, and other 
assets in recent months to expand training and activities with 
our allies that demonstrate resolve in the face of Russian 
aggression. At the same time, events elsewhere, in Africa, the 
Middle East, have necessitated a reassessment of the allocation 
of U.S. forces worldwide. Notwithstanding the recently arrived 
troops and assets, U.S. forces allocated to EUCOM have been 
declining in recent years. Gone are the days of two Army corps 
with four divisions and two calvary regiments.
    General, given the challenges your command faces, any 
further reduction of U.S. combat forces in EUCOM will receive 
very careful scrutiny from our committee.
    General, we will ask you to present your summarized 
statement in a moment, but first may I recognize my ranking 
member, Mr. Visclosky, for any comments he may wish to make.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Mr. Chairman, simply thank you for holding 
the hearing.
    General, for your service, and look forward to your 
testimony.
    Thank you very much.
    Mr. Frelinghuysen. General, good morning. A warm welcome to 
you. Thanks for the great job you are doing, and all the men 
and women you represent.
    General Breedlove. Thank you, Mr. Chairman.
    [The written statement of General Breedlove follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    [Clerk's note.--The complete transcript of the hearing 
could not be printed due to the classification of the material 
discussed.]

                                           Tuesday, March 24, 2015.

                         MISSILE DEFENSE AGENCY

                                WITNESS

VICE ADMIRAL JAMES D. SYRING, U.S. NAVY, DIRECTOR, MISSILE DEFENSE 
    AGENCY

                 Chairman Frelinghuysen Opening Remarks


    Mr. Frelinghuysen. Subcommittee will come to order. I would 
like to recognize the ranking member, Mr. Visclosky, for a 
motion.
    Mr. Visclosky. Mr. Chairman, I move that those portions of 
the hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Frelinghuysen. So ordered. Thank you, Mr. Visclosky.
    This morning the subcommittee will hold a closed hearing on 
the fiscal year 2016 budget request for the Missile Defense 
Agency. I say and remind everybody that the classification for 
this hearing is top secret, that comments must not exceed this 
level in this room.
    Welcome back to the subcommittee, Vice Admiral James 
Syring--I will get the pronunciation correct this time, I 
apologize--director of our Missile Defense Agency. We are 
delighted to have you with us and look forward to hearing about 
the current status of your programs and your assessment of the 
myriad of threats facing America and our allies. Of course, the 
Missile Defense Agency plays a vital role in defense of our 
Nation. Our members consider it a priority to ensure that you 
have what you need to adequately conduct your mission and 
continue defending our Nation.
    As I started my preparation for this hearing, it struck me 
that some things never seem to change. Almost 1 year ago to the 
day, the North Koreans were firing missiles and threatening to 
test a nuclear device. Then a couple of weeks ago, the North 
Koreans are again firing off missiles and making more threats.
    Admiral, with events like this occurring around the globe, 
it only underscores the vital role your agency plays. However, 
one thing is very different from last year: We have the threat 
of sequestration looming. If we are forced to mark up our bill 
under the Budget Control caps, we estimate your program share 
of this reduction will be nearly $1 billion. We hope that you 
will be able to share with us this morning the impact this 
funding reduction would have on your program.
    This year, more than ever, the subcommittee is charged with 
making difficult fiscal choices, and we need the best 
information you can possibly provide to assure that we make the 
best choices possible for our Nation's security. We look 
forward to working with you to minimize the impact of these 
reductions on your programs.
    So welcome. We look forward to your testimony and to an 
informative question-and-answer session. Beyond North Korea, 
Iran, Russia and Chinese threats, the committee needs to hear 
your views on such issues as target discrimination, sensors, 
and directed energy research.
    First I would like to turn to my good friend, Mr. 
Visclosky, the ranking member, for any comments he may wish to 
make.
    Mr. Visclosky. Chairman, simply thank you for holding the 
hearing, and Admiral, for your service and your presentation, 
and look forward to the testimony.
    Mr. Frelinghuysen. Admiral Syring, the floor is yours. And 
your complete testimony will be put in the record.

                      VADM Syring Opening Remarks


    Admiral Syring. Thank you, sir. Chairman Frelinghuysen, 
Ranking Member Visclosky, and distinguished members of the 
subcommittee, I appreciate the opportunity to testify today. I 
am going to deviate a little bit, sir, and go into the thread 
of my opening statement here to give context, and then 
questions that will come from that.
    Our budget request for fiscal year 2016 maintains the 
commitment to operate and sustain our homeland defenses, 
including the planned deployment of 44 GBIs by the end of 2017. 
This request supports test requirements as we continue to 
enhance the stockpile reliability program and undertake 
component aging testing in order to understand and maintain the 
health of the deployed system.
    The testing plan in 2016 includes a non-intercept flight 
test to evaluate alternate divert thrusters and support 
algorithm development for discrimination improvements for the 
homeland defense. We will also continue development of the 
redesigned kill vehicle (RKV) for improved reliability, 
availability, performance and produceability. The first test of 
this RKV is planned for 2018, the first intercept test will be 
2019, with initial deployment in 2020.
    We started acquisition planning and pre-construction 
activities for the long-range discrimination radar (LRDR). We 
anticipate contractor award for this radar by the end of fiscal 
year 2015.
    Our 2010 budget request supports the deployment of standard 
missile block--Standard Missile-3 Block IBs, and beginning in 
2018, the IIAs on ships and at Aegis Ashore sites in Romania 
and Poland. We plan to procure 209 SM IBs by the end of 2016, 
and will request multi-year procurement authorization. We are 
also planning to deliver 48 additional THAAD interceptors to 
the Army, for a total of 155 by the end of 2016.
    And, finally, our advance development technology and 
development efforts will ramp up this year. We will continue 
our discrimination sensor weapons and technology common kill 
vehicle program, which includes the early concept exploration 
of multi-object kill vehicles, and technology maturation 
initiatives. These investments will help us to deploy a future 
BMDS architecture more capable of discrimination and killing 
reentry vehicles with a high degree of confidence. Our low-
power directed entry resource is focused on providing a forward 
tracking capability.
      
                                ------                                

    Mr. Chairman, the threat is moving forward rapidly and 
progressing at an equal pace. We will continue to pursue--
aggressively pursue cost reduction measures of all the 
acquisition programs through competition, partnering and 
cooperation as we continue to deliver the most--best missile 
defense capabilities to protect our Nation, our deployed 
forces, friends and allies at the lowest possible Cost to the 
American taxpayer.
    Thank you, sir, and I look forward to the questions.
    Mr. Frelinghuysen. Thank you, Admiral, for your testimony.
    Mr. Womack.

                          CAPABILITIES OF IRAN

    Mr. Womack. Thank you, Mr. Chairman. And thank you, 
Admiral, for your service to our country and the testimony that 
you are giving here today.
    It goes without saying that many members across the Capitol 
are concerned enough about the potential in Iran, its nuclear 
capability, that they have--some have resorted to doing a 
little bit of impromptu diplomacy in the form of letters to the 
Iranian government. Clearly--this is clearly all while the 
White House believes that their negotiations are viable ways to 
stop Iran from spinning centrifuges and racing toward a weapon.
    I am not going to ask you about the politics or your 
opinion on the White House's decisions, but I do want to ask 
these things: How much nuclear capability does Iran have right 
now?
                                ------                                

    Mr. Womack. Seems to me that over time, we hear all of 
these time frames, in 6 months, in 1 year, and this has been 
going on multiple years, so forgive me for being a bit 
skeptical about some of this. I would just like to kind of get 
the truth as to exactly where the country is right now so that 
we could discern what the true and present threat is.
    Now, am I missing something there in terms of just how far 
away they are from being able to develop weapons grade?
    Admiral Syring. No, sir, you are not. But, again, I would--
I would emphasize in the concentration today, which I can 
intelligently comment on, is delivery systems of that material 
in terms of where are they with long-range development of an 
ICBM class that could potentially deliver a weapon to the 
United States.
    Mr. Womack. Is this the one area that--I know there are 
several areas that probably cause you some sleepless nights, 
but this would have to be one of them?
                                ------                                


                     CONCERNS ABOUT EASTERN EUROPE

    Mr. Womack. Mr. Chairman, I just have one more real quick 
question and then I have got to depart for another committee 
meeting. A number of us just returned from the Ukraine, and so 
I have got a question about what is going on in eastern Europe.
    After signing the Iran Sanction Act in 2011, the President 
cancelled programs to place missile defense interceptors in 
Poland and a radar in the Czech Republic. What concerns should 
we have about what our capability is in the eastern part of 
Europe given what is going on in the Ukraine and the potential 
for Russia to step up more of this aggressive nature that they 
seem to be playing?
    Admiral Syring. The answer in terms of what we are doing in 
eastern Europe from a missile defense standpoint is sites that 
are in Romania and Poland, as you are aware, Aegis Ashore sites 
that will provide defensive weapons against the short and 
medium range threats from Iran.
    The concern that I hear and get asked about is, what about 
defense of those sites from Russia? And it is more, sir, of a 
policy question at this point, because we didn't design those 
sites against Russia. They have no capability against the 
Russian ICBM. So the question--I answer the question from a 
policy standpoint is, and that will be driven by the combatant 
commanders if and when do we decide that we have to protect 
those sites. That is the danger I see.
    Mr. Womack. Thank you, again, for your service.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Ms. Granger.

                     IRAN AND NORTH KOREAN THREATS

    Ms. Granger. Yes. Thank you for being here and thank you 
for your service.
    Admiral, Iran and North Korea are both known to engage in 
weapons proliferation and technology transfer. Your agency 
states that increasing technology transfer and missile 
proliferation could render traditional deterrence and diplomacy 
ineffective against a future missile attack. Can you tell me, 
in terms I can understand, how you are ensuring this doesn't 
happen?
                                ------                                


                        EFFECTS OF SEQUESTRATION

    Ms. Granger. Could I follow up with a question? The 
chairman asked this, but with what you just described and how 
important that is to our future, vital, if this Congress can't 
get rid of sequestration and has to come in at those numbers, 
what programs are you going to have to pick and choose on to do 
what is immediate but not long-term, or how are you going to 
make those decisions, how will it affect what you just 
described?
    Admiral Syring. Yes, ma'am. If I can, Mr. Chairman, I am 
going to use the $1 billion figure that was in your opening 
statement, if sequestration comes down at a billion dollars. My 
budget is roughly just over $8.1 billion request, and so I have 
got to come up with $1 billion in execution here, and I have 
got two very important fence posts. Homeland defense is the 
number one priority of the Department, and then the commitments 
that we have made in Europe to our allies of the European 
approach. So you would see me protect those at all costs, 
because those are our two top priorities,
at the sacrifice of the new START development programs, which 
we haven't talked about yet, in terms of designing a new kill 
vehicle.
                                ------                                

    Ms. Granger. Thank you. You know, and I hear you. We all 
do. I think we have had testimony here going through this and 
asked that question so many times, but the importance of not 
just what we need to protect us, but our commitments to our 
allies is extremely important, and I am glad that you mentioned 
that. We haven't talked a lot about that.
    Thank you, Mr. Chairman.

         MISSILE DEFENSE SITES AND DISCRIMINATION CAPABILITIES

    Mr. Frelinghuysen. Before recognizing Mr. Ruppersberger, 
would you briefly run the committee through where we, in fact, 
have existing systems----
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen [continuing]. Around the world? I think 
it would be important. Most members know, but I think it would 
be good. And would you also very briefly define this issue of 
discrimination. You use it with a high degree of comfort.
    Admiral Syring. Yes, sir. I understand.
    Mr. Frelinghuysen. And maybe members know what that is, but 
in reality, I think it is important for people to understand 
what it means.
    Admiral Syring. Okay. If I can just take a couple of 
minutes, Mr. Chairman, and describe, and then I think that'll 
help set the context here. And I will go around the world, but 
I will start here with the homeland.
    The homeland defense system currently today is 30 ground-
based interceptors, mostly in Alaska and a few at Vandenberg; 
26 and four is the split that we use. These provide our long-
range ICBM defense against Iran and North Korea. System wasn't 
designed and never has been designed against China or Russia in 
terms of what they could possibly shoot at us.
    This homeland defense system is just not interceptors, it 
is also a fire control system that is up in Fort Greely. There 
is a missile field up there that has all the operation. The 
command and control center is in Colorado Springs, along with 
what NORTHCOM fields there. There are radars around the world. 
To the east, there is a radar in Thule, Greenland, and 
Fylingdales, England. Those provide us the tracking capability 
of a potential threat from Iran. And to the west there is a 
radar on the tip of the Aleutians, Shemya Island, Cobra Dane 
and Clear, Alaska, as well.
    There are data terminals that provide updates to the 
interceptors as they are detected by these sensors that would 
then cue the engagement from Fort Greely for mid-course defense 
intercept.
                                ------                                

    The regional programs around the world were, as you know, 
actively deployed with PATRIOT around the world. I think there 
are eight of the 16 batteries deployed today. We will have 
delivered four of the seven THAAD batteries to the Army by the 
end of this year. There is a lot of noise in the press, and you 
have seen it, on when and if we will deploy a THAAD battery to 
South Korea. I am not going to get into that. That certainly is 
going to be, you know, Mr. Work and General Scaparrotti and the 
Secretary's decision on how to do that. I have been very quiet 
about that publicly. It is the warfighter's decision. And I 
think you will see them work towards that decision in the 
future. So----
    Mr. Frelinghuysen. Just one comment before going to Mr. 
Ruppersberger on ship-based and----
    Admiral Syring. Yes, sir. So 33----
    Mr. Frelinghuysen [continuing]. Aegis Ashore.
    Admiral Syring. Yes, sir. 33 BMD ships today, meaning the 
capability of firing SM-3s, and then rapid progress on a 
Romania Aegis Ashore site, which is essentially, think of a DDG 
and take the deckhouse and put it ashore to give us protection, 
to give us protection of our forces and our allies in eastern 
Europe. And then when Poland comes along, we will extend that 
to more central Europe, and then there will be ship stations 
that cover the entire continent by 2018 against short and 
medium-range threats from Iran.
    Mr. Frelinghuysen. Thank you for giving us that picture. I 
probably should have done that initially.
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. Mr. Ruppersberger.

                        EFFECTS OF SEQUESTRATION

    Mr. Ruppersberger. Yes. Thank you, Mr. Chairman.
    I know it is redundant, but I think it is extremely 
important. I know our chairman, our ranking member, members of 
this committee continue to talk about sequestration, which 
probably is one the biggest threats to our national security. 
If the American people could sit here and hear the testimony of 
all the members talking about what sequestration would do, I 
think they would be very concerned that Congress is not acting. 
And this is not a partisan issue. We need to get the record 
where our leadership, Republican, Democratic side to resolve 
this issue.
    When me met last week, you mentioned that a sequestration-
level budget will have a detrimental impact on your agency's 
ability to maintain our missile interception abilities at a 
level that is ahead of Iran and North Korea missile threat. 
Now, if your agency is provided with a budget that is at 
sequestration level, how quickly would you expect our missile 
interception capabilities to be outpaced?
                                ------                                


                    CYBER THREATS TO MISSILE DEFENSE

    Mr. Ruppersberger. Okay. Very serious.
    Now, let's get to cyber threat to missile defense. Cyber is 
the future of warfare, and, you know, we are anticipating where 
we are going to be in the future. Hundreds of thousands of 
cyber attacks occur every day, many of which are aimed at our 
military. Please provide us details on what the cyber threats 
are to the Missile Defense Agency and what you do. Is the 
primary goal of these attacks to shut down missile defense 
capabilities or to gather information on our capabilities, and, 
you know, what are we doing to try to deal with the issue of 
cyber attacks on what you do?
     
                                ------                                

    Sir, as we discussed, we have a layered strategy that is at 
the very top with cyber command. Missile defense is at the very 
top of the priority list, or near the top of the priority list 
in terms of active monitoring and defenses in a layered way in 
terms of how that is protected. We monitor it 24/7 and we take 
it very seriously.
    Mr. Ruppersberger. You know, it is unfortunate, especially 
the Chinese have stolen so much of your space programs and all 
of our different programs, saving them probably billions of 
dollars, but also understanding what we do, how we do it, and a 
lot of their technologies are ours now.
    Admiral Syring. Yes, sir.
    Mr. Ruppersberger. Do you agree with that?
                                ------                                

    Mr. Ruppersberger. Another reason why Congress has to move 
ahead in the area of cyber legislation.
    Admiral Syring. I agree, sir.
    Mr. Ruppersberger. Yield back.
    Mr. Frelinghuysen. Mr. Crenshaw.

                       SEA-BASED MISSILE DEFENSE

    Mr. Crenshaw. Thank you, Mr. Chairman. And thank you, 
Admiral, for being here today.
    Admiral Syring. Yes, sir.
    Mr. Crenshaw. Your second trip. Glad to have you back.
    You know, when you read the newspapers and you watch TV, 
you see a lot about terrorism and bombings and freedom fighters 
and foreign fighters, but listening to you talk really brings 
home the fact that this rapid proliferation of the whole 
missile area is one of the biggest threats to our national 
security. Even though we don't see it every day, we don't read 
about it, but your work is so vital, it really is one of the 
biggest long-term threats to our national security.
    And when I heard you talk about what we are doing around 
the world, I wanted to follow up a little bit on the whole sea-
based missile defense, because we have got--the Navy has a 
ship, I think they call it the LPD, and it has been a great 
platform and very capable, very flexible, and now they are 
going to build a new platform based on that using that hull, 
and a lot of people talk about that larger platform that might 
be valuable to have missile defense on that.
    I know there is no money to do that right now, but I wanted 
to get your thoughts as you look to the future about how we 
deal with this very real threat. What goes through your mind in 
terms of our capability if we were to use a hull like that, 
larger, what would that bring to our missile defense, and maybe 
are there things we could do to test it, war games, something 
like that, because it seems to me down the road, that could be 
very vital.
    Admiral Syring. Sir, let me just answer it in the context 
of what we have today and what we are doing to answer the 
combatant commanders' requirements, which today exceed the 
number of ships that we have to provide. And it is only going 
to grow as EPAA is fielded in 2015 and 2018 in terms of the 
number of BMD-capable ships it is going to take to satisfy, not 
just the ship station requirements in Europe, but over in the 
Pacific as well and in the Central Command area of operation. 
It is growing exponentially in terms of the demand curve for 
those ships.
    And then I was just with the CNO last night. The other part 
of his problem, sir, is being able to cover the carrier strike 
groups and do Navy operations and get ships around the world to 
do things other than BMD. So you have got a rapid, you know, 
request from the combatant commanders for BMD ships, not enough 
ships, us trying to modernize ships as fast as we can, and so I 
think that is the first part of the answer.
    On the LPD, I have seen the concepts, and they have merit 
and--but we are not pursuing that in terms of--we are down more 
the Aegis modernization path at this point. But down the road, 
additional sensors are helpful, any type of sensors are 
helpful. And I push our allies in Europe for sensor 
contributions, so I would push us as well.
    Mr. Crenshaw. Is that the main capability that it would 
add? I mean, I guess larger, have more radar, have more 
missiles? I mean, are those things that you think about down 
the road?
                                ------                                

    Mr. Crenshaw. Gotcha. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Frelinghuysen. Thank you.
    Mr. Visclosky or Mr. Ryan. Mr. Ryan.

           EAST COAST MISSILE DEFENSE SITE AND SEQUESTRATION

    Mr. Ryan. Thank you, Mr. Chairman. Thank you, Mr. 
Visclosky, for your generosity.
    I want to talk to you about the additional ground-based 
interceptor sites that you are looking at. One of the sites is 
in Ohio, which is in my congressional district. And so, if you 
could talk a little bit about both, you know, what is a 
suitable location for this system and then what is the 
timeline?
    Admiral Syring. Yes, sir.
    Mr. Ryan. And I guess, lastly, how does sequestration and 
all the other challenges that you have play into the decision-
making process?
    Admiral Syring. Right. Thank you, sir. The environmental 
impact study (EIS) is going on. It has been going on since 
early 2014. We are on track to finish that in final by mid 
2016. And there has been a whole body of work done, hearings 
held, you know, environmental surveys done at all of the four 
sites, and Ohio being one of them, Camp Ravenna. And that--we 
will need to go through one more season here at one particular 
site up north in Maine just because of the seasonal 
limitations, and that will be rolled into the draft EIS, which 
will be published later this year. We will have another public 
hearing on that, finalize the report and send it over.
    We have also been actively working the contingency plan 
that was mandated by the NDAA, and this is, how would you 
deploy it and what are the details behind that. It is very 
thick. It is non-site specific, but very detailed in terms of 
the planning that would go on.
     
                                ------                                

    Mr. Ryan. So is there, because of the budget, no timeline? 
I mean, I know the early timeline with the environmental and 
all that.
    Admiral Syring. We have not requested anything to ask the 
environmental impact studies. It is roughly 5 years after 
authorization and appropriation to complete a site. We know how 
to do it, we did it in Alaska, but it is a matter of a budget 
and need at this point.

      COMMUNICATING THE NECESSITY OF MISSILE DEFENSE TO THE PUBLIC

    Mr. Ryan. Yeah. This is a comment, Mr. Chairman, too, and 
maybe you have some advice for us, I know this is a closed 
hearing, but the average American sitting out there would not 
even think that some day in the very, very near future, that 
North Korea would have the capabilities to overwhelm our 
missile defense system. I just don't even think that is in 
their mind-set, which makes it even more difficult for us to 
try to make them aware of it without using information that is 
classified and without trying to scare people, but if you have 
any advice, because I know everyone on this committee really 
tries to get out and tries to make the case that these are 
important systems, and while we can't talk about all the 
details, this is our national security at stake.
    So that is not really a question, I guess, but just a 
concern that I have, because we watch TV, we watch the movies 
and America wins in the end and we always come up with some 
really cute way of making it happen, and so people just think 
that that is how the world works, and I get concerned when we 
sit in these hearings and I see what the hollowing out, in a 
sense, of our capabilities. And I appreciate your service very 
much, and if you have any----
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Ryan. I would be happy to yield, Mr. Chairman.
    Mr. Frelinghuysen. Admiral, would you be willing to respond 
to Mr. Ryan? I share his concern. I think all members do. You 
have showed us a pretty frightening--you know, the prospects 
for some pretty frightening situations that could occur in the 
future. And I have to say, obviously, everybody will keep their 
mouth shut here, but in reality, somebody needs to know outside 
this room through some sort of an op-ed or through some general 
position paper that--you know, we often talk about, you know, 
the Chinese denying us access in the South China Sea and air 
access, you know, challenging our fighters and all sorts of 
things. But do you have some general comments about how we 
could as a--I won't say our committee, how Congress could do a 
better job of delivering some information on this that relates 
to some of the issues you have raised, because I think 
sometimes people are dismissive of our missile--this capability 
that we have.
                                ------                                --
 -- --

    You cannot expect the missile defense system in the numbers 
that we have fielded and the numbers that we will be able to 
defeat a mass raid. And if that happened, we would be in a much 
different scenario. But we must do what we are doing to make 
the best use of the current interceptors, leave our option open 
for the future in terms of more interceptors, but the more 
important thing is increasing the reliability, improving the 
system, and adding the discrimination capability so we are 
assured that we can do our job on the right of launch.
    Mr. Frelinghuysen. Thank you, Mr. Ryan.
    Mr. Ryan. Thank you.
    Mr. Frelinghuysen. Mr. Visclosky.

              RELATIONSHIP WITH THE INTELLIGENCE COMMUNITY

    Mr. Visclosky. Admiral, you obviously do a lot of work with 
the intelligence community. Any gaps, anything that the 
intelligence community could do better or is being left undone 
that would be of assistance to you in your duties?
                                ------                                --
 -- --

    I also think, sir, that the indications and warning piece, 
and General--I mean, Admiral Gortney talks about this, General 
Jacoby talked about it before in terms of a large gap in terms 
of being able to assess in a more real-time fashion where the 
TELs are and if they are going to come out or not.
                                ------                                --
 -- --

    Mr. Visclosky. One thing to see it, it is another thing to 
know what the anticipated use and timing of that is.
                                ------                                --
 -- --

    Mr. Visclosky. Mr. Chairman, I forget which hearing it was 
earlier this year, it was almost, and there was nothing funny 
about it, it was, well, there he goes again with another 
launch, but which one is the one you have got to be deathly 
concerned about?
    Admiral Syring. Yes, sir.
    Mr. Visclosky. Obviously we face a very complex threat. You 
talked about an integrated approach as far as the threat. Mr. 
Ruppersberger brought up cyberattacks on us. I am assuming you 
are in communication and coordination, though, with colleagues 
relative to the use of cyber against our enemies, on the theory 
you couldn't have enough delivery systems to protect us against 
all of the threats that if they can't launch in the first 
instance, we are a lot better off. Could you just explain that 
coordination, what is going on----
    Admiral Syring. Yes, sir.
    Mr. Visclosky [continuing]. As far as our offensive, in a 
sense muse of that?
    Admiral Syring. Sir, in this classification----
    Mr. Visclosky. Okay.
    Admiral Syring [continuing]. I just--I want to be----
    Mr. Visclosky. Let me try one more.
    Admiral Syring. I want to be careful on the offensive side.
    Mr. Frelinghuysen. We won't say anything.
    Mr. Visclosky. No. He----
    Mr. Ruppersberger. Just us and the walls.
    Mr. Visclosky. Yeah. I know Mr. Ryan won't.
    Admiral Syring. I don't want to get cross with Admiral 
Rogers, who is a four and I am a three, so I will be very 
careful.

                  GBI ACQUISITION AND TESTING PROCESS

    Mr. Visclosky. We will do that. If I could, Mr. Chairman, 
one other one.
    The General Accounting Office has expressed concern about 
the acquisition process, and I think we have probably talked 
about this in the past. Your test plan won't be completed until 
2022 despite a plan to field 44 missiles by 2017. Could you 
address for us your take on the test plan and the risk of 
concurrency on this approach?
    Admiral Syring. Yes, sir. It is a great point and a good 
question that they have raised, and I addressed this last year, 
too, in terms of we are catching up from a long lull of the 
failures back in 2010 in terms of experiencing a very hard 
problem with an inertial measurement unit vibration issue that 
nobody saw and was very hard to replicate on the ground. We had 
to actually build a test bed to go replicate this on the 
ground. We successfully took that back to a non-intercept 
flight and then an intercept flight in June of last year.
    Now, that successful intercept flight was necessary but not 
sufficient for the long-term health and fielding of the 
program. What that allowed us to do was field the next eight, 
and it informed the upgrade of the next eight to that 
configuration in terms of now we have been through a successful 
non-intercept and an intercept flight test. I went to the 
warfighter, I said, you know, I am confident that that test did 
everything that we expected, and we are good to put the next 
eight in.
    The next flight test will be--next intercept flight test 
will be the end of 2016, and there is another upgrade coming, 
it is called the CE-2 Block 1, but it is primarily an 
obsolescence upgrade to parts that aren't available anymore 
that had started back in 2010. And we own a lot of those parts, 
we bought a lot of those parts. It is a matter of finishing the 
integration at some cost, but that flight test will inform us 
and the warfighter on whether we proceed with deploying those 
interceptors in 2017. And it will be my advice, depending on--
you know, we would have to understand the failure and why it 
failed, but if it was an unknown with that interceptor, it 
would not be my recommendation to field those.
    And I would like to be in a better position if it had been, 
you know, 2010, but we are playing catch-up here, so the idea 
is to flight test that before we deploy it since we have 
already bought all of the parts and must integrate them now.
    In the future, the redesigned kill vehicle will be non-
intercept tested and will be intercept tested before the 
decision is made to buy the production assets. And to me, that 
is where we want to be long-term in terms of flight tests and 
then decision, as opposed to buying all this material and 
interceptors before the flight test is complete.
    Now, you know, we were in a position just on the history of 
the program well before I got here in terms of decisions that 
were made, but I think, sir, we have had this discussion, is we 
want to be at least in flight before you deploy, and at best, I 
think in the future, fly before we buy. Now, we are going to 
have to buy some test interceptors to go prove that, but before 
we make the production buy, I think it is vital that we go 
through an intercept test. And the program in the future's laid 
out to that, and then you will see us if we go to MKV, same 
approach in terms of that, by 2025.
    Mr. Visclosky. Thank you, Mr. Chairman.

    INFORMATION SHARING BETWEEN CHINA, RUSSIA, IRAN, AND NORTH KOREA

    Mr. Frelinghuysen. Thank you.
    Admiral, I think Vice-Chair Granger mentioned the Chinese 
and the Russians relative to their relationships with North 
Korea and with Iran. How would you describe, should we say, the 
current sharing of information between those nations and those 
who are developing systems? Would you characterize it that they 
have historically been enablers of the development of the 
system? And I assume some of what the Russians have shared is 
sort of legacy, but is there more currency in the relationship? 
And I am not sure what we can talk about here, even though I 
have cautioned everybody on the top secret. What are they 
actually doing? What is the relationship?
                                ------                                


                          HYPERSONIC MISSILES

    Mr. Frelinghuysen. I am an inveterate clipper. Most people 
look at their stuff online these days. Bill Gertz writes pretty 
well about some of your operations, and there was a pretty good 
definition of a new type of a threat, hypersonic missiles. I 
would just like to read the description for the benefit of the 
members, for as a layperson, this sort of said it all. 
Hypersonic missiles are maneuvering strike vehicles launched 
atop missiles that travel at speeds of up to 10 Mach, or 10 
times the speed of sound. They maneuver and glide along the 
edge of space, making them difficult targets for missile 
defenses.
    He goes on, current U.S. defense sensors and interceptors 
are designed primarily to hit ballistic missile warheads that 
travel in predictable flight paths from launch through space 
and into ground targets.
    Could you talk a little bit more about this cap--this adds 
a dimension of huge proportions. I am not sure I totally 
understand everything you have done historically, but when you 
add this component in there as a threat, in many ways perhaps 
dwarfs some of the other issues we have been addressing over 
the years.
                                ------                                

    Where it is a challenge is that our homeland defense system 
is a mid-course intercept capability, where we intercept at 
hundreds of kilometers in space and are able to defeat a very 
predictable ballistic missile target.
                                ------                                

    Mr. Frelinghuysen. So short of destroying the missile sites 
on the ground before launch, what steps are we taking to 
produce--you know, to counter this new technology, these types 
of developments.
    Admiral Syring. The biggest offer in this year's budget is 
the THAAD-extended range concept development in terms of let's 
start that development to give us the capability to push a 
defensive system out to range to defeat that threat.
                                ------                                

    Mr. Frelinghuysen. I assume we are doing it?
    Admiral Syring. We are.
    Mr. Frelinghuysen. In other words, we----
    Admiral Syring. We have the----
    Mr. Frelinghuysen. There is a game plan?
                                ------                                

    Mr. Frelinghuysen. Can we assume the Russians, and I think 
you mentioned they are, working on a similar----
    Admiral Syring. They are.
    Mr. Frelinghuysen [continuing]. Similar program? And 
someone mentioned Ukraine earlier in their testimony. And I 
wrote an op ed, and we heard it from the President, the 
Russians are using, maybe not Crimea, but other portions that 
they have basically taken over in Ukraine as sort of a test bed 
for new weaponry, new cyber attacks, and all sorts of 
sophisticated weapons they are sort of testing out. I am sure 
this isn't one that they would use in that area, but what are 
the Russians doing?
                                ------                                

    Mr. Frelinghuysen. Tell me about that.
    Admiral Syring. I am sorry, at 2,500 kilometers.

                      CHINESE AND IRANIAN THREATS

    Mr. Frelinghuysen. Tell me about the DF-21 ballistic 
missile.
    Admiral Syring. CSS-5 Mod-5 fielded by China today 
operational holds our----
    Mr. Frelinghuysen. Is it operational?
    Admiral Syring. Yes, sir. Holds our carrier battle group--
could hold our carrier battle group at risk. The----
    Mr. Frelinghuysen. Do we know how many they have and----
    Admiral Syring. I don't.
    Mr. Frelinghuysen [continuing]. Where they are?
    Admiral Syring. I don't. Let me take that for the record.
    [Clerk's note.--The answer provided was classified.]
    Mr. Frelinghuysen. And more important, what are the 
countermeasures we are taking a look at?
    Admiral Syring. The important program that you all 
supported is the sea-based terminal missile defense program 
that is a modification of the Aegis weapon system and the 
Standard Missile 6 that will protect the carrier battle group. 
We are going to test that this summer.
    Mr. Frelinghuysen. Mr. Ruppersberger, are you ready?
    Mr. Ruppersberger. Just one thing very quickly, and I want 
to get into the--China introduced the world's first operation 
anti-ship ballistic missile, and Iran demonstrated a short-
range anti-ship ballistic missile also. I think it is Fateh 
110. It is well known that the Chinese ASBM could potentially 
pose a threat to U.S. ships. How credible of a threat is the 
Iranian ASBM? And it is my understanding that China is 
currently developing a next generation ASBM that is based on 
hypersonic live vehicle technology.
    Admiral Syring. Yes.
    Mr. Ruppersberger. Does the MDA have an estimate on when 
this technology will be operational and is the MDA currently 
positioned to be able to provide defensive technologies for 
next generation ASBM threat?
     
                                ------                                

    Mr. Ruppersberger. We would. Okay.
    Admiral Syring. Yes, sir.
    Mr. Ruppersberger. Does sequestration help, hurt us in this 
regard also based on----
    Admiral Syring. Sequestration would jeopardize the 
increment 2 development of that program, which is where we 
think we need to be for the future. It is the seeker 
modifications and the SM-6 that need to go on to provide at the 
advanced capability.
    Mr. Ruppersberger. For the China and Iran----
    Admiral Syring. Yes, sir.
    Mr. Ruppersberger [continuing]. Iranian threat?
    Admiral Syring. That is correct.
    Mr. Ruppersberger. Okay. Yield back.
    Mr. Frelinghuysen. Ms. Granger.

                     REGAINING A TECHNOLOGICAL EDGE

    Ms. Granger. I asked earlier what decisions you have to 
make if sequestration stays in effect. It seems to me that we 
are losing--or we have lost our technology edge. I mean, what 
you just described what China has tells us that.
    If we were to say, all right, what is it going to take, not 
for you just to not have to cut things, but to regain that 
edge, to be able to come before this subcommittee and say, yes, 
we are still ahead, we are the ones who are doing things? What 
would that take?
    Admiral Syring. Ma'am, there is an active effort in the 
Pentagon to address that very question you are asking in terms 
of Mr. Work has come in, Mr. Kendall have been very vocal about 
our reduced research and development technology and the very 
fact that you state in terms of losing our edge. And there is a 
group, large group stood up that are going through the 
priorities of where do we think the technology priorities are, 
how much more investment needs to go into those priorities to 
address that very question.
    Sequestration, for me, in terms of--I am just trying to 
hold what I have. And I think I have provided you a 
recommendation with this budget to hold what I have and do the 
necessary improvements to Mr. Ruppersberger's question, about I 
may be fielding a capability next year to defend the carrier, 
but it does us no good if, by 2020, China has moved that threat 
further. And for missile defense, the future is so important as 
opposed to just concentrating on what we can do today, because 
the threat is moving so rapidly.
    We haven't talked about this much, but directed energy has 
been a big focus for us in this budget in terms of increasing 
our investment for both discrimination and tracking capability, 
but maybe even more importantly, a boost phase intercept 
capability, where you now can start to think about, to some of 
the demonstrations that you are aware of that we did with 
airborne laser, you know, a decade ago, you know, can you field 
a meaningful boost phase intercept capability. And to me, for 
missile defense, that is the technology edge that we need to be 
at. Multiple kill vehicles on one interceptor is a technology 
edge where you can think about shooting one with four kill 
vehicles on it, and you don't care if you have picked out the 
RV or not. And to me, that moves us ahead.
    Some of the other programs that I am not as familiar with 
but I know exist are the DARPA in the Air Force and the Army 
hypersonic live vehicle programs that they are attempting to 
get off the ground, and I think proving that it is not easy. 
And that is what I put in context with China, is that they have 
demonstrated it, but to move it to the ranges that we are 
talking about is a very difficult problem; not that they can't 
do it, and they will try, but that is another step ahead.
    But, ma'am, to your point, Mr. Kendall has been articulate 
on the fact that we are losing the edge, and sequestration 
would further erode that.

                        DIRECTED ENERGY RESEARCH

    Mr. Frelinghuysen. Will the gentlewoman yield?
    Yeah. On the directed energy, you do have money, the $30 
million you have put in your budget relative to this issue 
here. And that is obviously an endorsement of proceeding with 
development. Is that correct?
    Admiral Syring. Sir, we have more than--and it is across 
multiple exhibits. You know, there is hundreds of million of 
dollars in directed energy, both classified and unclassified, 
that are asked for in this budget.
    Mr. Frelinghuysen. This is your piece of that----
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen [continuing]. Overall pie?
    Excuse me.
    Ms. Granger. That is all right.
    And let me ask you this: This group that is putting the 
numbers together and looking, do they have a deadline?
    Admiral Syring. Ma'am, I will take that for the record. I 
am sure they do, and there is a schedule, and I do have people 
participating on it, but we are not leading it, so let me take 
that and get you the details on when they are going to get the 
results.
    Ms. Granger. Good. Because I would hope you would and back 
to this subcommittee and report as that is developed.
    Admiral Syring. I will, ma'am.
    Ms. Granger. Thank you.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Visclosky or Mr. Ryan?

                COOPERATION WITH INTERNATIONAL PARTNERS

    Mr. Visclosky. Thank you, Mr. Chairman.
    You know, we have had discussions in the past about the 
Israeli program and our cooperation. There is a program with 
Japan as well, as I understand it. How is that progressing, and 
are there other partners or potential partners we can do 
development with that would help spread our costs?
    Admiral Syring. Yes, sir. The Japan Cooperative Development 
program was an agreement that we reached with them to cost 
share on the SM-3 IIA development. It was about a $3 billion 
development. They paid a billion dollars of that development 
cost. We will flight test that, sir, in May for the first time; 
not intercept flight test, but we will fly that missile off 
California here in a couple of months.
    Mr. Visclosky. Besides money, are we receiving any 
intellectual property and help as far as research and 
development from the Japanese?
    Admiral Syring. Yes, sir. They did a marvelous job with the 
nose cone and sort of front end section of that missile that 
allowed us to concentrate on integration and the larger 
aspects. I wouldn't say that we got anything from them that we 
didn't know, because they were sort of in a--they are in a 
follow arrangement since we are the lead, but I wouldn't say 
there was anything intellectually that was new with the IIA 
from them, but they are manufacturing and what they are doing 
and their contribution is important.
    The other one I will shift is to the east with our THAAD 
case with UAE. I mean, to me that is just a great example of 
them buying THAAD from us, lowering our overhead on that 
program in terms of interceptor quantities and price. They 
actually funded some of the needed obsolescence upgrades that 
were funded in the FMS case that we didn't have to fund that we 
needed anyway, so we are leveraging that. And those are the two 
near-term development efforts that we have got going.
    There is talk, and only talk at this point, of if we start 
a THAAD ER program, would the UAE or any of the gulf coast--any 
of the Gulf Cooperation Council partners want to participate in 
that. And we will actively look for that participation if the 
policy supports it.
    The other part, sir, is over in Europe. We can't continue 
to pull it alone, and we need sensor contributions first from 
countries in Europe. We are actively pursuing discussions with 
Spain, and you have probably read about Denmark and Norway's 
potential. And being able to use those ships and their radars 
and network, and there is going to require some information-
sharing agreements obviously, but to have them pull some of the 
load on sensor contributions to the protection of Europe is 
what I am pushing, because we cannot continue just to pound on 
the United States Navy to take those stations for weeks on end.
    To me, they have got to step up and contribute. They all 
want to develop an interceptor capability and think about that, 
and I dissuade them in terms of let's focus first on sensor and 
radar capability, because that is where we see the most help.
    Mr. Visclosky. Thank you. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Ryan, further questions?

                        DEFENSE INDUSTRIAL BASE

    Mr. Ryan. I have a question. In your opinion, or can you 
help us understand our defense-industrial base capabilities as 
we talk about ramping this up or the wind down and 
sequestration and the damage that may have done to the supply 
chain Tier 1, Tier 2, Tier 3, and what we maybe need to do 
better here to rebuild that if we lost some capacity? And, you 
know, also I get concerned with Berry amendment and specialty 
metals and our ability to supply all of these growing 
technological needs. Is there something that we need to be 
doing here from the defense-industrial base side?
    Admiral Syring. Sir, let me take that in two parts. The 
interceptor, meaning missile-industrial base that I rely on for 
ground-based interceptors, for the THAAD system, the Army 
relies on Patriot and the Aegis SM-3 interceptors, they are, I 
wouldn't call it healthy, but I wouldn't call it in dire 
straits in terms of work that is out there and projected future 
work.
    I am going to continue to buy and hopefully someday have 
multi-year procurement in SM-3. We will continue to buy THAAD, 
we will continue to upgrade that.
    We had a robust competitive field for the long-range radar 
in Alaska, with three companies coming in, with competitive 
proposals in terms of that sensor technology. So you would hear 
me start to get worried about radar technology if I got, like, 
one or two bidders to that, but we had three, and it is very 
competitive proposals delivered that we will select by the end 
of this year.
    And that, coupled with the Navy's Advanced Missile Defense 
Radar, AMDR program, some of the other Air Force and Army 
awards, and then my desire to continue to improve sensor 
capability for Hawaii next and then to the east coast as well; 
it is not perfect, but I think it will keep that field going.
    I don't have in the interceptor and the sensor area maybe 
as large a concern as we would have in the ship-building 
industrial base, for example. I think that the capability is 
out there and the competitive field is pretty ripe.
    Specialty metals, we continue to watch and understand the 
importance of that in terms of what it could do, and have to go 
through very detailed requests and waivers when we are 
deviating at all from that, but we have tried to eliminate that 
entirely.
    Mr. Ryan. So those three companies and their supply chain, 
is that an primarily American----
    Admiral Syring. Yes, sir.
    Mr. Ryan [continuing]. Supply chain?
    Admiral Syring. Absolutely. Yes.
    Mr. Ryan. Thank you, Mr. Chairman.

                        DIRECTED ENERGY RESEARCH

    Mr. Frelinghuysen. Getting back to the issue of directed, 
Admiral, energy research, for years we invested in the airborne 
laser test bed program. What are we investing in now?
                                ------                                

    I have handed a chart out that I think would be useful to 
go to in terms of laser technology and mission comparison. We 
hear about the Army programs and the Navy programs, DARPA 
programs. And then, sir, since you referenced ABL shootdown, 
you can see in the middle of chart where that is in the terms 
of the range that it was done and the power level that was 
demonstrated.
                                ------                                

    Mr. Frelinghuysen. As best you can in the plainest English 
possible.
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. Thank you.
                                ------                                

    Mr. Frelinghuysen. So this is obviously a platform. Do you 
look at UAVs as a possible----
    Admiral Syring. That would be the first step.
    Mr. Frelinghuysen [continuing]. Vehicle? I mean, there is 
so much going on in that area.
                                ------                                

    Mr. Frelinghuysen. The stability of the platform, right?
    Admiral Syring. Right. And you have got to have a stable 
platform. The only way you can do that is to be above the 
clouds.

                  CHINESE AND RUSSIAN MISSILE DEFENSE

    Mr. Frelinghuysen. You gave us a footprint of where we are 
in terms of, you know, Guam and Alaska. Is there a similar 
footprint for what China has and Russia in terms of their 
equivalent to the work you do, Missile Defense Agency?
    Admiral Syring. China is beginning to work on a missile 
defense system, from what I read in the intelligence.
    Mr. Frelinghuysen. We know they are working on a lot, but I 
am just wondering since they inherently feel we are trying to 
contain them, control them, you know, limit their ability to 
expand their areas of denial, I just wondered whether they are 
actually--they have something?
    Admiral Syring. No. Not yet.
    Mr. Frelinghuysen. The Russians? Where are the Russians?
    Admiral Syring. They have an older system that protects 
Moscow today, nuclear-based, so, you know, sort of a point 
defense system, but certainly not a country-wide defense 
system.

                             THAAD PROGRAM

    Mr. Frelinghuysen. Moving back to THAAD, there has always 
been historical issues in terms of tests, test schedules, like 
everything we do. We want to continue to test. Obviously there 
are people who operate who need to keep their skills up. Where 
do we stand relative to the test schedule, more importantly, 
the reliability of the THAAD program?
    Admiral Syring. THAAD, since it----
    Mr. Frelinghuysen. We are of it, but I am just saying that 
is an issue.
    Admiral Syring. Yes, sir. Since it was redesigned, as you 
are aware, it went through a redesign back in the mid 2000s; it 
has been 11 for 11 with flight intercepts and most recently 
last year, and we are going to test it again this year, this 
summer as part of the operational test. And I would like to 
keep it on a cadence of at least, you know, at least one a 
year, maybe one every 2 years to continue to prove the system.
    Mr. Frelinghuysen. You mentioned in your response to Mr. 
Visclosky that, you can tell me if this is correct, we approved 
the sale of three batteries to the UAE? Have they been 
delivered?
    Admiral Syring. They are going through acceptance testing 
today and they will deliver later this year.
    Mr. Frelinghuysen. And you mentioned, I guess, the other 
countries. Are they in the queue?
    Admiral Syring. The other countries are more about sensor 
contributions from ships that they have.
    Mr. Frelinghuysen. Yeah.
    Admiral Syring. Not anything in the queue for THAAD.

                                SENSORS

    Mr. Frelinghuysen. We haven't talked too much about 
sensors, but could you maybe talk a little bit about sensors as 
a--are we talking directed energy?
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. We talked about hypersonic, the role of 
sensors, and where we are in developing things that are even 
more highly sophisticated and technologically-based.
                                ------                                

    And having that umbrella coverage of radar is vital to the 
missile defense mission for regional and then homeland as well, 
sir, in terms of what I talk about with being able to keep 
track of and discriminate tracks from North Korea and Iran that 
come over the pole, and that is why our radars are placed where 
they are.
    Mr. Frelinghuysen. And they are placed where they are, and 
given the uncertainty of a world where sometimes we expect the 
unexpected, that you feel comfortable that whatever we have 
here provides the degree of security that we need?
    Admiral Syring. Today, yes, sir. In the future, we will 
hold an offer--or a solution for Hawaii----
    Mr. Frelinghuysen. Yeah.
    Admiral Syring [continuing]. And for the east coast as 
well.
    Mr. Frelinghuysen. Yeah. The whole issue of--maybe I am 
mixing apples and oranges. The whole issue of no-notice, the 
ability of mobile systems, I mean, that is pretty frightening. 
We literally would have, you know, 30 seconds maybe to react if 
some system came out of a cave in North Korea, which I assume 
they have some degree of mobility right now.
                                ------                                

    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Ruppersberger.

                    EAST COAST MISSILE DEFENSE SITE

    Mr. Ruppersberger. I don't think we can get into it, but 
there has been a debate and an issue about east coast missile 
defense site, and I know at this point you feel that that is 
not necessary. You have so much population on the east coast. 
Could you just explain why you feel that is not a priority now, 
and does that put the east coast at more risk than other areas 
of the country?
    Admiral Syring. Sir, the reason it is not needed is because 
against the current threat, the east coast is protected today 
with the inventory that we have.
    Mr. Ruppersberger. What inventory?
    Admiral Syring. The ground-based interceptors that are in 
Alaska and Hawaii----
    Mr. Ruppersberger. Okay.
    Admiral Syring [continuing]. Because of the trajectories 
that would come over the pole.
    The second part of that answer is that the pace of long-
range ICBM technology and demonstration is behind where North 
Korea is, in my view. And our first focus, given limited budget 
and resources, is to take care of the North Korea problem 
first, and then as we watch Iran develop, think about what is 
necessary for radar and a potential east coast site, in that 
order.
    Mr. Ruppersberger. Okay. Yield back.
    Mr. Frelinghuysen. Thank you.
    Mr. Israel.

                            IRANIAN THREATS

    Mr. Israel. Thank you, Mr. Chairman.
    Thank you so much for joining us. I wanted to chat with you 
about Israeli missile defense capabilities. Two questions, 
really. One, can you give us a sense or your assessment of 
Iran's ballistic missile capabilities? There has been a lot of 
talk about Iran's nuclear program. I am very skeptical, deeply 
skeptical that we can get a deal with Iran; deeply more 
skeptical that if we do get a deal with Iran, it will work. 
Most of the talk has been focused on Iran's nuclear 
capabilities, but not a lot of talk in terms of their delivery 
capabilities, so if you could talk to that first----
    Admiral Syring. Sure,
    Mr. Israel [continuing]. And then I am going to ask a 
couple of questions, with the chairman's consent, about 
Israel's own capabilities.
                                ------                                

    Mr. Israel. And you noted that the Iranians have a longer 
way to go with respect to any kind of serious ICBM capability, 
but they are working that capability, correct?
                                ------                                

    Mr. Israel. Thank you. Final question, if I have the time--
--
    Mr. Frelinghuysen. Go right ahead.

                    ISRAELI MISSILE DEFENSE PROGRAMS

    Mr. Israel [continuing]. Mr. Chairman.
    Last night I had dinner with Israel's ambassador to the 
U.S., Ambassador Dermer, and we were talking about Israel's 
ballistic missile defense capabilities, and one of the things 
he talked about was, you know, they are in pretty good shape on 
Iron Dome, they are developing nicely on Arrow 2 and Arrow 3. 
His concern was that there is still this gap with respect to 
David's Sling, that they just haven't yet figured out how to 
deal with what Iron Dome can't take care of and what Arrow 2 
and 3 can not or will not take care of.
    So where are we with David's Sling and what needs to 
happen?
                                ------                                --
 -- --

    Admiral Syring [continuing]. Two very important upcoming 
David's Sling tests. And then you will see the Israelis 
consider, I think, do we operationally or declare IOC and do 
they deploy that, and I think that some of that is the premise 
for their budget request this year. Again, I just want to have 
the context. We are still in development with the system.
    Mr. Israel. If we would increase funding for David's Sling, 
is it possible, given all the right contingencies, that it 
could be in production before the end of 2016, do you believe?
    Admiral Syring. Yes, sir. But, again, that--certainly 
possible, but, again, I think that what I will advise you on is 
the maturity of the system and the success of the flight 
testing regime and whether we think that that is a good 
investment for production dollars today.
    Mr. Israel. Okay. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Before yielding to Mr. Carter, that you 
had emphasized, and I assume it is accurate, this is co-
development here.
    Admiral Syring. Correct.
    Mr. Frelinghuysen. This is co-development, so I assume we--
--
    Admiral Syring. Co-development in the sense that we provide 
the system engineering and technical test expertise to them.
    Mr. Frelinghuysen. All right.
    Admiral Syring. We have co-production today with Iron Dome, 
but----
    Mr. Frelinghuysen. Yes.
    Admiral Syring [continuing]. There has been no agreement on 
that for David's Sling or Arrow.
    Mr. Frelinghuysen. Okay. Thank you.
    Thank you, Mr. Israel.
    Judge Carter, Mr. Carter.
    Mr. Carter. First, Mr. Chairman, I apologize. I was 
chairing Homeland Security's inquiry into our Coast Guard and 
couldn't get loose, but I am glad to get here to at least get 
in on the tail end of this conversation. I know the work you do 
is very, very important to the future of our country, and I 
thank you for it.
    Admiral Syring. Thank you, sir.

                       SEA-BASED MISSILE DEFENSE

    Mr. Carter. Thank you for all the great brains that work 
out things that I don't understand, but they work, and that 
makes me happy.
    I understand that you have spoken to potential gaps 
associated with the number of Aegis BMD systems we have 
employed and the current threat assessment. Is the DoD taking 
an innovative approach to development and employment of a cost-
effective sea-based DMD alternatives, including the active 
DARPA--Navy joint program developing an autonomous ship which 
could be fitted with a diverse sensor package?
    Admiral Syring. Sir, I assume you are talking about 
directed energy?
    Mr. Carter. Yeah.
    Admiral Syring. Sea-based. And what the other parts and 
Services are working on with ship-based solutions is vital, but 
it is a much shorter-range problem than what I am dealing with 
with ballistic missiles. In terms of where you need a ship to 
be positioned to be able to intercept an ICBM from North Korea, 
for example, you can't have it close enough to be effective.
    And then the other complicating factor would be the cloud 
cover in terms of once you detect, you have got to be able to 
track it through clouds, and when you have a 50 percent cloud 
cover in North Korea, that defensive system on a ship would be 
limited. But, again, what they are working on is very, very 
important for the other missions of the Navy and the Army.
    Mr. Carter. Yeah. I was going to ask a question about 
David's Sling, but Mr. Israel has already asked that question, 
so, thank you, Mr. Chairman.

                   EUROPEAN PHASED ADAPTIVE APPROACH

    Mr. Frelinghuysen. Thank you.
    Admiral, I want to get a little more information on what we 
have called the European phased adaptive approach. Is it on 
target? I mean, these are countries, most of whom are spending 
less and less on their military as part of their domestic 
product, and I am just wondering where we are and how we 
marry--you meet with your--you meet with the representatives of 
these countries that have these responsibilities. Are we headed 
in the right direction? And does it take into consideration 
some of the other things we have been discussing here?
    I would assume the model has been a construct here, I 
wouldn't describe it as old school, but this approach was sort 
of laid out, you know, about, what, 2000 or earlier, somewhere 
in that area. Is it updated? Has it been updated to take into 
consideration some of the issues we have discussed today?
    Admiral Syring. Sir, the EPAA was formulated back in 2009, 
and certainly was envisioned earlier than that in terms of the 
concept, but in terms of implementation, Phase I was 
implemented in 2011, which involved a ship station and the 
radar to Turkey; Phase II will be fielded and is on track by 
2015; Phase III, that is in Romania; and then Phase III will be 
in Poland.
    And I have been to Romania probably a half a dozen times in 
the last year. It has not been without difficulty in terms of 
the completion of that site, but it will complete by the end of 
the year as promised and as scheduled. The Army Corps is a big 
part of helping us with that.
    Poland is on track, and with your help this year with the 
MILCON that we need in 2016, that will remain on track and 
field by 2018.
    The IIA missile which Mr. Visclosky asked about is critical 
to that development and will be fielded to Poland in 2018.
    And so to answer your question, yes, it is on track and we 
have made the commitments.
    Mr. Frelinghuysen. I take it--are any of the Baltic nations 
host to any of this? Lithuania, Estonia?
    Admiral Syring. No, sir. Just eastern Europe, Romania and 
Poland.
    Mr. Frelinghuysen. Further questions for Admiral Syring? 
Yes, Judge Carter and then Mr. Diaz-Balart if he is ready.

                        DIRECTED ENERGY RESEARCH

    Mr. Carter. Tell me about directed energy. And I understand 
the cloud cover thing, and I am--this is a learning process for 
me, but, like, in the mid course of a launch or the terminal 
phase of a launch, could you use directed energy to take out a 
missile at that phase?
     
                                ------                                

    Mid course would be a little harder, much harder, and that 
is why you see us talk about focusing on boost phase intercept, 
because that is really the best place to get it before it 
deploys its reentry vehicle.

                                 THAAD

    Mr. Carter. And if I understand what you have talked about, 
you have got a THAAD battery on Guam, right?
    Admiral Syring. Yes, we do, part of one.
    Mr. Carter. And that is carry--how many missiles are in 
that?
    Admiral Syring. Today there are 24 deployed to the island.
    Mr. Carter. And then you are proposing to put THAAD on the 
Korean Peninsula?
    Admiral Syring. The warfighter, General Scaparrotti hasn't 
decided that yet, but there is talk of it.
    Mr. Carter. What potential would that have?
    Admiral Syring. That would provide the defense of South 
Korea, a large part of South Korea from the shorter range 
missiles from North Korea.
    Mr. Carter. Would that THAAD deployment be adequate to 
protect Korea?
    Admiral Syring. Not the entire country, but a significant 
portion of it.
    Mr. Carter. Of course, one of the problems with Korea is 
Seoul is, like, 35 miles from the DMZ.
    Admiral Syring. Yes, sir. And we have deployed forces there 
that are very, very important to protect. And I know General 
Scaparrotti is heavily involved in that decision, along with 
General Dempsey.
    Mr. Carter. Right. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. It certainly would be viewed as North 
Korea is rather provocative, and it doesn't take much to 
provoke them, so I am sure it will be under discussion.
    On behalf of the committee, Admiral--oh, Mr. Diaz-Balart, 
any comments?
    Mr. Diaz-Balart. Mr. Chairman, I apologize for being late. 
I was chairing my subcommittee.
    Mr. Frelinghuysen. Well, your presence here is so noted, 
and thank you for your major contribution to this discussion. I 
am sure we will put whatever your questions or remarks into the 
record for history.
    Mr. Diaz-Balart. Thank you, sir.

                 Chairman Frelinghuysen Closing Remarks

    Mr. Frelinghuysen. Thank you very much.
    Admiral Syring, thank you for being here, thank you for the 
important work you do. Thank you for the men and women who 
stand behind you each and every day. In this part of our 
defense posture, I can't imagine anything more important and 
apropos of our earlier discussion. I wish there was a more 
public opportunity for people to know what faces us as a 
Nation, that we could talk about it in the public more than we 
can.
    On behalf of the committee, we stand adjourned. Just remind 
the committee, the committee's adjourned until 9:00 a.m. 
tomorrow morning, when we will convene in H-405 to hear the 
worldwide threat briefing from Mr. Clapper. It is worth your 
attendance there.
    Thank you again, Admiral.
    We stand adjourned.

                                          Thursday, March 26, 2015.

                 FISCAL YEAR 2016 ARMY BUDGET OVERVIEW

                               WITNESSES

HON. JOHN M. McHUGH, SECRETARY, UNITED STATES ARMY GENERAL
RAYMOND T. ODIERNO, CHIEF OF STAFF, UNITED STATES ARMY

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The Committee will come to order. As our 
members gather, let me call the Committee to order.
    This morning the Committee will receive testimony on the 
posture and budget request of the United States Army. The 
request for fiscal year 2016 is $124.9 billion, plus $20.7 
billion for the overseas contingency operations, which, by the 
way, I think ought to be renamed to focus on exactly what we 
are doing, which is pursuing terrorists around the world.
    This account total includes $493 million for the Joint 
Improvised Explosive Device Defeat Fund and $3.8 billion for 
the Afghanistan Security Forces Fund. The President's request 
also includes $1.3 billion for the training and equipping of 
the armed forces of Iraq and the so-called moderate rebels in 
Syria.
    This morning we will hear testimony from two superbly 
qualified witnesses, the Honorable John McHugh, Secretary of 
the Army, and General Ray Odierno, Chief of Staff of the Army. 
We welcome back our former colleague and recognize the fact 
that Secretary McHugh is doing a great job as the Army 
Secretary.
    We are very pleased to have you back.
    We also welcome back General Ray Odierno, the 38th Chief of 
Staff of the Army. He became Chief of Staff of the Army in 
September of 2011. He has nearly 40 years of service. This is 
his fourth appearance before the Committee.
    Chief, thank you for your service and the men and women you 
represent.
    Gentlemen, a year ago the administration was planning to 
reduce our force level in Afghanistan to about 5,000. On this 
presumption, the Army would be able to reset soldiers and 
equipment and ensure readiness for other potential conflicts. 
However, the situation has changed dramatically in Afghanistan 
and in Europe.
    Earlier this week the President announced his intention to 
sustain the troop level of 10,000 into fiscal year 2016 in 
order to assist Afghan security forces in their efforts to 
defeat a resurgent Taliban.
    Russia occupied Crimea after invading Ukraine and threatens 
its neighbors in the Baltics in Eastern Europe and, in fact, 
the NATO alliance itself.
    In the Middle East, U.S. forces continue to fight against 
ISIS. While air strikes may receive most of the attention, the 
Army continues to provide assistance to the Iraqi security 
forces, even as Iran and the Quds Force lead the charge on the 
ground.
    What a troubling brew we are witnessing.

                          ARMY FORCE STRUCTURE

    In this situation, one might expect the U.S. Army to 
increase force structure in order to meet the demands of the 
combatant commanders. However, General Odierno, you testified 
before the Senate Armed Services in January that over the past 
3 years Active-Duty component end strength has been cut by 
80,000 and the Reserve component by 18,000, and the Army has 
eliminated 13 active brigade combat teams.
    There are many other frightening statistics regarding the 
size and readiness of our Army which we look forward to 
discussing with you today. But if I may observe, my 
predecessors, both Chairman Murtha and Chairman Young, both 
warned of the dangers of the pendulum of spending. At a time 
when the Army and its sister services were flush with funding 
to fight concurrent wars in Iraq and Afghanistan, they both 
predicted, and their service here was long and distinguished, 
that the pendulum would swing back and funding would be 
exceedingly scarce, and that was even before there was talk of 
any sequestration.
    Today, with our President openly declaring that the United 
States is no longer on a war footing, we are seeing that the 
Murtha and Young predictions are becoming reality. A price has 
already been paid as we all assume more risk with less money.

                       MAJOR ACQUISITION PROGRAMS

    We also need to hear about your views on several major 
acquisition programs. A new fighting vehicle, the Army network, 
the Paladin self-propelled Howitzer, the Joint Light Tactical 
Vehicle, and of course a lot of focus last year and this year 
on the issue of the aviation restructure. Also the Armored 
Multi-Purpose Vehicle.

                             SEXUAL ASSAULT

    Finally, gentlemen, the Committee looks forward to an 
update on the prevention of sexual assault in the force and the 
prosecution of offenders. No one, no volunteer, should ever be 
subject to assault, and our Committee will not tolerate it.

                           FUNDING LIMITATION

    Mr. Secretary, General, the Committee is deeply concerned 
about the challenges facing the Army for both the current 
operations and readiness for the future. The House budget 
resolution passed yesterday, thank goodness, is an early step 
towards relief from the straitjacket of the Budget Control Act. 
However, in lieu of a compromise, we will be forced to produce 
a fiscal year 2016 bill that cuts approximately $6 billion from 
your request. We do not want to do that, you do not want us to 
do that either, but in the meantime we will ask you for a clear 
picture of what the Army will look like at the reduced funding 
level and how the Army measures up to the requirements of the 
National Defense Strategy.
    I will be asking our witnesses for their summarized 
statements in a moment, but first I want to recognize my 
ranking member, Mr. Visclosky, for any comments he may wish to 
make.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Chairman, thank you for holding the hearing.
    Gentlemen, thank you for your service and being here today. 
I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    The chair is very pleased to welcome the big chair, Mr. Hal 
Rogers from Kentucky.
    Any comments you care to make, Mr. Chairman.

                         Remarks of Mr. Rogers

    Mr. Rogers. Well, I thank you, Mr. Chairman.
    And, Mr. Secretary, we are delighted to see you back on 
your home turf here on the Hill, and General.
    The men and women you lead in the Army are dedicated, they 
are talented, and they are tireless. They continue to answer 
the call time and again to serve the needs of our country 
abroad and to demonstrate true leadership here at home.
    As the world becomes more complex and more dangerous, the 
demands on our troops are increasing. This Committee recognizes 
their sacrifice and the sacrifice of their families, and we 
stand ready to support them in every way. We thank them for 
their service, and you, and for your leadership in challenging 
times.
    A lot has changed since the last time you came before this 
subcommittee. Russian aggression is fueling conflict and 
staggering loss of life in the Ukraine, putting the current 
death toll at well over 6,000.
    The Islamic State continues to further destabilize and 
torment Iraq and Syria, and now establishing a presence in 
Afghanistan and Pakistan.
    In Afghanistan, we have seen a decline in security due to a 
resurgence of the Taliban, requiring us to maintain a presence 
of 10,000 troops in that country this year, as the President 
announced earlier this week.
    And we still have U.S. troops deployed in the fight against 
Ebola, a disease that has claimed over 10,000 lives in a matter 
of months.
    While it seems as though increased force structure is 
warranted in the face of such unpredictable challenges 
confronting our troops, instead we are doing quite the 
opposite. As you said in your testimony to the Senate Armed 
Services Committee earlier this year, Active end strength has 
been cut by 80,000 and the National Guard and Reserve reduced 
by 18,000 just in the last 3 years. Thirteen brigade combat 
teams have been deactivated, and the rest are undergoing 
massive reorganizations. Three active combat aviation brigades 
currently being eliminated, including one in my home State of 
Kentucky at Fort Campbell.
    Just after the 159th Combat Aviation Brigade returned from 
a 9-month deployment in Afghanistan, the Army announced it 
would be disbanded and its soldiers sent elsewhere. The 
elimination of this critical--and topnotch, I may add--CAB will 
result in the loss of some 3,000 personnel at Fort Campbell. 
Once the 159th Combat Aviation Brigade has been eliminated at 
the end of the current fiscal year, the Army will be left with 
just 10 CABs in the Active Force.
    With the Army scheduled to continue on with this trend 
until it reaches 490,000 troops at the end of this year, we 
must have a thoughtful conversation about how we will respond 
to increasing threats on multiple continents against very 
different enemies, and simultaneously. The demands on our Army 
are great, and your budget request reflects that reality.
    I look forward, Mr. Chairman, to this discussion today with 
the Secretary and the General.
    This Committee remains confident with the leadership of the 
Army in your capable hands. You have our support and our 
gratitude. We thank you for the many years of service both of 
you have offered to this Nation. And we are especially proud of 
our former colleague, the Secretary, for the great service he 
is rendering his country even yet.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Chairman Rogers.
    Mr. Secretary, the floor is yours. Thank you for being with 
us.

                 Summary Statement of Secretary McHugh

    Mr. McHugh. Thank you, Mr. Chairman. Thank you, 
distinguished Ranking Member Visclosky. And I am particularly 
honored to have the opportunity to appear today before the 
chairman of the full Committee, and I appreciate his very 
gracious comments. In most ways this morning, as always, it is 
good to be back.
    I do appreciate most of all to have the opportunity to talk 
to all the members of this critically important subcommittee on 
the danger really that lies ahead that both the chairman of the 
full Committee and the subcommittee chairman spoke about just 
moments ago, that particularly we will be facing should this 
budget not be enacted and sequestration allowed to return.

                        REQUIREMENTS ON THE ARMY

    And as, again, has been noted in several opening comments, 
it really is amazing how much can change in just a year. Mr. 
Rogers and Mr. Frelinghuysen both spoke about the challenges 
that have come about in very short timeframes and very close 
succession: renewed aggression by Russia, increased threats 
from North Korea, gains by radical terrorists in Iraq, Syria, 
and obviously Yemen, not to mention the fight against Ebola. 
The demand for your Army to tackle contingencies around the 
world have grown, in our estimation, at a truly alarming rate.
    Far from being foreseeable, our requirements have been more 
unexpected, our enemies more unpredictable, and our ability to 
handle multiple simultaneous operations, as Mr. Rogers noted, 
has become more uncertain. And yet with such volatility and 
instability around the world, America's Army is faced yet again 
with an enemy here at home: the return of sequestration, 
unprepared units, unmaintained equipment, untrained soldiers.

                             SEQUESTRATION

    Ladies and gentlemen, our Army, your Army, faces a dark and 
very dangerous future unless this Congress makes every effort 
to act now to end these ill-conceived and inflexible budget 
cuts. Moreover, and I want to be very clear here, every 
installation, every component, nearly every program will feel 
the brunt of these cuts.
    Under sequestration, by 2019, we will reduce our end 
strength to what we believe are unconscionable levels, likely 
losing, in addition to the losses that have already been cited 
here this morning, another six BCTs and potentially a division 
headquarters, not to mention the very real impacts to 
associated enablers, contracts, facilities, and civilian 
personnel.

                            ARMY DEPLOYMENTS

    In spite of all that, I would like to share just a little 
of the accomplishments of America's Army this year. As Russian-
backed forces rolled into Ukraine and Crimea and threatened 
instability, our soldiers rapidly deployed to Eastern Europe in 
a demonstration of U.S. commitment and resolve. From Latvia, 
Lithuania, to Poland and Estonia, soldiers from the 103rd 
Airborne and the 1st Cavalry showed the world that America 
would stand up with our NATO allies and respond to unbridled 
aggression.
    In West Africa, as thousands suffered from the scourge of 
Ebola, your Army acted. Elements of several units, led by the 
101st Airborne, provided command and control, equipment and 
expertise to support efforts to stop this deadly and 
destabilizing disease.
    In response to rapid gains by ISIL, your soldiers quickly 
returned to Iraq to advise and assist security forces in 
turning the tide on this barbaric group of radical terrorists.
    And in the Pacific, thousands of soldiers and civilians 
supported operations to strengthen our partnerships and 
increase our substantial presence.
    Today, as we speak, the headquarters of nine active Army 
and two Guard divisions are committed to combatant commands, 
and some 143,000 soldiers are deployed, forward stationed or 
committed, including over 19,000 mobilized reservists. 
Moreover, we have done all of this while continuing to 
transform our formations to make them leaner, more agile, and 
far more lethal.

                               PERSONNEL

    As all of you on this distinguished subcommittee know so 
well, extraordinary success comes at a price, for in the end, 
the young lieutenant leading his or her platoon, the sergeants 
training and mentoring their soldiers, the invaluable civilian 
workforce laboring countless hours to support them, and the 
young family waiting patiently at home are all human. The 
stress of war, multiple deployments, and unpredictable 
requirements doesn't change in the face of indiscriminate 
funding cuts.
    Through it all, we have and will remain committed to 
supporting the needs of our warriors. From programs to increase 
resilience and improve behavioral health, to the prevention of 
sexual assault and the protection of victims from retaliation, 
we will keep faith with our soldiers. But rest assured, the 
return of sequestration will directly impact critical 
installation and family programs Armywide.
    Simply put, we need the President's budget. A $126.5 
billion request, as the chairman noted, is some $6 billion over 
the potential sequester level and it is specifically designed 
to preserve our modest gains in readiness over the last year 
and take care of your soldiers.
    Moreover, this request seeks vital reforms to compensation 
and force structure that will ensure the funding needed to 
support near-term readiness and help place the Army on a 
predictable path to balance. From modest changes to pay and 
allowances to our Aviation Restructuring Initiative, our 
reforms are both necessary and prudent to sustain the readiness 
of our forces and move the Army toward eventual balance. I 
can't emphasize how critical these funds and reforms are to 
ensuring your Army has sufficiently trained and ready soldiers 
to protect our Nation.
    I also recognize that we have a duty to prudently use the 
scarce resources that the American people provide. From my 
first day in office, I have sought and supported numerous 
reforms and efficiencies. From improving our procurement 
processes to drastically cutting our headquarters, we take 
stewardship very seriously.

                              ACQUISITION

    Historically, the Army's track record on acquisition 
programs is too often a tale of failure: too many 
underperforming or cancelled programs, too few successful 
fieldings of developmental designs, and far too many taxpayers' 
dollars wasted. We know this. In this critical area, while many 
significant strides have been made over the last 5 years in 
significantly reducing bureaucracy and improving our oversight, 
we still have a long way to go.

                                SUMMARY

    Ladies and gentlemen, this is truly an historic moment. We 
need to stop talking and start acting. We need wisdom, not 
words. We need results, not rhetoric. And as I said before this 
subcommittee last year, we need predictability, not politics.
    As we face extreme instability around the world, we must 
have certainty here at home. Your soldiers deserve no less. We 
must have an end to sequestration this year and we must have 
this budget.
    On behalf of the nearly 1.3 million men and women of 
America's Army, Active, Guard, Reserve, and civilian, thank you 
for your continued oversight, your partnership, your 
leadership, and the unending support you have provided to our 
military for so many, many years.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The joint statement of Secretary McHugh and General 
Odierno follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Frelinghuysen. General Odierno, the floor is yours.

                  Summary Statement of General Odierno

    General Odierno. Thank you, Chairman Frelinghuysen, 
Chairman Rogers, Ranking Member Visclosky, the rest of the 
members of the House Appropriations Committee, thank you for 
you allowing us to have a very important discussion this 
morning.

                                THREATS

    Today we continue to experience a diverse and complex array 
of threats through a combination of transnational extremist 
organizations and nation-states, and we continue to witness an 
increase in the velocity of instability that was unforeseen 
just a few years ago.
    In Iraq and Syria we continue to see the ruthless behavior 
of ISIL and the smoldering of sectarian conflict, which is 
threatening regional stability and has the potential to 
escalate international terrorism. Order within Yemen has fully 
collapsed, with the country now facing civil war. Anarchy, 
extremism, and terrorism running rampant in Libya and other 
parts of North and Central Africa. Transnational terrorist 
groups are exporting violence from new save havens, where they 
intimidate populations, prepare for future attacks, and foment 
instability to secure their influence.
    In Europe, Russian aggression and its intervention in 
Ukraine challenges the resolve of both the European Union and 
NATO. Across the Pacific, China's military modernization 
efforts alarm our allies and concern our regional interests, 
while North Korean belligerence continues, and we continue to 
have ever-evolving threats against our homeland.

                            FORCE STRUCTURE

    In my opinion, this should not be the time to divest of our 
military capability and capacity, but that is, in fact, what we 
are doing, decreasing Active Component end strength by 80,000 
so far and our National Guard and Reserves by a combined 
18,000. As has been mentioned before, we have deactivated 13 
Active-Duty brigade combat teams and we are in the process of 
eliminating three Active Component combat aviation brigades. We 
are reducing our total aviation force by 800 aircraft, with 
almost 700 of those coming out of our Active Component.

                             MODERNIZATION

    We have slashed our investments in modernization by 25 
percent. We have purged our much-needed infantry fighting 
vehicle modernization and scout helicopter development 
programs. And we have considerably delayed our other upgrades 
for many of our systems and aging platforms.
    The unrelenting budget impasse has also compelled us to 
degrade readiness to historically low levels. Today, only 33 
percent of our brigades are ready, when we believe our 
sustained readiness rates should be closer to 70 percent. Under 
our current budget, Army readiness will at best flatline over 
the next 3 to 4 years.
    The compromises we have made to modernization and 
readiness, combined with reductions to our force size and 
capabilities, translates into increased strategic risk. We are 
generating just enough readiness for immediate consumption. We 
are not able to generate residual readiness to respond to 
unknown contingencies or to even reinforce ongoing operations.
    This is a dangerous balancing act. We have fewer soldiers, 
the majority of whom are in units that are not ready, and they 
are manning aging equipment at a time when demand for Army 
forces is much higher than anticipated.

                              DEPLOYMENTS

    Our soldiers and leaders continue to perform superbly. Just 
look at how busy our Army is around the world. We have units 
engaged in Iraq, Afghanistan, and Jordan, Kosovo, the Korean 
Peninsula, and across the Afghan continent. We have rotational 
forces in Europe, Kuwait, and the Pacific. We are conducting a 
wide range of missions, from humanitarian assistance, to 
training and advising forces in contact, to reassuring our 
allies with our dedicated presence. This is the reality we face 
as we discuss the Army posture.
    In the President's fiscal year 2016 budget submission, it 
recognizes these challenges. But even the President's budget 
represents the bare minimum needed for us to carry out our 
missions and execute and meet the requirements of our defense 
strategy.

                             BUDGET REFORMS

    And it is a tenuous house of cards. In order for the 
President's budget to work, all of our proposed reforms in pay 
and compensation must be approved. All of our force structure 
reforms must be supported, to include the Aviation Restructure 
Initiative. And we must be allowed to eliminate a half a 
billion per year of excess infrastructure that we currently 
have in the Army.

                            BUDGET SHORTFALL

    We potentially face a $12 billion shortfall, $6 billion in 
the reforms I mentioned and $6 billion in costs that really in 
the very near future must transition from OCO into the base. If 
BCA caps remain, we can no longer execute the Defense Strategic 
Guidance. Sequestration would compel us to reduce end strength 
even further, forcing out another 70,000 from the Active 
Component, 35,000 from the National Guard, and 10,000 from the 
Army Reserves. It would be necessary to cut another significant 
amount of aviation brigades. Modernization will be slashed 
further, home station training would go unfunded, and readiness 
rates would degrade even further.
    Anything below the President's budget compromises our 
strategic flexibility. It worsens our readiness funding and 
further degrades already underfunded modernization programs. It 
impacts our ability to conduct simultaneous operations and 
shape regional security environments. It puts into question our 
capacity to deter and compel multiple adversaries. And if the 
unpredictable does happen, we will no longer have the depth to 
react.

                              EFFICIENCIES

    We are trying our best to achieve efficiencies. We have 
taken advantage of our wartime reset program to reduce depot 
maintenance by $3.2 billion. We are reducing our reliance on 
contractor logistic support, which will result in nearly $2 
billion in cost savings. We have identified and are avoiding 
costs in excess of $12 billion through the Aviation Restructure 
Initiative. We have reorganized our brigade combat teams 
throughout the force, eliminating overhead and maximizing 
combat capacity. We have eliminated nearly 12,000 positions by 
reducing all two-star and above headquarters by 25 percent. And 
we continue to look at ways to achieve individual and 
collective training efficiency.
    But we must also take on acquisition reform to readdress 
the role of the service chiefs, of life cycle management and 
logistics, and of expansion of the bureaucracy and how we might 
eliminate that.
    In response to the complexity of the future global security 
environment, both today and in the future, we recently 
published the new Army, operating concept, ``Win in a Complex 
World.''

                         PERSONNEL INITIATIVES

    We are modernizing the force and maximizing talent by 
opening more than 55,000 positions to women, and are assessing 
the potential of opening as many as 166,000 additional 
positions across the force.
    Sexual harassment and sexual assault prevention remains our 
top priority. While recent reports are clear that we have made 
some initial progress on sexual harassment and assault 
prevention, we have much work to do. Our men and women deserve 
to be treated with dignity and respect, and should expect a 
work environment that is free of harassment, assault, and 
retribution. A culture of inclusion and of mutual and shared 
trust is essential.
    I continue to be inspired by the unparalleled experience 
and professionalism of the men and women of the United States 
Army. They demonstrate unwavering dedication and commitment to 
the mission, to the Army, and to the Nation. We owe it to them 
to ensure that they have the right equipment, the best 
training, the appropriate family programs, health care, and 
compensation packages that are commensurate with their 
sacrifices.
    The decisions that we make today and over the next several 
months will impact our soldiers and our Army and our Nation for 
the next 10 years. The burden of miscalculation and 
underinvestment will directly fall on the shoulders of the men 
and women of the United States Army that have so ably served 
this Nation. We simply cannot allow this to happen.
    Thank you so much for the opportunity to testify today. I 
look forward to your questions.
    Mr. Frelinghuysen. Thank you, General.
    For the members' benefit, I am going to recognize you in 
order of your arrival and obviously go back and forth.

                      LOCATION OF DEPLOYED FORCES

    Before recognizing Mr. Calvert, General Odierno, can you 
give us the laydown specifically of where our troops are in 
Europe? A number of us just came back from Ukraine. There is a 
high interest in our posture in that area. We never thought we 
would be in this situation. Could you give us just a laydown? I 
know the Secretary mentioned the Baltics. We would like to know 
the numbers.
    General Odierno. Yeah. So, Chairman, I think everybody 
knows we have two brigades left in Europe, an airborne brigade 
that is in Italy, a Stryker brigade that is operating out of 
Vilseck/Grafenwoehr, Germany. We also are rotating----
    Mr. Frelinghuysen. Just the numbers----
    General Odierno. Okay.
    Mr. Frelinghuysen [continuing]. Of the men and women in the 
units, because in some areas you have 150. I assume that there 
is a captain or somebody.
    General Odierno. So in each one of the Eastern European 
countries, we have a company's worth of capability there that 
we have been rotating through, different types of units, 
airborne, Stryker, and now heavy units. And there is a company, 
150 people, in Lithuania, Latvia, Estonia and Poland.
    Mr. Frelinghuysen. And the numbers in Italy and Germany 
these days?
    General Odierno. We have 20,000 soldiers in Europe total, 
and we are now rotating a heavy brigade of about 3,500 soldiers 
there that will continue to rotate that capability as we move 
forward.
    Mr. Frelinghuysen. Mr. Calvert.

                         Remarks of Mr. Calvert

    Mr. Calvert. Good morning, Secretary McHugh, General 
Odierno. First, thank you for being here. Thank you for your 
service. We understand that this current environment, you are 
facing numerous challenges, as we heard. We look forward to 
working with you to support the men and women of our Army.
    John, it was 23 years ago that you and I were sworn into 
the U.S. Congress together as young freshmen. We have both seen 
a lot of change since then; some good, probably some not so 
good. But one thing I want to focus on is something that 
probably everybody here is tired of me talking about, but since 
2001 we have cut the Active-Duty Force by 4 percent but we have 
grown the civilian workforce by 15 percent. And you mentioned 
in your opening testimony, General Odierno, the expansion of 
the bureaucracy.

                           CIVILIAN EMPLOYEES

    Currently, the ratio of civilian employees to Active-Duty 
personnel is at historic levels. It has never been higher. 
Bringing that ratio down to the historic norm would save the 
Department $82.5 billion over the next 5 years. That is DOD-
wide. All these savings would be reinvested right back in the 
Department to alleviate the impact of the BCA.
    In DOD's fiscal year 2016 budget documentation, every 
service made steep steps to their respective service civilian 
payroll in 2016. The Army, being the largest force, shed 47,048 
civilians employees. However, Defensewide number of civilians 
at the Pentagon rose that same year by 58,436 employees. 
Further, the fiscal year 2015-2016 request adds 17,000 back to 
the services.
    Looking at DOD over the last several years, we have 
basically gone nowhere. This is money that could be spent on 
readiness, acquisition, and end strength. The services made 
cuts, but then the Pentagon hires them right back.
    I don't understand that. I would like to get your thoughts 
on that.
    Mr. McHugh. I can start, Mr. Calvert. Well, I am not in a 
position to speak for the Department, Department of Defense. I 
would kind of prefer to focus on the Army, if I may.
    I think it is important for all of us to recall much of 
that growth was predicated upon two principles. One, we were at 
war and there was a question of suitable end strength. And in 
the Army, we had ``Grow the Army'' effort to try to expand that 
end strength because of the demands in theater. And much of the 
responsibilities that previously were held by people in uniform 
we were forced to bring on either contractors and/or civilian 
employees to do those efforts.
    The other thing also is, through a series of GAO reports, 
some actions by Congress, we have been required to do a number 
of things that substantially increased civilian numbers. For 
example, there is a provision in law that inherently military 
activities must be insourced, they can't be contracted out. In 
an effort to comply with that, we found ourselves bringing more 
civilians onboard inside the Department of Defense to comply.
    We also had a reversal, really, of an earlier time when I 
had the honor of serving in this Congress to downsize our 
procurement officers, our contracting officers. GAO found that 
part of the problem with contract oversight is we didn't have 
enough civilian, in our case, overseers and we were relying too 
heavily on outside weapons contractors.
    So that explains in large measure the growth, but it does 
not in any way obviate the very important points that you made.
    What we are trying to do in the Army is to draw down our 
civilian end strength. You seem to have a better command of the 
departmental numbers than I do. But we have drawn in the Army 
since 2011 our civilian force down by some 14 percent. We have 
done some analysis that at our likely end strength of 450, we 
would have to continue to come down to about 239,000. And if we 
go to sequestration, that will bring our number down to about 
233,000 total civilian employees.
    So we have a responsibility to balance our military 
reductions with our civilian reductions, and we are attempting 
to do that, and over time I think we will get there and, again, 
as you rightfully noted, hopefully be afforded the opportunity 
to reinvest those savings in military base programs.
    Mr. Calvert. I just want to make a point that since 2006 we 
have seen the most significant growth in the ratio of civilian 
employees versus the military. And our new Secretary, Ash 
Carter, made a comment the other day that they have to attack 
that problem. So I would hope that they would----
    Mr. Frelinghuysen. General Odierno, brief response and then 
I am going to go to Ms. McCollum.
    General Odierno. What I would just add, I think what you 
are getting at, and we have asked for this, there is lots of 
pressure on the services to reduce end strength, civilian end 
strength. And we do believe the fourth estate, which is what we 
call the rest of the Department of Defense outside of the 
services, absolutely needs to be looked at in terms of their 
growth and look at what they need to do in order to reduce the 
manpower, because they have increased significantly. And we 
have actually asked within OSD to do that. And Secretary Carter 
has, in fact, pledged to take a hard look at that, and I think 
it is very important as we move forward.
    Mr. Calvert. Thank you.
    Mr. Frelinghuysen. Important issue. Thank you for raising 
it.
    Ms. McCollum, and then Mr. Womack.

                        Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here.

                         ARMY EXCESS FACILITIES

    Mr. Secretary, can you provide this committee with a 
detailed list of Army facilities which we spend tax dollars to 
maintain that are empty or unused?
    Mr. McHugh. I am sorry. I couldn't. I apologize.
    Mr. Frelinghuysen. Could you move the mike a little closer 
to your mouth, please?
    Ms. McCollum. Mr. Secretary, can you provide this Committee 
with a detailed list of Army facilities which we spend tax 
dollars to maintain that are empty or unused?
    Mr. McHugh. Well, we have a problem doing that to the depth 
that I know this Committee would like, because we have been 
barred by legislation in the 2015 NDAA to do the kind of 
analysis that is essentially part of a base closure round.
    Ms. McCollum. Well, Mr. Secretary, we need to change this. 
Congress needs to have this information. And I ask this because 
I have a Rutgers article from March 11 that says, ``U.S. Army 
spends $500 million spent on empty buildings as troops cut.''
    So, folks, this is absolutely crazy for Congress to force 
the Army to waste $500 million to maintain empty or unused 
facilities, actually preventing you from effectively using tax 
dollars, and for Congress to have something in place that you 
and I can't even have a conversation about how we go about 
making sure that you have the tools that you need to do your 
mission and have our men and women come home safely and to save 
the taxpayers money. And then we are forcing budget control 
caps on you.
    So let me ask this question. Is this $500 million figure, 
is that accurate?
    Mr. McHugh. It could be more.
    Ms. McCollum. It could be more.
    Mr. McHugh. That is based on our last assessment of excess 
capacity that is pretty outdated. And given the fact that our 
numbers are coming down rather substantially, it is likely that 
that number has grown.
    Ms. McCollum. And approximately, it could even be more than 
the 25 percent I just mentioned that Army facilities are 
surplus in excess of your mission? And you are shaking your 
head yes.
    Mr. McHugh. Yes.
    Ms. McCollum. Could maybe you gentlemen elaborate on why 
this issue today needs to be resolved as future troop numbers 
and civilian employees are reduced and you are forced to live 
within the budget control caps, as this Congress has said that 
it will do?
    Mr. McHugh. Well, in the first instance, we obviously, as I 
mentioned in my opening comment, want to be the best stewards 
of taxpayer dollars that we possibly can. And in our 
estimation, in large measure that is wasted money. And it could 
go to support family programs, it could go to providing better 
care for folks who find themselves in need of a range of health 
care, et cetera, et cetera. But for whatever means, it is money 
that we are wasting supporting infrastructure that has no use 
now, let alone into a future in which we will probably become 
quite smaller.
    So we agree with you that at least in the context of being 
responsible stewards and knowing what our circumstances are, 
that kind of analysis would be helpful in more ways than just 
base closure. It would be helpful to Committees like this who 
have a very important responsibility to make decisions on 
policy going forward.
    Mr. Visclosky. Will the gentlewoman yield for a second?
    Mr. Frelinghuysen. Mr. Visclosky.
    Ms. McCollum. Yes.
    Mr. Visclosky. The question I have, are these individual 
buildings? This isn't necessarily a BRAC question per se.
    Ms. McCollum. Mr. Visclosky, Mr. Chairman, reclaiming my 
time. That is my point. We can't even get a list from the Army 
or from any of the other branches of service about literally 
buildings that are abandoned. There is no one in some of these 
buildings. And we are just wasting so much taxpayers' dollars 
on this and failing to do our oversight mission by taking the 
tough votes possibly of closing some of these abandoned 
buildings.
    And, Mr. Chair, the General, I think, wanted to have a 
brief response.
    Mr. Frelinghuysen. Yes. General, comment, then we will go 
to Mr. Womack.
    General Odierno. Just very quickly. I mentioned in my 
opening statement actually half a billion dollars. So the 
number is about what we think it is. And, oh, by the way, these 
buildings tend to be the older buildings, they are inefficient 
in many different ways. So not only the access, they are our 
oldest, most inefficient buildings. Half a billion dollars 
could buy 5,000 soldiers a year, could provide readiness for 10 
brigade combat teams. So, I mean, if we can get after this and 
allow us to get rid of this infrastructure, the reinvestment of 
these dollars could be significant.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Frelinghuysen. Mr. Womack, and then Mr. Ruppersberger.

                         Remarks of Mr. Womack

    Mr. Womack. Thank you, Mr. Chairman.
    Mr. Secretary, General Odierno, it is always great to see 
you. And I have an enormous amount of respect for what you 
gentlemen bring to the table in terms of your leadership of our 
Army, and it is always a great honor to have you in front of 
this committee and to be in your presence. Whenever I get a 
chance to travel around and visit some of the installations and 
at the same time execute my duties on the Board of Visitors at 
West Point, and I see General Odierno up there quite often, it 
is always great to be with you.

                    AVIATION RESTRUCTURE INITIATIVE

    General, you know probably where I am going on the Aviation 
Restructure Initiative, still moving despite a short pause that 
we gave in the last NDAA that is in effect until April of next 
year. And I am still concerned about ARI for a lot of reasons. 
In my opinion, it appears to be an operational decision, not a 
budget decision. And so here is what I want to do. I want to 
drill down on the claim that we are going to save $12 billion.
    The Army, and I am using the Army's numbers, has provided a 
breakdown of the cost savings, and I would like to point out 
that $10.5 billion is really not cost savings, but more cost 
avoidance, meaning that you count as savings not having to do 
modernizations and updates on Kiowas and trainers that you 
won't have to do now because you are divesting of them.
    Furthermore, you are predicting that this cost avoidance 
savings, most of it won't even come, in fact, I guess the cost 
avoidance piece of this won't even come in the current POM, the 
2015-2019 POM, they come after 2020. And the savings really 
don't have anything to do with whether the Apaches are moved or 
stay in the Guard. The operational capacity would remain 
regardless of whether you move the Apaches to the Army like you 
are proposing or whether you let the Guard keep the Apaches and 
keep doing the mission that they have been doing for 13 years.
    So here are a couple of questions for you. Am I right? Is 
this more operational than budget?
    General Odierno. No. It is both. So remember, we have 
already taken a significant amount of reduction in our Army 
budget. So I would remind you that there are absolutely savings 
now, because part of the Aviation Restructure Initiative is the 
elimination of three aviation brigades out of the Active 
Component. And as Chairman Rogers pointed out, we have already 
taken a brigade out of Fort Campbell, Kentucky.
    Those three brigades takes about 8,000 people out, so that 
is $800 million a year, plus the training costs, which is 
another $300 million or so. So you are talking $1.1 billion per 
year just by taking those three complete brigades out of the 
Active Component. So over the POM, that is about $5 billion to 
$6 billion worth of savings right there.
    If we kept the OH-58 Deltas we would have to modernize 
them, because they did not perform the way we need them to do 
and they put our pilots in danger. So that would be another 
couple billion dollars that we would have to spend in this POM 
right now.
    So we have saved a significant amount of money doing ARI, 
but the reason we were able to eliminate those combat aviation 
brigades is because we have to move Apaches into the Active 
Component, so that the 10 brigades that are left in the Active 
Component are capable of meeting our combat needs. And by doing 
that, we are also transitioning UH-60s from the Active into the 
Guard, so we increase the number of UH-60s.
    It also saves us money in our training base, because by 
using LUHs in the training base it is going to decrease the 
training time of our pilots, because what used to happen is 
that the old aircraft, they would train and then they would 
have to do extra training when they went to the UH-60 or the 
Apache, because it wasn't dual engine, they didn't have the 
right cockpits where they could look below it, and they 
couldn't use the night vision devices.
    So it saves us money in terms of training time, and that 
will happen immediately, because we are now transitioning to 
LUHs to train our force. So there are savings that are 
immediate.
    Mr. Womack. The Guard's been doing this mission for quite a 
while. Have they done a remarkable job?
    General Odierno. They have, as well as the three combat 
aviation active brigades that we are taking out. They have done 
a great job too.
    Mr. Womack. Has the Guard ever failed in that mission over 
the last few years?
    General Odierno. Neither has the three aviation brigades 
that we are taking out either. Listen, we have had cuts, and so 
this is budget driven. The issue is, it is because of the 
complexity of the training required with the Apaches and the 
fact that we are going from 37 shooting battalions to 20, I 
need them in the Active Component to meet our requirements of 
today, because they are going to have to constantly deploy and 
they are going to have to be ready at a very high readiness 
level.
    It is not that the Guard has failed, but when they have 
gotten the mission, they have gotten plenty of time to do 
premob training and postmob training. Because of the reductions 
we are taking, we don't have the luxury of being able to do 
that anymore.
    Mr. Womack. And I know I am out of time. I just want to say 
this, and if it elicits a response, then fine; if not, okay as 
well. And this is kind of a shot at the acquisition programs, 
and this predates my time in Congress. But there have been two 
other platforms on the reconnaissance side that have been 
attempted by the Army that have been scrapped. And I don't know 
how much money that we have spent that we have--and I hesitate 
to use the word wasted. We never got the platform. But I am 
talking about the Comanche and I am talking about the 
reconnaissance helicopter, the Armed Reconnaissance Helicopter, 
and I don't know what the name was.
    But we have spent a ton of money looking for other 
platforms, and quite frankly, Mr. Chairman, I think that is why 
we are in the pickle that we are in right now, that we have 
made some decisions in the past that have not proven to be the 
most effective in terms of being good stewards, as we all plan 
to be, of our taxpayer dollars.
    And now, after this Committee has given a significant 
amount of money for the upgrades on the Apaches for the 
National Guard, we are going to hand them right back over to 
the Active Component. Got a problem with it. I will continue to 
maintain my position on it. But I do appreciate the exchange 
here. And I yield back.
    Mr. Frelinghuysen. Thank you for your strong advocacy. And 
there are obviously some other platforms that have been not 
entirely successful, and I will be getting into some of those 
later.
    Mr. Ruppersberger, then Mr. Cole.

                      Remarks of Mr. Ruppersberger

    Mr. Ruppersberger. Thank you.
    I agree with some of your issues, and I would like to work 
with you on that too.
    Well, first thank both of you, Mr. Secretary and General 
Odierno, for your leadership. John, I think we served together 
on the Intelligence Committee years ago, and I hope that your 
experiences in Congress have helped you doing your job here, 
which I know it has, because you have done a lot with a lot on 
the table.

                             SEQUESTRATION

    I say it over and over and everyone here talks about it, I 
don't think anybody on this Committee disagrees, about the 
issue of what sequestration can do. Now we have before us Army, 
Navy, Air Force, Marines, you are the final here, saying what 
sequestration is going to do. And I just hope the message gets 
out to our leadership, Republicans and Democrats, House and 
Senate, that we have to do something about this. We are making 
our country weaker.
    And I would ask this question. Do you feel that this is one 
of the most dangerous times for the United States of America as 
far as risk between terrorism, between Russia/China threat, 
between cyber issues, all of those type of issues?
    General Odierno. I think it is one of the most 
unpredictable times, which cause us to take significant risk.

                        CARE OF WOUNDED SOLDIERS

    Mr. Ruppersberger. I just want that for the record.
    I am going to get into an area, I started working years ago 
on this with Jack Murtha, who is no longer with us, that really 
focused a lot on the military members coming back after being 
injured, Iraq, Afghanistan, trauma issues, spinal cord 
injuries, the loss of limbs. And there has been a lot of 
research with some major hospitals in the United States working 
with the military. I think right now you have the, it is called 
the DOD Combat Casualty Care Research Program within the Army 
Medical Research and Materiel Command, and they do all sorts of 
research, clinical trials.
    There is another group right now that I am going to try to 
focus on and make a priority, and that is the National Trauma 
Research Center. They study trauma care. And the purpose of 
this is to get all of the military, whether it is Army, Navy, 
Air Force, Marines, coming together with some of the best 
trauma centers we have in the United States coming together. 
And you will leverage the military and civilian partnerships, 
merging the hospitals and doctors with that.
    Are you aware of that National Trauma Research Center, and 
if not, would you be in support of it?
    General Odierno. No, I am. And I think it is very important 
for us.
    Mr. Ruppersberger. Okay.
    General Odierno. Especially as we go forward.
    Mr. Ruppersberger. That is great.
    Now, the other question I want to get, if I can time----
    Mr. Frelinghuysen. Keep moving.
    Mr. Ruppersberger. Keep moving.
    Mr. Frelinghuysen. You have time.

                         CUTS TO INSTALLATIONS

    Mr. Ruppersberger. Okay. I have two Army bases in my 
district, Fort Meade and also Aberdeen. And you have Cyber 
Command, NSA. But also you have Aberdeen, which does all the 
testing for the Army but also performs a lot in the chemical/
biological area and other topics like that. Of course, they are 
on the list because of sequestration to have cuts in personnel 
cuts.
    Are you aware of those two installations, and what is your 
focus as far as the future with those installations, and where 
are we right now as far as cuts?
    Mr. McHugh. We are very well aware. I from having long 
discussions during our previous time together and having 
visited Fort Meade and Aberdeen, and they are important to our 
future.
    As you noted, we are currently going through the public 
hearing process. We are nearing the end of that. It should be 
completed by the end of this month, early April. And then we 
have to do the analysis that is required to decide where and to 
what extent the cuts are going to be distributed throughout all 
of the Army, as I mentioned.
    And back to Ms. McCollum's comments, this is another, I 
think, least understood aspect of no BRAC. Without a base 
closure so that we can at least focus a major portion of our 
troop cuts and our other actions, we are forced to distribute 
these cuts all across the entire Army inventory, at least in 
the United States. So we recognize the pain. The show of 
support through virtually all of the public hearings has been 
substantial. And as I said, we will probably be making 
announcements this summer.
    Mr. Ruppersberger. And these two installations are your 
priorities and there is a future there, it is a matter of 
funding.
    General Odierno. Fort Meade obviously with CYBERCOM is 
increasing, actually. Aberdeen obviously is important to us. 
They do a lot of--you mentioned some of it. They also do a lot 
of our mission command, command and control work there as well 
with CECOM located there.
    Mr. Ruppersberger. Right.
    General Odierno. So they are key installations.
    Mr. Ruppersberger. What I tell our Army alliances and the 
advocates for both of those bases is that there is a 
sequestration budget, that is Congress' fault, we have got to 
deal with it, but the budgets you are putting out are budgets 
that you have to put out on every installation in the country 
in order to deal with the law the way it is now.
    Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Ruppersberger.
    Mr. Cole, and then Ranking Member Ms. Lowey.

                          Remarks of Mr. Cole

    Mr. Cole. Thank you very much, Mr. Chairman.
    Thank both of you for being here and for your exceptional 
service to our country.
    Mr. Secretary, I am going to make a point and then I have a 
couple of specific questions. You probably know this place 
better than any Secretary of the Army in modern history, and 
had you chosen a different route you would be in your last term 
probably as chairman of the House Armed Services Committee 
right now. So we are glad you are where you are at, but we 
would have liked you in either job. Kind of feel like we have a 
friend on the inside over there.
    Mr. Frelinghuysen. Are you nodding your head in agreement 
or what here?
    Mr. McHugh. I have no doubt a lot of people are glad I am 
not here.

                             SEQUESTRATION

    Mr. Cole. I appreciate very much the points that both of 
you made about sequester. You have been relentless, and 
appropriately so, in your effort to educate the Congress and 
the wider public to what the risks are, and I think you have 
performed a real public service in doing that.
    And while I never believe a deal is done until it is done, 
we have a long way to go here, I would just offer this on a 
little bit more encouraging side. I look back a couple years 
and I see the Ryan-Murray deal, and that was a very important 
deal with respect to the entire budget, but certainly with 
respect to the military. And I look back at the CR/Omnibus last 
year, and that was a very bipartisan deal and it gave you a 
little bit of budget stability and certainty in this fiscal 
year.
    I look at the budget yesterday and I compare it to the 
President's budget, I don't think either one of them are works 
of art, but amazingly they have about the same amount of money 
computed in different ways in them, which I take to be an 
encouraging sign that we are not that far apart in terms of 
where we think we need to be in the military.
    And finally, I look at the totally unrelated item that we 
will deal with today in a bipartisan fashion on SGR, probably a 
big vote, lots of Democrats, lots of Republicans, getting rid 
of a problem that has been around here for almost 2 decades. 
That is a big deal, and it suggests to me that maybe for the 
first time in a while there are little cracks of light out 
there that suggest we might unthaw.
    But I want you to keep doing what you are doing, because I 
think the stakes of making this change, getting out of 
sequester where the military's concerned, are extraordinarily 
important. And I see signs we are coming together, but it will 
probably be late in the fiscal year, or late in the calendar 
year more probably. The way this place works, deadlines tend to 
be alarm clocks around here. And I see some encouraging things 
in the Senate. So I think we may be moving in the right 
direction.

                  PALADIN INTEGRATED MANAGEMENT (PIM)

    A specific, and it is parochial, but I think it is an 
important question servicewide, this is to you, General 
Odierno, I would very much like an update on where you think we 
are in the PIM modernization program, are we on schedule? Give 
me a report, if you would.
    General Odierno. Yes, we are, and it is going very well. We 
have just done a prototype, which is very important, that is 
the next step. We are in the process now of competing to go to 
full rate production. It is a key program for us in the future. 
Our ability to provide fire support is going to be even more 
important. And the PIM provides us potentially more 
alternatives of how we use our artillery pieces in the future, 
and that is going to be key with the vast variety of threats 
that we are going to face.
    And so I think for us it is absolutely essential. It is 
moving forward, it is on time, so far going very, very well, 
and we are very pleased with the program.
    Mr. Cole. I just want to add, Mr. Chairman, because we do 
have some acquisition concerns, this is one that has been 
really well done by the Army and by the private sector, and we 
appreciate it very much.

                       PATRIOT AIR DEFENSE SYSTEM

    One other parochial question. I would like, if you would, 
give us a kind of overview on where we are using Patriot, the 
PAC-3s right now. We have got obviously a Patriot training 
facility at Fort Sill now as well. But do you have the numbers 
that you need? I know we are using that asset quite a bit. We 
have got them deployed around the globe.
    General Odierno. Our Patriot force structure is definitely 
high demand, low density. And, frankly, we are at a little over 
a one-to-one ratio. So we are deploying them quite extensively. 
The requirement for those to protect not only our forces, but 
some of our allies, the requirement continues to go up. And 
with the proliferation of ballistic missile technology, 
frankly, it is going to be a mission that we will continue to 
grow.
    What we have to be able to do is we are working to make our 
systems more efficient and effective as we move forward. We 
have to continue to improve the missile, we have to continue to 
improve the command and control capacity of our Patriot system, 
and we are doing that and investing in that.
    But it is one of our concerns that the Secretary and I 
have, is in fact that we are deploying these soldiers at a rate 
that is not sustainable. In fact, the CNO and myself have sent 
a memorandum to the Secretary of Defense talking about that we 
have to really take a hard look at our integrated air and 
missile defense programs and relook at and how we better manage 
it for the future and to modernize it, because it is going to 
continue to be an asset that is necessary.
    Mr. Cole. Thank you.
    And, Mr. Secretary, come up here some time for a cigar. I 
bet I would get Mr. Israel and I have to have bipartisan----
    Mr. Frelinghuysen. Let's make sure----
    Mr. Israel. Cigar summit. Let's do it.
    Mr. Frelinghuysen. Let's do it outside the building. Thank 
you very much.
    Okay. Mrs. Lowey, and then Chairman Rogers.

                         Remarks of Mrs. Lowey

    Mrs. Lowey. See, there are differing views, my friend. I 
would rather have a Ben & Jerry's summit or something like 
that. You can keep your cigar. But any event----
    Mr. Frelinghuysen. We are on the public record here, you 
know that.
    Mrs. Lowey. Well, it really is a pleasure for me to welcome 
you, Mr. Secretary and General Odierno. We are so lucky to have 
people of your capability and stature and commitment, and I 
thank you for your service to our country and I thank you for 
being here today.

                      SEQUESTRATION AND READINESS

    I just want to say a couple of words about the sequester. 
And I know there are all kinds of ways we are dealing it, with 
OCO, et cetera. But the fiscal year 2016 Army budget request 
states that it provides the resources to support the defense 
strategy of protecting the homeland, building security 
globally, and projecting power and winning decisively, as well 
as the most urgent combatant commander requirements, and it 
begins the recovery of readiness and modernization.
    However, the fiscal year 2016 request assumes that 
sequester is no longer in effect, even though it is still 
unfortunately the law of the land. And we can interpret that 
many different ways.
    I want to make it very clear so I understand. If sequester 
continues into fiscal year 2016 and beyond, will we be able to 
meet the National Defense Strategy?
    General Odierno. Ma'am, no, we will not. We have stated 
this very clearly. We will no longer be able to meet the 
Defense Strategic Guidance as we have defined it.
    Mrs. Lowey. And what impact would the BCA levels of funding 
have on readiness specifically and our ability to respond to 
the multiple combatant command requirements around the globe?
    General Odierno. So right now we are at a low, we are at 
about a 33 percent readiness rate. If sequestration comes in we 
will get even smaller in terms of our readiness. We have about 
a 4-year window until we get end strength down to the level 
necessary that would actually increase our lack of readiness. 
And then in 2019 or 2020, when we got to the 420,000, then I 
would be concerned about maybe do we have the appropriate 
capacity to meet the needs around the world of multiple 
simultaneous requirements that we have today.
    Mr. McHugh. Could I just add, Mrs. Lowey, and not all the 
members had returned from voting when the Chief made his 
opening statement, that just to put that 33 percent readiness 
right now in some context, our normal objective for readiness 
for all our combat forces is 70 percent. So you can see we have 
actually made some progress thanks to the help and relief the 
BBA provided in 2014 and 2015, but as you discussed, with the 
return of sequestration, those gains and probably even more 
loss would occur.
    Mrs. Lowey. Well, and I assume you have had these 
conversations with members on both sides of the aisle, because 
there always has been bipartisan support for the important work 
you are doing in protecting our homeland. So I find it 
extraordinary, with the increasing threats around the world, 
that there should even be a discussion about keeping 
sequestration in place.
    And I know that there are other discussions we are having, 
such as OCO (Overseas Contingency Operations), but it would 
seem to me that your needs are clear, the threats are more 
dangerous than ever before, and that we have an absolute 
responsibility to respond after in-depth discussions.
    And I hope, Mr. Chairman, we can have other discussions 
after this hearing and make it clear to our colleagues how 
important this is.
    And I just wanted to thank you both for your service.
    Thank you.
    Mr. McHugh. Thank you.
    Mr. Frelinghuysen. Thank you, Mrs. Lowey.
    Chairman Rogers.

                         Remarks of Mr. Rogers

    Mr. Rogers. As I mentioned earlier, the Army announced in 
November that they would be closing down the 159th Combat 
Aviation Brigade this year. That announcement came absolutely 
suddenly for the Fort Campbell community, and just after that 
brigade had returned from deployment in Afghanistan. Thanks, 
but no thanks.

                     159TH COMBAT AVIATION BRIGADE

    Now, this is a topnotch group of soldiers. They are well 
trained, they are critical to the operations of the 101st 
Airborne Division. Now the 101st CAB will have to pick up the 
slack in terms of training and operational requirements for the 
101st Airborne. That will lead to a loss of 3,000 personnel at 
Fort Campbell this year, an absolutely critical installation 
with a record to be absolutely proud of. Soldiers are 
supporting our missions in Afghanistan and in West Africa 
against Ebola.
    Explain to me the wisdom of eliminating this combat 
aviation brigade at Fort Campbell, and walk me through the 
thought process that led to this decision, particularly in 
light of the current threat environment and operational 
requirements.
    General Odierno. Thank you, Chairman.
    First, as I mentioned earlier, this was driven by previous 
budget cuts that the Army had received. And in order for us to 
sustain a modernized aviation fleet, we had to go into this 
Aviation Restructure Initiative. And part of that, we had to 
reduce the total numbers of our aviation capability, and that 
is eliminating three brigades out of the Active Component.
    The decision to cut that specific brigade was based on we 
wanted one aviation brigade aligned with each one of our active 
divisions, and that is ten. And so, unfortunately, we had to 
eliminate one at Fort Campbell, because there were two aviation 
brigades there.
    The unfortunate part about this is this will be the first 
time that we don't have inherent capability at Fort Campbell 
that allows us to do brigade-level air assault operations, 
which is a mission that we believe is critical. So we will 
garner resources from other places to do this.
    But that decision was not taken lightly, because, as you 
mentioned, the performance of the aviation brigade. And that 
goes for all of our aviation assets, whether it is Guard, 
Reserve, or Active. Their performance has been excellent. But 
because of the reduced budget we have, we had to make very 
difficult decisions, and we have to sustain our aviation fleet 
at the highest readiness levels, because there is a great need 
for them on many deployable missions, as you mentioned.
    Mr. Rogers. Well, this is the 101st, and this is the 
absolute heart of the 101st, and it seems to me that that is 
the one place that I would want to keep capability at its max, 
is the 101st Airborne. So mark me down as undecided.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Israel, and then Mr. Diaz-Balart.

                         Remarks of Mr. Israel

    Mr. Israel. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to be reunited with you. We miss 
you in New York delegation meetings.
    And, General, it is good to be with you. You were kind 
enough to give me an aerial tour of Balad when we were there 
together, and we worked together on professional military 
education when I was on the HASC. And it is great to be with 
you.
    Just a quick congratulations and then a question. I do want 
you to know that I appreciate your efforts to integrate women 
into all positions in the Army. In fact, one of my former Army 
fellows is currently in the pre-Ranger course. I value that 
program. I value the opportunities that you provide. So I want 
to congratulate you for that.

                               FORT DRUM

    Mr. Secretary, I want to talk to you about something you 
have a deep proficiency on. That is Fort Drum. You used to 
represent Fort Drum. You remember those days.
    Mr. McHugh. I do, yes. Fondly.
    Mr. Israel. As I understand it, as the Army prepares for a 
possible reduction in troop strength of 475,000 or less, Fort 
Drum has become one of the bases that may lose some units. On 
March 19 Congresswoman Elise Stefanik sent a letter to 
Secretary of Defense Carter signed by, I believe, every member 
of the New York delegation and our two Senators expressing some 
concern about potential cuts at Fort Drum. And I was wondering 
whether you could just comment on where we are with that. Are 
the concerns well founded? And what is the status?
    Mr. McHugh. I would be happy to, Mr. Israel.
    The concerns are well founded, because the concerns are 
based upon some inescapable realities, particularly the budget 
numbers we are looking at. And whether it is Fort Drum or any 
other major Army installation, this is not the first round of 
cuts. We had already made fairly substantial reductions at Fort 
Drum and other multibridgade bases. You heard the chairman 
speak about losses at the 101st at Fort Campbell from a 
previous round of downsizing and such.
    And as I told Congresswoman Stefanick during the Chief's 
and my appearance before the House Armed Services Committee, we 
find ourselves again having to go to some 34 post camps and 
stations where similar analyses are being done in contemplation 
of our drawdown to 450,000. That is our target for the moment. 
If sequestration returns, then the analysis that we are doing 
to 450,000 would have to obviously be reopened and accordingly 
bring us down to 420,000.
    I mentioned earlier that this in part, and I don't want to 
ascribe it all to this, but in part is deriving out of the lack 
of our ability to do a base closure round, as mentioned by Ms. 
McCollum, and more appropriately and perhaps smartly focus our 
cuts where they are actually best situated.
    But absent that authority and given the budgets that we are 
looking at just to 450,000, and that is based on the 
President's budget, these cuts, I am afraid, as I mentioned in 
my opening comments, are going to hit every post, every camp, 
every station, and every program.
    Mr. Israel. Well, I appreciate your candor. And I just want 
to state, I do not represent Fort Drum. As you know, Mr. 
Secretary, I am as far away from Fort Drum as you can be and 
still be in the same state of New York.
    Mr. McHugh. Just about.
    Mr. Israel. But I think we all recognize, on both sides of 
the aisle and throughout the Army, the value of Fort Drum, the 
value of the men and women there, and I hope that we can come 
to a good resolution on this.
    Thank you, Mr. Secretary. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Israel.
    Mr. Diaz-Balart.

                       Remarks of Mr. Diaz-Balart

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Secretary, General. A couple points and then a 
question. And by the way, in an effort of great bipartisanship, 
I just want you to know that I would attend both the cigar and 
the ice cream summit. Just saying.
    Mr. Frelinghuysen. You are a full-opportunity Member of 
Congress.
    Mr. Diaz-Balart. Absolutely, sir. I am here to serve.
    Actually, first I want to associate myself with the 
comments of Mr. Womack. I too, as I am learning more, I get 
more and more concerned about the issue that he brought up. I 
am not going to rehash it, but I just think that is an issue 
that we have to spend a little bit more time on.
    And to both gentlemen, look, I agree with you on the 
sequester issue, and it is the law, unfortunately. And I am 
hoping, because it requires House, Senate, and President, to 
have in essence a deal, and I am hoping that quietly the 
President and the Speaker and the majority leader and others 
would be talking. I am hoping that will happen. But that is 
above our pay grade.

                                 ENERGY

    Let me talk a little bit about energy. I don't know in the 
Army, I know in other parts that, for example, fuel costs are a 
huge deal, and I also know that in some areas and in some other 
branches that we are spending bucket loads of money, of 
additional money, for example, on green fuels.
    How much are we spending for just energy, lights and fuel 
for the Army? And how much are we spending, if any, on green 
fuels? I mean, it has got to be substantial how much we spend 
just on energy.
    Mr. McHugh. I can speak in generic terms, and we can get 
you whatever number of detail you would like as a followup.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Mr. McHugh. But the Army is the largest consumer of energy 
in the Federal Government. If you think about our platforms, 
think about our size, where we are asked to go and things we 
are asked to do, I guess that is not surprising. But it is a 
budget line that is dispersed throughout many different 
programs, so it is very, very important to us.
    And to your point about costs, since 2003 in the Army we 
have cut our energy consumption by about 17 percent through a 
variety of measures. Yet our costs, with that 17 percent cut, 
have gone up about 45 percent, which reflects the increase of 
energy just writ large.
    So we are doing a number of things, some because to us it 
makes good sense to be good neighbors, to be environmentally 
responsible. But we are trying to do it in ways that makes us 
more energy independent, off the grid, if you will, that leads 
to better security in case of some sort of homeland disaster or 
challenge. But also to save money. We have doubled our 
consumption of renewable energies for the second year in a row.
    I also should note that we have about 380 renewable energy 
programs throughout the Army, and the savings we derive from 
those is about $13 of private sector investment for every 
dollar of Army money we spent. And there is a federal mandate 
that at the year 2020 we have a 30 percent reduction in our 
petroleum usage in our nontactical vehicle fleet. We have 
already reached that 2020 goal and we have cut our NTV 
petroleum usage by about 37 percent.
    Mr. Diaz-Balart. If I may, Mr. Secretary.
    Mr. McHugh. Sure. Yeah.
    Mr. Diaz-Balart. We are now the largest producer of natural 
gas and we are a huge producer of petroleum. And so the 
question is, is that a policy that we should look at? Because, 
yeah, if we were buying it from other sources, it makes sense 
to reduce your dependence on whatever it is, but if you are the 
number one producer or could be the number one producer, it 
seems that we should be using more of our domestic energy.
    Look, I know it is beautiful and it is great, we all want 
to protect the environment, absolutely, but we are at crunch 
time here. And so I would like to see, and I don't want to put 
you on the spot, but I would like to see how much we are 
spending, real dollars, on renewables, how much we are 
spending, real dollars, on nonpetroleum-based costs. Because it 
would seem to me that if there is anyone who is going to 
benefit from more domestic production, it would be the Army, 
which by the way, when it is the Army, it is the country.
    But anyway, I would like to again look at, have some of 
those details to figure out how much we are spending. And I 
understand there may be a federal mandate, but is it wise to be 
reducing what we are actually producing? The usage of what we 
are actually producing, it seems that it might be kind of, 
frankly, counterintuitive.
    Mr. McHugh. Well, absolutely we can provide the best 
numbers that we have available, and we will do that for you. I 
should note that the most important consideration we have right 
now is cost.
    Mr. Diaz-Balart. Yeah. Absolutely.
    Mr. McHugh. And we look at that, and that overrides just 
about everything. But we double that and consider it also with, 
as I said, security, off-the-grid energy independence. So we 
will get those numbers to you and be happy to have any followup 
discussion you might desire after that.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Mr. Diaz-Balart. Thank you, sir. And it is always good to 
see you.
    Mr. Frelinghuysen. Thank you, Mr. Diaz-Balart.
    Mr. Ryan, and then Judge Carter.

                          Remarks of Mr. Ryan

    Mr. Ryan. Just to follow up, you said for every dollar you 
spend on the renewables, you have saved?
    Mr. McHugh. On the renewable projects, we have saved $13.
    Mr. Ryan. Saved 13 bucks.
    Mr. McHugh. Let me put it a different way. The ratio of 
Army versus investor money is $1 for the Army versus $13 of 
investment for the private investor.
    Mr. Ryan. Nice.

                               READINESS

    First, thank you. These hearings are always very 
interesting and sometimes make me more anxious when I leave 
than when I come in. I think I am not alone in that.
    So a couple of questions, one on the readiness piece, just 
to reiterate. Due to the fiscal year 2014 and 2015 funding 
levels, we obviously have been harmed with the readiness, but I 
want to make this point, because I think we have got to drive 
it home to the American people, because, quite frankly, I don't 
think it has penetrated the American psyche of how far along we 
are in this.
    So the Army estimates that due to lost training 
opportunities dating back to fiscal year 2013 it will take the 
better part of a decade to return units to acceptable readiness 
levels, and that is if we have the President's request met. Is 
that----
    General Odierno. That is correct.
    Mr. Ryan. That is correct. So we are talking about a decade 
almost of being able just to keep up to speed when the threats 
are becoming more and more, and I think that is another thing. 
You know, the old line threats don't go offline. They are still 
there. We have hearings about missile defense and now we have 
all the different hot spots around the country that you 
gentlemen mentioned in Yemen now, with what is happening there, 
the Ukraine, Ebola. I mean, these things go on and on and on. 
They stay online, and then we continue to have the 
counterterrorism investments that we need to make and all the 
rest.

                         ASIA PACIFIC REBALANCE

    So to that point, we are in the third year of Asia-Pacific 
rebalance. We know that the Army is a big player in all this. 
So can you, General, provide us with an idea, what is the 
current picture, where does the Army stand in this rebalance, 
the rebasing actions, reassignments of units, missions, as well 
as increases or decreases in personnel in the Pacific Command 
area of responsibility? And then also the newer countries that 
we may be developing partnerships with along those lines.
    General Odierno. So thank you, Congressman. So we have 
about 80,000, a little over 80,000 soldiers assigned to the 
Pacific Command. It is our largest operational command with 
assigned personnel. We have so far not degradated their 
capabilities.
    The one thing we are doing this year is we are starting to 
rotate a brigade into Korea. Instead of having one permanently 
stationed, we will rotate a brigade from the United States 
there, which we think actually will increase the readiness and 
capability of the brigade as they rotate in, as well as 
aviation assets. So that is one change.
    We have been able so far to do an operation called Pacific 
Pathways that has allowed us to reach out and build 
relationships with some really important partners. The last one 
we did was with Malaysia, Indonesia, and Japan. The next one we 
are looking at doing with some other nations within the region 
next year.
    But if we do not get the funding, that will be one of the 
things that we are not allowed to do. As we reduce readiness, 
we will not be able to do these very important engagement 
exercises that is necessary, because we will have to focus 
almost all of our Pacific dollars on the Korean Peninsula 
because of the importance and near-term potential threat to our 
soldiers.
    So that means that all the rest of the activities we have 
going in the Pacific region will have to reduce the activities, 
which I think is very unfortunate because of the importance of 
this as we continue to work and deal with a rising China and 
the rest of the activities we do to support the PACOM 
commanders directly associated with that.
    In addition to that, we will probably have to reduce some 
of our capacity in the Pacific region as we go to full 
sequestration, and so that will be something we will have to do 
as well. So we will have less activity, we will reduce part of 
our capability that is there. And so for me, that will have an 
impact on our overall rebalance.
    Mr. Ryan. Any new bases being established?
    General Odierno. So one of the things that we are looking 
at is probably no new bases, but we are looking at 
prepositioning equipment. So, for example, we are looking at 
prepositioning humanitarian assistance sets because of the 
amount of humanitarian relief that we do almost every year. And 
the important part of that is that type of effort allows us to 
build new relationships.
    It is interesting, Vietnam is reaching out to us actually 
and is potentially interested in maybe having some humanitarian 
equipment put there.
    So these are all things that we want to continue to develop 
over time, which will help us to build influence and gain 
access throughout the region, but will be limited if we don't 
have the dollars to do it.
    Mr. Ryan. Can you just give us a general sketch of where 
the 80,000 are?
    Mr. Frelinghuysen. Very quickly, please.
    General Odierno. So the 80,000 are in Korea, Japan, Hawaii, 
and then also we have some forces that are in Alaska and Fort 
Lewis, Washington, that are assigned to the Pacific region. As 
we move forward with this we will look at where we might be 
basing soldiers. We also have a small footprint on Guam as 
well.
    Mr. Ryan. Great. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Ryan.
    Judge Carter, and then I am going to go to Mr. Crenshaw, 
who has been sort of graying here, you have been here so long.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. I apologize for not getting to you.
    Judge Carter.

                         Remarks of Mr. Carter

    Mr. Carter. Thank you, Mr. Chairman.
    And both of you, welcome. I am glad to see you. One of my 
blessings in life is I consider both of you friends.

                               READINESS

    General Odierno, you addressed a question Mrs. Lowey asked 
about the national security strategy and that we would not be 
able to implement that. There is a further factor, and with the 
mission in Korea I am reminded of it. The last time the world 
fell apart in Korea we had an event that all the Army people 
tell me about all the time, Task Force Smith, where the only 
trained, and they were only partially trained, soldiers, even 
though there were a couple of divisions in the region, isn't 
that right, were just about 500-and-some-odd soldiers over in 
Japan that were partially trained. And they called that Task 
Force Smith and they put them in the line, and basically that 
was about as close to the Alamo as it got on the Korea 
Peninsula as far as what those guys had to put up with. And 
that is one of the things the Army has always said, we are not 
going to ever let happen again.
    And as we discussed the drawdown, I think it is important 
that you give us a picture of the rebuilding task that you 
would have should that emergency or others like it occur. And 
let's just use, for example, if we had to take our Army, if it 
fell below 450,000 and we had to add 50,000 trained and ready-
to-fight soldiers, what kind of a task would that be and what 
kind of a time schedule would that be?
    General Odierno. We experienced in the 2000s as we added 
brigades to the Army, it took us 30 months to add one brigade 
combat team, and that has to do with the cycle of how long it 
would take to recruit, how long it would take to go through 
basic training, how long it would take them to go through 
collective training. And that was when we were pushing it very 
hard, it took us 30 months. So it is a significant amount of 
timeframe.
    That is why the readiness of both our Active and Reserve 
Component becomes critical, because we will have to use every 
bit of those assets as soon as possible, and that is the 
concern as we look at our readiness levels.
    Mr. Carter. And basically the Army has proven as a fact, 
the more training, the more survivability, the less training, 
the less survivability.
    General Odierno. That is correct. And it is about doing it 
consistently over time every year, training, training, 
training. That builds more and more capability.
    Mr. Carter. So it is easy sometimes for us to see the 
picture of numbers. It sometimes is hard for us to see the 
picture of time it takes to make an effective fighting soldier.
    General Odierno. If I could just take a second, Chairman.
    Mr. Frelinghuysen. Go right ahead.

                            TASK FORCE SMITH

    General Odierno. Because this idea of Task Force Smith. I 
have gone back and read about Task Force Smith lately, and what 
really--I get chills just talking about it--it is so indicative 
of what we are doing today, it scares me.
    Thirty percent of Task Force Smith had combat veterans from 
World War II. All of the leadership. In fact, the battalion 
commander was a war hero in World War II, a Silver Star winner. 
And what happened was, is they didn't have the money to train 
the 70 percent new soldiers that they had. So when they 
deployed, he did everything right tactically and operationally, 
he put them all in the right positions, but they didn't know 
how to fire weapons, they didn't know how to maneuver, they 
didn't know how to synchronize, and so they were very quickly 
overrun.
    And that is what we face. If we don't get the dollars, we 
are going to be facing something very similar to that. We are 
not there yet, we are not there yet, but if we continue along 
this path, we could be facing that 2, 3 years down the road, 
and I am deathly worried about that.
    Mr. Carter. Well, so am I. And having just come back from 
Ukraine and seeing what the future holds for potentially 
untrained troops facing against trained troops in that region, 
not ours, but other people's, disaster looks you right in the 
eye in that situation.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Judge. And required reading 
is ``The Coldest Winter'' by David Halberstam. If you want a 
wakeup call with what the judge and the general are talking 
about, it is a remarkable book.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. And then Ms. Kaptur.

                        Remarks of Mr. Crenshaw

    Mr. Crenshaw. Thank you all for being here today. And I 
want to thank the Army for its leadership, including funds in 
the Future Year Defense Plan for the upgrade for the new tank, 
I think the ECP. I think you all know we have had some spirited 
discussions over the last several years about Abrams tank 
production, and I know it was your view initially that you 
weren't going to need any tanks for a while, so maybe the most 
cost-effective course of action would be to close down the tank 
production line and then open it up if and when more tanks were 
needed.

                          TANK PRODUCTION LINE

    And this subcommittee thought it might be a better use of 
taxpayers' dollars to keep the tank lines open, spend about 
half as much as it might have cost to close it and open it up. 
I think that was estimated somewhere between $600 million and 
$1 billion. So we put some money to have a minimum production, 
keep the tank line open.
    I think the next year foreign military sales were coming 
online, and there was a question would that be enough to keep 
the lines open, and we put a little more money to make sure 
that happened, and that kept that one tank production facility 
in our country from being shut down. And I want to kind of 
publicly thank the chairman for his leadership and thank you 
all for working with us to make sure that happened.
    And do you care to comment about the ECP, about that 
program as you ramp that up?
    General Odierno. Well, now, you know, what we said all 
along in the discussion earlier was about new tanks, but it is 
now going to be time for us, we have got to start now putting 
new changes to our current tank, the M-1A2 SEP, and so we will 
begin to do that. We are accelerating that now to maybe 2016, 
2017 timeframe, and we will begin to do that inside of the Lima 
tank facility. And it is going to be critical. We knew all 
along we were going to have to do that at some time, and now 
that time is coming very quickly.
    Mr. Crenshaw. Just a quick question----
    Mr. McHugh. Could I--I am sorry, Mr. Crenshaw. Just so I 
can add, and the Chief described our posture on new tanks, but 
we tried to respond to the challenges at Lima because of the 
problems that we were concerned with, with respect to skilled 
workers. We accelerated that ECP program. It was originally 
going to be 2019, and we moved it to 2017.
    And the $120 million which Congress did provide will in 
part, I think it can be fairly said, help us reduce the risk as 
we transition from the A2 program to the first ECP 1. So that 
was money through six pilot tanks that we utilized there, well 
spent. And as I said, I think it will help a smoother 
transition to our modernization program.
    Mr. Crenshaw. Yeah, I think we are in a good place now. 
Appreciate that.

                         ARMY TRAINING DEVICES

    I want to ask you quickly about Army training devices, 
simulation. We talked a lot about procurement. And it is always 
better to train live, but that can be expensive, and more and 
more people, the services are looking at simulation, renting 
these devices. You don't have to develop them, you don't have 
to maintain them. You can kind of let the private sector take 
the risk. And we put some money, I think, in 2014, or at least 
encouraged you to look at the possibility of using some 
simulation in terms of training, then moving into live 
training.
    Can you give us your view? Have you done that? Has it 
worked out?
    General Odierno. So, yes, we are doing that. Actually, we 
need more money. I would like to have more money to do it. It 
is absolutely essential for us. And what it does, it allows us 
to link installation to installation. So we can have a unit 
training in a simulator for a tank battalion or a Bradley 
battalion or company, and we can link them to an exercise that 
is going on at the National Training Center in Europe, and so 
it makes it more realistic. And that kind of thing is 
absolutely critical for us, as we want to build 
interoperability with our allies, but also it allows us to link 
with the National Guard and Reserve as well.
    We are making progress, but this is an area I worry about 
because we have not been able to invest in it like we would 
have liked, and so what it does, then, not able to invest in 
this will cost us more money down the road to train, where if 
we could invest in it, it would lessen the amount of money we 
have to spend on training 2, 3, 4 years from now, and it is 
unfortunate.
    But we have used that money. We think it is critical to our 
future to have that kind of training, it is absolutely 
essential for us, and it does save money as we go forward.
    Mr. Crenshaw. Any obstacles that you have run into, 
anything we can help you with?
    General Odierno. I think the main thing is just having 
enough dollars in order to do it. I think we have a good 
program in place, we know where we want to invest. It is a 
matter of having the amount of dollars to invest in it.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Crenshaw.
    Ms. Kaptur, and then Mr. Graves.

                         Remarks of Ms. Kaptur

    Ms. Kaptur. Thank you, Mr. Chairman.
    Secretary McHugh and General Odierno, thank you so very 
much for your service to our country. And, General Odierno, I 
am informed this may be your last formal appearance before our 
subcommittee, and if that is so, thank you so very much for 
your service to our country. You won't remember, but I first 
met you when you were in theater in Iraq at the very beginning 
of that campaign.
    General Odierno. I do.
    Ms. Kaptur. And what a difficult journey this has all been 
for the world and certainly for our soldiers.

                                  IRAQ

    I wanted to ask you very quickly, on the issue of Iraq, 
today, whether you look at Tikrit and what is happening there 
or throughout Iraq, what percent do you think of the Iraq Army 
today is comprised of Iraqis who are of Shia or Sunni? If you 
could just estimate the percentage in the military, what would 
you guess it is today?
    General Odierno. I think in the military it probably 
represents somewhere along the line of the population. It is 
probably about 60 to 70 percent Shia and about 20 to 25 percent 
Sunni and then about 5 to 10 percent Kurd.
    Ms. Kaptur. I thank you very much for that. I think for all 
of us here, when we think about the future of that region, the 
political reality of Iraq has created a very unbalanced 
situation. And I don't know where it is all headed, but I have 
to say I am quite concerned.
    General Odierno. If I could just add, ma'am, I apologize, 
but the real concern is these units, these Shia militias that 
are operating, frankly, independently of the Iraqi security 
forces, that aren't officially under the Iraqi security forces. 
We are not sure who they are reporting to, who is giving them--
well, I think we know.
    Mr. Frelinghuysen. We have a pretty good idea that they are 
under Suleimani and the Quds Force.
    General Odierno. Yeah. So that is concerning. So that is 
even in addition to what I just told you.
    Ms. Kaptur. Were you surprised to see General Suleimani 
posing for pictures in Iraq?
    General Odierno. I am very surprised. It is very 
disappointing. He has the blood of American soldiers on his 
hands. And it is very concerning to me, as well as some of the 
other people that are involved. Mohandis, who has been charged 
with the bombing of the U.S. Embassy in Kuwait, is also running 
around there, and it is very concerning to me as I watch this.
    Ms. Kaptur. The politics of this has sort of preceded the 
security matters with which you were charged and are charged. 
It is very troubling to me, the mismatch between the politics 
of what is going on and what we are asking our military to do.

                      NATIONAL GUARD AND RESERVES

    I wanted to pivot to the Guard and Reserve very quickly. I 
am very pleased to see that as Army restructures and Army Air 
restructures that there has been attention given, pretty 
significant attention, given to the role of the Guard and 
Reserve in future force. I obviously represent a great deal of 
it in Ohio, and we are very, very proud of them. I am concerned 
that the National Guard will lose 8 percent of its strength. 
And I am wondering if, for the record, you can provide 
additional information on which assets will be retained and 
what assets will be divested.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Ms. Kaptur. I will also just comment that in the region 
that I represent we have different bases, Reserve, Guard. Many 
of them all have mechanics. They are not necessarily 
collocated, but you can see a way of savings for basing trucks, 
basing planes. And the commanding officer of a Reserve unit 
sits over in Chicago while the unit might be in Toledo, Ohio, 
and I am going, ``This makes no sense.''
    So the integration of Reserve, Guard units, along with 
regular force. We have our first unit commander of our F-16 
unit at Toledo who is actually regular Army Air. This is the 
first time this has ever happened historically. So we see the 
integration happening. I want to encourage you along those 
lines. I have so much faith in our Guard and Reserve Forces. 
And thank you for including them in your restructuring. But can 
you tell us for the record what assets will be----
    General Odierno. So what we do, ma'am, is first off, to 
your comment, as we get down to 450,000, which is in the 
President's budget, 54 percent of the Army will be in the 
Reserve and National Guard and 46 percent in the Active. We are 
the only service who has more structure in our Guard and 
Reserve than our Active, and that is because we are totally 
dependent on what they do.
    What we do for structure is--I don't want to get into too 
much detail--we go total Army analysis, which identifies what 
we need. So what we then do is we divide that up between the 
Guard, Reserve, and the Active and provide that to the Guard 
and then we tell them, you have to give us this kind of force, 
this many combat brigades, this many engineering brigades, this 
much truck companies. And then we ask them, working with them, 
they determine where that structure will be inside of the Guard 
working with each State.
    So I can't tell you specifically, because we work with the 
Guard, but what I can lay out for you is what is the structure 
in the Guard that we want to have, and then we work with the 
Guard to develop that very specific laydown from State to 
State.
    Ms. Kaptur. I would just say also to my colleagues who may 
not represent Guard or Reserve but have big bases that are 
Regular Force, if you look at the threats we are facing 
globally, that also can sting us good here at home, I think it 
is really important that we think about the way that we deploy 
our Guard and Reserve, who may be needed in the future 
regionally. They know their communities very well. They need to 
be integrated with our Homeland Security and our regular 
police. And this is all ahead of us, but I think it provides us 
with a strength regionally in each of the places that we 
represent that is really very important.
    General Odierno. And, ma'am, the final thing I would say is 
with the reduction in the Active Component to 46 percent of the 
force, in certain areas we are going to be more reliant on the 
Guard and Reserve than we ever have been before, and 
specifically in combat support, combat service support, because 
they probably in some case will be our first responders, 
because that is where the structure is. And so we have to work 
very carefully and closely with them to do the integration, as 
you pointed out.
    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    Ms. Kaptur. I want to associate myself with whatever the 
Chairman said about Ukraine. And I want to ask General Odierno 
if you could provide for the record an answer to the question 
of, since Ukraine is not a member of NATO, what models are 
there militarily of providing a multinational security force 
outside of NATO to meet the threat at Ukraine's border. I would 
appreciate your thoughts on that.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. For the record. It may be in the course 
of further questions. We are going to try to get around to do 
some more questions. Thank you, Ms. Kaptur.
    Mr. Graves.

                         Remarks of Mr. Graves

    Mr. Graves. Thank you, Mr. Chairman.
    Gentleman, thank you for being here. And it is just good to 
have you before us. And a lot of the questions have already 
been asked, and I am sort of at the end of the podium here, if 
you would call it that. But I did want to associate myself with 
Ms. Kaptur and Mr. Womack and Mr. Diaz-Balart about the 
importance of the Reserves and the National Guard.
    And I sense that there is an expectation that when called 
to duty, they are to look and to perform as Active Duty and to 
blend and be prepared and ready to go. And with that, I would 
suspect that it would be wise that they are equally trained and 
equipped as Active as well, and I would hope you would keep 
that in mind, because so much is expected of them. And they are 
wonderful men and women who blend into our communities and are 
a great advocate for the Army as well when they are not in an 
Active role.

                          HUNTER ARMY AIRFIELD

    But just changing a second, I had the privilege a few weeks 
ago to spend some time at Hunter Army Airfield in Savannah 
area, along with Fort Stewart, and it was a great opportunity 
to visit with the local leaders and with the men and women 
there that are serving. And, quite frankly, it was very 
inspiring. I was really inspired there.
    But one thing that stood out to me, and maybe, Mr. 
Secretary, you could comment on this, and you probably deal 
with this in a lot of different bases, but at Hunter Airfield 
particularly there was this hangar that has been there probably 
70, 80 years, and it was originally designed for the early 
bombers and still looks as a relic there on this base. But 
within this hangar were billions of dollars worth of aircraft. 
Many of them were being disassembled and reassembled, as is 
required, refitted and such.
    And it just struck me that here is a hangar that was 70, 80 
years old that is not in great shape, obviously, providing some 
protection from the elements, but in a coastal region, 
protecting billions of dollars of equipment. What is the remedy 
for that? Is there a list in which things such as that are to 
be prepared or fixed in the future? And maybe you could just 
share that, Mr. Secretary.
    Mr. McHugh. Well, I would be happy to, Mr. Graves. I have 
been to that hangar.
    Mr. Graves. You have seen it.
    Mr. McHugh. I have flown in and out of that Army airfield 
any number of times. And great soldiers, civilians doing 
incredibly important work.
    As you noted, some of our facilities have approached museum 
age, and we recognize that. But in terms of our military 
construction programs, we try to lay out through the Future 
Year Defense Plan a program where we address facilities that 
are of the most urgent replacement or major facility 
modernization.
    Just to use our recent budget and the challenges that we 
face for replacement programs like you envision at Hunter, we 
should really have about 40 percent more budget than we have 
needs right now, and under sequestration that will only become 
more dire. Our facilities maintenance program, frankly, is 
designed to be at a 90 percent standard, in other words we are 
supposed to be investing FSM, it is called, 90 percent of our 
needs. The President's budget provides about 79 percent of 
those needs, so we are below our historical average, and 
sequestration would take us to about 62 percent.
    And what that means is that gap between 90 and 62 are 
buildings that are continuing to erode, continuing to degrade. 
And over the last few years, we have been getting further and 
further and further behind. So even if we had a sufficiently 
large check, it would still take us a number of years to catch 
up. And as we have discussed here, sufficiently large checks 
seem to be in somewhat short order at the moment.
    Mr. Graves. Right. And maybe you could share, is there a 
priority list of some sort that bases can look to and see?
    And might I add, Mr. Chairman, when I was there, I had a 
great meeting, and Colonel Kline led us there, and in no way 
did they complain or make an issue of it. In fact, they were 
proud of their innovation and their creativity to work within 
the limited resources they had. And that was inspiring to see 
that. But at the same time, I felt like, wow, we as a committee 
have a responsibility, one, to protect the investments, but 
also let the men and women know that we are there and to 
provide an environment in which they can perform well too.
    Mr. McHugh. Mr. Graves, as I said, we have a Future Year 
Defense Plan over which we lay out the hoped-for construction 
schedule. Each facility commander rates his own needs, submits 
those, and then we do an Armywide assessment as to where the 
greatest needs lie.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Mr. Graves. Thank you.

                      OVERSEAS CONTINGENCY FUNDING

    Mr. Frelinghuysen. Thank you, Mr. Graves.
    I would like to reclaim my own time here. And in my opening 
remarks I focused very briefly on the Army's portion of what is 
now characterized as the Overseas Contingency Operation, which 
quite honestly ought to be renamed, because I think most 
Americans today, as we take a step back and sort of look with 
what is happening around the world, know that there is sort of 
a global war on terrorism. And if there is a possibility, be in 
my bill I plan to see that term OCO is replaced.
    I would like to focus on the Army's part of that equation. 
You have always been joined in the fight and you spend that. 
Let me say, when we bring our bill to the floor, there will 
probably be more focus on that fund than any other aspect of 
the budget. And I would like to know how the Army is spending 
that money. And put into the equation the President's decision 
to keep 10,000 troops in Afghanistan. That changes the dynamic, 
because it is, what, a 3-1 ratio in terms of training, 
deployment.
    I would like to know how that all fits together. Run the 
numbers for me, what the Army gets out of that account. Because 
when we go to the floor, we have to defend it, and I would like 
to defend an OCO budget or a war on terrorism budget that 
actually has something to do with fighting terrorism.
    Mr. McHugh. If I could just start, and perhaps the Chief 
can provide some details.
    As you know, Mr. Chairman, the OCO budget request for 2016 
in the President's submission for the Army is $20 billion. That 
generally will go to support our overseas operational programs, 
including Afghanistan. And whether or not this week's 
announcement by the President, after discussions with Afghan 
President Ghani, to sustain our force structure through the end 
of this year at 9,800 affects the OCO overall will have to be 
the subject of further analysis.
    I say our overseas operations are in the main the driver of 
those costs because, as we have discussed before this 
subcommittee in the past, a critical part of OCO is our reset 
initiative, that is, bringing out equipment that we feel is 
reusable and putting it through our depots, modernizing it, 
repairing battle damage and such, and returning it to the 
troops. Right now we have over $4 billion of equipment in 
Afghanistan as an Army that we intend and look forward to 
returning.
    So we think OCO, even beyond the period of conflict we are 
looking at, whenever that might be, is going to require we have 
OCO for reset purposes for an additional 2 to 3 years.
    Mr. Frelinghuysen. Some have already weighed in, and 
perhaps, General Odierno, you are going to weigh in. I note 
Todd Harrison of the Center for Strategic and Budgetary 
Assessments, by using an average cost of $1.2 million per troop 
per year, estimates that maintaining 9,800 U.S. troops in 
Afghanistan through the end of the year, 4,300 more than 
planned, could result in a bill that could grow to nearly $6 
billion.
    Is that an accurate assessment?
    General Odierno. I think so. How we do this, obviously, is 
we average it over the year. So I would say it is close, but it 
is probably a little bit less than that, because we budget for 
an average number of people. So it will be something less than 
that, but that is fairly close.
    So I think we will have to take a relook at what we ask for 
in 2016 in terms of OCO budget requests. And we are scrubbing 
that now, Chairman, based on the recent decision to keep 
individuals there longer.
    Mr. Frelinghuysen. So a further breakdown of the $20.7 
billion. I know, Mr. Secretary, you gave us some aspects. If 
you could run us through the numbers. This is the critical 
mass. This is where the public debate is going to focus, people 
saying it is being used as--a mischaracterization--as a slush 
fund. I would like to know where we are.
    General Odierno. Sure. We have about $2 billion in 
retrograde and reset money in there. We have just over about 
$7.5 billion to support the operations inside of Afghanistan. 
There is another $4.5 billion for support operations, which 
includes our operations in Kuwait that supports Afghanistan. 
And, oh, by the way, it is also dollars that now are supporting 
the operation inside of Iraq as well and what we are doing to 
support that operation. And then we have about $2 billion which 
is general support funds that are used in order to support the 
operations as they continue to go forward.
    Mr. McHugh. Could I add, Mr. Chairman.
    Mr. Frelinghuysen. Please.
    Mr. McHugh. I am not sure I would associate myself with the 
phrase slush fund, but I understand the point.
    Mr. Frelinghuysen. I certainly don't.
    Mr. McHugh. No, no. I wasn't----
    Mr. Frelinghuysen. I think that Members of Congress would 
not like that association.
    Mr. McHugh. I was not accusing, Mr. Chairman.

                    EUROPEAN REASSURANCE INITIATIVE

    General Odierno. And the only other point I would make is 
the ERI is also very important to us.
    Mr. Frelinghuysen. The European Reassurance Fund.
    General Odierno. The Reassurance Initiative.
    Mr. Frelinghuysen. Part of the package.
    General Odierno. That is right. That is almost about $480 
million that the Army is spending. That is paying for all of 
our operations inside of Europe today, our ability to rotate 
forces, preposition equipment, build appropriate infrastructure 
so we can sustain that over the long-term. If we didn't have 
that money, we would not be able to do any of the work that we 
are doing in Eastern Europe.
    Mr. Frelinghuysen. Well, that begs the question, and one of 
your remarkable colleagues is General Breedlove, who briefed us 
that--I can't say he endorsed the notion--but non-NATO ally 
support could change the dynamic for the people of Ukraine. And 
I am not sure where you have weighed in on that issue, but I do 
think we are not talking about their possibly winning against 
the Russians and their capabilities, but at least giving them 
the resources to at least stop the advance of what apparently 
is a desire to basically take the whole country down.
    General Odierno. And I would argue also that this is an 
important time to deter and compel. And so we have to start now 
in our ability as NATO and non-NATO nations to deter.
    Mr. McHugh. Mr. Chairman, the point I was going to make 
after my disassociation with slush fund is we do have about $6 
billion in OCO dollars that should be in our base.
    Mr. Frelinghuysen. But that is always something which we 
are pushing, a bipartisan push into the base.
    Mr. McHugh. True. It is down from about $11 billion when I 
came over to the Pentagon as Secretary. So that is not a slush 
fund, but it is a challenge, and it is something that as we go 
forward in discussions of this and future budgets we have to be 
mindful of.
    Mr. Frelinghuysen. We have to back up what we put in there. 
I can assure you, we are not going to back things up that 
aren't defensible.
    Mr. Visclosky.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you, Mr. Chairman.
    General and Secretary, I am just a bit behind, I think, 
because I left for a vote.

                    EUROPEAN REASSURANCE INITIATIVE

    First question I have, when the chairman started originally 
we talked about the rotation in the three Baltic nations and 
Poland. As that rotation occurs, it is my understanding we will 
always have U.S. troops in those four countries?
    General Odierno. The plan right now is, yes.
    Mr. Visclosky. That is all I need. If I could get to the 
Ukraine and the European Reassurance Initiative, because we do 
have that contradiction where we have that drawdown in Europe 
generally speaking, but now we have the Reassurance Initiative.
    As far as Ukraine, and I speak only for myself, I think if 
we simply continue on the path we are on, the government does 
not continue to be viable. Is there a list, do you have ideas, 
is it built into 2016 that if there is a decision made by the 
administration to increase assistance to Ukraine, and I am not 
talking about lethal assistance, but training, communications, 
ability to get through Russian jamming, what have you, is 
there, if you would, an unfunded list or is it included in the 
$789 million?
    General Odierno. We have developed a list. The $789 million 
is based on the current parameters that have been set, which is 
nonlethal aid. If we get approval to do lethal aid, we would 
have to divert some of that money, change some nonlethal to 
lethal.
    And then we have done some work, we have been focused 
mainly on defensive capabilities, specifically counterfire, 
because they have been devastated by artillery in many of their 
operations, as well, as you mentioned, EW. And so we are 
looking at some things like that, how we could help them, but 
obviously we have not moved. But we conduct assessment teams 
over there all the time to assess what their needs could be if 
we decide to go in that direction.
    Mr. Visclosky. If there would be an increase in that type 
of aid, is that $789 million adequate, if you are looking ahead 
to 2016?
    General Odierno. I would have to get back with you on that.
    Mr. Visclosky. If you could.
    General Odierno. I will.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Mr. Visclosky. If you need more.

                                TRICARE

    On the medical compensation proposal, the Department has 
put forth a proposal on TRICARE cost-sharing. The question I 
would have is, whether or not the Army is assuming Congress 
approves the administration's request, whether the Army's 
medical treatment facilities can handle any potential increase 
in demand on their services if there is a change in the copay 
on TRICARE?
    General Odierno. It depends from facility to facility. 
There will be some that can, there will be some that cannot. 
But part of the proposal is ensure that there is a TRICARE 
network outside that the dependents of our soldiers could go 
to.
    Mr. Visclosky. Without utilizing the copay?
    General Odierno. So what we are trying to do is the 
proposal would be that as they go outside, if that care is 
provided at any other installation on post, they would then not 
have to pay a copay off post. This is now I am talking about 
Active-Duty dependents. Retirees is a different issue. So part 
of that is the copay does go up for retirees.

                           WOMEN IN THE ARMY

    Mr. Visclosky. Okay. As far as the women in service, I 
appreciate that since the chairman's memo in 2013 the Army has 
opened literally tens of thousands of positions previously 
closed to women. When reviewing the individual occupational 
standards for barred positions, are you finding that there 
needs to be any changes as far as opening up some of these 
positions? And how have the physical qualification studies been 
included and reviewed?
    General Odierno. So we are still in the process of doing 
some of these studies. There are two things we are looking at. 
We are looking at the physical studies, we are looking at what 
impact that would have across training, recruiting, et cetera, 
meeting those requirements, ensuring that it would be fair for 
all soldiers. We are taking a look at all of that. We are also 
looking at an integration piece to this, is what does it take 
to integrate females into some organizations and make sure we 
set that up properly and set them up for success.
    So that review is still ongoing. We have put forward 
recently to open up engineers, but we have not yet made a 
determination on armor and infantry. We are still finishing up 
our assessment of those activities, and I expect that those 
will finish up some time in the September timeframe.
    Mr. McHugh. If I could add, Mr. Visclosky.
    Mr. Visclosky. Sure.
    Mr. McHugh. There has been some discussion that our 
examination and attempt to establish what we call MOS-specific 
physical requirements is intended to lower standards to 
facilitate bringing women into certain jobs, and that is simply 
not the case.
    The words the Chief used, posture soldiers for success, is 
really the bedrock principle of what we are attempting to put 
into place. And, indeed, we are told, and it is an estimate at 
this time, we will see how it does or does not bear out, that 
after we do establish these MOS-specific, job-specific 
standards, about 10 percent of the men who are currently in 
those MOS's probably will have to think about being 
reclassified, because they are unlikely to meet those 
standards.
    So it is about success, it is about preparing every soldier 
to take on the challenges of life in the military into areas 
where he or she is best suited.
    General Odierno. And the other thing would be is with this 
force management aspect, what the Secretary just talked about, 
what we don't want to do is create more unreadiness. And so we 
have got to manage this properly, and that is part of what we 
are looking at as we go through this.
    Mr. Visclosky. I do appreciate your good work and encourage 
you in the future.
    And thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Mr. Womack.

                      JOINT LIGHT TACTICAL VEHICLE

    Mr. Womack. Thank you, Mr. Chairman.
    I want to go to Joint Light Tactical Vehicle for just a 
minute. My understanding is we are looking at a down-select 
sometime this calendar year.
    Mr. McHugh. Fourth quarter.
    Mr. Womack. Fourth quarter. So assuming that we have a 
down-select, when would we see load unit rate production on 
that particular piece?
    Mr. McHugh. In theory, it would be late into 2015, but I 
don't want to give you a data point that is incorrect. So with 
your permission, we will get the acquisition objective timeline 
out for you.
    General Odierno. Low-rate initial production would begin in 
the fourth quarter of 2015.
    Mr. Womack. Fourth of 2015.
    General Odierno. Full production we would have to come 
back.
    Mr. Womack. Yeah. So my understanding is we are going to 
buy, in round numbers, about 50,000 of these vehicles and the 
Marine Corps is going to buy another, I don't know, 5,000 or 
6,000, something like that.
    General Odierno. Fifty-five hundred.
    Mr. Womack. General O, tell me a little bit about what you 
personally want to--I know that there is, like, 22 prototypes 
out there, we have got, what, three different companies that 
are competing, some consortiums--but what are you looking for? 
What is it that we want out of JLTV that we are not getting out 
of Humvee or MRAP that is critical to the foot soldier?
    General Odierno. First is mobility. What we have now is the 
HMMWV is not big enough in order to meet our needs and 
integrate all of the communications and other capabilities that 
we need and to move our soldiers around. And we have made it so 
heavy now because of protection, it does not have the right 
mobility and actually I question its survivability.
    The MRAP has great survivability but it lacks significant 
mobility that it could stay on the road. It has trouble off 
road. So the JLTV----
    Mr. Womack. You are trying to find a sweet spot.
    General Odierno [continuing]. Is going to give us that 
sweet spot, and that is really what we are after.
    Mr. Womack. How critical is blast--I am assuming it is very 
critical and it is part of the construct--that we have got to 
have a different kind of blast resistance because of what we 
are facing.
    General Odierno. Yeah. It is. But it is not just blast. It 
is the design of it, which decreases the impact of blast as 
well. So, for example, one of the key things of MRAPs is they 
were further off the ground than HMMWVs, so they provided much 
greater protection. So it is a combination of blast and design 
that provides us increased protection of our soldiers.
    Mr. McHugh. If I may, Mr. Womack, very quickly. The other 
challenge that is encountered, not just in uparmored HMMWVs, 
but in other combat platforms that need modernization, is size, 
weight, and power. We have put so much weight through armor 
onto the HMMWV that, as the Chief said, its mobility has been 
severely challenged. And it just does not have the capacity and 
power expansion to take on our new networking systems, to take 
on all of the new gear that is essential for the modern and 
future battlefield.
    Mr. Womack. What a departure from years past on these 
platforms.
    The last question on JLTV. How are we going to apportion 
these out? Is there a distribution methodology right now, 
General O? How would you----
    General Odierno. Yeah. As we do this, so we will distribute 
it across the total force. The majority of them in the 
beginning will go to the Active Component, and then what we 
will do is we will cascade more modern capable HMMWVs to the 
Guard. But over time the Guard and Reserve will receive JLTVs. 
So that 49,000 number is a total force number as we go forward. 
And, again, there will be some that go to the Guard and 
Reserve; there will be more that initially go to the Active.
    And what we are doing is we are getting rid of the older 
versions of the HMMWVs, and they will get the more modern, more 
capable versions cascaded into the Guard and Reserve, and that 
will work over several years. We can get you more details on 
that, but that is the basic.
    [Clerk's note.--The Army is prepared to brief the Members 
and/or Committee staff on this issue.]
    Mr. McHugh. Just to note, because the numbers seem large, 
and they are at 49,900, but that is only going to replace about 
a third of our HMMWV fleet. So we will still have the need and 
the use for a lot of HMMWVs. And really our rebalance, as the 
Chief noted, as we are integrating JLTVs is make sure the Guard 
and Reserve has an equitable reception on our more modern 
HMMWVs.
    So it is a very comprehensive JLTV-HMMWV rebalance that we 
will be working through. And the rebalance of the HMMWVs isn't 
expected to be completed until 2041. So there is some time.
    Mr. Womack. Yeah. Look forward to the down-select.
    Mr. Chairman.
    Mr. Frelinghuysen. Thank you very much, Mr. Womack.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.

                OVERSEAS CONTINGENCY OPERATIONS FUNDING

    Secretary McHugh, in your statement you said, and I am 
quoting you, ``We now face fiscal year 2016 defense spending 
cap insufficient for operation in an unsustainable global 
security environment.'' So in other words, the plan seems to be 
here that this Congress is moving forward is maintaining BCA 
levels while converting OCO into a slush fund to avoid budget 
caps. So playing games with Defense Department spending.
    So what I am trying to figure out, because I am going to 
ask a question about the Arctic here in a second, can the 
Budget Control Act--BCA budget and OCO slush fund provide the 
Army with the resources and the stability needed to meet 
readiness and modernization requirements, especially in the 
security environment that is becoming more increasingly 
complex? And I allude to--not allude to--I am asking about a 
U.S. Army international soldier Arctic training in Alaska that 
took place at the Northern Warfare Center.
    So we have been talking about readiness and do we have the 
equipment that we have, do you have the soldiers that you have. 
And so I spoke to the General just briefly before the hearing 
started, and I am concerned about the Army having sufficiently 
trained and equipped soldiers onto the battlefield as the 
Arctic continues to open up.
    And so how can you really be saying that OCO--we are 
saying, we are telling you, you can use that for readiness and 
training--aren't you limited as to how you can use it? I mean, 
it might be a slush fund, but it might not let you do the 
planning you need to do.
    Mr. McHugh. Well, the short answer, Ms. McCollum, is we can 
use OCO in the ways in which Congress allows us to. 
Traditionally, base readiness, basic readiness, unless you are 
preparing to deploy to a theater, would not be a traditional 
use, but it would be the prerogative of Congress, from my 
knowledge, to change that.
    It is, I think, important for us, me, to note that we 
support this President's budget, and we do so because it does 
provide, as you noted, the very important aspect of stability. 
And while more money, however it may arrive, is generally 
better than no money added, it is important, we think, to focus 
on an effort on a base budget so that we can have 
predictability, not just for our soldiers, but really for our 
industrial partners, who have told us time and time again how 
challenging it is for them to supply us with product at 
reasonable price when they don't know what our buying power and 
what our programs will be into the future.
    General Odierno. If I could just add. We all prefer a base 
budget based on the budget we have submitted because, first, it 
is more likely to ensure multiyear funding, which allows us to 
do proper planning and long-term planning, where OCO funding is 
year to year. And so we are not sure what it will be from one 
year to the next.
    So although OCO is a solution, and I am not going to turn 
down the money that we get, because it will be much needed to 
increase our readiness, we would much, much rather have it in 
base budget, because that allows us to do many more things with 
it and I think allows us to build a program that will build 
readiness over time. And with OCO, it is year to year, and we 
are not sure what we will get from one year to the next.
    Ms. McCollum. Well, thank you, Mr. Chair. Mr. Chair, I know 
we have heard from Pacific Command and AFRICOM and the rest, 
but I think this issue of what is going on in the Arctic and 
planning well and wisely with our other NATO partners and other 
allies in the area is really something that, when we are doing 
OCO as part of our readiness, doesn't allow the Army and the 
other parts of our U.S. military to really come forward and say 
what we are going to do to make sure that the Russians and the 
Chinese aren't overaggressive in this area.
    Thank you, Mr. Chair.

                         TRAINING AND EQUIPPING

    Mr. Frelinghuysen. Thank you.
    I want to reclaim my time here. I think this fund, which I 
am trying to rename, gives all of our services and our 
Intelligence Community the flexibility they need. I think most 
of us have sort of reached the conclusion that we live in a far 
more dangerous world, and who would have thought that we would 
be evacuating people out of different locations, that the 
Egyptians would be basically doing some things in the northern 
Sinai and doing some things in the vacuum that was created in 
Libya.
    And may I say, in terms of some of the tanks that we are 
talking about, I think the Army has to sign off on some of the 
tank kits that they need to perhaps do the work they need to 
remain truly independent.
    I would like to talk a little bit, and I say this in a very 
respectful way, that there is a lot of training and equipment 
in this account, but I think we need to be mindful that our 
enemies are doing a fair amount of training and equipping.
    It disturbs me. I would like to sort of know from General 
Odierno, as we look around, ISIL, one projection was 15,000, 
then the agency suggested it was 30,000 operatives, a certain 
percentage being foreign fighters. There are training camps all 
over the place now in open sources identified in northern 
Africa, and the Quds Force is uncomfortably close to our 
training and equip operation.
    How are we using our investments in training and equipping? 
Given the fact that a lot of what we are doing is being matched 
and perhaps overmatched by our enemies.
    General Odierno. Yeah. So I think, obviously, our ability 
to train and equip our partners is critical and it is important 
for us to continue to do this.

                               TECHNOLOGY

    We must be mindful of--one of the things I worry about in 
the future is the proliferation of technology is occurring at a 
much faster rate than it ever has been before. We have to 
understand and acknowledge that. And so, it is important for us 
to be more agile in our ability to help our partners in 
providing them capabilities that allows them to assist us in 
meeting common goals and objectives, wherever it might be, 
whether it be in the Sinai, whether it be in Iraq, whether it 
be in Syria, whether it be in the eastern Europe, or wherever 
it might be. It is important for us to understand that.
    What I worry about is we see technology improvements, in 
ISIL, whether they now claim to have UAVs and other technology. 
Russia's expansion and the comment about the Arctic, six 
brigades are adding to the Arctic. They are being aggressive in 
eastern Europe. They clearly have invested and are increasing 
their capability. We have to be aware of this.
    So we have to be able to not only continue to increase our 
own capability and capacity, we have to be able to more quickly 
help our allies and friends as we do this. I think it is 
important for us to be able to do that as we move forward.

            INTELLIGENCE, SURVEILLANCE, RECONNAISSANCE--ISR

    Mr. Frelinghuysen. The account for which I referred to also 
has an element of ISR, and somebody made reference to, maybe I 
did to General Rodriguez talking about the vast expanse he had. 
Some of that is relative to no matter where it is around the 
world, correct me if I am wrong, relative to force protection, 
but some of it is relative to keeping an eye on bad people.
    Tell us your feeling about where you are, your degree of 
comfort given the areas that our Army troops are stationed.
    General Odierno. So I think as we are--we have to be 
constantly aware--we have soldiers all over Africa, we have 
soldiers obviously in Iraq, in Afghanistan, in Jordan. And it 
is important for us to make sure that we have the systems in 
place that allow them to be able to see the enemy and predict 
the potential operations to protect ourselves. And as we reduce 
our size, the fact that we have 3,000 soldiers and Marines in 
Iraq, we have got to be able to make sure we can protect those 
3,000 soldiers. Although they are not doing operations, they 
are training and advising, and we have to make sure that we are 
able to protect them, and that requires ISR and some other 
systems.
    In Afghanistan, the same thing. As we have reduced our 
presence we continue to provide assistance to the Afghan 
security forces, it is important that we still have the intel 
and ISR capabilities to support their protection because they 
become targets. That is key wherever it might be. In Africa, it 
is just as important as we have soldiers all over, Africa, 
north, central, west and eastern part of Africa, it is 
important for us to ensure that we have the systems in place to 
provide them the protections.

                             SPECIAL FORCES

    Mr. Frelinghuysen. Would you talk in general terms about 
some of those forces that there is a view that somehow we can 
reduce the big Army and somehow rely on, and may I say some of 
the bravest soldiers that ever were, courageous of our Special 
Forces. Often people think that somehow we can trade that off. 
Can you comment a little bit about their role in the general 
sense and how they assist in a variety of ways?
    General Odierno. So as--you know, one of the great 
lessons--first, as we look at this uncertain world, we have to 
build capabilities to respond in many different ways, and part 
of what we learned during the last 10 or 12 years is as close 
to integration between conventional and special operations 
forces and the ability to them to work together to solve really 
complex problems. Whether it is training and advising in Iraq, 
and should we have both conventional and Special Operations 
Forces conducting those operations. If we ever have to expand 
that, we have to expand both of those at the same time. That 
interconnection is essential.
    The same thing is going on in Afghanistan, where we have 
both special operations and conventional forces simultaneously 
conducting operations together. So this link is key. It is just 
never just Special Operations Forces, and they are the first 
ones to tell you that, that they need this support of 
conventional capability, enablers and combat capability for 
them to be successful. As we look at these diverse threats, 
whether it be in Eastern Europe, whether it be in Iraq, whether 
it be in Syria, whether it be in Africa, wherever you might 
choose, and place we don't know about that could pop up, it is 
important to have the ability to do with this with both 
conventional and with Special Operations Forces. So it is 
critical--I worry as we continue to reduce our structure if our 
assumptions are wrong, that we will pay a heavy price.
    I worry that we get smaller and smaller, the importance of 
us being right becomes more important. And unfortunately, we 
have not had a great history of being able to predict the 
future. And so it is important for us to understand that as we 
look at these force structure reductions, are we going to be 
able to predict the future correctly?
    Again, as I said earlier, the burden of this is going to 
fall on our shoulders, because we make a mistake, it will be 
them that go, whether they are trained or ready, they will 
still be asked to go. And it will cost them their lives if we 
have not--if we have made mistakes. So that is my deep worry. I 
have watched the bravery and courage of these young men and 
women up close and personal for 13 years and they have done 
everything we have ever asked them to do. We owe it to them to 
make sure that they get the training and systems that are 
necessary for them to be successful in this very complex world 
that we live in today.
    Mr. Frelinghuysen. Further questions for the Secretary? Mr. 
Visclosky.

                             CYBERSECURITY

    Mr. Visclosky. One line of questioning on cybersecurity, 
the Director of National Intelligence listed it as the first 
among worldwide threats. And cyber command three fiscal years 
all, 2014, started a 3-year funding program to realign military 
civilian and contract manpower positions. Given that 2016 is 
the third year in the realignment, how are you doing in the 
Army and will it take a bit longer?
    General Odierno. Two things: We have been asked to form 42 
teams in support of them and we are ahead of schedule in 
developing those teams to support them, but the Army has done 
several other initiatives I think are very important. We 
established a Cyber Center of Excellence at Fort Gordon 
Georgia, where we are now developing all our training, all our 
basic cyber, both enlisted and officer force. We have developed 
an MOS for cyber, which is new. We are the first service to do 
that. It has enabled us to focus resources on developing this 
capability, not only to support cyber command, but also to 
support the Army as we have to conduct cyber operations in the 
future.
    So we have reorganized and we have invested heavily in the 
future of cyber. We also have a cyber institute at West Point 
that is reaching out to civilians and educational institutions 
to help us to continue to develop cyber capability. So we are 
really all in on this.
    Now our cyber in the next few years will move down to Fort 
Gordon, that is scheduled for a couple of years. That will 
enable us to ensure that we have all of our capability in one 
place. It will enable us to garner the resources there in order 
to properly train, for us to conduct missions in the future.
    So there is nothing more critical in my mind today, and I 
think we have invested in this in a variety of ways to support 
both cybercom and our cyber's role in supporting the combatant 
commanders and cybercom, as well as them supporting our 
tactical forces in the future, because I believe cyber is going 
to be an important part of our ability to be successful 
tactically as we look to the future.
    Mr. McHugh. We should also mention the 42 cyber teams that 
Chief cited are in the active component. This is a whole-of-
Army effort. Indeed, the National Guard is in the process of 
setting up 11 cyber protection teams, the Reserves will set up 
10. Obviously, particularly in the Guard where they have a very 
significant homeland defense aspect, that will be particularly 
helpful and important, and it makes good sense it seems to me 
to have us go to these soldiers who, in their civilian jobs, 
often have cyber-related employment, and bring to it an 
expertise beyond the training that we provide that makes them 
very unique, very skilled. So a whole-of-Army event. And as the 
Chief mentioned, we are making pretty good progress. But the 
vulnerability is not just from a military perspective, but from 
the Nation as a whole here are significant.
    Mr. Visclosky. Thank you.
    Mr. Frelinghuysen. Mr. Visclosky and I were very pleased to 
sign off a new reprogramming request for the center, so we 
expect big things from you.
    Mr. McHugh. Thank you.
    Mr. Frelinghuysen. Hopefully you are working on it with all 
the other services.
    Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman. I don't have another 
question. I just feel compelled to make a comment at the risk 
of sounding like it is editorial in nature. There is a--there 
just seems to be a tendency here in Washington inside this 
beltway to, depending on political persuasion, to refer to OCO 
as a slush fund. I have to tell you, that hurts to hear it 
referred to--to me, a slush fund is something that would be 
used to spend money unnecessarily or wastefully.
    And I promise you, even though we disagree on some things 
like ARI, and there will be other arguments down the line, and 
I believe these are substantive, very productive arguments, but 
I don't believe these gentleman here, and those that have been 
before us, and that will come before us are doing anything 
except being good stewards of the dollars that we are giving 
them.
    So Mr. Chairman, in the season in which every single one of 
us are notifying young men and young women from our high 
schools that are receiving appointments to the Service 
academies to volunteer themselves to be future leaders of our 
military, I have just got to say, we need to be careful, that 
the message that we are sending is anything but that which 
would become a combat multiplier so that the men and women 
commanded by these gentlemen, and these future leaders will be 
enhanced.
    And I just think that sometimes when we reduce the 
conjecture down to slush funds and those kinds of things, it 
sends a message that is counterproductive to the 
professionalism of the organizations that are being entrusted 
with this money. With that, I just yield back my time and I 
feel a lot better
    Mr. Frelinghuysen. And many years ago, our Army Chief 
attended West Point, and we recognize that, and we have 
superlative force, not only that comes out of West Point, but 
all of our service academies and all the men and women who make 
up our Service.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Does that include the Naval Academy?
    Mr. Frelinghuysen. Yes, of which you and I serve on the 
board of visitors for.
    Mr. Ruppersberger. I have a problem because I am co-chair 
of the Army caucus over at the Naval Academy board so I can't 
go to an Army and Navy game, or I am going to get shot by both 
sides.
    The ranking member just talked about the cyber issue. I 
know you focused a lot in that. General, can you tell us how 
you feel how serious the cyber threat is to our national 
security? And secondly, more specifically, what your role will 
be, I mean, we are fusing information, we are getting the 
information out, but to national security and also from your 
point of view on the battlefield?
    General Odierno. First, from an institutional perspective, 
we have much work to do in terms we have it to reduce the 
number of systems that we have, networks that we have, we have 
to reduce the number of networks to protect those. We are in 
the process of doing that. It is going to take investment on 
our home stations to do that. We have a program in place to do 
that. That is critical. We have to raise awareness in all our 
units, the importance of cybersecurity, and computer security 
and so we limit the ability for people to access.
    It is a significantly important issue for us, because 
frankly, it is a fairly cheap and inexpensive way to attack the 
United States. If you are able to somehow understand how to 
attack our systems, whether it be militarily, or institutional 
systems, or our civil society, name it whether it be financial 
or our infrastructure, you could have quite a significant 
impact.
    So, it is incumbent on all of us to understand that there 
is a threat and we witness it every day as we get more and more 
reports of people trying to attack. So it is critical for us 
that we work together on these issues.
    You know, I think one of the things we have to continue to 
have, and this is my personal opinion obviously, is a 
discussion on policies and law, domestic and international law 
as it relates to this, because we have groups, specifically, 
non-state actors who are taking advantage, the fact that they 
are not held accountable of international law because they are 
not a state. So I find that to be concerning.
    In the future for us operationally, I believe that we have 
to develop capabilities that allow us to tactically use our 
abilities in order to give us advantage on the battlefield and 
to protect ourselves against potential attacks of our 
adversaries. It is going to be critical for us as we move to 
the future.
    Mr. Ruppersberger. You raise a good point. I think cyber 
command has estimated we would lose over $1 billion a year. 
Information is being stolen from all of our businesses, our 
medical, our academia, our space areas and that type of thing. 
But then there is a destructive attack, with Sony where really 
they can shut down operations and steal information. And yet, 
you talk about not only the United States passing legislation, 
Congress, to deal with this issue, but also we need to do it on 
a global area, including China, who is probably the most 
aggressive in stealing from us. You know, Russia is very good 
in this field also.
    But I think--I will say this, under the Intelligence 
Committee I think is marking up today an information sharing, 
which will hopefully deal with the issue of the attack like we 
had with Home Depot and Blue Cross and that type of thing. By 
this June, this Congress has to pass the PATRIOT Act as it 
relates to the cyber issue or we will be in a really bad 
situation where our country will be less safe.
    So, just as sequestration is, a lot of what we are doing 
now is based on what Congress is doing. I am just glad that you 
are focused on this threat and understand that the training and 
working together as a team.
    Mr. Frelinghuysen. Thank you, Mr. Ruppersberger.
    Mr. Secretary, General Odierno, on behalf of our committee, 
we thank you for being here for nearly 2\1/2\ hours, please 
extend our grateful thanks to the men and women you represent, 
whether they are here at home or abroad defending the cause of 
freedom. We stand adjourned.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                       New Technology Development

    Question. With the refocus on missile technology by Russia and 
rising powers like China, what steps is the Army taking to develop new 
technologies to counter against peer and near-peer competitors in the 
future?
    Answer. The Army has made significant investments to address the 
challenge of Russian and Chinese missile advancements.
    To address advanced cruise missile and unmanned aerial system 
threats, we have begun design of the Low Cost Extended Range Air 
Defense (LowER AD) missile system, which will develop and demonstrate 
an air defense interceptor that is smaller and more affordable than 
Patriot. The Army has also made significant investments in technologies 
for long range precision fires with the Low Cost Tactical Extended 
Range Missile (LC TERM). This effort will develop a reduced size 
missile system to engage targets at ranges up to 499km. In addition, 
advanced navigation technologies and techniques will allow the missile 
to effectively operate in GPS denied/degraded environments. The 
extended range of this missile will allow U.S. Forces to engage in 
attack operations to ``shoot the shooter,'' providing the capability to 
defeat enemy missile launch systems in locations previously believed to 
be ``protected.''
    The combination of LowER AD in an active defense role and LC TERM 
in an attack operations role will offer increased lethality and 
survivability. These efforts are anticipated to transition to Programs 
of Record in FY21. As these efforts mature, the Army will continue to 
assess the threat picture to ensure that our efforts are oriented 
toward the most challenging enemy systems.
    Additionally, our Next Generation Fires (NGF) radar effort is 
investigating multi-mission radars that can perform both the air 
defense surveillance and counter-fire target acquisition functions. The 
multi-mission radar will allow the Army to reduce the types of radars 
it employs, thus reducing associated training, life cycle support, and 
production costs. The NGF radar will incorporate state-of-the-art 
technology to defeat emerging threats and open system architecture to 
allow cost-effective future upgrades.

                       New Technology Development

    Question. Is the Army focusing on just countering and reacting to 
new weapons technologies by our adversaries or is there sufficient 
funding available to invest in true leap-ahead technologies? What are 
the focus areas the Army should pursue?
    Answer.
    We have developed a new Army Operating Concept that provides the 
intellectual foundation and framework for learning and for applying 
what we learn about future force development, to include Soldier 
development, organizational design, and technological applications. The 
Army Operating Concept is grounded in a vision of future armed conflict 
that considers national defense strategy, emerging operational 
environments, advances in technology, and anticipated enemy, threat, 
and adversary capabilities.
    The Army recognizes the importance of science and technology 
research efforts to develop the next generation of capabilities in a 
broad range of areas, including autonomous systems, disruptive 
energetics, quantum computing, and alternative power and energy. The 
Army has maintained robust investment in science and technology in 
order to mature key technologies for future capabilities. For example, 
current investments are designed to provide dismounted and mounted 
Soldiers the capability to obtain trusted position, navigation, and 
timing information while operating in conditions that impede or deny 
access to GPS. This capability will be essential to future operational 
environments. Second, the Joint Multi-Role Technology Demonstrator (JMR 
TD) effort will demonstrate transformational vertical lift capabilities 
as we prepare to replace the current vertical lift fleet. Third, solid 
state High Energy Lasers (HEL) will enable the low-cost defeat of 
rockets, artillery, mortars, unmanned aircraft systems, and cruise 
missiles. Finally, the Army is pursuing a number of potentially game-
changing technologies at the basic research level. One example is our 
``Materials on Demand and by Design'' research that will provide the 
capability to build new materials from the bottom up. This research 
could allow the Army to design new and improved materials for ballistic 
protection and energetics.
    Due to the ease and speed of technology transfer and adaptation by 
enemies, it remains critical that we accelerate new technologies to 
maintain overmatch. The Army will continue to invest in cyber, and in 
science and technology, developing lighter weight and lower volume 
platforms with increased protection and survivability to improve 
tactical, operational, and strategic mobility and deployability. Even 
as we adapt the way we operate and develop concepts to drive 
technology, the impacts of budget reductions present challenges to our 
modernization strategy.
    Modernization enables a smaller, agile, and more expeditionary Army 
to provide globally responsive and regionally engaged forces 
demonstrating unambiguous resolve. But sequestration adversely impacts 
the Army's ability to modernize and field critical capabilities that 
improve operational readiness of aging equipment. Predictable and 
consistent funding is required to modernize on the current timeline, 
meet the evolving threat, and fully execute Defense Strategic Guidance 
requirements. The cumulative cuts in modernization programs threaten to 
cede our current overmatch of potential adversaries while increasing 
future costs to regain or maintain parity if lost.
    Question. What is the status of the Army's Advanced Hypersonic 
Weapon as part of the Conventional Prompt Global Strike program? Where 
do you stand on the issue? Would the Army support standing up an Army-
led Joint Program office to pursue a hypersonic weapon system if 
Congress would authorize and fund such a program?
    Answer. The Office of the Secretary of Defense (OSD) manages and 
funds hypersonic technology development through the Conventional Prompt 
Global Strike (CPGS) portfolio. The Army (through U.S. Army Space and 
Missile Defense Command and Army Forces Strategic Command (USASMDC/
ARSTRAT)) supports OSD along with other agencies and services as part 
of a national team. The USASMDC/ARSTRAT Advanced Hypersonic Weapon team 
is currently supporting the U.S. Navy Intermediate Range Conventional 
Prompt Strike Program. The Army is providing both procurement and 
flight test execution support to the U.S. Navy Flight Experiment 1, 
planned for 2017.
    The existing Advanced Hypersonic Weapon team is designed to 
comprehensively support the Conventional Prompt Global Strike program. 
There is no separate Army requirement for the Advanced Hypersonic 
Weapon, and, thus, no basis to establish a separate Joint Program 
Office executed by the Army.

                   Leveraging RDT&E Assets in Alabama

    Question. What are the possibilities of leveraging the vast RDT&E 
assets at Redstone Arsenal and Northern Alabama to develop new 
technologies and capabilities in the cyber domain? To what extent are 
we using available FTE's, at various locations, before standing up new 
buildings and new commands?
    Answer. Science and Technology (S&T) Cyber efforts are led 
primarily by the Communications-Electronics Research, Development and 
Engineering Center in Aberdeen, MD, and the Army Research Laboratory in 
Adelphi, MD. However, the Army leverages the critical capabilities and 
expertise of key organizations at Redstone Arsenal for this important 
mission.
    The SMDC Technical Center (SMDCTC) in Huntsville is working with 
the intelligence community to characterize cybersecurity threats for 
nano-satellites while developing tools to assess space system 
vulnerabilities. SMDCTC also works to develop resiliency in the space 
platform industrial base supply chain while developing technology 
roadmaps and investment strategies for space systems. SMDCTC also has 
an active partnership with Auburn University in support of these 
initiatives.
    The Aviation and Missile Research, Development and Engineering 
Center (AMRDEC) at Redstone Arsenal provides Cyber expertise in areas 
such as supply chain risk, anti-tamper, and network defense. AMRDEC has 
active partnerships and outreach with local schools and universities 
such as Auburn University, the University of Southern Alabama, 
Mississippi State, and the University of Alabama-Huntsville.
    Additionally, Army S&T research leverages industry, academia, and 
other government agencies through partnerships and collaborations such 
as Cyber Huntsville, a non-profit organization made up of Industry, 
Government and Academic institutions. Through Cyber Huntsville, the 
Army engages in activities to develop the local cyber workforce and 
support local, regional, and national cyber challenges.

                      Weapons and Defense Systems

    Question. There is a lot of focus on acquisition, due to the combat 
in Iraq and Afghanistan. What about Army research? I am concerned that 
we are eating today's seed corn instead of investing in the next 
generation of weapons and defense systems. What areas do we need to see 
more activity in as soon as the budget and funding allow?
    Answer. Decreases to the Army budget over the past several years 
have had significant impacts on Army modernization and threaten our 
ability to retain overmatch through the next decade. Between 2011 and 
2015, Research, Development and Acquisition accounts were reduced by 
32% from $31B to $21.7B. Procurement alone dropped from $21.3B to 
$15.1B. We estimate that sequestration will affect every Army 
acquisition program to some extent. Major impacts may include delays in 
equipping to support expeditionary forces, delays in combat vehicle and 
aviation modernization, increases in sustainment costs to fix older 
equipment, and increases in capability gaps.
    However, despite these great pressures, the Army continues to 
protect our science and technology (S&T) investments to mature and 
develop next-generation technologies in support of future modernization 
efforts. To mitigate long-term risks to the Army's modernization 
efforts, the S&T investment has been preserved to support future 
capabilities. Our FY16 budget request for S&T matches our FY15 request 
of $2.3 billion, which represents nearly 9.5 percent of overall Army 
RDA. By contrast, S&T was only 8.1 percent of Army RDA in FY13.
    Our intent is to modernize and equip Soldiers with effective, 
affordable and sustainable equipment that is ready and tailorable to 
support the full range of Combatant Command requirements. The 
President's Budget request would provide over $2B to address the 
growing gaps in our modernization accounts.
    The Army will continue to protect S&T investments critical to 
identifying, developing and demonstrating technology options that 
inform and enable affordable capabilities for the Soldier. S&T efforts 
will foster innovation, maturation and demonstration of technology-
enabled capabilities, maximizing the potential of emergent game-
changing landpower technologies. Key investments include Joint Multi-
Role Helicopter, the foundation for the Army's Future Vertical Lift 
capability; combat vehicle prototyping; assured Position, Navigation 
and Timing and enhancing cyber operations and network protections. We 
continue to explore the possibilities of cyber, high-energy laser, 
materials, human performance and quantum science technologies for a 
variety of applications.
    These Army S&T investments are strategically balanced across basic 
research, applied research, and advanced technology development to 
provide both near-term upgrades to our systems as well as invest in 
longterm, leap-ahead technologies. Across the portfolio, these 
investments will enable the Army to become more lethal, expeditionary, 
and agile, with greater capability to conduct decentralized, 
distributed, and integrated operations. Examples include development of 
a Future Vertical Lift capability to guide future aviation 
modernization, lightweight armor to provide force protection to our 
platforms against a range of evolving threats, and addressing emerging 
gaps (cyber, electronic warfare) as we operate in a contested 
information environment. Additionally, we will focus on Assured 
Position, Navigation and Timing (A-PNT) capabilities to enable 
operations in GPS denied environments. The Army must maintain its 
investment in these critical areas regardless of budget challenges.
    The centerpiece of the Army's Modernization Strategy continues to 
be the Soldier and the squad. The Army's objective is to rapidly 
integrate technologies and applications that empower, protect and 
unburden the Soldier and our formations, thus providing the Soldier 
with the right equipment, at the right time, to accomplish the assigned 
mission. The Army will support this priority by investing in 
technologies that provide the Soldier and squad with advanced war 
fighting capabilities such as enhanced weapon effects, next generation 
optics and night vision devices, advanced body armor and individual 
protective equipment, unmanned aerial systems, ground based robots and 
Soldier power systems.
    Improvements to mission command will facilitate the decision-making 
of leaders and Soldiers across all tactical echelons for Unified Land 
Operations in support of the Joint Force and allies. The Army will 
develop and field a robust, integrated tactical mission command network 
linking command posts, and extending out to the tactical edge and 
across platforms. We will build enhanced mission command capabilities 
and platform integration by fielding software applications for the 
Common Operating Environment, while working to converge operations and 
intelligence networks.
    Based on the current and projected demands for ISR, the Army 
adjusted the Gray Eagle unmanned aerial system program's fielding 
schedule to make more assets available to strategic and operational 
commanders this year. The Army also expanded the Aerial Intelligence 
Brigade with an additional 18 Gray Eagles for a total of 36 aircraft, 
and an increase from 48 to 165 soldiers per company.
    With respect to combat platforms, and those desired to enable 
greater protected mobility, the Army's objective is to consider the 
most stressing contingency operations and make its fleets more capable. 
In addition to the Apache AH-64E and Blackhawk UH-60M investments, 
which support the Army's Aviation Restructure Initiative, the Army will 
continue development of the Armored Multi-Purpose Vehicle to replace 
the obsolete M113 family of vehicles and begin to produce the Joint 
Light Tactical family of vehicles. The Army will also continue to make 
improvements to the survivability, lethality, mobility and protection 
of the Abrams tank, Bradley Infantry Fighting Vehicle and Paladin self-
propelled howitzer fleets. While resource constraints will force the 
Army to delay new system development and investment in the next 
generation of capabilities, we will execute incremental upgrades to 
increase capabilities and modernize existing systems.
    Few choices remain if modernization accounts continue to bear the 
brunt of sequestration. Army programs may have higher unit costs and 
extended acquisition schedules. Sequestration will create severe 
reductions in buying power and further delays filling capability gaps, 
forcing the Army to tier modernization--creating a situation of ``haves 
and have nots'' in the force.

                             Shore Defense

    Question. What role might the Army play in a high-tech kind of 
shore defense? For example, weapons which are, in effect, multi-mile 
range cannons fired from shore, not unlike cannons of previous 
centuries, except using very advanced projectiles?
    Answer. The Army--the foundation of the Joint Force--will play a 
key role along with the Office of the Secretary of Defense and Joint 
Service partners in shore defense. We have developed a new Army 
Operating Concept that provides the intellectual foundation and 
framework for learning and for applying what we learn about future 
force development, to include Soldier development, organizational 
design, and technological applications. The Army Operating Concept is 
grounded in a vision of future armed conflict that considers national 
defense strategy, emerging operational environments, advances in 
technology, and anticipated enemy, threat, and adversary capabilities. 
As part of this operational concept, the Army is developing and 
maintaining operationally adaptable fires capabilities that can match a 
wide range of targets.
    The current Army Fires Strategy identifies capabilities that could 
provide security cooperation assistance to partner nations by providing 
a capability to secure key terrain (e.g., the Strait of Hormuz) that 
could also deny our adversaries freedom of movement. These high tech 
shore defense capabilities enjoy a unique advantage because they are 
free of the highly nodal structure of air and naval forces; are able to 
harden, conceal, and disperse their capabilities; and present 
adversaries with a target set that is larger, more difficult and costly 
to attack.
    The Army's fires strategy includes a future Paladin system with the 
Extended Range Cannon-Artillery (ERCA) armament package, and by firing 
the NAVY High Velocity Projectile it could play a role in a land-based 
defensive scenario. The ERCA-Paladin system based on the current 
M109A6/A7 fleet, using its current ammunition suite, as well as those 
in development under the ERCA program (XM1113 and Extended Range 
Artillery Projectile), could prove advantageous against landing type 
vessels and other similar threats in these scenarios with a proposed 
objective range of more than 70 kilometers.
    The Aviation and Missile Research, Development, and Engineering 
Center (AMRDEC) is in the process of adapting existing Army and Marine 
Corps High Mobility Artillery Rocket System (HIMARS) and Multiple 
Launch Rocket System (MLRS) rockets systems to provide a land-based 
offensive surface warfare capability as well. The Army is also 
developing a High Energy Laser (HEL) weapons designed to demonstrate 
robust performance against rockets, artillery, mortars, UAVs, and a 
subset of the cruise missile threat. As HEL technology continues to 
advance to higher power levels, advanced capabilities against a greater 
target set will be possible.
    However, it's important to remember that sequestration and fiscal 
constraints adversely impact the Army's ability to modernize and field 
critical capabilities such as these and others that improve operational 
readiness. Predictable and consistent funding is required to modernize 
on the current timeline, meet the evolving threat, and fully execute 
Defense Strategic Guidance requirements. The cumulative cuts in 
modernization programs threaten to cede our current overmatch of 
potential adversaries while increasing future costs to regain or 
maintain parity if lost.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Carter and the answers thereto 
follow:]

                               IT Systems

    Question. As you know, information technology (IT) is becoming a 
more critical part of all our military systems and operations. However, 
the many bureaucratic hurdles and esoteric requirements of the DOD 
system have resulted in the vast majority of IT innovation occurring in 
the commercial market and not reaching the DOD. Further, many of the 
most innovative IT companies are hesitant to engage with the DOD. With 
that in mind, how does the Army plan to adapt its approach to acquiring 
and fielding IT systems and make itself a more attractive customer for 
the most innovative commercial IT companies?
    Answer. IT capability is critical to connecting our global Army, 
yet commercial innovation often outpaces our traditional acquisition 
processes. As part of the Department's Better Buying Power initiative, 
the Army is working to address the challenges associated with access to 
commercial innovation and IT acquisition. The Army is currently 
participating in Department-wide efforts to identify barriers to the 
adoption and use of commercial technology for military systems. This 
study will facilitate recommendations to improve the incorporation of 
commercial off the shelf technology from nontraditional information 
technology contractors. Additionally, the Army is working to 
communicate more effectively with nontraditional contractors to outline 
Army requirements and ascertain how to best leverage existing 
technology for military use. A related area of focus is designed to 
improve the process for technology insertion into our current weapon 
systems. This allows the Army to more quickly leverage commercial 
innovation as opposed to waiting until the overall system is 
modernized. Moreover, the Army is also investing in modular open 
systems architecture. Open architecture standards and modularity opens 
the market to more companies with cutting edge capabilities that may 
not traditionally compete for development of a full system.
    The Army has also begun to explore the acquisition of IT services 
as opposed to the traditional buying and/or building of IT 
capabilities. IT management systems such as unified capabilities for 
voice, video, and chat are necessary, but the Army may not need to own 
the associated equipment and software. Procuring IT capabilities as a 
service may allow the Army to take advantage of commercial IT 
management expertise while ensuring we have access to cutting-edge 
technologies.
    Finally, to increase partnership between the department and 
technology leaders, the Secretary of Defense announced the creation of 
the department's first permanent office in Silicon Valley as well as a 
plan to provide venture capital to tap into developing technology for 
use across the Army and DOD. The Army is looking forward to working 
through these new initiatives to leverage new technologies that make us 
faster and better connected. These steps are the first of many to 
improve our ability to adopt the cutting edge technologies that will 
enable our information dominance into the future.

                        Military Value Analysis

    Question. We are on path to reduce the size of our Army to 450 
thousand in 2017, a number we have not seen since the late 1940s. It is 
incredibly alarming to say the least. This is occurring at a time where 
we are fiscally constrained. This requires all of us to continuously 
seek out the most cost effective solutions as we stay focused on the 
security of our citizens and defense of our homeland. Can you talk 
about the Army's Military Value Analysis Model and how it will be used 
to analyze and direct cost saving measures in the coming years? What do 
you see as the most critical cost considerations as you look across the 
Army's infrastructure and consider reductions?
    Answer. The Army considers a broad array of criteria when making 
basing decisions as to which forces should be aligned with which 
installations. The criteria are based on strategic considerations, 
operational effectiveness, geographic distribution, cost and the 
ability to meet statutory requirements. They are:
    <bullet> Strategic Considerations: Aligns Army Force Structure to 
the Defense Strategy and Defense Planning Guidance.
    <bullet> Operational Considerations: Seeks to maximize training 
facilities, deployment infrastructure, and facilities to support the 
well-being of Soldiers and their Families. Aligns appropriate 
oversight/leadership by senior Army headquarters for better command and 
control.
    <bullet> Geographic Distribution: Seeks to distribute units in the 
United States to preserve a broad base of support and linkage to the 
American people.
    <bullet> Cost: Considers the impacts of military personnel, 
equipment, military construction, and transportation costs.
    <bullet> Statutory Requirements: Complies with the provisions of 
the National Environmental Policy Act (NEPA) as appropriate, including 
an environmental and socio-economic analysis.
    The Army has completed listening sessions at the Army posts that 
may beaffected by the drawdown and will evaluate the comments and make 
a decision on where to reduce in the future. An announcement is not 
expected before the end of June 2015.

    [Clerk's note.--End of questions submitted by Mr. Carter. 
Questions submitted by Mr. Ruppersberger and the answers 
thereto follow:]

                         CBRN Defense Spending

    Question. Are you sufficiently funded in CBRN defense? If not, 
where would increased funding be helpful?
    Answer. The Army is sufficiently funded for CBRN defense, with all 
our validated requirements addressed. Additional money could be 
responsibly spent on procurement of radiological and nuclear defense 
items.

                  Accounting for CBRN Industrial Base

    Question. As you work to balance force reduction, budget impacts 
and modernization, do you take into account effects on industrial base?
    Answer. Yes, we do consider the effects on the industrial base. The 
Army's Industrial Base consists of Government-owned (organic) and 
commercial industrial capability and capacity that must be readily 
available to manufacture and repair items during both peacetime and 
national emergencies. We are concerned that we will not be able to 
retain an Army Industrial Base that provides unique capabilities, 
sustains the capacity for reversibility and meets the manufacturing and 
repair materiel demands of the Joint Force. In the Commercial 
Industrial Base, prime suppliers have increased their role as 
integrators, and delegated key innovation and development roles to a 
vast and complex network of sub-tier suppliers. Sub-tier suppliers have 
responded with their own complex network of suppliers, some of which 
are small, highly skilled and defense dependent firms these small and 
specialized firms serve as the warning indicator that gauges the health 
of the overall industrial base. In FY14, the Army identified those 
commercial sector industrial capabilities vital to our national defense 
and sustainment of a credible and capable smaller force. We must 
continue to protect these capabilities.

                          CBRN Industrial Base

    Question. Does the Army risk losing its CBRN industrial base and 
the accompanying technological superiority?
    Answer. The Army's Industrial Base consists of Government-owned 
(organic) and commercial industrial capability and capacity that must 
be readily available to manufacture and repair items during both 
peacetime and national emergencies. We are concerned that we will not 
be able to retain an Army Industrial Base, inclusive of a CBRN 
industrial base, that provides unique capabilities, sustains the 
capacity for reversibility and meets the manufacturing and repair 
materiel demands of the Joint Force.
    The risks to CBRN equities are due to several factors. First, the 
overall reduction in defense spending on CBRN. Second, the constant 
declining workload for CBRN items in the Army's Organic Industrial Base 
(OIB) forces us to make remaining items in the private sector, where 
long term production capability is often not fiscally viable to the 
contractor. Finally, the lack of profitability or production 
maintainability for CBRN items in the private sector results. These 
factors all result in a declining industrial base, subsequently driving 
up overall costs to meet surge demands during specific scenarios or 
major contingency operations. Current studies confirm that the full 
spectrum of the industrial base cannot sustain force CBRN requirements 
under specific contingency scenarios.
    Much of the CBRN funds that are available are sent to the private 
sector, further declining the workload within the OIB and reducing 
surge capacity flexibility inherent in the OIB.
    The Joint Program Executive Office for Chemical Biological Defense 
(JPEO-CBD) and U.S. Army Materiel Command (USAMC) are engaged in CBRN-
Organic Base policy and legislative framework reviews to help sustain 
the critical manufacturing capability of Pine Bluff Arsenal's CBRN 
mission and identify suitable workload for the arsenal.

    [Clerk's note.--End of questions submitted by Mr. 
Ruppersberger.]

                                           Tuesday, April 14, 2015.

                         DEFENSE HEALTH PROGRAM

                               WITNESSES

LIEUTENANT GENERAL DR. DOUGLAS J. ROBB, DIRECTOR, DEFENSE HEALTH AGENCY
LIEUTENANT GENERAL PATRICIA D. HOROHO, SURGEON GENERAL, UNITED STATES 
    ARMY
VICE ADMIRAL MATTHEW L. NATHAN, SURGEON GENERAL, UNITED STATES NAVY
LIEUTENANT GENERAL THOMAS W. TRAVIS, SURGEON GENERAL, UNITED STATES AIR 
    FORCE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order. This morning the committee holds an open hearing on the 
fiscal year 2016 budget request for the Defense Health Program.
    I would like to welcome the Director of the Defense Health 
Agency, Lieutenant General Douglas Robb. This is your first 
time testifying before the subcommittee and we are looking 
forward to hearing how your relatively new agency is operating 
under your leadership.
    I would also like to welcome back three Service Surgeons 
General, Lieutenant General Patricia Horoho of the Army, Vice 
Admiral Matthew Nathan of the Navy, and Lieutenant General 
Thomas Travis of the Air Force.
    All three of you, I understand, are short-timers, and I 
understand this may be your last testimony before the 
committee, but on behalf of the committee we want to thank you 
for your years of dedicated service to military medicine and 
the Nation and wish you the best in your future endeavors. And 
may I say thank you for your roles over the last decades in 
terms of meeting the needs of our soldiers and sailors and all 
those airmen who have worked so hard on behalf of the work of 
freedom in Iraq and Afghanistan and around the world.
    And I know that all of you have been intimately involved in 
so many cases of issues that relate to those who have paid the 
ultimate sacrifice, as well as those who have paid with a loss 
of limb, had issues of traumatic brain injury, and you have 
been intimately involved in all sorts of things on the 
battlefield, on various bases in the Middle East, and the very 
important element of transporting so many of these young people 
from both Iraq and Afghanistan through Landstuhl back here to 
the States for the best medical care that they could possibly 
receive. And on behalf of all of our committee, and I know Mr. 
Visclosky and all members of the committee, we are extremely 
grateful for the years of combined service.
    I said to you before the meeting you are sort of regarded 
as the inseparables. And I know that you have been working very 
closely together. And we admire the whole issue of jointness, 
but joint dedicated service for that length of time we want to 
especially recognize this morning.
    General Horoho. Thank you, sir.
    Mr. Frelinghuysen. This committee has always supported 
robust funding for the Defense Heath Program to meet the 
commitment to provide the very best in medical care to the 
service men and women who defend our country. However, we are 
once again facing the looming threat of sequestration and 
reduced budgets. While we continually hear about negative 
effects on readiness and equipment modernization, we also 
remain concerned about any effects the declining budget may 
have on our world-class military health system and how it meets 
your quadruple aim: improved readiness, better health, better 
care, at lower cost.
    Additionally, as has been the case for the last decade, the 
Department faces a challenge from the growing cost and long-
term sustainability of the military health system. The fiscal 
year 2016 budget request for the system is approximately $47.8 
billion, nearly 10 percent of the entire defense budget 
request, and includes the entire Defense Health Program and 
costs related to military health personnel, medical accrual, 
and military construction, the latter of which is not included 
under the jurisdiction of this committee, but we are absolutely 
keenly interested in that aspect.
    Once again the budget request assumes savings associated 
with several controversial TRICARE proposals, propositions that 
have been rejected by Congress for at least the past 3 years. 
As a result, this Appropriations subcommittee has had to add 
hundreds of millions of dollars to cover the assumed savings. 
We are interested to hear how these proposals may have been 
improved from the rejected proposals to garner increased 
support.
    Our committee also remains very concerned about the 
progress on the electronic health records and issues of 
interoperability between the Department of Defense and Veterans 
Affairs systems. The optics on this matter continue to bother 
all of us, as 8 years ago we started investing in what we 
thought was a seamless system. It seems we are far from it.
    I understand that headway has been made in sharing records 
in the legacy electronic systems of both of these departments 
and that the Department of Defense is currently reviewing some 
expensive, to my mind, some very expensive proposals for their 
future system. While it is encouraging to see that we have seen 
some improvement, it is imperative that the goal of genuine 
interoperability between the departments is not forgotten, as 
Congress fully mandated full interoperability and our committee 
has provided significant funding so that it would be 
accomplished.
    Whatever the national focus on problems facing the VA, of 
course, we hope we never hear the sort of problems they have 
that relate to our system.
    So welcome. We look forward to your testimony and to an 
informative question-and-answer period.
    Now, before we hear your testimony, I would like to turn to 
my ranking member, Mr. Visclosky, for any comments he may wish 
to make.

                Ranking Member Visclosky Opening Remarks

    Mr. Visclosky. Thank you, Mr. Chairman.
    First of all, I want to thank the chairman for holding the 
hearing today. And I would associate myself with his entire 
statement, and thank all of you for your service and for what 
you do for the health care of all of our people in the military 
uniform.
    Obviously our responsibility, as well as yours, is to see 
how, looking towards the next fiscal year, we can do it even 
better. And as the chairman alludes, we continue to have 
concerns relative to the communication between the Department 
of Defense and the Veterans Administration, particularly given 
the Theater Medical Information Program that you run. So I look 
forward to your testimony and the question-and-answer.
    And, again, thank you, Mr. Chairman.

                    Lt. Gen. Robb Opening Statement

    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    General Robb, front and center. Good morning. Welcome.
    General Robb. Thank you very much. Chairman Frelinghuysen, 
Ranking Member Visclosky, and members of the subcommittee, 
thank you for the opportunity to appear here today. I am 
pleased to represent the Defense Health Agency and present its 
request for funding of the medical programs for fiscal year 
2016.
    On 1 October 2013, the Department established our Nation's 
newest combat support agency, the Defense Health Agency. I am 
proud to be its first director.
    Our responsibilities are clear: to support the Service 
Surgeons General and our combatant commanders in the execution 
of their missions. Much like the Defense Logistics Agency or 
the Defense Information Services Agency, our responsibility is 
to offer joint, integrated solutions to the military 
departments where they make sense and where it provides value.
    By building a management structure with an enterprise 
focus, the Defense Health Agency is helping to ensure a 
medically ready force and a ready medical force, and we are 
already seeing results. We have used a rigorous and a 
repeatable business case analysis and a business process 
reengineering to improve how we as a military health system 
deliver services. We have successfully established 10 shared 
services and achieved $236 million in savings in just our first 
year of operation.
    The budget the Department is proposing for 2016 reflects 
the improved business processes that the military health system 
leadership team, led by the Surgeons General and Dr. Woodson, 
has introduced. The Department of Defense is requesting 
approximately $32.2 billion for the Defense Health Program. 
Compared to last year's budget, this request represents an 
increase of less than 1 percent.
    This budget supports the core values of our military health 
system strategy: improved readiness, better health, better 
care, and a responsible financial stewardship. As one component 
of this last aim, the Department has again proposed a series of 
modest efforts to rebalance the health cost shares borne by the 
government and the beneficiaries we serve. These proposals 
ensure the Department will continue to provide one of the most 
comprehensive health benefits offered in this country.
    I want to briefly mention the combined threats faced by 
sequestration. The Department's commitment to quality of care 
is sacrosanct. In the event of sequestration, we will not allow 
quality to suffer or place any patient at risk, period. But 
there are significant negative long-term effects on the overall 
military health system that can undermine our means to support 
readiness.
    We understand the Department of Defense must do its part in 
addressing the Nation's budget concerns. However, it must be 
done in a responsible and a judicious manner. The Defense 
Health Agency is part of that solution and will achieve these 
ends through a responsible management approach.
    I am honored to represent the men and women of the Defense 
Health Agency, and I look forward to the questions that you may 
have.
    [The written statement of Lieutenant General Robb follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    
                      LTG Horoho Opening Statement

    Mr. Frelinghuysen. Thank you very much, General Robb.
    General Horoho, good morning. Thank you for being with us.
    General Horoho. Good morning, sir. Chairman Frelinghuysen, 
Ranking Member Visclosky, distinguished members of the 
subcommittee, thank you for this opportunity to tell the Army 
Medicine story. On behalf of the dedicated soldiers, civilians 
that make up Army Medicine, I extend our appreciation to 
Congress for your faithful support.
    I want to start by acknowledging America's sons and 
daughters who are in harm's way. Over 141,000 soldiers are 
deployed or forward stationed. Army Medicine has nearly 2,500 
civilians and soldiers deployed around the globe.
    This has been a year of unprecedented challenges and 
accomplishments. Army Medicine trained every soldier deploying 
to West Africa to ensure their safety. Medical research teams 
from Medical Research and Material Command (MRMC) serving with 
our interagency partners spearheaded Ebola efforts on the 
ground in Liberia and in the lab by developing groundbreaking 
vaccines. Our U.S. treatment facilities were certified as Ebola 
treatment facilities by the CDC. We made tremendous strides in 
transformation to a system for health on our journey to high 
reliable organization, a model for safety and healthcare 
delivery.
    Our soldiers' health readiness remains our number one 
priority. We added combat power back to the force by reducing 
the number of soldiers who were not available due to health 
reasons. We also significantly increased medical and dental 
readiness. We are enhancing health readiness by weaving the 
performance triad into the DNA of our Army. The MHS review 
validated our pathway to improve safety and quality care for 
our soldiers, family members, and retirees. The review showed 
we are either above or comparable to the best healthcare 
systems in our Nation.
    The latest U.S. News & World Report Best Graduate School 
rankings validate using our bricks-and-mortar military 
treatment facilities as training platforms for our clinicians 
and administrators. Our certified nurse anesthetist program is 
number 1 in the Nation, our physical therapy program is number 
5 in the Nation, our Baylor program for administration is 
number 7 in the Nation, and our physician assistant program is 
number 11 in the Nation.
    Our programs and initiatives that contribute to our success 
are further outlined in our written testimony. I would like to 
take the balance of my time to discuss two major threats facing 
Army Medicine today.
    An ever-changing security environment demands that Army 
Medicine vigilantly maintain a medically ready force and a 
ready medical force. The first threat is viewing Army Medicine 
through the lens of a civilian healthcare system. We are so 
much more than that. We are national leaders in medicine, 
dentistry, research, education, training, and public health. 
These are all intimately linked to soldiers' and our providers' 
deployment readiness. Our hospitals are our health readiness 
platforms. This crucial link to readiness sets us apart from 
the civilian healthcare system.
    Army Medicine provided the majority of the operational 
medicine and combat casualty care in Iraq and Afghanistan that 
led to a 91 percent survivability rate for our wounded 
servicemembers. The NATO Medical Center of Excellence adopted 
our key areas from our 2011 Health Service Support Assessment 
as best practices and lessons learned.
    These invaluable battlefield experience permeate our 
education and training platforms at Uniformed Service 
University, AMEDD Center and School, the Medical Education 
Training Center, and in our medical centers. Any radical 
departure from our combat-tested system would degrade readiness 
in an environment where the next deployment could be tomorrow.
    The second threat to Army Medicine is the return of 
sequestration. Sequestration would have a significant 
detrimental impact on our patients, our families, and our 
medical team. Devastating reductions to both civilian personnel 
and military end strength would impact every Army Medicine 
program. Sequestration would cause the MEDCOM to close in-
patient and ambulatory surgical centers and a number of our 
military treatment facilities, jeopardizing our ready and 
deployable medical force. Reductions driven by sequestration 
would be devastating and very different than our current 
rightsizing to correctly align our medical capabilities.
    Our valued civilian employees were extremely sensitive to 
the furloughs and the hiring freeze in 2013. Two years later, 
we still have not been able to replace all of these highly 
skilled employees.
    Servicemembers go into battle confident because Army 
Medicine, in concert with our sister Services, goes with them. 
For the past 13 years, when wounded servicemembers on the 
battlefield heard the rotors of a medevac helicopter, they 
believed they were going to survive. We must protect that 
system that gave them that confidence.
    I want to thank my partners in DOD, the VA, and my 
colleagues here on the panel, and Congress for your continued 
support. The Army Medicine team is proudly serving to heal and 
very honored to serve. Thank you.
    [The written statement of Lieutenant General Horoho 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



               VADM Nathan Opening Statement

    Mr. Frelinghuysen. Thank you, General, for your testimony.
    Admiral Nathan.
    Admiral Nathan. Chairman Frelinghuysen, Ranking Member 
Visclosky, distinguished members of the subcommittee, I am 
grateful again for the opportunity to appear before you today. 
On behalf of the dedicated men and women of Navy Medicine, I 
want to thank the committee for your outstanding support and 
confidence.
    I can report to you that the Navy Medicine team is mission 
ready and delivering world-class care anywhere, any time. Navy 
Medicine protects, promotes, and restores the health of sailors 
and marines around the world, ashore and afloat, in all warfare 
domains. We exist to support the operational missions of both 
the Navy and the Marine Corps. These responsibilities require 
us to be agile expeditionary medical force capable of meeting 
the demands of crisis response and global maritime security.
    In this regard, we are staying the course with our 
strategic priorities of readiness, value, and jointness. 
Individually and collectively, these mutually supportive focus 
areas are instrumental in shaping our decisionmaking, internal 
processes, and organizational capacity. Our strategy is 
aligned, balanced, and unified, and I believe strengthened, 
because everyone in Navy Medicine has a distinct and important 
role in contributing to the success of these efforts.
    By leveraging the capabilities of our patient-centered 
medical home, Medical Home Port, and completing our CONUS 
Hospital Optimization Plan, we are moving more and more 
workload into our military hospitals, growing our enrollment, 
rebalancing staff, and reducing overall purchased care 
expenditures. We recognize the health of our beneficiaries is 
the most important outcome, and our systems must be aligned to 
support this priority. Health care should not be a supply-
driven or volume-based commodity. It is about patient-centered 
care and focused on all dimensions of wellness, body, mind, and 
spirit.
    We must never waiver in our commitment to provide care and 
support to our wounded warriors and their families. This is 
particularly true for the treatment of mental health issues and 
traumatic brain injury. While our present conflicts may be 
coming down, the need for quality mental health and TBI care 
will be a continued need, and we are poised to provide these 
services now and in the future.
    We continue to embed mental health capabilities in 
operational units and primary care settings in order to 
identify and manage issues before they manifest as 
psychological problems. This priority extends to suicide 
prevention efforts where we train sailors, marines, and their 
families to recognize operational stress and use tools to 
manage and reduce its effects.
    As leaders, we have renewed our emphasis on ensuring that 
we focus on every sailor every day, particularly those in 
transition or facing personal or professional adversity. We 
know that an increased sense of community and purpose is an 
important protective factor in preventing suicide, and we must 
remain ready and accessible to those who need help.
    Strategically, I am convinced that we are stronger as a 
result of our work with the other Services, our interagency 
partners, including the VA, leading academic and private 
research institutions, and other civilian experts. These 
collaborations are vital as we leverage efficiencies and best 
practices in clinical care, research and development, medical 
education, and global health security.
    The enterprise strength of Navy Medicine is now and always 
will be our people. I can assure you that the men and women 
serving around the world are truly exceptional and guided by 
the Navy's core values of honor, courage, and commitment. Of 
note, I am continually inspired by the skill and dedication of 
our young hospital corpsmen, many of whom are just out of high 
school and whose parents, like me as the father of a teenager, 
marvel at their ethics and capability but still wince a little 
as we hand them the keys to our car.
    We ask a lot of these young people, and they step up. As I 
travel and see our corpsmen operating forward aboard ships or 
deployed throughout the world in the combat AORs, I can assure 
you, Mr. Chairman, that you and the American people can be very 
proud of their performance. In fact, of the 15 Silver Stars 
awarded to Navy sailors throughout OIF and OEF, 14 of those 
have been awarded to Navy corpsmen.
    Mr. Frelinghuysen. Wow.
    Admiral Nathan. We need to recognize what sets us apart 
from civilian medicine. We are truly a rapidly deployable, 
fully integrated, vertically integrated combat casualty care 
support system. This capability allows us to support combat 
casualty care with unprecedented battlefield survival rates 
over the last 13 years; to meet global health threats 
expediently, as we did in deploying labs and personnel to 
Liberia that slashed the Ebola testing time from days to hours; 
and to have our hospital ships, the Comfort and the Mercy--
Comfort underway as we speak--ready to get out and about to 
support humanitarian assistance and disaster relief efforts 
around the world.
    We must also understand that our readiness mission is 
inexorably linked to the work our personnel do day in and day 
out in our hospitals and clinics, in our labs and our 
classrooms. Our patients expect a lot of us, and they should. I 
am privileged to work so closely with my fellow Surgeons 
General who are equally passionate about continuous improvement 
in moving the military health system forward as a truly highly 
reliable organization.
    These are transformational times for military medicine, the 
likes of which I have not seen in my career. There is much work 
ahead as we navigate the important challenges and seize 
opportunities to keep our sailors and marines healthy, maximize 
the value for all our patients, and leverage joint 
opportunities. I am encouraged with the progress we are making, 
but not yet satisfied. We continue to look for ways to improve 
and remain on the forefront of delivering world-class care any 
time, anywhere.
    Thank you, sir, for your steadfast support, and I look 
forward to your questions.
    [The written statement of Vice Admiral Nathan follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
                   Lt. Gen. Travis Opening Statement

    Mr. Frelinghuysen. Thank you, Admiral.
    General Travis.
    General Travis. Yes, sir.
    Mr. Frelinghuysen. Welcome again.
    General Travis. Good morning. Chairman Frelinghuysen, 
Ranking Member Visclosky, distinguished members of this 
subcommittee, thanks again for inviting us to appear before you 
today, the last time together, I might add, and that is a 
meaningful moment for us.
    Since 9/11, the Air Force has accomplished over 200,000 
patient movements in our Aerovac system, including 12,000 
critical care patients. The very high, unprecedented survival 
rate for U.S. casualties once they enter the theater medical 
system is a reflection of our combined commitment to the 
highest quality care of our patients.
    Critical care transport teams were developed by the Air 
Force in the late 1990s and have become the international 
benchmark for safe ICU-level patient movement, dramatically 
changing how military operates in a deployed setting. We have 
adapted that capability to meet the Joint Staff requirements 
for intratheater and route tactical critical care transport of 
fresh, perhaps underresuscitated or post-operative ICU-level 
casualties via rotary and tactical aircraft, many from point of 
injury.
    Our medical response teams include rapid deployable modular 
and scalable field hospitals that provide immediate care within 
minutes of arrival. The expeditionary medical support health 
response teams, which is an evolution of our combat proven 
EMEDS teams, are now being deployed across our Air Force. They 
provide immediate emergency care within minutes, surgery and 
intensive critical care within 6 hours, and full ICU capability 
within 12 hours of arrival.
    Because of our experience with EMEDS in support of 
Operation United Assistance in Liberia, an Air Force medical 
team quickly deployed and set up the first healthcare worker 
Ebola virus disease treatment center utilized by the U.S. 
Public Health Service.
    Our medical forces, as my partners have said, must stay 
ready through their roles in patient-centered, full tempo 
healthcare services that ensure competency, currency, and 
satisfaction of practice while fostering innovation. We can't 
separate care at home from readiness, as what we do and how we 
practice at home translates into the care we provide when we 
deploy, and we have proven we do it well.
    In addition, for well over a decade we have had a cadre of 
our best physicians, nurses, and technicians embedded in world-
class Centers for Sustainment of Trauma and Readiness Skills 
facilities, such as the University of Maryland's Baltimore 
Shock Trauma, University of Cincinnati, and St. Louis 
University, in order to train trauma and critical care 
transport teams before they deploy.
    We are now committed to expanding training opportunities 
for nonsurgical and trauma-related skills to ensure all of our 
personnel remain ready and current, providing hands-on patient 
care of greater volume and complexity than we normally see in 
our facilities. Our first course was recently held at Nellis 
Air Force Base, Nevada, in cooperation with University Medical 
Center in Las Vegas, with more than a dozen classes to follow 
in 2015. This will further expand the system we have in place 
to identify training requirements and track completion of 
training events down to the individual.
    I leave the Air Force in June after 39 years. In the Air 
Force I grew up in, the operators were primarily pilots and 
navigators. There are many more types of operators these days, 
as air power is projected through the various domains in very 
new ways.
    Air Force Medicine is adapting and innovating to better 
support the airmen who safeguard this country 24/7, 365 days a 
year. In that regard, Air Force Medicine is now focusing on 
human performance. Our AFMS strategy embraces this, and to 
focus on this as a priority we recently changed our vision to 
state our supported population is the healthiest and highest-
performing segment of the Nation by 2025. This vision is 
focused on health rather than health care and is connected to 
the imperative to assure optimum performance of these 
exquisitely skilled airmen. We have begun either embedding or 
dedicating medics to directly support missions such as special 
operations, remotely piloted aircraft, intel, or other high-
stress career fields, and we have had a clearly positive impact 
on these airmen, their mission effectiveness, and their 
families.
    Patient safety and quality care are foundational to 
supporting our beneficiaries in their quest for better health 
and improved performance. In order to improve safety and 
quality, we are committed as part of the military health system 
to the high reliability healthcare journey, adopting safety 
culture and practices similar to other high reliability 
sectors, such as aviation, something with which we are very 
familiar.
    This is a journey being undertaken by healthcare systems 
across the Nation. The AFMS joins with our Navy and Army 
partners as we transform into a fully integrated system that 
consistently delivers quality health care while improving the 
health and readiness of our force.
    With our vision of health and performance in mind, we are 
committed to providing the most effective prevention and best 
possible care to a rapidly changing Air Force, both at home and 
deployed. I am confident that we are on course to ensure 
medically fit forces, provide the best expeditionary medics on 
the planet, and improve the health of all we serve to meet our 
Nation's needs.
    Thank you again for your strong support of Air Force 
Medicine and for the opportunity to provide further information 
today.
    [The written statement of Lieutenant General (Dr.) Travis 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




            Remarks of Chairman Frelinghuysen

    Mr. Frelinghuysen. Thank you, General.
    And before I yield to Mr. Carter, who was first in the 
committee hearing, this may not be politically correct, but I 
am in awe of the men and women that work for you and have 
worked for you for decades, from the battlefield, when they are 
a special operations unit, where every person in that unit has 
some degree of medical training, they could look after their 
brothers, to the transport issue, the things that you have done 
are incredible.
    I was at Bethesda yesterday, and the patient count is down, 
but the lives you put back together, and I think the committee 
recognizes this, for some of these young people and not so 
young, whether it is physical or mental, the things that you do 
collectively we are hugely appreciative of. I know we are the 
resource committee, but we are also very thankful for the 
things that we have invested in that you have done some 
remarkable things with.
    General Carter--or General Carter, yes. You are the general 
from Fort Hood.

                    MEDICAL CARE DURING DEPLOYMENTS

    Mr. Carter. No. No, sir. No, sir. I know some, though.
    General Dempsey once stated that we don't walk out on our 
forward operating bases unless we have the confidence that if 
we are wounded we have someone there who can help care for us 
and evacuate us back to the next level of treatment.
    As you know, planning and employing echelons of medical 
care is vital in setting the conditions for our service men and 
women to provide the best possible care for those we put in 
harm's way. There is overwhelming evidence for how successful 
our military has been at saving lives in large-scale 
deployments to Iraq and Afghanistan. I believe that we call 
that the golden hour.
    Now, as we wind down operations in Afghanistan and Iraq, 
how are we transforming our echelons of care without reducing 
the quality of care? We are deploying small contingencies with 
less medical assets to a lot of new places. Are we able to 
replicate the quality of combat care we have in places like 
Afghanistan?
    Can you walk us through the care our troops would receive 
if they suffered a critical injury as a result of, say, a 
vehicle rollover, a range mishap in a place like Ukraine or 
Romania? Can you speak to the process of establishing and 
operating echelons of care in areas where we have recently 
expanded other operations, Africa and Eastern Europe?
    Are there any constraints on medical resources which could 
potentially result in us becoming overly reliant on host 
nations? In other words, does that golden hour extend to small 
units scattered all over the world? And how do you do it?
    General Horoho. I will start, sir, but it is kind of a 
joint response when we are looking at this. When we look at 
what we are doing in Europe there is a tremendous amount of 
training that is being done in Grafenwoehr in really looking at 
how do we capitalize on the capabilities that we have in the 
U.S., but with our coalition partners, so that we have a 
certain standard level of care. We are also incorporating 
telecapabilities into some very remote areas so that we take 
expertise from our bricks and mortar and we extend that through 
IT systems to get that knowledge to our young combat medics and 
combat lifesavers so that we are having a larger virtual reach, 
which I think is very important.
    We are also looking at medical diplomacy in how do we 
today, where we don't have engaged conflicts, how do we today 
help build up the capabilities within our coalition partners so 
that we have better integration and a certain standard level of 
care. And then we are taking the lessons learned that we have 
seen over 13 years of war and getting those back into our 
training centers to make sure that our skill level maintains.
    Admiral Nathan. Sir, your question is particularly germane 
to the naval forces, which have distributed platforms all the 
world, often in isolated places, and may suffer a kinetic or 
accidental trauma. And so like the other Services we have been 
providing all of our basic corpsmen now with TCCC: tactical 
combat casualty care training.
    The big sea change in combat care now compared to, say, 20 
years ago was that our young medics and corpsmen come out 
equipped to do sophisticated lifesaving procedures at the scene 
of injury to allow some time and to allow the golden hour. We 
also have forward deployed expeditionary resuscitative surgical 
systems where we have teams now that can carry backpack 
operating rooms on them. They can carry anesthesia machines and 
ORs, in small groups of four or five people who could do 
surgery on this table in front of you if they had to at a 
moment's notice.
    The medevac evacuation still remains kind of the long pole 
in the tent. How do you get people from distributed isolated 
places back to the mother ship in order to provide care. And we 
have enhanced that, and I think General Travis can talk about 
en route care and about the ballet of medevac that occurs 
between the rotary lift and the fixed-wing aircraft.
    General Travis. Ballet is not a word I would have used. 
But, sir, it is a wonderful question, and, frankly, it is a 
challenge. As we deal with nonstate actors in remote places 
like Africa, you mentioned a few others, certainly the folks, 
the commanders who are placing warriors at risk, I don't care 
what the Service, are hesitant to operate without great medical 
care nearby. They carry their own organic assets. We are 
extremely well trained and have benefited from the experience 
of this war to understand how to provide combat casualty care 
better than any time in history. A lot of those advances, by 
the way, have translated to better casualty care in this 
Nation.
    With specific emphasis on places where the golden hour is a 
challenge, where there may not be organic capability or we may 
not have fixed facilities like we have had the benefit of in 
Iraq and Afghanistan in this long war, we in fact have stood up 
some tactical critical care evacuation teams at the next level, 
called enhanced tactical critical air evacuation teams. We have 
teams standing by in Germany, for example, that can get on an 
airframe of opportunity and carry surgical capability 
downrange, where a special operations surgical team may have 
done the initial resuscitation, then perhaps, as Admiral Nathan 
mentioned, do surgery on an airplane on a ramp. And so these 
are the kind of innovative things we are having to think about 
as we deal in very remote areas.
    I would just comment on, as we pull out of Afghanistan, the 
three of us have travelled there together, and it became very 
clear as operations have changed there and certainly forces 
have moved, you are right, the challenge to keep that golden 
hour is tough. One of the things that we have all learned and 
we are all doing is pushing better capability further forward 
to where actually you take the care out there rather than 
trying to get them back. And you still get them back, but the 
care you put out there, and we learned this from some of our 
allies, if you put out advanced care to the point of injury, as 
I mentioned in my testimony, you will watch survival rates go 
up as well.
    Mr. Frelinghuysen. Thank you, Judge Carter.
    Mr. Israel, and then Mr. Calvert.

                          SCLERODERMA RESEARCH

    Mr. Israel. Thank you, Mr. Chairman.
    General Robb, a very specific question about scleroderma 
research. This is something that I have been working on. You 
may not have the exact answer at your fingertips, but if you 
would commit to looking into it for me and getting back to me, 
I would be very grateful.
    I have been involved in the issue of scleroderma research 
for some time, and it is linked to cancer as an acceptable 
study area that could be funded under the Peer Reviewed Cancer 
Research Program. It was included in the subcommittee's 
recommendations last year but was not included in the final 
version of our bill. And I would appreciate it if you would 
take a look at this and advise me on whether studying a disease 
like scleroderma, which is not cancer but is an indicator of 
predicting cancer, is a worthwhile study area to be included in 
the PRCRP.
    General Robb. Yes, I will be glad to do that. And as you 
know, with our Murtha Cancer Center and also our relationship 
with the National Institutes of Health and with their national 
cancer programs over there, I think we have got a bed of 
knowledge that we can go back and see what we can do for you, 
yes, sir.
    [The information follows:]

    Scleroderma is not a good fit for the Peer Reviewed Cancer Research 
Program (PRCRP). Scleroderma is considered a rheumatoid and connective 
tissue disease because it is characterized by inflammation of the 
joints as well as pain and hardening of the connective tissues. The 
majority of scleroderma patients do not have cancer associated with 
their disease. Research concerning prevention, arrest, or reversal of 
symptoms in scleroderma is critical as well as how to decrease organ 
involvement, especially the lungs. These areas of research focus are 
crucial to understanding the disease and patient care, but they are not 
aligned to a cancer research program. As a singular topic, though, 
scleroderma and its general study as an autoimmune disease is best 
served outside a cancer program. Scleroderma research is currently 
supported under the Peer Reviewed Medical Research Program (PRMRP).

    Mr. Israel. I appreciate that. I will have another question 
on the second round having nothing to do with this, but I will 
hold to the second round.
    Mr. Frelinghuysen. Thank you, Mr. Israel.
    Mr. Calvert.

  ACQUISITION OF PROFESSIONAL MEDICAL SERVICES AND JOINT FIRST AID KIT

    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    Good morning, General Robb, General Horoho, Admiral Nathan, 
General Travis. First, thank you for all being here today and 
thank you for what you have done for our country, and wish you 
well in the future.
    The fiscal year 2012 NDAA required the GAO to study DoD's 
acquisition of professional medical services. Once the GAO had 
completed its study, they recommended that DoD develop a 
Department-wide approach for contracting healthcare 
professionals, and DoD apparently agreed with those 
recommendations.
    The fiscal year NDAA required the SecDef to develop a 
strategy for carrying out the recommendation, then execute that 
strategy. The strategy was required to, one, identify 
opportunities, to consolidate requirements and reduce costs for 
professional healthcare staff and services; and two, analyze, 
using reliable and detailed data covering the entire 
Department, the amounts of funds expended on contracts for 
healthcare professionals.
    General Robb, I would like to hear your update on how the 
DHA is progressing with a strategy for implementing the GAO 
recommendations as laid out in the NDAA.
    And while you are on that, speaking of Service-wide, there 
was a recommendation to go to a Service-wide first aid kit----
    General Robb. Sure.
    Mr. Calvert [continuing]. A standardized first aid kit that 
had a 5-year shelf life. I understand that has been delayed. I 
don't know if that is an acquisition problem or not. And there 
is apparently some additional cost to that. So maybe you could 
touch on that too. Thank you.
    General Robb. Yes, sir. As far as looking at the 
consolidation of the contracts, that is, again, one of the 
primary and foundational elements for the Defense Health 
Agency. And through our shared services in our contracting 
division, what we are doing for a way ahead is looking Service-
wide where it makes sense to consolidate our contracts, whether 
it is in the professional services or whether it is in the 
hiring of, again, healthcare professionals, or if it is 
equipment purchases.
    And what we do is we look at all the different contracts, 
we look at where there is overlap, where there is redundancies, 
and then how we can move forward to negotiate, again, a more 
standardized approach to our healthcare delivery, so it makes 
it more viable, number one, and then, again, updated towards 
what we call a modernization in an organized feature.
    As far as the joint first aid kit, I tell you what, that is 
a success story, sir. We have agreed upon, all of the four 
Services, I think for the first time in my career, have agreed 
on all the elements in the joint first aid kit. What we are 
working through right now is, actually it is the carrying bag, 
and we are pretty close to deciding what that is going to be. 
But the equipment, and we are lined up that that will be one of 
our first joint products across the board, that will be issued. 
And that is key, in taking what we call the tactical combat 
casualty care principles and moving them forward and 
standardizing them on the battlefield.
    Mr. Carter. And that kit has a 5-year shelf life. When do 
you believe you are going to deploy that?
    General Robb. Sir, I will have to get back to you with 
that, because I know we are working all the contracting issues 
on that. And as far as the contract being let out, I can get 
back to you on that. Yes, sir.
    [The information follows:]

    Per U.S. Code Title 10, the Services maintain doctrine, training, 
and funding responsibility for lifesaving medical materiel. First Aid 
Kits are not a new requirement and per Service replenishment cycles and 
FAR Part 8 requirements (e.g., AbilityOne Procurement List), each 
Service will renew its AbilityOne contracts to satisfy its JFAK demand.
    In December 2014, the U.S. Air Force contracted for its new JFAKs 
with all core components having a five year shelf life. It expects 
delivery of initial units in approximately June 2015. The contract, 
written in collaboration with DLA Troop Support, enables the other 
Services to renew their AbilityOne contracts for JFAKs using the 
improved unified language and details. The other Services are in 
various replenishment cycles and will exhaust their first aid kit 
inventories and then replenish with the JFAK per OASD (HA) Memorandum 
Department of Defense Joint-Service First Aid Kit Standardization 
Guidance, dated August 18, 2014.

    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Ms. McCollum.

              RECRUITING AND TRAINING HEALTHCARE PROVIDERS

    Ms. McCollum. Thank you, Mr. Chair.
    First to the two of you who have announced retirement, and 
it sounds like there is a pending one, thank you all for your 
service. Very, very much appreciated. And you deal with 
families facing tragedy, and so thank you for your care and 
your compassion as well.
    And I would like to do a little bit of a shout-out for you, 
Lieutenant General Horoho. First woman and nurse to have the 
position that you have. And I am sure the doctors in the room 
will agree nurses are with us most intimately at the beginning 
of our life and also at the end of our life. So thank you for 
your profession.
    General Horoho. Thank you.
    Ms. McCollum. Now for my question. So in your written 
testimony you all touched on something I would like to focus on 
a little more, and that is the challenges that you face 
recruiting and training the healthcare professionals you need, 
from doctors all the way on down in the highly technical skill 
set nurse professionals are developing. Because having a highly 
trained healthcare system is critical for our troops and for 
our families and for our national security, whether it is the 
service men and women or children, such as myself when I was 
younger accessing your facilities. And then you have, as Mr. 
Carter pointed out, the responsibility of battlefield and 
abroad. So you have got a healthcare workforce that needs to be 
really flexible, highly qualified, up to date on delivery-of-
care service.
    But then at the end of many military careers, a lot of the 
healthcare professionals don't do what you do, retire from the 
military, they go into the civilian workforce. So it is 
important for us, for the Department of Defense to be there to 
train the next generation of physicians, nurses, nurse 
practitioners, physician's assistants, the list goes on and on, 
and now with the importance on mental health that we are 
finally starting to recognize and then fold in total care.
    And I am concerned about what I am seeing happening with 
our teaching hospitals nationally. You are a teaching hospital 
as well. So could maybe you elaborate for us as a committee, 
because you are going to impact the health of not only our 
service men and women but our entire country, what are some of 
the barriers and challenges that exist right now that make it 
more difficult for you to recruit and train the next generation 
of healthcare professionals? And looking at the long term, what 
barriers or challenges do you think in the next 5 to 10 years 
will impact your healthcare readiness, including what might be 
going on in civilian teaching hospitals?
    Thank you.
    Admiral Nathan. Well, ma'am, I will start first. I have 
been involved in graduate medical education at every level for 
over 30 years. Currently we enjoy a fairly robust recruiting 
and retention in Navy Medicine. I attribute that partly to 
patriotism and an awareness of service to country and partly to 
the economy. We always keep a close eye on the economy dial, 
because it ebbs and flows, and so does our recruiting.
    We have a little more problem in our Reserves right now. 
That is my Achilles' Heel in the medical corps in that we have 
more people staying in. That is a smaller pool where we recruit 
from, for our reserves. Plus the Reservists, some of whom have 
spent their time being pulled into a 13-year conflict, being 
cycled one or two times, and are less apt to sign up in the 
combat casualty area. So we are looking at incentive pays and 
things like that.
    So far the health of our training programs, at least in the 
medical departments, have been very, very good. We have one of 
the highest board pass rates for all three Services across the 
country. And so I think we are producing fine physicians. I 
think our nursing programs, and Patty can speak to that better 
than I can, but so far we have the pick of the litter. We fill 
our nursing programs very early, and we have more applicants 
than we have room for. I am not resting on that laurel, nor do 
I think that can continue in perpetuity, but currently we think 
we have a good recipe.
    I share your concern across the Nation with changes and 
transformational changes in how we educate physicians and 
residents in training. On one hand we have afforded them 
shorter work hours and more opportunity to rest and read and 
learn; on the other hand, it is still an apprenticeship-type 
profession. And many educators, senior educators are lamenting 
that perhaps we have overdone it and that we are not giving 
people enough time at the bedside or enough time with the 
patients to learn via an apprenticeship.
    But that is something we wrestle with in the military as 
well as in the civilian sector, and I think as we come together 
as graduate medical education review boards to look at the 
sweet spot for how do we give somebody the optimal time to 
learn and also the time to be an apprentice.
    General Horoho. And, ma'am, I will just add a little bit 
onto what Admiral Nathan just said. So if we look at it through 
the lens of where we have concerns, the areas of concerns would 
be in our subspecialty care. Being able to recruit some of 
those highly skilled professionals from the civilian community 
into Active Duty service is a challenge in some areas, so 
neurosurgeons, cardiologists, and those areas.
    The other area where I have the biggest concern is that if 
we move towards sequestration and it impacts our ability to 
conduct research, that translational research of evidence-based 
practice at the point of healthcare delivery and really being 
able to make sure that that is threaded through every one of 
our graduate medical education programs to enhance quality of 
care, and then there is a relevancy for the deployment 
environment. That is the area where I have concerns. And then 
that is what makes our graduate programs nationally ranked, is 
we are able to take that strong research and have it really 
embedded into the way that we train.
    When I look at an area, an avenue in which to get more of 
our clinicians and physicians, one of the programs that 
Uniformed Service University just started, which is taking 
highly educated young enlisted servicemembers from all Services 
and actually have them go through a premed program, getting 
ready to go into and be competitive for medical school. And we 
have seen this last batch, most of the enlisted had GPAs in 
school of, like, 3.9 and 4.0, extremely impressive. And so that 
is another avenue that we are constantly looking at.
    Maintaining our recruitment and retention bonuses is 
absolutely critical. I appreciate Congress' support in that 
area, because that has allowed us to maintain the right skill 
set over the last 13 years of war.
    And then lastly I would just say from a national issue 
where I believe if we are going to really look at the cost of 
health care changing, if we don't start educating across all of 
our disciplines, to include engineering schools and building 
our communities, the impact of health and how we increase that 
knowledge so that it changes behavior, I don't think we are 
going to ever bend that cost curve in the way that we need to.
    General Travis. I would only add, and I am glad General 
Horoho mentioned the bonuses and the pay equity, and it is not 
going to be equitable, but the support for the bonuses and the 
specials pays is going to be crucial.
    I would also add the pipeline is where we get the majority 
of our forces and the training pipeline, so support for HPSP is 
extremely important. Certainly Medical Corps, Dental Corps, 
that is a great majority. Eighty percent of our Medical Corps 
comes out of HPSP, and so it is very important, and FAP, the 
financial assistance. So we really do need continued support of 
that. We are doing very well with a not fully qualified 
accessions, but our pipelines are strong.
    The only other thing I would mention is while we are 
retaining more, there are some certainly who are combat-proven 
specialists, trauma surgeons come to mind, and I am personally 
aware of a few who have deployed several times in Iraq or 
Afghanistan who are trauma czars, who would now like to make 
the transition to the Reserves. They are finding that is hard 
to do. And so we are working through the difficulty now. We 
would love to keep those folks on the bench ready for the next 
eventuality, wherever that is. So we are taking a very hard 
look at that, and that may be something that we night need help 
with from Congress.
    Thank you, ma'am.
    Mr. Frelinghuysen. Thank you, Ms. McCollum. Excellent line 
of questioning.
    Mr. Crenshaw.

                            MALARIA VACCINE

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And let me add my words of welcome to all of you. Thank you 
for the work that you do.
    You know, we hear, I guess we have heard in our hearings 
from all the different Services, talked about the impact the 
budget has on their ability to meet our National Defense 
Strategy. Obviously you are very important in terms of the 
well-being of the troops. Just common sense, if you are not 
well and your family is not well, you are probably not going to 
be an effective fighter.
    So thank you for the work that you do. And as the chairman 
said and my colleagues agree, I don't think you will find a 
group of folks more dedicated to supporting the work that you 
do. So thank you for that.
    I want to ask you about, particularly, General Horoho, last 
year we talked about malaria. I am chairman of what they call 
the Congressional Malaria Caucus, and so I like to keep abreast 
of what is going on. And when you were here last year, you said 
there were clinical trials that were going on, phase III 
clinical trials, and those have been completed now. And I think 
we all know, we have talked about the fact that malaria has all 
but been eradicated here at home, but it is probably the number 
one infectious disease that our military troops face. I was 
going to ask you maybe in a minute about when we had the Ebola 
crisis, how it impacted there.
    But the big question is, tell us a little bit about, update 
us, the clinical trials are over, as I understand it. We have 
got vaccines for typhoid and yellow fever, but we still haven't 
developed a vaccine for malaria. And somebody said the mosquito 
is the most lethal insect there is. More people die from 
mosquito bites than just about any other animal or insect. So 
it is a big problem, obviously. Tell us what we are doing. 
Where are we in developing that vaccine?
    General Horoho. Yes, sir. Thank you very much.
    We do have a vaccine that is not efficacious for protection 
of our troops, but it is, what we have seen, efficacious for 
taking care of young children that are exposed. And so I think 
the power of that is that it shows that we can develop 
something that does the preventive measures, and so it will 
allow us to build upon that aspect of it.
    We are also looking at the different types of medication 
that can be used. When we look at just the vaccine piece of 
this, the ability to really reduce the cost of health care, 
because if we could vaccinate, it is about a dollar per person, 
vice Malarone, which is about $100 per soldier, and then much 
cheaper, you know, with Doxycillin. And also the compliance 
piece.
    So with Ebola, we had five soldiers that actually 
contracted malaria. We believe that it was probably due to 
noncompliance with the medication regime that they needed. All 
of them are all doing very, very well. But we continue to 
invest in that area.
    Mr. Crenshaw. Do you think, will there be a day, for 
children, and I know it is devastating to children around the 
world, obviously. I mean, some of the appropriations we have 
given you in the Walter Reed Research Center. Where are we in 
terms of maybe the next step, not just children, but where it 
might be valuable, more valuable to our troops as they go?
    General Horoho. I think continuing to ensure that we are 
aggressively funding and capitalizing on the research and the 
collaborative research that we have in our research centers in 
Thailand, and the Navy has theirs as well, to be able to make 
sure that we are learning from those labs that we have and that 
we keep the funding going so that we keep that collaborative 
partnership with the host nations as well as ourselves. I think 
that is going to be absolutely critical.
    And when you look at the missions in which we are deploying 
more and more to, the threat of malaria is one of the biggest 
threats, and maybe the number one threat, about 50 percent risk 
there. And so I think in that area is to continue that pipeline 
of funding.

                        COMPOUND PHARMACEUTICALS

    Mr. Crenshaw. Thank you.
    Mr. Chairman, I have a question about when we talk about 
pharmaceuticals. This is something that just jumped out at me. 
I was reading, you know, that from 2000 to 2014, spending on 
compound pharmaceuticals went from, like, $5 million to $500 
million in a 10-year period, and it was going to be $2 billion 
in the next 3 years. What gives? I mean, in terms of compound. 
I don't know exactly what a compound pharmaceutical is, but 
when it goes from $5 million to $500 million in a 10-year 
period. And it is still not--it is not a great percentage of 
the drugs, but it is, like, 20 percent of the cost. Are we 
working on that somehow? I mean, what has caused that kind of 
explosion?
    Mr. Frelinghuysen. Sounds like General Robb is front and 
center on that.
    General Robb. I have got that one, yes, sir.
    You are absolutely right. Currently our pharmacy, 0.5 
percent of our pharmacy prescriptions now account for, and that 
is because of compounding, compounding now accounts for 20 
percent of our total expenditures in the pharmacy arena. And, 
again, you were correct, in March of 2014, the compounding cost 
us about $42 million in that month. It is $330 million in March 
of 2015.
    So to answer your question, why is this, it is really 
primarily for two reasons. One, it has been a direct and an 
intensive marketing campaign by those compounding 
pharmaceuticals, not only directed towards our patients, but 
our healthcare facilities, both direct care and also in the 
network, and our providers. And so they have been actively 
recruiting folks to go out there and get folks to basically 
switch over to compounding pharmaceuticals as opposed to what 
we would call the more traditional. That is number one. So that 
is intense marketing.
    Number two is in December of 2012, an average compounding 
pharmaceutical was about $190 per claim. December of 2014, 
$2,600 per script, claim. And so that tells you that the price 
has gone up, the marketing has gone up, and therefore that has 
driven the volume up.
    We started to notice this about 2 years ago, because our 
pharmaceutical ability to identify the products in our claims, 
that was a new addition, and so we started to notice that there 
were products within the compounding pharmacy that were not FDA 
approved. And so our plan was to, how do we best approach this? 
And so we have been working together with our constituents, we 
have been working together with our industry, we have been 
working together with our beneficiaries, and also our providers 
to come up with a way ahead.
    Express Scripts, which covers about 70 percent of the 
pharmacy contracts in the Nation, is also the pharmacy contract 
for the Department of Defense, and they have in place for the 
civilian sector a series of algorithms where they screen the 
drugs that come in for FDA compliance and also for safety and 
efficacy. And the number one priority of the Department of 
Defense is the safety and efficacy for our patients. So that is 
one, and then number two is to be good stewards of our 
taxpayers' dollars.
    So beginning 1 May, we will start to screen those drugs 
with all the input that we have had from the different focus 
groups, and that is going to be immediately. Takes 5 seconds. 
And then if we identify a product within those compounding 
pharmacies that is not FDA approved, we have the ability to go 
back and ask the pharmacy or the provider if he wants to change 
the ingredient or change to a different medication. If he does 
not, there is also going to be a policy in place where they can 
request an exception to policy, and that will take about 5 
days.
    Before this, and we have already begun this, is an 
intensive campaign to communicate to our beneficiaries and to 
our providers out there in our managed care support contracts 
that this is the way ahead.
    Mr. Crenshaw. Thank you. And I would just say, I mean, that 
is astronomical.
    General Robb. Yes.
    Mr. Crenshaw. And the marketing part, I mean, if they are 
more effective, you want to make sure that we keep folks well.
    General Robb. Yes.
    Mr. Crenshaw. But if it is so wildly expensive, we have to 
make sure that that is the most effective and most efficient 
way to do that. So thank you.
    General Robb. And that is the key. Many of these 
compounding pharmaceuticals don't have the data to back up the 
efficacy and the safety. And that is one of the primary reasons 
that, again, we are focused on screening those products, to 
make sure that they are safe and FDA compliant.
    Mr. Crenshaw. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Crenshaw.
    Admiral Nathan. Sir, could I just add one comment?
    Mr. Frelinghuysen. Yes, sir.
    Admiral Nathan. Because this represents possibly, if 
unabated, the greatest threat to the DHP budget the way it is 
accelerating. We are taking it very seriously. But you will 
probably hear some groups start to lament the fact that we are 
tightening the reins on these. Be assured that we are doing 
this on those that have no proven scientific measure of 
improved efficacy or clinical application. We would not 
restrain any pharmaceuticals that we thought from a cost 
standpoint provided great bang for buck. So far, these have not 
proven to.
    And so because of loopholes and various opportunities, 
people have found that if you mix two things together and 
charge for that, which is called compounding pharmaceuticals, 
you can charge an exorbitant amount. And the DHA and the others 
are starting to take this seriously. But this is a real threat 
to the DHP program.
    Mr. Frelinghuysen. Just for the record, we have been aware 
of this for 2 years. General Robb, you are in charge of the 
cost curve.
    General Robb. Right.
    Mr. Frelinghuysen. So it is not new. And just for the 
record, I always thought compounding existed when traditional 
generic or traditional drugs weren't meeting the needs of the 
patients, that is why you did compounding. Is that correct? Or 
is this another version of compounding, just for the record 
here?
    General Robb. You are right.
    Mr. Frelinghuysen. In other words, there are traditional 
drugs that you get.
    General Robb. Traditional pills and----
    Mr. Frelinghuysen. But then when you can't meet the 
patient's needs, then you go into a compound mode, right?
    General Robb. Right. Some of it is for ease of delivery. 
Most of it is for pain. But we have known about the compounding 
pharmacy for 2 years, but the actual astronomical growth in the 
cost has really only been over the last 4 to 5 months.
    Mr. Frelinghuysen. Okay.
    General Robb. And then I would like to add one real quick 
thing on ESI. One of the things that they are currently doing 
that will also help not only screen it for, again, approved 
medications, but number two is they are now currently 
negotiating cost caps for the medications, and so we will bring 
the competition and the price down with the pharmaceuticals.
    Mr. Frelinghuysen. Okay. I just wanted to get to Mr. 
Visclosky. I apologize for jumping in here, but I think we need 
a little bit of clarification. Thank you.
    Mr. Visclosky. And if I could also ask a question on 
clarification. On the line of questioning, you had mentioned 
that what will be excluded are drugs not approved by the FDA. 
Why would they be approved now if they are not approved by the 
FDA? Myself, and I am only speaking for me, I think it is 
insidious when sales representatives, I was watching TV for a 
half-hour, you have five drug ads, and the physicians I talk to 
at home say they do. I mean, they know exactly what they are 
doing here. But if it is not approved already, why have they 
been approved?
    General Robb. As you know, the FDA in our system exists, 
again, to provide safe and effective medications for our 
patients. Some of the medications, as you know, FDA, are 
approved for use in a certain manner or a certain delivery, but 
a lot of them are not in bulk compounds. And so that is what 
happens. They will take these bulk compounds, which are not FDA 
approved, but if you use them as individual drugs they are 
okay.
    And so it is actually very complicated, and that is why we 
have been working with the FDA to have them look at, you know, 
give us some guidelines here so that we can move forward. And I 
think this has been a good relationship, not only with the 
industry, but with our beneficiaries and also with our 
providers.
    Mr. Visclosky. I do appreciate the effort.
    Mr. Carter. Mr. Chairman.
    Mr. Frelinghuysen. Judge Carter.
    Mr. Carter. Would the gentleman yield for just a second?
    Isn't part of the reason people go to compounding 
pharmaceuticals is that the FDA hasn't reached these drugs, 
which they have been approved? I am just going to tell you the 
story. My wife has an esophageal problem that they have not 
been able to fix, and the doctor said, well, they have a 
product that has been approved in Canada and it seems to be 
very effective, go to a compounding pharmacy. And we got that 
product, and it is very effective. And the only reason it is 
not on the market in the United States is that FDA has not 
reached it yet. So I am going to have to speak out that at 
least in my experience, it was quite a lifesaving drug.
    Mr. Frelinghuysen. Thank you, Mr. Carter.
    Mr. Visclosky.

           CONGRESSIONALLY DIRECTED MEDICAL RESEARCH PROGRAMS

    Mr. Visclosky. Mr. Chairman, on behalf of Ranking Member 
Lowey, I just would want to for the record point out that she 
has long been an advocate of funding for congressionally 
directed medical research programs, and particularly for breast 
cancer and for funds that have been provided for Service-
specific research projects in labs across the globe.
    For the record, I would like to introduce three questions, 
if I could have the panel answer them, most specifically the 
question relative to, have results of military medical research 
been incorporated into practice, changed procedures, or 
improvement of care?
    Appreciate it very much, Mr. Chairman.
    [The information follows:]

    As Navy Surgeon General I have two pathways to develop medical 
products and strategies directed towards force health protection. These 
include the Navy Advanced Medical Development (AMD) Program, and a 
world-wide research enterprise of eight biomedical research 
laboratories that address the full range of DoD medical priorities from 
Traumatic Brain Injury and Psychological Health to Combat Casualty 
Care, Mitigation of Infectious Disease Threats, and Warfighter 
Performance in Extreme Environments. Since these execution labs are 
largely dependent on competitive funding from DoD, other federal 
agencies, and non-federal research sponsors, they are adept at 
leveraging their finding by partnering with similarly focused 
institutions to enhance their efforts. In Fiscal Year 2014, Navy 
Medicine executed nearly 100 new public-private Cooperative Research 
and Development Agreements leveraging internal and external 
capabilities and resources toward accelerating the development of new 
biotechnologies.
    The products of our Navy AMD Program enhance the capabilities of 
care providers under austere conditions. The Program's major lines of 
effort include preventing mortality and morbidity resulting from 
battlefield injuries, optimizing warfighter performance, and 
maintaining combat readiness while reducing the overall medical 
logistics burden. As an ``Advanced Development'' program, AMD does not 
fund basic or applied research initiatives, but seeks to transition 
mature technologies developed either by DoD laboratories and agencies, 
other federal labs, and academic or industry partners. AMD provides 
products that support the unique demands of our undersea forces and 
innovative solutions in Preventive Medicine for maintaining a fit and 
ready force deployed world-wide. A major focus area continues to be 
support of the Marine Corps. Recent examples of joint development 
include delivery and deployment of the Mobile Oxygen Ventilation 
External Suction Device and the complementary Mobile Anesthesia 
Delivery Module that recently received medical device marketing 
approval. Together, these devices provide advanced casualty life 
support with significantly reduced cube and weight. These devices, as 
integral components of an enroute care system, allow delivery of 
critical care on land, in and across the littorals, and on the sea-
base.
    As part of an enterprise research lab initiative, as opposed to an 
AMD effort, the Naval Medical Research Center's (NMRC) Biological 
Defense Research Program formed the Austere Environment Consortium for 
Enhanced Sepsis Outcomes (ACESO), which is using clinical research to 
develop sepsis clinical practice guidelines and host-based biomarker 
tests to allow a precision medicine approach for improving survival in 
severe infectious diseases in remote or resource-limited environments. 
In collaboration with academic partners and our Naval Medical Research 
Units in Asia and Egypt, ACESO has established an international network 
of sites researching how to apply these principles in severe 
infections. The tools developed by ACESO could significantly mitigate 
the impact of severe and emerging infectious diseases on our 
increasingly distributed operational forces.
    An example of a near real-time solution to an injured warfighter 
problem is the collaborative effort between NMRC and the Walter Reed 
National Military Medical Center (WRNMMC) to develop a Clinical 
Decision Support Tool to Guide Extremity Amputations. The differences 
in functional outcome of patients with lower extremity amputations 
compared versus those undergoing limb salvage secondary to severe lower 
extremity trauma presents a challenge to the medical community and to 
patients. Experience from years of treating warfighters with extremity 
injuries from Improvised Explosive Devices (IEDs) has resulted in the 
realization by the warfighters and their clinical providers that they 
could have more function with a prosthetic than with a less functional 
and severely injured residual limb. After many years of caring for 
injured warfighters confronting this very situation, our researchers 
worked with colleagues at WRNMMC to develop a decision support tool 
that improves both patient outcomes and the quality of life for the 
patient by providing the physician and the patient with an estimation 
of the probability of limb viability based upon sound clinical data.
    As a final example, I am proud to report that Navy Medicine's 
productive collaborations are not limited to U.S. partners, as 
evidenced by the deployment of two Navy mobile Ebola detection labs to 
Liberia to support response efforts of the Government of Liberia, other 
U.S. government interagency partners, the World Health Organization, 
and various Intergovernmental and Non-Governmental Organizations. 
During our 5-month deployment, three to four person teams processed 
nearly 4,000 suspected Ebola samples. Laboratory results were provided 
to health authorities and international partners within 4-24 hours of 
accession, resulting in a dramatic decrease in result turn-around 
times.

    Military medical research and development conducted by the U.S. 
Army laboratories in the United States and overseas, has historically 
and currently provided numerous discoveries and products which have 
been incorporated into practice, changed procedures and improved care. 
Studying the threats due to combat deployment and military training, 
both on and off the battlefield, by military laboratories in 
partnership with civilian research institutions, has facilitated the 
research and development of technologies for infectious diseases, 
trauma care, operational medicine and, in recent years, rehabilitative 
and regenerative medicine. The U.S. Army Medical Research and Materiel 
Command (USAMRMC), a subordinate command of the U.S. Army Medical 
Command, manages and executes core program Army Research, Development, 
Test and Evaluation (RDTE) efforts. USAMRMC also executes certain 
Defense Health Program RDTE core programs and annual congressional 
special interest funding, through the Congressionally Directed Medical 
Research Programs (CDMRP), which supplements the military relevant 
medical research and funds national programs for diseases of 
congressional interest.
    Below are some of the changes in civilian medical practice and 
improvement in care that have resulted from military medical research 
and development conducted by U.S. Army Medical Research and Materiel 
Command.
    The Military Infectious Disease Research Program has been involved 
in all major breakthroughs of vaccines and therapeutics for the 
prevention and treatment of malaria, has conducted the first successful 
HIV vaccine trial and recently completed an Ebola vaccine human safety 
trial.
    Some military lessons leaned over a decade of war from Combat 
Casualty Care have changed the military and civilian practice of trauma 
care. In the August 7, 2013 publication of the Journal of the American 
Medical Association, many of these lifesaving advances include: 
managing a surge of complex casualties, use of tourniquets and 
hemostatic bandages at point of injury, changed ratios of providing 
blood components (e.g., plasma, platelets, and red blood cells), and 
use of less invasive shunt and endovascular devices.
    Evacuation of wounded during the civil war, through air evacuation 
in the Vietnam war, and into modern day in flight and enroute medical 
treatment was developed by the military and many of the lifesaving 
aspects directly translate into civilian ambulance and air evacuation 
practices today.
    Military advances in Traumatic Brain Injury (TBI) include approved 
devices to assist in diagnosis, a completed pivotal trial in blood 
biomarkers, the largest-ever longitudinal study of the natural history 
of concussion, advanced neuroimaging technologies, and the Federal 
Interagency TBI Research (FITBIR) data repository for federally funded 
TBI clinical research databases. The Clinical and Rehabilitative 
Medicine Research Program has greatly advanced the development of 
powered and intelligent prosthetics for young active amputees and the 
Armed Forces Institute of Regenerative Medicine (I & II) has made 
quantum leaps ahead including the development of technologies for 
growing of new human organs, spray on skin cells, as well as hand and 
face transplants.
    The Operational Medicine Research Program has shown that the 
prolonged or repeated psychological stressors from the military are 
different than individual occurrences of civilian Post Traumatic 
Stress. Funded studies identified that fewer sessions of Cognitive 
Behavioral Therapy may be very beneficial for military trauma. The 
program also produced a patentable molecular signature that can 
characterize individual aspects of post-traumatic stress disorder 
(PTSD) and identified the eight specific dysfunctional issues embodied 
in the ``gold standard'' clinician-administered PTSD survey based on 
Diagnostic and Statistical Manual of Mental Disorders (DSM)-IV and DSM-
5 codes.
    Research for Medical Training and Simulation is changing the field 
of smart manikin technology, bringing together various companies to 
create plug-and-play medical and surgical training devices to prepare 
our medics, doctors and other health care providers for trauma care.
    As a result of investment in CDMRP over the last two decades, many 
new cancer drugs and therapies have been developed and approved by the 
Food and Drug Administration, several cancer gene expression 
diagnostics have been approved, imaging techniques have incorporated 
new technologies, and registries have been created. The annual CDMRP 
report (http://cdmrp.army.mil/pubs/annreports/annual_reports.shtml) and 
the CDMRP website (http://cdmrp.army.mil/default.shtml) list these and 
numerous other advances and accomplishments for several types of 
cancer, rare diseases and other diseases affecting the population of 
the United States as a whole.

    Thank you, Congressman Visclosky for asking these very candid and 
important questions as to how medical research is translating to better 
care.
    I have employed a two-Wing concept for execution of research and 
technology development in the Air Force Medical Service that supports 
Air Force critical mission gaps in the areas of enroute care, 
expeditionary medicine, force health protection, human performance, and 
operational medicine. The research conducted by the 711th Human 
Performance Wing and the 59th Medical Wing translates to knowledge 
products for improving clinical and operational practice in theater, 
enroute, and at home. We have also leveraged Congressionally-funded 
research programs with extramural partners that have resulted in 
significant improvements in patient care.
    Our autism research has focused on better care and health for Air 
Force families. Over the last few years we have teamed with Wright-
Patterson Air Force Base Medical Center, Nationwide Children's 
Hospital, and Dayton Children's Hospital in Ohio to identify Autism 
Spectrum Disorder (ASD) susceptibility genes, rare variants and 
interventions to enable early intervention and treatment. This endeavor 
continues to support development of the Central Ohio Registry for 
Autism, which will enroll 150 families in the next phase of patient 
studies through September 2015, 50 percent of which are military 
families. One promising breakthrough we are evaluating is early 
intensive behavioral intervention with Applied Behavior Analysis. 
Research shows that earlier screening, diagnosis and intervention 
lowers the extent of therapy needed over an individual's lifetime. We 
continue to look for ways to improve the experience of care and reduce 
stress for our ASD individuals and families by exploring ways to extend 
our resources through the use of online health professional training 
and telemedicine. The Air Force currently has about 1,700 patients 
enrolled in the Exceptional Family Member Program and may benefit from 
this treatment.
    It is a well-known fact that the prevalence of overweight/obesity 
and its related co-morbidities, such as diabetes, is increasing in the 
U.S. to include the U.S. military. The fight against this epidemic is 
best addressed by the adaption of lifestyle intervention programs. 
Through Congressional funding ($14.7 million) and collaboration with 
the University of Pittsburgh's Diabetes Prevention and Support Center 
(DPSC), the Group Lifestyle Balance (GLB) lifestyle intervention 
program was developed. The foundation of the GLB program is based on 
the National Institutes of Health (NIH) Diabetes Prevention Program 
(DPP). The GLB has shown to be effective in reducing weight, increasing 
activity, and modifying disease risk in multiple populations. The GLB 
program is one of two recognized community-based diabetes prevention 
programs. Over the past several years, the DPSC worked with the Air 
Force Medical Service (AFMS) to provide multiple training opportunities 
for military health professionals with resulting GLB programs ongoing 
at five military sites.
    In 2010, we established a Personalized Medicine Program with the 
vision of guiding use of genomic information in clinical decision-
making. Since that time, more than 27,000 risk reports have been 
provided to study participants for risk factors for melanoma and sleep 
deprivation. From the resulting surveys, the information provided has 
had the effect of motivating military members to change behaviors. The 
mid-term study results document improvements in preventive health 
behavior.
    We are developing a rapid screening tool to leverage state-of-the-
art in vitro toxicology datasets leading to advanced models that assess 
how chemical toxicant exposures can contribute to adverse effects on 
our operators in high performance air craft. The current method to 
quantitatively assess health risks of chemical exposures relies on 
expensive, low-throughput animal studies unsuitable for assessing the 
potential toxicities of the 10,000 chemicals to which air crew are 
exposed. We worked with industry to develop a platform utilizing high-
throughput, physiologically relevant cell-based assays to elucidate the 
mechanistic basis of toxicity, in lieu of animal studies. Results of 
this effort will allow for the early assessment of potential toxicities 
in a rapid, cost-effective manner.
    In addition, we are addressing unique operational needs through 
research. Our U-2 pilots were experiencing hypobaric and hypoxic 
conditions on subcortical structures (brain white matter lesions). Our 
research resulted in better definitions of the initial impact of 
hypobaric and hypoxic conditions, which drove operational doctrine 
changes, and impacted organizational approaches to mission and manning.
    Finally, with the anticipation of fiscal year 2016 and beyond 
advanced development funds in our appropriation, I have established an 
Advanced Development Cell (ADC) to transition medical materiel 
solutions for improving warfighter care in the air, on the battlefield, 
and in garrison.
    We have developed a unique design for a vascular shunt that can be 
inserted into a wounded warrior by a far-forward deployed surgical 
team. The shunt restores blood flow to a wounded limb to enable the 
limb to be salvaged, and minimizes the loss of functionality for the 
wounded warrior. The design is military unique, as the typical injury 
where this capability is required occurs at sites that may be hours 
away from more definitive care.
    Starting in 2014, the AFMS began assisting the Army Medical 
Research and Materiel Command (USAMRMC) and the Special Operations 
Command Surgeon General (SOCOM/SG) to transition the novel ``XStat 
hemorrhage control sponges'' for treating non-compressible junctional 
wounds on the battlefield caused by gunshots and shrapnel. AFMS support 
helped the XStat product become Food and Drug Administration approved 
for battlefield use in 2014, reduced the production costs in half, and 
enabled 300 units to be deployed with SOCOM troops. In the middle of 
May 2015, the XStat product was reportedly used to save the lives of at 
least one member of Canadian Special Forces personnel, and was used on 
two others who were wounded in a deployed setting. We are currently 
funding a broader trauma indication that will apply to local, state, 
and federal-wide use.

    Military medical research and development has provided numerous 
discoveries and products which have been incorporated into practice, 
changed procedures and improved care. A few examples include:
          <bullet> Prevention and treatment of malaria through major 
        breakthroughs in vaccines and therapeutics;
          <bullet> Use of tourniquets and hemostatic bandages at point 
        of injury;
          <bullet> Discovering change ratios of providing blood 
        components (e.g., plasma, platelets, and red blood cells);
          <bullet> Use of less invasive shunt and endovascular devices;
          <bullet> Assisting in diagnosing traumatic brain injury with 
        newly approved devices;
          <bullet> Advanced development of powered and intelligent 
        prosthetics for young active amputees;
          <bullet> Demonstrating that fewer sessions of Cognitive 
        Behavioral Therapy may be very beneficial for military trauma;
          <bullet> Development of a patentable molecular signature that 
        can characterize individual aspects of post-traumatic stress 
        disorder (PTSD);
          <bullet> Changing the field of smart manikin technology;
          <bullet> Development of new cancer drugs and therapy that 
        have been approved by the Food and Drug Administration (FDA); 
        approval by the FDA of several cancer gene expression 
        diagnostics; and incorporation of new technologies for imaging 
        techniques; and creation of new registries

    Mr. Frelinghuysen. Consider it done.
    Ms. Granger.

                ALTERNATIVE TREATMENTS FOR TBI AND PTSD

    Ms. Granger. I had the opportunity to work with Marcus 
Luttrell on an issue. And in meeting with him, he talked about 
some very extremely effective treatment he had had at the 
Carrick Brain Centers in Las Colinas, Texas. They are doing 
really amazing work with servicemembers who are diagnosed with 
post-traumatic stress and traumatic brain injury. And I toured 
their facility and talked to some of their patients. In fact, I 
sent some that had come to me with problems that they were not 
getting the treatment they needed, and since they were on a 
grant could fill that with Active Duty military. Unfortunately, 
it is still extremely difficult for servicemembers to receive 
treatment there, especially while they are on Active Duty.
    During this hearing last year, I asked what needs to happen 
to make medical treatment by organizations outside of the DoD 
more readily available to our servicemembers.
    Director, your colleague, Dr. Woodson, said that you needed 
to work out a system to provisionally cover these kinds of 
evolving practices and create more flexibility in the program. 
My question is, what progress have you made in this regard? Are 
you any closer to making these services more accessible than 
you were a year ago?
    And for years I asked how we are going to have the persons 
to treat all those that are coming home for two of the longest 
wars we have ever had, and the answer essentially was we are 
going to grow those physicians, which I knew was not going to 
service the numbers we have got. So tell me how you have 
progressed in making treatments like those outside of DoD 
available.
    General Robb. Yes, ma'am. One of the what I would call 
modernization efforts just in the last year that is going to 
allow the Department of Defense healthcare system, Military 
Health System, to move forward, is the creation, and actually 
through the support of the NDAA, is what we call emerging 
technologies and treatments. And so we have created a construct 
within the Department of Defense Military Health System to 
where we will take these emerging technologies and treatments 
and take a look at them, to look at, again, the safety, the 
efficacy, the data that either shows that the outcomes are as 
either stated and/or predicted.
    This will allow us to stay on the leading edge of health 
care. As you know, the Department of Defense Military Health 
System is governed by statute, and as a result we don't have 
necessarily the flexibility that some of our civilian 
healthcare systems do. But this will help us, again, under what 
I call a legal framework, to be able to do that. And we are 
excited about that. And if that is one of the things that looks 
promising, then we will absolutely take a look at it, yes, 
ma'am.
    Ms. Granger. And so that can be looked at now, right?
    General Robb. Yes, ma'am.
    Ms. Granger. You are saying that program already exists?
    General Robb. Yes, ma'am. We just stood it up. Yes, ma'am.
    Ms. Granger. Well, I would hope that you would look at 
that. And I toured, and when I talked to people being treated 
there, I know, for instance, in strokes that you say the first 
6 months were just magic. Well, they were treating stroke 
victims that had a stroke 7 years before and were progressing. 
So I just think for our military, those that are outside of 
that DoD could be extremely helpful rather than having someone 
spend the rest of their lives with some of the injuries they 
have.
    Thank you.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Ruppersberger.

               NATIONAL TRAUMA CLINICAL RESEARCH PROGRAM

    Mr. Ruppersberger. Yes. First, thank the panel for your 
leadership in managing our defense health programs. For the 
last month or so, we have been having hearings with our 
military about military modernization, procurement, ongoing 
engagements, but the need for adequate funding for what you do 
and the defense health programs could not be overstated. And as 
you are well aware, these programs are not only important to 
our men and women in the military, either post-injury or 
current injuries, trauma, those type of things, but the 
research and medical technology benefits our citizens also.
    I think, General Robb, I am going to talk to you about the 
National Trauma Clinical Research Program. Research into trauma 
treatment and prevention remains a top priority for the 
military, but it also has to compete with many other areas of 
research. And many advancements in trauma care are a result of 
extensive deployments on the battlefield, and we must maintain 
that momentum in trauma research.
    I am aware of the Department's efforts to create a 
coordinated, multi-institution, clinical research network to 
advance military-relevant topics in trauma care and trauma 
systems that would allow the Department to maintain the 
advancement and skill sets critical to progressing in this area 
of research, even as our combat deployment decreases.
    Now, the questions are, number one, could you explain the 
importance of creating such a network, the value it will 
provide to maintain military and, transversely, to the civilian 
communities, and what role the Department should play?
    General Robb. Yes, sir. I think if you look at the 
signature advance in these current conflicts and that is the 
rapid advances in survivability in our trauma system. And if 
you roll back time to around the 2005-2006 timeframe, we stood 
up and placed in theater what was called the Joint Trauma 
System, and that was the brainchild of then Colonel John 
Holcomb with colleagues from the Army and the Air Force and the 
Navy to do an overarching management of the trauma system in 
the theater, not just in the OR, but pre-hospital, hospital and 
en route care, and to get all those folks working together for 
what we call a seamless integration across the continuum of 
care.
    What was just as important during that time was the 
creation of the Joint Trauma Registry, and that is to collect 
the data that will back up the outcomes that we were trying to 
achieve.
    One of the other things that happened during this conflict 
was the Visiting Professor Program, where we invited the senior 
trauma orthopedics and general surgeons from around the country 
to participate in the delivery of health care in Landstuhl and 
at times in our forward locations. So what we started to do was 
create an incredible alliance and strategic partnership with 
the trauma community in the civilian sector.
    They saw our advances, they saw our data, many of which 
through damage control resuscitation and damage control surgery 
have translated back to the civilian sector. Many of the 
physicians who wore those uniforms in those ORs in the theater 
also were Reserve doctors who then went back to the University 
of Cincinnati, went back to the University of Houston, went 
back to the Baltimore Shock Traumas to deliver those advancing 
health cares.
    Now, that same group of folks, because of those 
relationships that were built during our conflict, they see 
that we need to continue this. And so what we are seeing, sir, 
exactly what you saw, is there is a request out there for 
research and trauma coordination.
    And that is where we create, again, one of our lines of 
effort, Dr. Woodson's lines of effort, strategic partnerships, 
with the trauma community out there where we also work 
together, our military healthcare system working side by side 
with the civilian healthcare system to continue to advance 
medicine. They learn from us and then we learn from them in the 
inter-war years. And that is what I call keeping the pilot 
light burning and continue the advancements in health care.
    Mr. Ruppersberger. Can you tell the committee what 
additional resources are required for fiscal year 2016 to 
advance this program forward and what efforts are underway to 
program for it in the POM, the Project Objective Memorandum?
    General Robb. Sir, I will have to get back to you on the 
specifics.
    [The information follows:]

    The DoD Combat Casualty Care Research Program--as part of its 
larger research effort--is planning $4-10M in FY16 President's budget 
to initiate a Civilian, Multi-Center Clinical Research Network in which 
military-relevant trauma topics can be studied. To spur this effort and 
leverage civilian expertise and capacity, the DoD Combat Casualty Care 
Research Program has issued a Request for Information on the topic of a 
Civilian, Multi-Center Clinical Research Network. After open 
competition and external review, the program plans to fund the best or 
strongest of the responses from civilian academia (trauma systems and 
centers) and industry with dollars from its FY16 budget. To sustain 
this capability in the out years, the Civilian, Multi-Center Clinical 
Research Network will be planned, programed and budgeted as part of the 
Combat Casualty Care Research Program's POM submission for Defense 
Health Program money.

                         BALTIMORE SHOCK TRAUMA

    Mr. Ruppersberger. Okay. You mentioned Maryland Shock 
Trauma. Could you tell me about it?
    General Robb. Well, one of the places--and, again, in fact, 
I will potentially succeed here the question over here to 
General Travis--but one of our places where we get great trauma 
experience is up at Baltimore Shock Trauma.
    And, General Travis, I will pass it on to you to give the 
specifics of that.
    General Travis. Yes, sir.
    Of course, we are very proud of that, that C-STARS training 
platform, which provided so much just-in-time training, but we 
have an embedded cadre of folks up there who are not only 
teaching our high-acuity or trauma teams, not just doctors, but 
nurses, technicians before they go downrange. They are also now 
collaborating in a lot of research, and have been for years.
    So the effort you talk about, and we have similar 
institutions or agreements with Cincinnati, St. Louis, and now 
University Medical Center in Las Vegas.
    Mr. Ruppersberger. That is good. It is expanding. For the 
record, Maryland Shock Trauma saved my life and I am on the 
board there.
    General Travis. Yes, sir.
    Mr. Ruppersberger. And how long has the military been at 
Shock Trauma with fellows?
    General Travis. Got to be going on 20 years.
    Mr. Ruppersberger. Twenty years at least, and it has been 
very beneficial.
    General Travis. Dr. Scalea has been incredibly supportive.
    Mr. Ruppersberger. No question.
    General Travis. And he has participated in the visiting 
professor discussion that General Robb brought up.
    Mr. Ruppersberger. Okay. Yield back.
    Mr. Frelinghuysen. I want to put in a plug for those who do 
the search and rescue at C-STARS too.
    General Travis. Yes, sir.

                       UPDATE ON BRENDAN MARROCCO

    Mr. Frelinghuysen. They do some pretty remarkable, 
courageous things.
    Mr. Womack.
    Mr. Womack. I thank the chairman. And once again I join my 
colleagues in thanking this distinguished panel in front of us 
today. And my question will follow the lines that Dutch brought 
up and a couple of others before me.
    General Horoho, it is great to see you again.
    We were talking about the continuum of care. And I believe 
our country is a great country in part because of our ability, 
from the combat lifesaver all the way through the process, to 
the care and the well-being back here in the States, and the 
reintegration of our warfighters back into society despite what 
has happened to them.
    General Horoho, you know, because you were the person that 
introduced this panel to Brendan Marrocco. Now, everybody up 
here probably has somebody from their district who could be 
that poster child, that example, if you will, of this continuum 
of care, this capacity of our country to do what we do 
remarkably on the battlefield. And this young man is not from 
my district, he is from Staten Island. I can't think of a 
better example of a person who is just indeed fortunate to be 
alive today because of what we were able to do at the time of 
impact and the rapid distribution of this young man back 
through this echelon of care, beginning with, I think it was a 
Navy corpsman that rendered aid to him at the time this 
happened.
    And for my colleagues that don't remember, this was the 
first soldier, correct me if I am wrong, that survived double 
arm----
    General Horoho. Quadruple amputee. Yes, sir.
    Mr. Womack. Yeah. Quadruple amputee and double arm-hand 
transplant surgery.
    General Horoho. Yes, sir.
    Mr. Womack. Help me understand where he is today. Can you 
update me on his progress?
    General Horoho. Yes, sir. It is my honor.
    Brendan is doing really well. He was one of seven who 
received a double arm transplant. He now has feelings in his 
fingers and his hands. He is doing exactly what he wanted to do 
prior to the transplant, he is driving. And so he has a truck 
and another vehicle, and that is kind of his pride and joy 
right now. And he is down to only taking one drug for 
rejection, which is absolutely amazing.
    And I think he represents, really, the impact of a joint 
system and the impact of taking the best care possible far 
forward on the battlefield and then having every echelon of 
care engaged in that throughout.
    And then the other thing that I think he is such a role 
model for is that was a collaboration with the civilian 
community, with major universities, with research that had been 
funded years ago looking at transplantation and 
immunosuppressant medication. And all of that coming together 
allowed him to be able to have a successful hand and arm 
transplant surgery.
    We have got seven right now that are on a waiting list 
across the Nation. Three of them are soldiers for face and hand 
transplants. And right now face and hand transplants now are 
considered, it happened this year, as an organ. So now they are 
on the donation list, which will open that up to many Americans 
and many soldiers, sailors, airmen and marines.
    Mr. Womack. His story, you know, dates back to really, I 
think, Easter Sunday of 2009, wasn't it?
    General Horoho. 2005.

                            RESEARCH FUNDING

    Mr. Womack. Or 2005. And so here we are now 10 years later. 
I just think it is one of the most remarkable things I have 
ever read about. And being able to meet the young man in 
person, I just think it is incredible.
    Can you help me understand what accounts in our budgeting 
make this kind of a story possible, so that my colleagues can 
understand what it is that we are doing and what more we can 
do?
    General Horoho. So actually Matt Nathan just brought up, we 
have the AFIRM project that is now on the second phase of this 
consortium that actually started at Wake Forest University, but 
brings in the best of civilian researchers, along with our 
researchers together really looking at how do we improve burn 
care, transplantation, rehabilitative medicine. And that has 
actually funneled money, instead of individual silos competing 
for those dollars, it has actually put it together as a very 
collaborative group, which I think is a forum, that consortium 
concept, that will allow us to actually tackle some other major 
issues that we need to be looking at across the United States.
    So I think the ability to continue funding those types of 
consortiums, that takes down the parochialisms and groups 
fighting for the same dollars, but rather targets military 
relevancy and U.S. relevancy in research that we are trying to 
struggle and solve the issues for.
    That has been very, very beneficial. They have just 
actually developed a mechanism that will stretch out the skin 
so that it reduces scars after major trauma. They have 
developed a prototype for skin that is not from the human body, 
that allows it to be grown, and so when we look at all the burn 
patients that we have out there. And so they have really just 
advanced medicine light years.
    Mr. Womack. Wow.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. For the record, could you break down the 
acronym you referred to? I am searching for it up here, but it 
has obviously done some remarkable things.
    General Horoho. It is AFIRM, Armed Forces Medical 
Research----
    General Robb. Institute of Regenerative----
    General Horoho. Medicine. Thank you.
    Mr. Frelinghuysen. Thank you very much.
    General Horoho. Thank you. It takes a team to get an 
acronym.
    General Travis. Sir, just a comment, if you don't mind.

                         SEQUESTRATION EFFECTS

    Mr. Frelinghuysen. Yes, sir.
    General Travis. Sequestration is a threat to research 
dollars. You know, we try to protect health care as best we can 
in our facilities. You don't want to close your doors, because 
if they don't come to see us for their health care, they go 
downtown to TRICARE, to the network, and that costs DoD still 
money.
    So with sequestration pressures, things like restoration 
and modernization, sustainment of our facilities, and research 
dollars take a hit. And not just the organic research dollars 
for the military medical community, but also, frankly, some of 
our partner institutions were impacted by sequestration last 
time.
    Mr. Frelinghuysen. General, I can assure you that everybody 
on this panel hates sequestration, and we firmly agree with you 
it is a straitjacket we would like to get out of sooner rather 
than later. But we are under the Budget Control Act, the 
President signed it into law. So we will try to extricate 
ourselves in a way that does minimum amount of harm to the 
important work you do.
    Mr. Ryan.

                           HEALTH ASSESSMENTS

    Mr. Ryan. Thank you, Mr. Chairman.
    Thank you for your service.
    I want to kind of go off what Mr. Womack was saying about 
this continuum of care. We sit in a committee hearing like this 
and we talk about defense health care, and then we will have 
another subcommittee that will talk about veterans health care. 
I want to understand better on how we can integrate the two and 
what the transitions are.
    I was in a, I guess it was a workshop, a couple weeks ago 
in Ohio, it is called Project Welcome Home Troops, where they 
deal with trauma victims that are veterans, and there were men 
and women in there, multiple tours, lots of post-traumatic 
stress, military sexual trauma. So there was a lot going on 
there that those folks weren't accessing the VA.
    And so I want to kind of understand, go back to the front 
end, if you can, somebody on the panel, can explain, what are 
the physical assessments that are done when you come into the 
military initially?
    Admiral Nathan. One of the things that has evolved, sir, 
over the past is we now do baseline cognitive studies for 
people prior to deployment. That was borne out of potential TBI 
and concussion----
    Mr. Ryan. What is the physical?
    Admiral Nathan. If you are talking about the mind, spirit--
--
    Mr. Ryan. Well, we will get to----
    General Horoho. You are talking, sir, about right when 
they----
    Mr. Ryan. As soon as they come in, yeah, physical 
evaluation. Health, body mass, blood pressure, whatever.
    General Horoho. So they actually through our MEP stations, 
they look at the physical requirements, what their health 
history is, they do their weight. They have a behavioral health 
questionnaire.
    The challenge with that is that it is self-disclosure. And 
DoD has been working aggressively over the last several years 
to see is there any tool out there that would allow for teasing 
out that information vice having someone self-disclose, because 
if they desire to come on Active Duty and they self-disclose, 
then they make themselves not acceptable to come in Active Duty 
depending on the type of illness.
    So it is kind of Catch-22. So we haven't found a tool that 
allows us to tease that out without having the input from our 
soldiers, sailors, airmen, marines. There also isn't a national 
electronic health system that you could go into that record and 
look at that. So one of the questions was is we could look at 
the children of prior servicemembers, but then do you 
disadvantage them, because we have their electronic health 
record where we could pull the behavior health, but they are 
going to then be at a disadvantage for those that are recruits 
across the United States. So that has been another area in 
which we have looked at.
    And so we have a different entry criteria for your weight, 
so you can be weighing more than what you can for meeting the 
retention on Active Duty, but once they go to basic, then we 
work to get them into compliance.
    Mr. Ryan. So just not to get very elementary here, but 
push-ups, sit-ups, run a mile?
    General Horoho. Once they come on Active Duty then they 
have that criteria.
    Mr. Ryan. Once they get on Active Duty.
    General Horoho. But prior to, it really is to see are you 
physically and mentally fit and do you have any legal issues or 
ethical issues that would preclude you from serving in our 
armed forces.

             TRANSITION FROM ACTIVE DUTY TO VETERAN STATUS

    Mr. Ryan. I will come back to this, I guess, in the second 
round of questions if we have a second round of questions.
    So the next question is through the transition. So you are 
done now. You did one, two, three, four, five tours. Those 
people who I was with a few weeks ago somehow slipped through 
the cracks, and I think we all have to take some responsibility 
for this when there are 22 suicides a day for veterans.
    So can you walk me through what the transition is? So I am 
done, checked my gun, my uniform, I am ready to go home. What 
is the transition for me as I move out? I know there is a 
difference if you sense some kind of post-traumatic stress or 
TBI, that may put you on one track, but just for the average 
person who you don't notice anything, is there a transition out 
of the military that we have in place?
    Admiral Nathan. Yes, sir. The current system, although 
people may fall through the cracks, but it is designed to 
provide everybody who leaves the Service gets an inventory of 
their health, both their mental health and their physical 
health prior to transition. It is required. And we are making 
it more and more congruent with the VA system. It is not 
perfectly congruent yet, but it is designed to have as less 
repetition as necessary or as possible so that you don't have 
to repeat the same groundwork you did leaving the Service once 
you get to the VA, so the VA has more visibility on what is 
happening with respect to the separation physicals.
    During those physicals now, what has been instilled in 
those histories and physicals is a specific targeting and 
questioning on mental health issues, challenge, difficulty with 
sleep, questions about self-harm to yourself or to others. 
These are designed into the system. Now, it doesn't mean that 
somebody doesn't fall through the cracks and those things 
aren't performed, but what I just said is policy. You don't 
leave the Service without them.
    Mr. Ryan. Yeah. And I----
    Mr. Frelinghuysen. I want to get to Mr. Diaz-Balart just 
before he has a conflict. But I do want to get----
    Mr. Ryan. Are you saying he is more important than me, Mr. 
Chairman?
    Mr. Frelinghuysen. Certainly not. No one is more important 
than you as a Buckeye.
    Mr. Ryan. He is the chairman of the subcommittee that I sit 
on.
    I just make the last point and then I will come back. I 
mean, I think we have got to think through, because I have 
talked to men and women who have gone through this, and they 
lie. They say, yeah, I am fine. They know you are going to ask 
about sleep, they know you are going to ask about do they have 
thoughts about killing themselves, they know what the 
questioning is going to be, and they mislead in the transition 
out. They have told me this. And then 6 months later those 
symptoms are much, much worse than they were when they were 
actually just kind of fudging, and it got worse and then here 
we are. They don't want to access the VA, and now we are stuck.
    So I want to talk in the next round about what kind of 
better transition, not just the questioning, but is there a 
program, doesn't have to be long, but is there something we can 
put everybody through to help reduce this great challenge that 
we all have.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. There will be a response, Mr. Ryan. 
There is a program, requirements that Congress has directed 
that certain things be done.
    And you are going to be more specific in response at the 
next round of questioning.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Mr. Chairman, thank you very much. I 
actually, as you just stated, I have to step out. I have been 
called out for the budget conference.
    Mr. Frelinghuysen. We will call you out any time, but let's 
get moving here.
    Mr. Diaz-Balart. Thank you. No, I will step out. I just 
want to thank you all for your service.
    And thank you, Mr. Chairman. I apologize that I have to run 
out.
    Mr. Frelinghuysen. Okay. I didn't know you were leaving.
    Ms. Kaptur.
    Mr. Ryan. Reclaiming my time.
    Mr. Frelinghuysen. Okay. Let's get Ms. Kaptur first and 
then we will get to others.

                        COST OF PHARMACEUTICALS

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome. Let me add my words of congratulations and thanks 
for the service of Dr. Travis and also General Horoho. Thank 
you both very much for your service to our country. This has 
been a very difficult period, and I know you have risen to the 
occasion admirably. We thank you. The people you serve most of 
all thank you. The American people thank you.
    I wanted to ask if you have today or if you could provide 
to the record the amount of your budget overall that 
pharmaceuticals now consume compared to, let's say, 2000, the 
base year of 2000. We have heard today about the compounding 
pharmaceutical issue rising from $5 million to $700 million. 
That is really a staggering increase by any measure. But what 
about brand name drugs and generic? Do any of you have those 
numbers now or could you give us a general sense of how that 
has increased over the decade?
    General Horoho. No. I was going to say, I will take that 
for the record of knowing the percentage from 2000 to now.
    [The information follows:]

    Pharmaceutical expenditures as a percent of the total Defense 
Health Program funding for the Medical Command was 10.25% ($305.2 
million) in FY2000. It increased to 15.73% ($676.2 million) in FY2004 
and has since decreased and stabilized to approximately 11% (averaging 
$822 million) from FY2012 to present. Over this time period, Congress 
provided funding for special programs in support of Wounded, Ill and 
Injured, increasing access to care for behavioral health, traumatic 
brain injury and post-traumatic stress. The funding trend for 
pharmaceuticals reflects these increases in access to care.
    The percent of Army Medicine's pharmaceutical expenditures 
attributed to generic drugs ranged from 10.73% ($48.9 million) in 
FY2005 to 23.19% ($197 million) in FY2015. Data from FY2000 to FY2004 
is not available. The increasing expenditure attributed to generic 
drugs at MTF pharmacies reflects ongoing efforts to adopt national 
pharmaceutical contracts and brand to generic conversions.

    General Robb. Right. We can get back to you on that. But 
one of the other initiatives that has occurred with the Defense 
Health Agency's standup primarily in the logistics arena, when 
you talk about generics versus brand names, because of the 
centralized efforts with not only our pharmacy division but 
also our logistics division, our actual compliance with using 
the generic drugs over the brand name drugs when the choice is 
there has actually doubled to save money for us. And I can get 
you the specific numbers.
    [The information follows:]

    <bullet> FY 2002 generic medications accounted for 17% of 
outpatient pharmacy expenditures but provided coverage of over 55% of 
the prescriptions filled (based on 30 Day Equivalent (DE) 
prescriptions).
    <bullet> FY 2014 generic medications increased to 30% of outpatient 
pharmacy expenditures but provided coverage of over 76% of the 
prescriptions filled (based on 30 DE prescriptions).
    For MTF pharmacy outpatient prescription only:
          <bullet> FY 2002 generic medications accounted for 20% of 
        outpatient pharmacy expenditures and provided coverage of over 
        58% of the prescriptions filled (based on 30 DE prescriptions).
          <bullet> FY 2014 generic medications accounted for 35% of 
        outpatient pharmacy expenditures and provided coverage of over 
        84% of the prescriptions filled (based on 30 DE prescriptions).

    General Robb. But using the national pharmacy contracts and 
also using the generics, again, we have greatly increased our 
compliance through the efforts of the Defense Health Agency 
both in the logistics and the pharmacy division.
    Ms. Kaptur. I am hearing the words you are saying, but I am 
not completely understanding what they mean.
    General Robb. My sense is that you were asking how are we 
being good stewards of the taxpayers' money with the 
opportunities and the tools we have. And, again, through the 
modernization and, again, the upgrades of our management 
system, before we had the Army, the Navy, and the Air Force--
again, doing a great job--but now we have brought those folks 
together in a more centralized approach.
    Ms. Kaptur. All right. General Robb, if $700 million is 
being requested for this coming fiscal year for the costs of 
the compounding pharmaceuticals, would you expect the brand and 
generics to be triple that, double that? How large is the 
pharmaceutical portion of your budgets?
    Admiral Nathan. We will have to take that for the record.
    General Robb. We will have to that take that for the 
record.
    [The information follows:]

    Navy Medicine's President's Budget, fiscal year (FY) 2015 pharmacy 
allocation is $339.3 million. Navy Medicine's President's Budget, FY 
2015 Operations and Maintenance, Defense Health Program (O&M, DHP) 
budget is $3.113 billion, with pharmacy accounting for 10.9% of the 
O&M, DHP budget.

    The following information is based on data extracted from the 
Department of Defense (DoD) Pharmacy Data Transaction Service (PDTS) 
from Fiscal Year (FY) 2002 through 1st Quarter FY 2015. The PDTS was 
fully operational beginning in 2002 so data is not available back to 
2000. The following Pharmacy Spend and utilization data below shows the 
increase in Brand and Generic expenditures (Pharmacy Spend).
    The increase spend for brand and generic pharmaceuticals across all 
three points of service (mail, retail, and military treatment facility 
(MTF) pharmacies) comparing the first quarter of FY14 to the first 
quarter of FY15 is shown below with an overall growth of 8% in 
expenditures year-over-year, excluding compounds. Extrapolating this 
quarter increase of $146 million would project an increase of 
approximately $584 million for the year in outpatient expenditures, not 
accounting for changes in utilization, prices changes, and other 
confounders. The anticipated growth in brand and generic costs of 
pharmaceuticals is already contained in the FY2015 funding for 
pharmacy.

----------------------------------------------------------------------------------------------------------------
                                                                       Brand          Generic          Total
----------------------------------------------------------------------------------------------------------------
2014..................................  FY14Q1..................        $1,216 M          $505 M        $1,721 M
2015..................................  FY15Q1..................        $1,281 M          $586 M        $1,867 M
Increase Spend Year over Year (YOY).............................           $65 M           $81 M          $146 M
Increase Percent Spend YOY......................................              5%             16%              8%
----------------------------------------------------------------------------------------------------------------

    The FY2015 funding for the entire pharmacy program is $8,246 M, or 
26% of the Military Health System Operations and Maintenance Budget of 
$31,715 M for FY2015.

    Ms. Kaptur. It is shocking to me that you don't know the 
number, actually.
    Admiral Nathan. Well, we know that the figure that is 
bandied about for the next 5-year budget for pharmaceutical 
costs to the DHP is going to be in excess of $40 billion, just 
for the pharmaceutical footprint alone.
    Ms. Kaptur. All right.
    Admiral Nathan. And I would ask that I be allowed to come 
back on the record for the exact number. But we take the 
gravity of what pharmaceutical costs very seriously. On the one 
hand, the pharmaceutical advances in this country have allowed 
people to be treated as an outpatient because of some of the 
advanced therapies and save tremendous money from in-patient 
care. And on the other hand, the military, I think, has done a 
pretty good job of looking hard at efficacy of generic versus 
brand name costs as they implement and adjust the pharmacy 
copays.

                    BRAND NAME VERSUS GENERIC DRUGS

    Ms. Kaptur. I appreciate the specificity of your reply. And 
let me ask you this. In the area of psychiatric and 
neurological health, one of the most difficult diagnoses 
relates to those conditions. And I have evidence in my 
district, not in the military sector, but in the civilian, that 
because of the pressure on the application of using generics as 
opposed to brand name, many of those who have been diagnosed 
with very serious neuropsychiatric conditions and stabilized 
are being taken off their brand name medicines and given 
generics because of servicers, when the servicers get involved.
    And I want to ask you, how are you protecting the patients 
that will come under your care from that kind of decision by 
insurance companies or servicers as opposed to doctors? I am 
concerned about costs, but I am also concerned about patient 
care. And if people are taken off brand name pharmaceuticals 
when they need them, what happens is it costs you more in the 
long run because they come back into the emergency rooms, if 
they are alive.
    So could you address how you as physicians and medical care 
professionals are preventing that kind of abuse of the patients 
under your care in the neuropsychiatric arena?
    General Horoho. So, ma'am, I will take that first, if that 
is okay, because I would like to, if I could just expand it a 
little bit, because part of the aggressiveness that we have 
been doing when we look at behavior health and psychological 
health is to really look and say how do we decrease reliance on 
pharmaceuticals in the first place, and then prescribe 
pharmaceuticals when they are absolutely needed.
    And so we have actually had our primary care physicians 
that are trained in behavior health, we have embedded behavior 
health in our primary care, we are using acupressure, 
acupuncture, yoga, and mindfulness to be able to decrease the 
reliance on pharmaceutical. We have seen a 50 percent reduction 
in reliance in that area. We have seen, just in opiate usage, 
we were at 6 percent for a 6-month usage and we have gotten 
that down to 2.4 percent. And when you look at all the other 
things that come from relying too much on opiates----
    Ms. Kaptur. What if they are bipolar, ma'am?
    General Horoho. I still believe there is medication that 
absolutely needs to be used for bipolar, but I also believe 
part of what is more important is to do a comprehensive and 
holistic care of our servicemembers or their family members 
that have depression, that have bipolar, that have other 
behavior health issues.
    We do look at is there a medication that will be able to 
have the outcome that we desire, is it generic or does it need 
to be the labeled medication, but how do we incorporate all 
these other pieces to it?
    We have also used two other things that I think are very 
impactful. We have seen a 64 percent reduction in inpatient 
hospitalization by taking our healthcare providers outside of 
bricks and mortars and putting them in where our soldiers are 
actually working every day to increase that habitual 
relationship. And then we increased from a million outpatient 
visits to 2 million outpatient visits, which means people are 
seeking more care.
    And so I think it has to be this holistic look, because we 
will never in the U.S. have enough behavior health providers to 
be able to treat all of the conditions that we have and the 
demand in the stressful world. And so my concern is, is that we 
do have to take it from a holistic approach and then look at 
applying the right medication in time to do that.
    And so we do now have comparable when they leave the Active 
Duty and they go into the VA system, we now have an agreement 
with the VA where they can use the same type of behavior health 
medication that they were on while they were serving on Active 
Duty. That is a huge change over this last year.

                       OHIO NATIONAL GUARD STUDY

    Ms. Kaptur. Could I ask you to please look at the Ohio 
National Guard study that has been ongoing for several years 
now?
    General Horoho. Yeah. I have got it.
    Ms. Kaptur. Are you aware of that?
    General Horoho. I am. And there has been actually some very 
good data that has come out of that of being able to link PTSD, 
childhood adversity, and then generic variants, and to look at 
how did those all come into play, because that then changes the 
treatment. And there has been work that has been done at 
looking at the lowest rate of psychiatric health service use in 
servicemembers, also having that tied to substance abuse 
disorder, and then saying how do we then insert our healthcare 
capabilities so that we decrease the reduction of reliance on 
alcohol and other substance abuse measures that are there.
    And I think probably the biggest thing that has come out of 
that study is when we looked at the same model in civilian 
stressors were significantly predictive of subsequent alcohol 
use disorders, while traumatic events experienced during the 
following combat were not. And so I think when we look at the 
Reserves, the National Guard, I think it is important for us to 
factor in that piece of their life when we are really looking 
at health readiness for our servicemembers.
    Mr. Frelinghuysen. Thank you, Ms. Kaptur. We are going to 
have another round in a few minutes here.
    Mr. Aderholt, thanks for your patience.

                            EXPRESS SCRIPTS

    Mr. Aderholt. Thank you. Thank you.
    And thanks for being here.
    I want to ask about--maybe address this to General Robb, 
but certainly open to anyone--we hear constituent concerns 
about Express Scripts. And the question will be, what is the 
DoD doing to resolve the issue before this program is going to 
be expanded significantly to more beneficiaries?
    General Robb. If we could get the specifics. I am not aware 
of any performance or customer service feedback at my level 
with Express Scripts.
    Mr. Aderholt. Okay.
    General Robb. But our folks, again, are absolutely 
dedicated to, one, either compliance with the contractual 
agreement, or number two, to address specific customer service 
needs.
    Mr. Aderholt. Okay. Well, if we could get with you on that, 
we do have some concerns and questions that we are getting from 
constituents about that.
    Ms. Kaptur. Would the gentleman yield on that point?
    Mr. Aderholt. Yes, I would yield.
    Ms. Kaptur. Could I kindly ask whether there is a complaint 
line in each of your departments for those who are having 
trouble with the servicer?
    General Travis. Yes.
    General Robb. Yes, sir.
    General Horoho. Absolutely.
    Mr. Frelinghuysen. Let's hope we have a complaint line. If 
we don't, we should establish one immediately. I am sure we do.
    General Horoho. We do.
    Admiral Nathan. Yes.
    Mr. Frelinghuysen. Mr. Aderholt.

                           NEUROFIBROMATOSIS

    Mr. Aderholt. Okay. Let me ask about neurofibromatosis. It 
is a mouthful, so I will call it NF. It is, of course, a 
severely debilitating disorder, manifests similar to problems 
our warfighters struggle with, chronic pain, severe back, 
breaks in the bones, wound healing, nerve issue. The 
Congressionally Directed Medical Research Program has 
consistently supported the peer review NF research Program 
since 1996. With this investment, NF research has made 
considerable progress, from identifying the major functions of 
the NF genes to developing sophisticated animal models, which 
are now used in preclinical trials.
    The Clinical Trials Consortium, the first forum for NF 
research to collaborate on clinical trials, is primarily 
supported through the Congressionally Directed Medical Research 
Program and its funding and would not be able to function 
without its support. The NF community recognizes and 
appreciates the NF research program as an efficiently run model 
of the Defense Health Research Program.
    To further this success, are there additional opportunities 
for the Department to support the Clinical Trials Consortium in 
moving closer to therapies for NF and conditions related to 
this debilitating disorder? Let me just throw it up to the 
panel, if anyone could address that.
    Admiral Nathan. I can't give you a specific answer on the 
offshoots of the NF, sir, but the generic answer is, yes, there 
is always opportunity to widen the aperture of these 
musculoskeletal and genetically based injuries and 
deficiencies, diseases that can create the problems. And so let 
me get back, let us all get back to our experts who are engaged 
in this research.
    [The information follows:]

    Navy Medicine appreciates the value of the Clinical Trials 
Consortium in the development and testing of medications that may be 
helpful in preventing or treating complications from the different 
forms of neurofibromatosis. We further recognize the potential of such 
a consortium to develop and test new therapeutic approaches to problems 
that our warfighters struggle with, such as chronic pain and wound 
healing. While I defer to my Army colleagues to identify how the 
Congressionally Directed Military Research Program (CDMRP) could expand 
the portfolio of the Clinical Trials Consortium to include 
interventions for the most significant injuries and illnesses facing 
our warfighters, I can speak to work being done by Navy Medicine to 
develop and evaluate new strategies and products to protect, protect, 
treat, and rehabilitate our ill and injured comrades. Furthermore, I 
can assure you that my Navy Medicine research program managers and 
researchers are aggressively product oriented and will enthusiastically 
collaborate with the clinician, hospital, institute or consortium, to 
include the Clinical Trials Consortium for Neurofibromatosis, which 
offers the most expeditious path to a successful intervention.

    Admiral Nathan. Now that the research is being 
collaboratively shared across the enterprise through the 
Defense Health Agency, we have an entree to be able to do these 
things jointly as opposed to stovepipe. So I think we can get 
you a more expedient answer.

                            TRICARE FOR LIFE

    Mr. Aderholt. Okay. That would be helpful if you could 
follow up on that.
    Let me switch gears to TRICARE For Life. This year's budget 
request, again, includes cost savings through the addition of a 
TRICARE For Life annual fee. The question would be is, what is 
the formula or the criteria that would be used to determine who 
is grandfathered into the TRICARE For Life and who will be 
required to pay for this annual fee?
    General Robb. Sir, that would be my question, and the exact 
formula, sir, we can get back to you on that.
    [The information follows:]

    First, those already on TFL as of January 1, 2016 will be 
grandfathered and will not have an enrollment fee. Second, for those 
enrolling in TFL after that date, the fee is ramped over a four year 
period allowing for planning for this expense. Third, the enrollment 
fee is tied to their annual retirement pay, so that those having a 
small retirement pay less than those who receive greater compensation. 
In CY 2019, the enrollment fee will be 1% of retirement pay with a cap 
of $150 per year per TFL beneficiary. Comparable ``Medigap'' policies 
carried premiums of $2,200 per individual in 2010.

    Mr. Aderholt. And just to follow up, have you considered 
and do you have the statistics on the number of retirees that--
--
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Aderholt. I will.
    Mr. Frelinghuysen. We don't have a response. Who is 
grandfathered in?
    General Robb. I would have to get back to you on that.
    Mr. Frelinghuysen. Okay. Does anyone on the panel know 
that?
    General Horoho. My assumption, and we will make sure that 
it is accurate, is that those that have it today would be 
grandfathered in, and then it would be the new population that 
would age into it.
    General Robb. Yeah. But I want to make sure we have that.
    Mr. Frelinghuysen. I thank the gentleman for yielding.
    Mr. Aderholt. Okay. And then, like I said, have you 
considered and do you have the statistics on the number of 
retirees that this change will affect?
    General Robb. We can get that for you.
    [The information follows:]

    The estimates of those beneficiaries who will pay a TFL enrollment 
fee are:

    CY2016: 48,079
    CY2017: 140,737
    CY2018: 256,757
    CY2019: 371,738
    CY2020: 487,882

                        COST DRIVERS IN THE MHS

    Mr. Aderholt. Okay. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    To General Robb, we have talked about one of the main cost 
drivers, which is pharmaceuticals. What are two other cost 
drivers?
    General Robb. For the military healthcare system?
    Mr. Frelinghuysen. Yeah. Absolutely, yeah.
    General Robb. Well, pharmacy is the big one, absolutely. 
And I think the other large areas are the execution of our 
direct care system, in other words, our direct health care----
    Mr. Frelinghuysen. Well, let me help you out a little bit 
here. In your testimony here you say the fiscal year 2016 
Department of Defense is requesting $32.2 billion for the 
Defense Health Program. Of this request, nearly $24 billion 
will support direct patient care activities in our military 
hospitals and clinics, as well as care purchased from our other 
civilian sector partners. Surely that is one of the cost 
drivers.
    General Robb. Yes, sir.
    Mr. Frelinghuysen. Could you talk to the committee about 
why that is a cost driver and how we are going to lower the 
cost curve?
    General Robb. Well, that is precisely. So we are in the 
healthcare delivery business, and the direct care system, which 
is our brick and mortar, along with our TRICARE health network 
are two primary expenditures in the delivery of health care.
    So as far as the TRICARE bill, as you know, we have put out 
a proposal for what we call the next-generation TRICARE 
contract, and many of the lines of effort in that new proposal 
will address continued cost containment in the TRICARE network. 
Some of the advances that we are looking at for our new managed 
support care contracts, number one is going from three regions 
to two, which should decrease the overhead, but it will also 
make it easier for us to transition from region to region. 
Another area that we are looking at----

                       PRIVATE SECTOR CARE COSTS

    Mr. Frelinghuysen. Maybe a few more specifics here. I do 
want to ask about the viability of our military hospitals and 
clinics, but I am interested in the dollar figures that we 
purchase from civilian sector partners. Do we have any figures 
here?
    Admiral Nathan. We can get you the exact figures.
    General Robb. We can get you those numbers.
    [The information follows:]

    According to Defense Health Agency accounting system reports, the 
total Navy and Marine Corps private sector care costs for the Defense 
Health Program (DHP) in Fiscal Year 2014 was approximately $4.6 
billion. I defer to the Director, Defense Health Agency to provide you 
the total private sector care costs for the entire Defense Health 
Program.

    The costs (rounded to the nearest thousand dollars) associated with 
medical and dental care plus pharmaceuticals received by Department of 
Defense (DoD) eligible beneficiaries in the civilian private sector 
only, excluding Overseas Contingency Operations (OCO) funding are:

    FY 2013 actuals: $14,274,543,000
    FY 2014 actuals: $14,458,602,000
    FY 2015 estimate: $14,503,759,000
    FY 2016 request: $14,892,683,000

    Admiral Nathan. But over 50 percent of the DHP dollar 
currently goes to the private sector.
    Mr. Frelinghuysen. Yeah. And actually how do we know, for 
instance, that the money is well spent? I assume that we have 
the quality of care in our facilities, which I will ask about 
specifically.
    Admiral Nathan. Yes, sir.
    Mr. Frelinghuysen. But how do we know and judge where 50 
percent of the people go?
    Admiral Nathan. You are echoing one of the concerns that 
was raised during the Military Health System review, and it 
was, how do we monitor the quality of the care that we provide, 
or that we fund, we pay for, when we either can't provide the 
care ourselves and have to send the patient out or the patient 
lives in an area where they don't have proximity to a military 
treatment facility, so they go to the private sector broker to 
the health networks.
    Mr. Frelinghuysen. So how would you judge, since I know you 
do a remarkable job, all three of you do, how would you judge 
the track record of some of these facilities where we make 
substantial investments?
    Admiral Nathan. Well, quite frankly, we don't have the 
visibility on the quality and the care other than that when we 
send people outside, we send them to accredited organizations 
that are Joint Commission accredited, but we don't have the 
same visibility in the external system previously that we do in 
our own system.
    Mr. Frelinghuysen. So it is not only a question of 
visibility, there is a question of cost. And I am trying to 
nail just for the committee here, besides the high spike in 
pharmaceuticals, is this one of the areas where----
    General Travis. Yes, sir.
    Mr. Frelinghuysen [continuing]. There is some uncertainty 
as to----
    Admiral Nathan. Absolutely.
    Mr. Frelinghuysen [continuing]. What the bills would be?
    General Travis. We are pledged to total transparency on our 
costs and the quality of our care. And the MHS review, frankly, 
was a real positive energy source for that.
    On the other hand, with the folks that go outside, and as 
Admiral Nathan said, it is a higher percentage go outside in 
certainly some of our networks for that care, and one is they 
may or may not participate in the voluntary reporting that we 
participate in where you can see the quality of the care you 
provide.
    And the same pressures that have raised healthcare costs 
across the Nation certainly impact our networks. So the next 
TRICARE contract, the MHS review and the opportunity to have 
visibility into cost and quality and safety, that is part of 
this discussion.
    Mr. Frelinghuysen. So the aspect that is sort of escaping 
here is that we don't have a dollar amount, or do we have a 
dollar amount, for what we do on the civilian side for the very 
people that all of us are----
    General Robb. Yes, we do.
    Mr. Frelinghuysen. What is the dollar amount?
    General Robb. I can get that, the exact number for you.
    [The information follows:]

    The costs (rounded to the nearest thousand dollars) associated with 
medical and dental care plus pharmaceuticals received by Department of 
Defense (DoD) eligible beneficiaries in the civilian private sector 
only, excluding Overseas Contingency Operations (OCO) funding are:

    FY 2013 actuals: $14,274,543,000
    FY 2014 actuals: $14,458,602,000
    FY 2015 estimate: $14,503,759,000
    FY 2016 request: $14,892,683,000

    Ms. McCollum. Would the chair yield?
    Mr. Frelinghuysen. Yeah, I would be happy to yield to the 
Congresswoman.
    Ms. McCollum. I am going to yield to you, sir. The question 
is, so different States have different transparency models. So 
I am from Minnesota. We have a very high transparency model. So 
I think we could look at some States, I think you would be able 
to get that information from some States. And the fact that 
some States provide that, I mean, you are issuing a contract.
    Mr. Chair, as part of the contract, we should be able to 
ask for that information, because many States are starting to 
provide that now. And I think you have a great line of 
questioning there.
    Mr. Frelinghuysen. Well, let me say just for the record, in 
your operations and maintenance portion in your budget, price 
and program, I see a private sector care amount of, it says $14 
billion? $14 billion. Does that strike a bell here, or is that 
an accurate figure?
    General Horoho. Yes, sir. And I think it has been between 
14 to 16.
    Mr. Frelinghuysen. I am not only concerned about the 
figure. I am concerned about whether, to you, whether the care 
that our good people get, our men and women in the military, 
are you satisfied with care you are getting for that type of 
investment?
    General Horoho. Sir, if I could just comment a couple 
things. I will put it a big picture, maybe bring it down.
    Mr. Frelinghuysen. Yeah.
    General Horoho. So when we did the MHS review, one of the 
challenges when we were trying to compare ourselves to the 
civilian sector was to have transparency of data. So when we 
looked in the area of perinatal care, only 84 hospitals out of 
5,000 in the U.S. actually share their data, and those are the 
84 hospitals across the U.S. that want to be the leaders in OB 
and perinatal care. Then when we looked through the lens of 
surgical care, less than 10 percent of the facilities in the 
United States that actually provide surgical care provide their 
data.
    So there isn't transparency of data within the U.S. system 
except for certain States that have made a decision that that 
data is there. So when we look at quality and safety, we are 
not comparing apples to oranges. When we look at, there are 
places, TRICARE in itself, when they just had the survey of the 
top healthcare plans in the Nation, TRICARE actually was the 
number one healthcare plan in the Nation, that just came out of 
the report, and the second one was Kaiser Permanente.
    So I think when we look at our servicemembers or family 
members going into the civilian sector to these pre-approved 
places, we believe there is a certain level of care, but you 
can't validate that through. When you look at it for cost, that 
is a different issue.
    When we look at any patient--I will give the best example--
when a patient goes out into the civilian sector for physical 
therapy, they on average get about between 20 to 24 visits. 
When we look at the same injury and the same type of care that 
is provided within our military treatment facilities, it is 
seven to eight visits. So you look at the additional cost of 
those visits. And I think that is what multiplies the cost of 
care in the civilian sector.
    Mr. Frelinghuysen. But you would have to take it as a 
layperson to say that if you have 24 visits, it must be related 
to the person's disability or condition, and certainly 24 
visits would be better than maybe seven or eight.
    General Horoho. But not when you look at health outcomes.
    Mr. Frelinghuysen. Okay.
    General Horoho. And that is the most important thing, not 
the episode of care.
    Mr. Frelinghuysen. Let's look at health outcomes.
    General Horoho. Yes, sir.

                RATING OF MILITARY TREATMENT FACILITIES

    Mr. Frelinghuysen. Can you tell me, of the 56 hospitals, 
the 359 medical clinics, the dental clinics that we have, what 
are the outcomes there? I have an interest. I am sure members 
do. I know our civilian hospitals are rated. How are our 
hospitals rated?
    General Horoho. Sure.
    Mr. Frelinghuysen. Anecdotally, of course, from time to 
time we hear of issues, i.e., you certainly don't want to have 
a baby delivered where they only deliver 90 babies a year. It 
might be good to go to a place where they have several 
thousand.
    Is there a rating system for our hospitals, and where do we 
stand, if there is a rating system, in terms of similar systems 
for the civilians?
    General Travis. The reporting that General Horoho indicated 
are exactly what we did the deep dive on last year to where we 
know the quality of our facilities where we do OB and perinatal 
care, where we do surgery and what the outcomes are.
    Mr. Frelinghuysen. So how are we doing?
    General Travis. Overall we are doing very well.
    General Horoho. Very good.
    General Robb. Very well.
    General Horoho. So if I could just kind of, sir, put it in 
perspective. What we compared, and I talked about the 84 
hospitals, so that is the best of the best, our military 
treatment facilities were, when the Secretary of Defense used 
the word ``average,'' it wasn't average in the sense that we 
think of average, we were average of the best of the best. And 
then there were some areas where we exceeded the national 
rankings and there were some areas where we had outliers. That 
doesn't mean that it was poor quality or lack of safe care, it 
means that we were not in that band of the very best of the 
best.
    And we all have plans that we have been working. Every 
single one of our facilities are accredited by the Joint 
Commission, there isn't one that isn't accredited, and we have 
met many of the outcome measures that we have identified. And 
those that we want to continue improving, because we believe 
for continual improvement, we have got those plans and we are 
monitoring each of those very, very closely.
    Mr. Frelinghuysen. Yeah. We are on your side.
    Admiral Nathan. If I could put a punctuation point on 
specifically what you are asking, because this is----
    Mr. Frelinghuysen. Because the NDIA has sort of changed the 
whole----
    Admiral Nathan. Yes, sir.
    Mr. Frelinghuysen [continuing]. Scope of our review and 
leadership around here. I just want to make sure that we are 
getting the best bang for the buck.
    Admiral Nathan. And this is why the Services are so focused 
on the next set of TRICARE contracts and working with the DHA 
to get this, because, in a practical example, if you were to 
walk into my hospital and say, I am going to have a procedure 
here, I am going to deliver a baby here, I am going to have a 
joint replacement, can you tell me what percent of post-
operative complications you have? Can you tell me what kind of 
outcomes you have? Can you tell me how many people have to be 
revised in surgery after I have done it? Yes, I can, every one 
of my facilities. I don't publish it enough, and we are doing 
that now, but I can tell you that.
    If I send you to one of our network hospitals, not me, but 
if TRICARE sends you to one of the network hospitals, and you 
come to me and you say, you sent me to hospital X--okay, I 
didn't, TRICARE did, but we don't do that here, so you have to 
go to hospital X--can you tell me what hospital X's percentage? 
I cannot. Do you know how they are doing? I do not.
    I know they are accredited, or we wouldn't send you there. 
You are going to have to ask hospital X if they will give you 
that information, because I can't give it to you.
    Mr. Frelinghuysen. Well, I don't mean to mix apples and 
oranges here, but in reality the private sector in some ways is 
way ahead on the electronic medical records, far ahead 
apparently than perhaps what we anticipated the relationship 
between the VA and the Department of Defense. Sometimes I think 
I know where I am going.
    Mr. Visclosky.

            TRICARE PROPOSALS AND NAVY MENTAL HEALTH PROGRAM

    Mr. Visclosky. Thank you, Mr. Chairman.
    I would like to follow Ms. McCollum's lead, and I have a 
couple of thank yous. Annually there are TRICARE proposals that 
the administration has. I have spoken often that Congress has 
to step up here and make some decisions as well, but did point 
out in last year's hearing, General Robb, that I was concerned 
about one proposal that would negatively impact families that 
did not have access to a military treatment facility. And am 
pleased that as far as the proposals that have put forth this 
year, that concern that was expressed has been dealt with and 
eliminated. So I do want to thank you for listening to the 
committee.
    Also, Admiral Nathan, in the past I have bitterly 
complained not about the Navy's commitment to helping people 
relative to the issue of suicide and mental health, but that 
the Navy has so many programs, they didn't have one good 
program. And you have established the 21st Century Sailor and 
Marine initiative, and it is my understanding there is some 
consolidation of programs taking place. So I would also want to 
thank you very much for that. I am assuming, again, there is 
more of a focus and fewer programs, if I understand that 
correctly.
    Admiral Nathan. Absolutely, sir. And the currents now run 
coordinated through Bureau of Personnel Code 17, and so this 
allows more coherency, removes redundancy, and is an area to 
capture best practices across the Navy so that we don't have 
all these green shoots popping up everywhere and we can 
standardize the application better.
    Mr. Visclosky. I appreciate, again, the Navy listening to 
the committee's concern.
    Admiral Nathan. Yes, sir.

                        MENTAL HEALTH SCREENINGS

    Mr. Visclosky. General Robb, I have a question on the Jacob 
Sexton Act that was authorized in the 2015 Defense 
Authorization Act requiring annual mental health screenings for 
Active, Guard, and Reserve military components. Could you 
update the subcommittee on the status of the implementation 
guidance for the new requirement and, if possible, an estimate 
as to when you anticipate it being finalized and distributed?
    General Robb. Sir, I will have to get back with the 
specifics on that to you.
    [The information follows:]

    The Department is integrating the annual mental health assessment 
requirement from the National Defense Authorization Act for Fiscal Year 
2015 into the periodic health assessment process in an effort to 
standardize these assessments across the military components. This 
requirement has been incorporated into the draft Department of Defense 
Instruction for periodic health assessments which is currently in 
coordination. Based on timelines provided by Washington Headquarters 
Service, this Instruction is anticipated to be published in December 
2015.

    Mr. Visclosky. Okay.
    General Robb. Yes, sir.

                           TRICARE PROPOSALS

    Mr. Visclosky. I would appreciate it. And also because it 
is a new requirement, if you have an estimate for the cost, and 
particularly if there is a cost associated with the fiscal year 
2016 budget, whether or not you have adequate funds relative to 
the implementation. If not, if the committee could understand 
that.
    Again, I would reiterate that on TRICARE proposals Congress 
is going to have to exhibit some intestinal fortitude, but 
would also think that the administration has to do a better job 
as far as, if you would, reaching out to retired populations, 
service organizations, and explaining exactly the need and what 
the implementations are.
    For anyone on the panel, if I could ask two questions. One, 
do you feel more outreach and education on that side of this 
equation is taking place? And additionally, for some of the 
proposals, obviously there is always cost involved even if 
there is longer-term savings. Would the potential costs in the 
short term for 2016 be covered in your budget request?
    General Horoho. If we look at the area of billing for 
services that bringing in civilians into our military treatment 
facilities or the billing for ER services, that is going to 
have a substantial upfront cost. We did the analysis just at 
one of our major medical centers, and it is about additional 
200 people and the additional software that would allow us to 
do that. And so when you look at that across 300 and something 
hospitals, that has a large price tag.
    I really believe that when we look at how to drive down 
cost, I think part of what we have to be doing and what we have 
been doing over the last 3-1/2 years is we spend right now a 
billion dollars a year just in obesity-related diseases across 
our healthcare system every single year, and 70 percent of the 
demand on our healthcare system is due to obesity-related 
diseases. And so just by really focusing on the aspects of 
health and the area of sleep, activity, nutrition, and then 
focusing on our wellness centers, we have 62 percent of those 
that have gone to our wellness centers just one time have had a 
4 percent decrease in body mass index and a 15 percent increase 
in cardiovascular output.
    That right there, it saves us about $200 to almost $300 per 
percentage of body mass index. That in itself will allow us to 
look at how do we decrease the cost of health care and then 
better utilize the systems that we have to be able to provide 
care.
    Mr. Visclosky. The additional cost, do you have that 
included in the fiscal year 2016 request?
    General Horoho. No, sir, we do not, for what just got 
proposed, because the proposal went forward, but the actual 
business case analysis was not associated with it, and those 
are concerns that the Services raised.
    Mr. Visclosky. If some action is taken for 2016, let's be 
positive for a minute, would you be short some money for 
implementation then?
    General Horoho. Absolutely, sir.
    Mr. Visclosky. Could you for the record give us an estimate 
of that, because, again, we have the authorizers and ourselves. 
I think it would be important if there is some movement to make 
sure that you can proceed with the proposal. I appreciate that 
very much.
    [The information follows:]

    The PB16 Healthcare Reform proposal requires an infrastructure be 
created within the Military Health System to take copays both within 
the Emergency Department's for non-emergent visits, and throughout the 
Military Treatment Facilities for non-enrolled retirees. The 
infrastructure requirement would include a Business Intelligence System 
with a capability of tracking and managing co-payments on a scale 
commensurate with a civilian organization. The system would need to 
meet audit compliance laws and regulations. The cost associated with a 
new system could range from $75M to $150M annually. Additionally, we 
project the manpower requirement at MTFs and in back office functions 
would require nearly 1000 additional personnel across the command. 
Additional personnel in the MTFs would review and research disputes, 
provide audit and management of collections both at point of service 
and in a billing office. Back office personnel would be required to 
provide policy oversight and perform denial management. The total cost 
projected to build the infrastructure required to effectively manage 
collection of co-pays within the Army Military Treatment System is 
between $87M to $209M annually and would take between 18 and 24 months 
to implement once the Business Intelligence Capability Requirements are 
defined and in the process of being procured.

    Mr. Visclosky. General.
    General Travis. Just to your point about outreach, 
absolutely. I have personally walked into a room with 200 
people that were TRICARE For Lifers and didn't know whether I 
would walk out.
    Mr. Visclosky. I was going say, you are here.
    General Travis. And I am.
    Mr. Visclosky. That is a positive.
    General Travis. And what is interesting is when you explain 
that the cost has really stayed flat all these years and the 
actual percentage of the benefit that is covered by the fees 
has gone down when you consider the cost of health care, 27 
percent, I think, of the program was covered by fees when it 
was instituted in 1995, now it is down to about 11 percent, and 
that may be a little off. And everything that has been proposed 
last year, probably even this year, although I can't swear to 
it, I think gets us to about 13 percent of the benefit being 
covered.
    And then you lay that against what we are really here to 
do, and that is the national security, and the percentage of 
the defense budget for this to be sustainable that this now 
eats. These are great patriots and Americans, and, frankly, I 
didn't get a single complaint out of those 200, and they got 
it, they understood it. So----
    Mr. Visclosky. I think outreach is important so people know 
there is transparency and nobody is pulling a fast one here.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Ms. Granger.

                       ELECTRONIC HEALTH RECORDS

    Ms. Granger. Could you just give us an update on the 
electronic health records? Tell us, do you have concern about 
the schedule, do you have concerns about the interoperability 
with the VA, kind of a general across-the-board where we are.
    General Robb. I will take that one. So I believe with, 
again, the effort that we have generated with a partnership 
with AT&L, and also with the Military Health System and the 
integrated program office, I believe that we have got a nucleus 
of folks that have got us to where we need to be as we move 
forward.
    As you know, the electronic health record request for folks 
to submit their bids was last fall, and right now we are in the 
process of reviewing all those proposals. We should have a 
selection for the electronic health record vendor by mid to 
late summer.
    After that, we will then use, beginning in the fall, we 
will use the next 6 to 9 months to take that electronic 
healthcare product and run it on what we call our virtual 
laboratories to run it, kind of what I call put it in the wind 
tunnel and test it, to see how it works both in the garrison 
arena and also in the operational arena.
    Then, in the late summer and early fall of 2016, we will 
roll it out to the Pacific Northwest, which will be the first 
region, which will be a tri-Service, which will be Lewis-
McChord, Bremerton, and Oak Harbor.
    And when we roll that out, then we will take a pause after 
that. So take just about 9 months to a year to go from IOC to 
FOC. But we will take the lessons learned from that, take a 
short strategic pause, and then what we have is we have a 
series of regions. We basically have five regions in 24 waves 
that we will roll out across the Nation, and it will be about a 
6-year rollout plan.
    Mr. Frelinghuysen. Whoa.
    Ms. Granger. And the interoperability with the VA?
    General Robb. Okay. So the interoperability with the VA, 
again, there are several fronts on that. That is first and 
foremost on what I will call our objectives. As you know, there 
was a decision made unilaterally by the VA to pursue the VistA, 
and then we made a decision to move forward with a commercial 
off-the-shelf product that we believe will keep pace with the 
industry.
    As you know, 2007 there was only about a 40 percent use of 
the ER. Now, as of last year, we are up to 78 percent in the 
commercial sector. So the capabilities of the electronic health 
records out there, again, that capability and technology has 
exponentially risen, and so we believe that is the most cost-
effective way for us to move forward and to keep current what 
we call generation four and generation five.
    It is also going to cost us probably around $3 billion less 
to go with a commercial off-the-shelf product than it would 
have been for us to create our own and build our own healthcare 
record.
    Now, the interoperability piece of it, we have been working 
hard, both the Department of Defense and the VA. You don't need 
to have the same electronic health record for them to be able 
to talk back to each other. As you know, the banking industry 
is a prime example, the travel industry is another, but what 
they have to agree upon, what they have to agree upon is a 
common language or a common data set for them to be able to 
talk back and forth.
    I know the Department of Defense is basically on time and 
on target currently to meet all of those, what we call the ONC 
meaningful use criteria definitions, and I know the VA is right 
there with us. And so when it comes time for the two records to 
talk and we down select ours, I believe that we will be there.
    Now, remember also, the Department of Defense has to talk 
to the VA, but 50 percent of our health care is delivered for 
our beneficiaries in the civilian healthcare system. And so we 
are also looking at opportunities for us to talk, again, 
through meaningful use and for common data elements with the 
civilian healthcare sector with our new electronic health 
record.
    Mr. Frelinghuysen. Would the gentlewoman yield?
    Ms. Granger. Yes.
    Mr. Frelinghuysen. On our committee, we subscribe to the 
notion full steam ahead. We don't like to hear about pauses.
    General Robb. Right.
    Mr. Frelinghuysen. The committee has been making this 
investment since I think 2007 or 2008. I think it is, quite 
honestly, a little bit inexcusable that we are still mucking 
around here trying to get this right. Chris Miller gave Ranking 
Member Visclosky and I a very upbeat view of the Department of 
Defense effort, and I want to give credit to the things that 
have been done.
    But the whole notion that--these words may come back to 
haunt you here--a virtual wind tunnel, there will be a 
whirlwind of hurt unless we get some progress here. And we will 
build into this bill, the same we way we did last year, some 
sort of language to push this ahead here.
    Now, the VA system may be archaic, because they have all 
these hospitals with whole different legacy systems, but we 
have a more optimistic view of what you can do, and so we are 
counting on you. And I think in Ms. Granger's questions, if she 
will continue to yield, was a more specific question about what 
this whole thing is going to cost and the timetable. I know you 
talked about lower costs. Let's talk about what you consider to 
be the lower costs for the next couple of years.
    So is it $11 billion, $9 billion, $13 billion? This 
committee is interested in how all that money is going to be 
spent, but we would like to get sort of a general idea of the 
entire cost of this whole thing. I mean, just for you.
    General Robb. Yes, sir. Yes, sir. The entire cost for the 
total life cycle, and that is when you hear the $30 billion 
number, is through the entire life cycle that runs through 
fiscal year 2032, fiscal year 2032. So in other words, that 
includes the sustainment, that includes the sustainment.
    Mr. Frelinghuysen. Well, fiscal year 2032.
    General Robb. 2032. In other words, when you look at the 
cost of the electronic health record, which includes the 
interagency cost for both the DoD and the VA.
    Mr. Frelinghuysen. On this committee, we are interested in 
2017.
    General Robb. Right.
    Mr. Frelinghuysen. I thought that was going to be the 
goalpost here. I am a little bit concerned. Where do we get 
2032? We will all be dead and buried.
    General Robb. Well, no. The question was asked what is the 
total life cycle cost of the electronic health record and that 
was the number I gave you. In other words, the program 
sustainment of this acquiring of the new electronic health 
record is through fiscal year 2032.
    Mr. Frelinghuysen. All right.
    Ms. McCollum.

                       SUICIDE AND SEXUAL ASSAULT

    Ms. McCollum. Thank you. Thank you, Mr. Chair.
    And thank you all, because we are now going into 2 hours. 
So thank you. So if you cannot answer my questions and you want 
to provide more detail, I will take them written later.
    I want to touch on two things, one Mr. Ryan started on, but 
suicide in the force. And we have a lot of troops that are 
serving on Active Duty and then they return home from 
deployment to military bases that have a lot of support and a 
lot of structure built into them. My guardsmen and women and 
reservists are frequently more isolated. They don't have as 
regular interaction with peers. We have tried to put a lot of 
community support organizations in that forward to make that 
happen.
    But, General Horoho, in fiscal year 2016 the budget request 
has a 37 percent reduction in funding for Army suicide 
prevention. So similar reductions are proposed for the Army 
Reserve and Guard. So I would like to know the rationale behind 
that, if it is accounted for in a different way in the way that 
you have restructured the program.
    The second question that I have relates to sexual assault. 
My staff had had some meetings, and I guess we are going to be 
seeing the new training programs that the armed services are 
moving forward on sexual assault. They are supposed to be much 
better than the other ones, where we don't blame the victim. 
But my question is, were you involved either in providing 
mental health and behavior attitudes towards these training 
programs? Did they actually talk to people who know about 
mental health and behavior this time? And so do I have 
something maybe positive I will be looking at in the near 
future here?
    General Horoho. Yes, ma'am. So I will take your second 
question first, if that is okay, and then I will answer your 
first one.
    So in the area of sexual assault, not only has Army 
Medicine and the healthcare providers been involved with it, 
but I think more importantly we have had male and female sexual 
assault victims that have been intimately involved in helping 
with developing the training aid. We just had a couple months 
ago a conference, and we have done these periodically 
throughout the last couple years, where we have had panels 
where they have volunteered to come and they have shared their 
stories. They talked about the importance and how males feel 
when they are sexually assaulted, because we actually have a 
higher incident among the male population than we do among the 
female population, and we have seen a decrease in the female 
population. So the new videos, I think, are really getting out 
to the heart and soul so people understand.
    Probably the best thing that I could share with you is I 
just received an email from one of my captains, unsolicited, 
from the field, who said she was sexually assaulted several 
years ago, and it was actually from her spouse, and she laid 
out a horrible story of where the system didn't work. And then 
her ex-spouse got married again, and she then got called to 
testify in the court because he abused the current spouse.
    She said it was like a completely different system, and she 
wanted me to understand that. And she laid out and said that 
she felt like our victim advocates, that the sexual response 
coordinators, that she is still continuing to get care, and she 
said it is a 180-degree difference in the entire culture.
    So I believe we are making strides, and it has been an Army 
effort in that area. We have a long way to go, just like the 
Nation has a long way to go, but I believe we are making 
strides in that area.
    In the area of the reduction in dollars targeted just to 
suicide prevention, I would put that in the larger framework. 
We had 230 behavior health programs. We have decreased those 
programs to 11 evidence-based programs and we have streamlined 
our process for the Behavior Health Service Line. And then we 
have a Behavior Health Data Portal that looks at health 
outcomes and embedded behavior health. So we are rolling out 65 
embedded behavior health programs that are in our brigade 
combat teams.
    The reason why I say that is all of that, to include the 
Performance Triad that is now going to be rolled out Armywide, 
are all part of the Ready and Resilient Campaign program across 
the entire Army. So we are seeing where we could reduce in sort 
of silos that we had out there to better streamline our 
programs and our initiatives so that we have an Armywide 
program to really reduce suicides.
    Ms. McCollum. So would it be a fair assessment a year from 
now or 2 or 3 years from now that you cut overhead and 
unnecessary costs that weren't developing in a way that was 
direct treatment to the soldier, and you cut overhead and you 
improved your delivery system?
    General Horoho. We have cut a tremendous amount of 
overhead, we have streamlined our practices, we have 
standardized those practices. We now have a Behavior Health 
Service Line that ensures continuity of capability across the 
force. And then we also use telebehavior health. And so we do 
90 percent of Department of Defense telehealth. So it is all of 
those coming together.
    We have seen a reduction in our suicides, so the trendline 
has been down. It will never be low enough for us, because 
losing one soldier is one soldier too many, but I believe part 
of the direction we are moving is in the right direction.
    Ms. McCollum. Mr. Chair, just a quick follow-up.
    So when you say you are seeing a trend in reduced suicides, 
that is good, but is the trend in, quote, unquote, Active Duty 
or is the trend in Reserve and Guard?
    General Horoho. So we have been monitoring. So last year 
our Reserve and National Guard actually had a higher number of 
suicides than our Active. This year we are seeing a decrease in 
the Reserve and National Guard and a small bump-up in the 
Active.
    And so, to be honest, when we are looking at our Ready and 
Resilient Campaign plan and our Performance Triad, we are 
applying that to the Reserves and the National Guard, and we 
are also using telebehavior health for the Reserves and the 
National Guard.
    So I think it is going to be a close monitoring when you 
look at life stressors, when you look at deployments, when you 
look at past sexual assaults and that of our young 
servicemembers prior to coming in, those all come out once they 
are on Active Duty, and all of that has to come together to 
really focus on their psychological health.
    Ms. McCollum. Thank you, Mr. Chair, and thank you for your 
indulgence.
    Mr. Frelinghuysen. Thank you, Ms. McCollum. Good line of 
questioning.
    Mr. Ryan.

                          MENTAL HEALTH ISSUES

    Mr. Ryan. Thank you, Mr. Chairman.
    I want to quickly get back to the mental health baseline. 
Congressman Glenn Thompson and I, in a bipartisan effort, we 
have the Military Evaluation Parity bill that we are pushing 
that has a lot of support from the VFW, National Guard, 
Military Officers Association, American Psychological 
Association, to help create more of a baseline. And I just 
wondered if we could get your help and support on that. If 
anyone wants to comment on that.
    General Travis. Just a comment. I think you have to make 
sure that the effort is targeted right. We are all short of 
mental health providers. We strive to keep them, but the demand 
on the outside for what the whole Nation is short of certainly 
draws them away from the military sometimes. So the bang for 
the buck has to be there in what is now already a very short 
career field. That is what I would say, sir.
    Mr. Ryan. So you are saying we don't have the manpower to 
properly----
    General Travis. No, sir. I think we just have to make sure 
we use it appropriately. For example, the annual face-to-face 
mental health evaluations may not be able to be done by a 
mental health professional. And you can do that face-to-face 
with another provider assuming you target it right. And we are 
working, all of us are working on meeting the NDAA's 
requirement for that annual face-to-face mental health 
assessment. It may not be able to be done by a mental health 
provider.
    So I am just, I guess, generally characterizing what is a 
very stressed career field already when you think about it, and 
we are involved in sexual assault prevention, very clearly.
    Mr. Ryan. Yeah.
    General Travis. We are involved in suicide prevention, very 
clearly. We are embedding in our operational units where the 
stresses are high. We have all talked about that. It is making 
a difference and we are preventing suicides, or everything 
short of suicide, things like domestic abuse, alcohol or drug 
abuse. There is a whole spectrum of badness out there short of 
suicide.
    And so our mental health providers are very, very occupied, 
is what I would tell you. So I think what you are aiming for is 
very laudable. We just have to make sure it is targeted right. 
And then it is up to us to execute it. We all want the same 
thing.

                                OBESITY

    Mr. Ryan. Thank you. That is helpful.
    General Horoho, did I hear you say 70 percent of the 
healthcare costs are obesity related?
    General Horoho. Seventy percent of the demand on the 
healthcare system are related to diseases that have a 
relationship to obesity.
    Mr. Ryan. Right. Okay. That is a stunning number. But I 
know in one aspect with Ms. Kaptur's question when you talked 
about some of the alternative approaches for mental health 
promotion with the mindfulness and the yoga and the different 
approaches, I think to me that is the future of health care, 
that is how we save money, that is how we keep people healthy 
early on, prevention, so on, so forth.
    Talk to me about nutrition, because this to me seems like a 
very straight shot. If 70 percent of the costs are coming from 
obesity, to me that is diet and nutrition. We don't need to get 
into pharmaceuticals, the costs of type 2 diabetes drives this 
cost up tremendously for us. And I think we are in a scenario 
here where I think we can play some offense. I know there is a 
Healthy Base Initiative, and we are working with Senator 
Mikulski a lot on that. I know she has been spearheading that.
    So what more can we do from a nutrition standpoint? I have 
walked onto a battleship and I went into where they eat lunch, 
and it is not good food that was--not healthy food, anyway--
that was sitting there. So help.
    General Horoho. So I think the cultural mindset is that 
looking at food as medicine.
    Mr. Ryan. Yeah.
    General Horoho. And really looking at how do we improve 
health literacy. Because I believe if people understand the 
why, they will make better choices. And we are not at all 
talking diets, nor have we talked diets in the last 3\1/2\ 
years, but it is really providing your own personal health data 
and information, and then providing the right structure and 
environment to be able to do that.
    So the nutrition is a key component of our Performance 
Triad, which focuses on sleep, activity, nutrition. And 
nutrition also focuses on tobacco cessation. So it is really 
anything you put in your mouth, if you think of the nutritional 
aspect.
    Across our facilities we have labeled food now of high 
performance, low performance, and moderate performance, so that 
they understand the impact of what they are about to eat on 
their overall performance and health. We have reconfigured some 
of our dining facilities, and what we found is that if you move 
your dessert bar from being the first thing that you see 
walking in and you put a salad bar there and you put the 
dessert bar in the back, we have seen actually a 50 percent 
reduction on the purchasing of desserts and a 36 percent 
increase on the purchasing of salads and other healthy 
nutrition.
    Fort Campbell is a great example where they brought in the 
young children and they have a health garden, and so the Girl 
Scouts actually grow vegetables in that, and they do it from an 
education. And then they have taken sodas out of their dining 
facility. And just in a short amount of time they actually 
decreased 6,000 pounds of sugar being consumed in a very short 
amount of time, but they replaced it with different healthy 
waters.
    And so I think when we look at this, a couple things, I 
think, from a Nation, we need to look at what we are providing 
in our school system. I think from a military perspective we 
need to look at how do we have better partnerships with the 
fast food industry so that if you buy something that is healthy 
it is at the same cost as something that was unhealthy and we 
make it easier for our servicemembers to be able to make those 
types of decisions.
    Mr. Ryan. Mr. Chairman, I think this is a significant 
opportunity for us.
    Mr. Frelinghuysen. You took a dig at Navy chow.
    Mr. Ryan. Well, you know----
    Mr. Frelinghuysen. Admiral was sucking it in there for a 
few minutes.
    Admiral Nathan. I have got to, Mr. Ryan----
    Mr. Frelinghuysen. No equal time here, I guess.
    Admiral Nathan. Well, Mr. Ryan, first of all, if you go to 
a warship or a Navy ship, you can get a burger there. Guilty as 
charged. But that said, I think you would be impressed with the 
initiatives that Secretary Mabus has made with the 21st Century 
Sailor and Marine. All of our ships now have a healthy choice 
alternative, especially the larger ships, the aircraft carriers 
where food is calibrated. We have turned the serving spoon 
around, meaning we serve you instead of you just get to take 
whatever you want. So there is portion control, which is huge.
    And, again, this is somewhat of a third rail subject, but 
the Secretary is very invested in trying to do tobacco 
cessation across the Navy. And this is something that I think, 
I am sad to say it probably won't come in my time, but I hope 
it will come in my successor's time. Because I think if we are 
going to address the total health picture of the young person 
today in the military it has to be the nutrition, as you said, 
it has to be the mindfulness, it has to be the portion control, 
and it has to be the tobacco cessation.
    Mr. Ryan. Mr. Chairman, this is an opportunity for us. We 
sometimes think we want to talk about compounding 
pharmaceuticals and all. It is about food. It is about some of 
the basic stuff.
    So I am thrilled that you are into it, and look forward to 
working with you. And that group of people that still go to the 
dessert no matter where you put it, Mr. Visclosky falls into 
that category. I just want all of you to know that.
    Mr. Frelinghuysen. Yeah. This is on the record, and God 
only knows you have done irreparable damage to Mr. Visclosky's 
reputation.
    Mr. Visclosky. It is true.
    Mr. Frelinghuysen. Thank you, Mr. Ryan. You got your time. 
You reclaimed some good time, though, didn't you?
    Mr. Ryan. Thank you.
    Mr. Frelinghuysen. Mr. Ruppersberger, Ms. Kaptur, any 
additional comments?
    Mr. Ruppersberger. Yes.
    Mr. Frelinghuysen. Mr. Ruppersberger.

                            RESEARCH FUNDING

    Mr. Ruppersberger. Quickly. Interesting conversation about 
food. I do enjoy food. And I think one of the things that you 
are talking about, the serving someone, because buffets are 
very dangerous. And I think that really makes a difference. So, 
Tim, I am glad you raised the issue and I think it is 
important.
    I want to get into something Steve Womack talked about, and 
that is dealing with our men and women coming back who have had 
severe injuries. I was involved at Maryland Shock Trauma with a 
face transplant, which took about 10 or 12 years to develop. 
The people who have to wear masks, because when they come back, 
they are embarrassed, their faces are blown off. The issues 
with hand surgeons, losing legs, paraplegics.
    I want to talk to you about the issue of the Peer-Reviewed 
Orthopedic Research Program. Now, I strongly support the U.S. 
Army Medical Research and Materiel Command Combat Casualty Care 
Research Program--did you get that, what that is, okay--to 
advance cutting-edge battlefield care that has truly saved 
lives and helped our military coming back home.
    I am particularly impressed by the clinical trials and 
research data coordination being conducted by a consortium of 
clinical centers that are studying major extremity trauma for 
the Peer-Reviewed Orthopedic Research Program. And it is my 
understanding that the program itself, the Orthopedic Research 
Program, and cooperative agreements for this consortium, which 
were originally funded in 2009--and I worked in 2009 with then 
at that point Jack Murtha, who is no longer with us, and he was 
very involved and active in that plan, and there were a group 
of us that worked on it--but I understand that the money is 
running out for that plan.
    And it is so important, because we have so many of our 
military who have lived because of the protection of the vest, 
but their extremities have been really damaged or they have 
lost their extremities. And I am really concerned about this 
program that has so much potential in the future to help our 
men and women that come back.
    And we know we owe them to come back that do not come back 
whole and how we deal with them and work with them on 
prosthetics. I remember an issue involving at one time you 
could only use a hook, and now you can literally start, because 
of programs such as this, you can literally use fingers to do 
that. And these are the type of things that we must continue to 
do.
    This also helps the private sector too and the partnership 
between the private. I keep referring to Maryland Shock Trauma, 
but I know the Air Force especially working in these programs 
on research together.
    So I have two questions. Please describe for the committee 
the importance of the role these consortiums play in the 
medical research field. And secondly, would you support 
additional funding to the Peer-Reviewed Orthopedic Research 
Program in order to ensure that this consortium continues and 
we can help our men and women from the military? Because I 
understand the money, again, is running out from the original 
2009.
    Admiral Nathan. Yes, sir. Consortiums are a truly valuable 
bang for buck. You are correct in that many of these research 
partnerships are not only from the organic funding this 
committee so generously provides, but also from grant money 
that comes from reimbursables from private institutions.
    When the economy is up, as would be the case for the Mayo 
Clinic, grant money is up. When the economy is down, as would 
be the case for them and for us, reimbursable research funds 
are down. You have heard the unified chant from all of us that 
we need to maintain an organic critical mass of research 
funding stream to keep this going. The AFIRM study, which we 
mentioned before, is an example of that. All of us have various 
partnerships that extend all the way from southern California 
with UCLA in TBI, to the McGowan Institute, to the NICoE 
facilities.
    And then, of course, the dramatic signature injury of this 
war, which is extremity loss, and how are we going to approach 
that not only from a mental and spiritual fortification 
standpoint, but from getting you back to normal, ideally with 
prosthetics, moving to transplants, moving to ultimately at 
some point regeneration. That time will come as we get into 
spinal cord research and other things.
    So this is very valuable and this has been sent out before. 
In many areas the military gets their expertise in standard 
injuries and illnesses from the private sector, diabetes, 
things like that. We contribute, but the largesse of it comes 
from that. And as a whole, our society gets the largesse of its 
trauma capability and rehabilitation from the military.
    Mr. Ruppersberger. It is my understanding Kennedy Krieger, 
who does a lot of spinal cord research, is working closely, and 
they feel that if the funding continues, there could be a 
possibility in 10 to 12 years to start getting these people who 
are paralyzed from military injuries or any injuries out of 
their wheelchairs and the ability to walk. But unfortunately 
that money is slowing down.
    So I guess your answer to my question, because I know we 
are getting late here, is you are clearly in favor of 
continuing the funding in the Peer-Reviewed Orthopedic Research 
Program.
    Admiral Nathan. Absolutely, yes.
    Mr. Ruppersberger. For spinal cord, joints, whatever that 
may be.
    Admiral Nathan. Absolutely.
    Mr. Frelinghuysen. Let me assure the gentleman, if he will 
yield, that there is a keen interest in the congressionally 
directed funding. I think there is some concern as to whether 
the new Defense Health Agency, I won't say the chain of 
command, because you represent the top of the heap in some 
regards, want to make sure that we continue that funding stream 
for these very important investments and not get choked down by 
too much extra bureaucracy. So I could assure you we will be 
addressing this issue and other congressional adds as 
appropriate.
    Ms. Kaptur.

                          PHARMACEUTICAL COSTS

    Ms. Kaptur. Yes. Thank you, Mr. Chairman.
    Very quickly, I am going to tick off several items. General 
Horoho, thank you again for your service and for including a 
title in your testimony, transitioning from a healthcare system 
to a system for health. I like the way the discussion is going. 
I have had that very same discussion with the VA, and believe I 
represent the first VA clinic in the country, which we call a 
VA center, which is turning the old concept of sickness to 
wellness. And so we thank you for that very, very important 
perspective.
    I wanted to also ask Admiral Nathan, could you repeat the 
number that you gave in my prior question on the cost of 
pharmaceuticals, what the projected amount is over what period 
of time, please?
    Admiral Nathan. Yes, ma'am. I am happy to. And this is 
usually where the public affairs officer comes after me and 
says, ``What the admiral meant to say was.'' But the figure 
that we are quoted offhand for the FYDP, the FYDP, over the 
next 5 years is $40 billion.
    Ms. Kaptur. Over the next 5 years?
    Admiral Nathan. Five years, $40 billion.
    Ms. Kaptur. I hope the American people are hearing that 
during this hearing.
    Admiral Nathan. Now, this is all comers in the MHS. This is 
prescriptions that are provided within our lifelines and the 
direct care system, as well as the prescriptions that people 
pick up in purchased care in pharmacies.
    Mr. Frelinghuysen. If the gentlelady will yield. This is to 
address the needs of an estimated 9.2 million beneficiaries 
that are in this system?
    Admiral Nathan. Yes, sir.
    Mr. Frelinghuysen. Families too?
    Admiral Nathan. Yes, sir, families too.
    Mr. Frelinghuysen. Thank you. Thank you for the time.
    Ms. Kaptur. I want to note that in the civilian sector, as 
well as this one obviously, the cost of pharmaceuticals is off 
the charts. I cannot believe what my constituents are dealing 
with, as well as the military, and it is beyond reason and many 
people simply can't afford it. So it is impacting this budget 
as well, and I just want to make a point of it.

                      NEUROPSYCHIATRIC CONDITIONS

    I wanted to also ask, General Horoho, we talked a lot about 
neuropsychiatric conditions. And I support all of the 
supportive services that you are providing to your soldiers in 
the Regular Force and in the Guard. Can you provide for the 
record a listing--and maybe all the departments--of your in-
patient and outpatient services in a year, what percent would 
fall into the category of, however you describe it, behavioral 
health, I call it neuropsychiatric care, what percentage of in-
patient and outpatient visits every year relate to that?
    And then subdivisions of that. I distinguish in my mind 
between TBI and between someone who has a very serious bipolar 
condition. But I am interested in how you would classify it.
    General Horoho. Yes, ma'am. So when we look at our TBI and 
behavior health, we have actually made a move over the last 4 
years to put those services together, because we believe it is 
very hard to tease out one from the other. And so what we are 
finding in our Intrepid Centers is that by having those two 
together along with neurocognitive behavior therapy, and then 
the other alternative therapies together, we are actually 
seeing very good success rate.
    And we have done that on the battlefield in Afghanistan as 
well. We used to have them separate, and we put those together. 
And when we put those together and followed our protocols, 
Army, Navy, and Air Force, we actually had a 97 percent return-
to-duty rate for those that had exposures to concussions.
    And then we have seen a decrease with behavioral health, 
because instead of waiting for our soldiers to come back, we 
were actually treating them in theater and at the point when 
something happened. So we are trying to be much more aggressive 
in treating stressors in life, and then also the whole array of 
behavioral health diagnoses that are there.
    Ms. Kaptur. Well, I would be real interested in the 
classification of how you would term these conditions.
    General Horoho. Okay. We will be--
    Ms. Kaptur. And then what is second, third, fourth on the 
list for each of your departments. That would be very, very 
interesting.
    General Horoho. We will be glad to.
    [The information follows:]

    In calendar year 2014, the total number of Army outpatient visits 
within the direct care system was 17,905,864. Of that, traumatic brain 
injury accounted for 0.36% and behavioral health accounted for 12% of 
the overall direct care visits. The top five diagnoses seen within the 
direct care behavioral health outpatient setting were anxiety 
disorders, including PTSD (20%), adjustment disorders (14%), mood 
disorders (13%), attention-deficit disorders (6%), and alcohol-related 
disorders (4%).
    The total number of the Army inpatient admissions was 132,890 
within the direct care system. Of that, traumatic brain injury 
accounted for less than 0.2% and behavioral health accounted for 5.5% 
of inpatient admissions. The top five inpatient BH diagnoses were 
adjustment disorders (33%), mood disorders (22%), alcohol-related 
disorders (15%), anxiety disorders, including PTSD (11%), and substance 
related disorders (5%).

                           HUMAN PERFORMANCE

    Ms. Kaptur. I wanted to also ask General Travis, in the 
area of human performance, could you elaborate a bit on the 
concept of human performance and the link of technologies used 
in missions performed by airmen and what actions you have taken 
to create the shift in focus to human performance? What are you 
finding?
    General Travis. I will keep this brief, and that is hard, 
because this is something that is a passion I think with me, 
and certainly those that I work with now. And it applies across 
the Services, I believe, and we have all kind of acknowledged 
this today and in our previous discussions.
    But in particular, RP operators, remotely piloted vehicles, 
who now we are projecting air power from thousands of miles 
away, and you will have young airmen who are sitting in a dark 
room with a bright screen with a top secret security clearance 
who are, no kidding, watching people who do us harm or our 
allies harm and making decisions or communicating information 
to commanders in the field to make decisions that is part of 
the kill chain.
    And so these airmen--and 90 percent of them are very young 
airmen--are wonderfully skilled, very talented, but they step 
out of that battle space and they are in battle in places like 
Nevada or New Mexico or you name it, Virginia, California. And 
many, frankly, now, Reserve and Guard units are doing the same 
thing.
    We felt compelled by the need to support these airmen the 
way they project air power now. And I only named those two 
career fields. We are looking really across the spectrum of how 
we present air power these days. We now have embedded not just 
mental health providers and a technician who have top secret 
security clearances, but also perhaps a family practice doc, 
flight doc, and a medical tech also with a security clearance. 
The line actually paid for these positions, paid for their 
clearances.
    I might also add in two of our intel groups that I visited, 
the mental health providers also have a therapy dog. And they 
have space on the floor, they have the right clearance, they 
are right there with those airmen who now understand that is 
their doc. And you talk about a way to break down stigma, they 
don't have to go to a clinic and say, hey, I am having trouble. 
They don't do that. They actually know their doc, they actually 
may talk to them during their break, their mandatory break from 
their shift. And then if they really do need intervention other 
than just the little talk they might have there, you know, they 
will make an appointment with them the next day to their doc--
it might be 5 in the morning--and they will get the help they 
need.
    By the way, the chief, the command chief that works in one 
of these wings told me that in the past year we prevented two 
suicides in her unit. That tells me we also then prevented or 
mitigated a lot of other bad behavior that I alluded to 
earlier, you know, drug abuse, alcohol abuse, just on wellness, 
frankly, in a very high stress career field that now really is 
how we do war. It is not like it used to be.
    Ms. Kaptur. One of the interesting findings that we had in 
the Ohio Guard study was that because we do not have a draft 
and people voluntarily enlist, that it actually was shocking to 
me the number of people coming into the military who have had 
violent experiences in their own life, multiple times, and how 
this impacts behavior inside the military. That is a change. 
That is a generational change. So I just wanted to put that on 
the record.
    And finally, Mr. Chairman, take 5 seconds to say I was 
going to ask the departmental health service group to let me 
know what you pay every year for Heparin per bag and Depakote 
and Lamictal, brand name medications used in neuropsychiatric 
care. I would like to know what we are paying for those. They 
are critical to many patients, and I am just curious what the 
per unit charge is.
    Mr. Frelinghuysen. If you can provide that for the record.
    [The information follows:]

    Average Unit cost for current period:
    Heparin pre-mixed bags--$2.17-$4.04 per bag depending on size and 
concentration;
    Depakote--$0.07-$1.62 per tablet depending on strength and whether 
short or extended release;
    Lamictal--$0.03-$1.57 depending on strength for short release; 
$1.69-10.84 for extended release. Based on purchase of generic 
products.

     MILITARY COMPENSATION AND RETIREMENT MODERNIZATION COMMISSION

    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    In closing, we haven't alluded to it, in January the 
Military Compensation and Retirement Modernization Commission 
released their recommendations. I assume you are intimately 
familiar with some of those recommendations. And I guess this 
is directed towards the Surgeons General who are here. And you 
have had remarkable careers and dedication and done some 
incredible things on behalf of our soldiers and sailors and 
airmen.
    One of those recommendations is the Joint Readiness Command 
billet. I know that you have a chain of command, but since you 
have done some incredible things for our Nation, what is your 
view of that recommendation? What are you at liberty to say 
relative to that recommendation from this rather distinguished 
group?
    Admiral Nathan. Sir, I think we are certainly at liberty to 
say that we are aligned with readiness and the documentation of 
it, the demonstration of it, and the accountability of it that 
the Commission is after. The Commission wants to, I think, 
based on our interactions with them, make sure that we are as 
ready tomorrow as we have been today.
    Their mechanism for doing so has some advantages and some 
disadvantages. All those are being brokered, and this is where 
I retreat to my fairly politically neutral statement, but all 
those pros and cons are being brokered, as we said, from our 
inputs, our Service chiefs' inputs, up to SecDef, who will give 
his recommendation to the President and then to Congress.
    The one thing we have told the Commission that is on the 
record is that they have our full attention--they already had 
our full attention when they talk about readiness. You have 
heard about the interactions we have at shock trauma. The Navy 
is fully engaged at LA County. The Army is in Tampa, Florida. 
And we are, as we speak, we are growing our network of 
interactions with the civilian subject matter experts and 
robust trauma facilities to make sure that we maintain a 
corporate expertise in readiness for combat casualty care.
    We have to be as ready for the mom walking across the 
doorstep to deliver a baby in Virginia as we do for the soldier 
who was felled by an IED in Afghanistan or the Ukraine or 
somewhere else.
    And so this is job number one to us. So the specifics of 
whether we need a readiness command to do that or a readiness 
billet to do that will be up to our immediate superiors in 
charge. But we certainly commend the committee for their 
attention to making sure that the military understands this 
readiness of the future.
    Mr. Frelinghuysen. Well, you have been remarkable stewards 
of all those who serve our Nation in uniform, all those who 
volunteer. And your concerns and your voice and your opinions 
matter. I want you to know that the committee feels very 
strongly that your opinions do matter. And I hope that this 
isn't the last of your offering your good opinions and 
professional judgments into the process.
    Anything further, Mr. Visclosky, before we conclude?
    Mr. Visclosky. Mr. Chairman, only to say that I was justly 
admonished by our colleague from Ohio. I did go to Zel's 
yesterday in northwest Indiana and have a chili cheese dog and 
fries to go. And I still am filled with self-loathing, but it 
was good. So I am going to try to do better today. Thank you, 
Mr. Chairman.
    And thank all of you.
    Mr. Frelinghuysen. On that high note, we thank all of our 
distinguished presenters today. Thank you very much. We stand 
adjourned.
    [Clerk's note.--Questions submitted by Mr. Calvert and the 
answers thereto follow:]

                         DoD Newborn Screening

    Question. Does the Defense Department have a newborn screening 
program in place?
    Answer. Every MTF delivering babies does newborn screening 
laboratory testing for each infant but there is not a Department-wide 
comprehensive newborn metabolic screening program in place. The 
Department has a centralized laboratory contract available for military 
treatment facilities to centralize testing with a standardized panel of 
tests. Providers receive the results of the screening from the testing 
laboratory and initiate any followup that is needed for the infants 
using MTF or purchased care resources.
    Question. How are patients with abnormal screens followed-up?
    Answer. The initial blood spot testing for Newborn metabolic 
disorders is a screening test not a diagnostic test. Out of range 
testing for disorders screened often require confirmatory testing to 
verify the diagnosis or condition. The centralized lab contract 
includes some confirmatory testing for specific disorders; if other 
confirmatory testing is needed, it can be added to the screen. 
Providers order confirmatory tests as recommended by the American 
College of Medical Genetics, initiating any additional followup that is 
needed for the infants using MTF or purchased care resources. If MTFs 
currently utilize state Newborn screening programs, confirmatory 
testing and followup is often provided through the state program.
    Question. Does the DoD have the resources to provide followup and 
care for these complex patients? If not, what would it take to have a 
followup program for newborns in the U.S. and outside the U.S. 
established? Can telemedicine be used to do this?
    Answer. The Department does have the resources to provide followup 
and care for complex patients through the network of military providers 
and civilian providers in the TRICARE network to address needs of and 
follow the complexities of these infants. TRICARE provides care for 
eligible beneficiaries with disorders diagnosed on newborn screening 
(metabolic disorder, sickle cell) over their life through their TR1CARE 
benefit. The resources of the state metabolic programs may be used as 
an additional resource for these newborns. OCONUS infants receive 
newborn metabolic screening and processing of the lab from a CONUS lab. 
If the OCONUS infant has the need for additional medical follow up not 
available OCONUS, the beneficiary can be flown back to CONUS for 
followup as needed. Telemedicine continues to be used by the Genetic/
Metabolic community for consultations with providers related to Newborn 
metabolic screening.
    Question. What do you see are the benefits of having a follow up 
program and/or would a partnership with an existing program make more 
sense?
    Answer. The Department is recommending that MTFs use state 
laboratories and programs for processing Newborn metabolic screens to 
provide a single source for testing and followup by May 2016. The 
process of using state resources leverages the established state 
programs that provide early detection of diseases, confirmatory 
testing, diagnosis and intervention through established programs. 
Support provided through State Newborn Screening programs are inclusive 
of referral systems, counseling and family support. OCONUS newborn 
screening samples would also be processed by state programs through 
establishment of a contract and decisions for medical/genetic followup 
would be made with the local ordering provider under the guidance of 
that state program. Ideal comprehensive Newborn screening programs 
bring together resources to: provide blood spot screening, and 
confirmatory testing, clinicians with expertise in the screened 
disorders to guide initial management and support staff to track cases 
and insure providers and families involved receive appropriate testing, 
followup and management. Telemedicine would be an integral part of such 
a program, particularly for OCONUS MTFs.

                    DoD Clinical and Research Needs

    Question. What are the current clinical and research needs in 
genetics for DoD?
    Answer. Currently, the current majority of DoD genetics research is 
funded through several Congressional special interest (CSI) 
appropriations and guided by Congressional report or bill language. CSI 
areas of research and guidance are determined by the members of 
Congress and the Defense Appropriation Subcommittees and therefore are 
not determined by any specific ``need'' within the DoD for genetics 
research.
    Additionally, the DoD currently has no core program Research, 
Development, Test and Evaluation (RDTE) investment in genetics for 
commonly occurring diseases. The President's Budget request for 
military medical RDTE is focused on threats to which our service 
members are exposed from accession and through training, deployment, 
treatment, evacuation and rehabilitation.
    Question. How much do DoD medical programs spend on clinical and 
research programs for genetics and rare diseases?
    Answer. The core military medical research programs in the 
President's Budget request are focused on threats to the Warfighters 
and do not have a requirement for investment in genetics and rare 
diseases.
    However, over the course of the Congressionally Directed Medical 
Research Programs' (CDMRP) existence, from FY 1993 to FY 2013, CDMRP 
has funded 1477 awards for a total of $685M in genetics research. 
Currently CDMRP has 221 open awards for a total of $202M in genetics 
research. CDMRP also supports several rare disease research programs in 
addition to rare disease topics by its other research programs. The 
total investment and number of awards (open and completed) in rare 
diseases is as follows *:

    Amyotrophic Lateral Sclerosis research program--$34M for 30 awards
    Duchenne Muscular Dystrophy research program--$8.7M for 11 awards
    Neurofibromatosis research program--$221M for 313 awards
    Tuberous Sclerosis Complex research program--$40M for 107 awards
    Bone Marrow Failure research program**--$17M for 46 awards

    Rare Disease Topics 
    Dystonia--$2.9M for 6 awards
    Fragile X syndrome--$10M for 15 awards
    Hereditary angioedema--$2.4M for 2 awards
    Lupus--$23.5M for 25 awards
    Pancreatitis--$7.5M for 9 awards
    Polycystic kidney disease--$6.3M for 11 awards
    Scleroderma--$15.2M for 20 awards

    * Some awards for rare diseases may overlap with awards in genetic 
research.
    ** Many of the Bone Marrow syndromes are considered rare diseases, 
e.g., Franconi anemia, Severe Congenital Neutropenia, Shwachman-Diamond 
Syndrome

    Question. What do you see are the benefits of a robust clinical and 
research program for genetics and are you aware of that Children's 
National Medical Center (CNMC) has a robust clinic and research 
genetics program and works actively with the U.S. military?
    Answer. A robust clinical and research program for genetics of 
commonly occurring diseases should benefit the general population and 
likewise, medical research discoveries from such a program should also 
be applicable to health care beneficiaries of the DoD as a subset of 
the general population.
    DoD is aware of CNMC's clinical and genetics research program. The 
DoD currently is funding 10 awards (valued at a total of $15M) at the 
CNMC through the Congressionally Directed Medical Research Programs. 
Three of the current CNMC awards involve genetic research. One of the 
awards is in the area of prostate cancer using genetic screening to 
identify prostate cancer progression genes and two awards are in the 
area of Duchenne Muscular Dystrophy studying exon skipping.
    The DoD has a robust clinical genetics testing laboratory located 
at Keesler Air Force Base Mississippi. The lab currently performs 
twenty genetic tests and has the capability to receive samples from 
MTFs in CONUS and OCONUS.
    Question. What would it take to build a partnership with CNMC to 
house a genetics program at the new building they have acquired from 
DoD at the former Walter Reed medical facility in order to Leverage 
some of their ongoing DoD related medical research in genetics?
    Answer. CNMC has received ten awards for approximately $15M through 
Congressional Special Interest funded programs. CNMC is eligible to 
increase their DoD research awards by competing for the annually 
appropriated genetics relevant CSI funds. For a different type of 
collaboration to occur, congressional special interest program re-
structuring or appropriation topics may be necessary.

 Testing Services of Antigen and Antibodies to Human Immunodeficiency 
                                Viruses

    Question. The Committee is interested in understanding a proposed 
change from contractor service verse in-house testing services of 
antigen and antibodies to Human Immunodeficiency Viruses (HIV). Please 
provide information on the following:
    The ``Phased Plan'' that identifies cost associated with acquiring 
a facility, equipment, and supplies for the in-house lab. Please 
identify the program element and budget line number where this 
initiative is identified.
    Answer. The funding for the Army HIV testing program is located 
within Program Element 847700, OP-32 Line: 955. The Army HIV testing 
program doesn't have a specific line item, and is incorporated within 
the total appropriated request. The Army plans to use the HIV 
Diagnostics & Reference Laboratory at the Walter Reed Army Institute of 
Research to perform its HIV testing. There are no current changes to 
the Navy and Air Force testing programs. The Navy uses a contract for 
HIV testing and has no announced plans to change. The Air Force does 
its own testing at Wright-Patterson AFB.
    Question. Are the anticipated cost savings identified in the 
Program Objective Memorandum (POM)?
    Answer. No. However, potential savings will be taken into account 
in future budget submissions.
    Question. Will the in-house facility operate with government 
personnel and equipment or contractor?
    Answer. The current plan is to utilize government provided 
equipment and government provided facilities operated by a mixture of 
Government and contract personnel.
    Question. We understand that the government requirement is for one 
primary and two contingency testing sites. Where are the contingency 
testing sites?
    Answer. The current Army HIV testing contract, W81K04-15-D-0006, 
includes a requirement within paragraph 1.2.3 for contingency sites. 
Any future changes will include provisions for contingency operations 
as part of the Continuity of Operations Plans. In addition, the DoD 
commercial reference lab contract provides backup HIV testing for all 
three services.
    Question. We understand that the current contractor is one of only 
two labs capable of handling the size and complexity of the government 
requirement for HIV testing. What will be the impact to military 
readiness and the program if you eliminate the current contractor?
    Answer. As the government transitions services there will be no 
negative impact to military readiness of the force or the program. We 
anticipate multiple benefits to the Army and significant reduction over 
current costs.
    The committee is most concerned with the health and safety of our 
armed forces and takes seriously efforts to disrupt functional 
operations for untested/potentially dysfunctional operations. On the 
other hand, we support organizational efforts to reduce their budgets 
where there can be cost savings. The Committee will monitor this 
initiative closely.
    Question. Is this anticipated move to a government in-house 
operation in the best interest of the government and industry?
    Answer. Yes, the transition is in the best interest of the 
Government. We anticipate multiple program benefits and meaningful cost 
savings. This transition will improve the health and safety of our 
Soldiers through the ability to conduct real time data analysis and 
review for laboratory, Public Health surveillance and Quality 
Assurance. There will be quicker definitive results for Soldiers as 
screening and confirmatory testing will be performed in one location. 
Additionally, the ability to rapidly modify/alter testing algorithms or 
scope of testing requirements will be enhanced.
    Also, it should be noted that HDRL is a proven HIV testing lab as 
they have served as the DOD/DA HIV Reference Laboratory since 1987 
performing OCONUS Army HIV screening, HIV confirmatory testing, and HIV 
resistance genotyping for all DOD HIV infected Soldiers and 
beneficiaries.

    [Clerk's note.--End of questions submitted by Mr. Calvert. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                            Tricare for Life

    Question. Have you looked at the impact that the new annual fee for 
Tricare for Life could have on the quality of life of retirees who had 
not planned to be required to pay healthcare expenses after serving 
their country honorably?
    Answer. The proposal for TFL does take into account the fact that 
retirees may not have planned to pay for health care expenses in three 
ways. First, those already on TFL as of January 1, 2016 will be 
grandfathered and will not have an enrollment fee. Second, for those 
enrolling in TFL after that date, the fee is ramped over a four year 
period allowing for planning for this expense. Third, the enrollment 
fee is tied to their annual retirement pay, so that those having a 
small retirement pay less than those who receive greater compensation. 
In CY 2019, the enrollment fee will be 1% of retirement pay with a cap 
of $150 per year per TFL beneficiary. Comparable ``Medigap'' policies 
carried premiums of $2,200 per individual in 2010.

                      Duchenne Muscular Dystrophy

    Question. Last year, enacted funding for Duchenne Muscular 
Dystrophy was $3.8 million. What benefit could come from increased 
funding in research for Duchenne Muscular Dystrophy?
    Answer. Increased national level funding to support therapy 
development is a critical need for Duchenne Muscular Dystrophy (DMD) 
which is a disease that drastically decreases the quality of life and 
the life span of those affected. Clinically there is a need to optimize 
available therapies such as the use of corticosteroids in treating DMD 
and determining its mechanism of action in order to develop new, 
potentially more efficacious agents. DMD is a multi-faceted disease 
(skeletal muscle, central nervous system, heart, bone, respiration, 
psychosocial, rehabilitation, etc.) thus, emerging treatments that 
address the molecular defect in DMD have the potential to change 
manifestations of this multi-system disease at multiple levels and will 
have to be understood and subsequently accounted for in care 
guidelines.
    There are significant cardiopulmonary consequences associated with 
DMD that need to be addressed by establishing evidence for use of FDA-
approved agents and advancing new and more targeted therapies to treat 
cardiac and respiratory systems. Finally, there is a significant need 
to improve clinical care and quality of life in the near term for DMD 
patients by supporting clinical studies and novel interventions that 
address such areas as: cognitive function, endocrine and bone issues, 
gastrointestinal issues and co-morbidity studies.

                    Nutritional Supplements--Ketones

    Question. What is the Defense Health Program's current and future 
emphasis on researching the numerous potential benefits of adding 
ketones to diets, for optimizing physical performance and military 
readiness by helping Service Members maintain optimal body fat and 
weight standards?
    Answer. There is currently no ongoing research to understand the 
efficacy of ketones, specifically, within the Military Operational 
Medicine research portfolio pertaining to physical performance and 
weight maintenance. There are, however, active research portfolios in 
dietary supplements and nutritional strategies that may promote 
recovery from injury, improve mental and physical performance, and 
improve adherence to healthy weight standards.
    Question. What specific technologies are being researched/developed 
by the DoD that would leverage the numerous potential benefits of 
adding ketones to diets for optimizing physical performance and 
military readiness?
    Answer. There is currently no ongoing research to understand the 
efficacy of ketones within the Military Operational Medicine research 
portfolio pertaining to physical performance.

                        Prostate Cancer Research

    Question. Please provide a list of major accomplishments of the 
prostate cancer research program with the DHP.
    Answer. Some of the PCRP successes are:
          <bullet> Established the PC Clinical Trials Consortium 
        (PCCTC) to support the collaborations and resources necessary 
        to rapidly execute Phase II or Phase I/II clinical trials of 
        therapeutic agents or approaches for the management or 
        treatment of prostate cancer. As of 2014, the PCCTC accrued 
        over 4,400 PC patients to more than 108 phase I/II clinical 
        trials studying more than 50 drugs. The PCCTC rapidly advanced 
        8 therapeutic candidates to phase-III clinical testing, 
        including 2 FDA approved drugs, Zytiga<INF>R</INF> and 
        Xtandi<INF>R</INF>, which have become standard of care for the 
        treatment of advanced Prostate Cancer.
          <bullet> Developed the Elekta Synergy system, a cone-beam 
        computed tomography with a flat-panel imager that has 
        revolutionized image-guided radiotherapy. The system was FDA-
        cleared in 2003 and is now used to treat prostate and other 
        cancers in over 3,500 U.S. hospitals.
          <bullet> Developed a blood-based assay that measures levels 
        of a variant androgen receptor associated with poor treatment 
        outcome, which was been licensed to Tokai Pharma.
          <bullet> Showed that most prostate cancers are dependent on 
        extracellular arginine, and that treatment with an enzyme that 
        degrades arginine causes prostate cancer cells to die as a 
        result of metabolic stress.
          <bullet> Developed a laparoscopic laser nerve imaging probe 
        that can identify cavernous nerves during prostate cancer 
        surgery and preserve both urinary and sexual function.
          <bullet> Demonstrated the feasibility of using molecular 
        profiling of circulating tumor cells isolated from patient 
        blood for sampling tumor tissue and identifying patients most 
        likely to benefit from specific treatments.
          <bullet> Found that African American men with metastatic 
        prostate cancer were more likely to receive radiation therapy 
        and develop spinal cord compressions than Caucasian men. Also 
        observed that, of men who developed ureteral obstructions, 
        African American men were more likely to undergo a nephrostomy.
          <bullet> Demonstrated that blocking the activity of RANKL 
        slows the progression of prostate cancer growth in bone. The 
        monoclonal antibody against RANKL, denosumab, received FDA 
        approval in 2010 as XGEVA and becomes the standard of care for 
        the treatment of bone-related events in advanced prostate 
        cancer.
    Question. How does the Prostate Cancer Research Program coordinate 
with the NIH? In particular, do the National Cancer Institute (NCI) and 
the DoD have any formal coordinating bodies working in prostate cancer?
    Answer. The Congressionally Directed Medical Research Programs 
(CDMRP) involves members of the National Cancer Institute and other 
federal entities in its medical research planning processes and review 
panels.
    CDMRP participates in the Interagency Urology Coordinating 
Committee which is a federal advisory committee, facilitated by the 
National Institute of Diabetes and Digestive and Kidney Disorders of 
the Department of Health and Human Services, that coordinates the 
research activities of all national research institutes relating to 
urologic diseases to ensure their adequacy and technical soundness, and 
to provide for the exchange of information necessary to maintain 
adequate coordination.

                                 Trauma

    Question. Please describe what the Department's trauma research 
requirements are, and how can we continue to advance in the field of 
trauma as our deployments decrease?
    Answer. As the DoD Combat Casualty Care Research Program (CCCRP) 
garners lessons from the recent wars it is also leaning forward to push 
innovation for future and more complex operational and casualty care 
scenarios. As part of this effort, the DoD research program is 
endeavoring to reevaluate the traditional ``Golden Hour'' in which 
lives can be saved. Because current and future casualty care scenarios 
may involve prolonged field care, long-distance enroute care (sea, land 
and/or air), the future ``Golden Hour'' needs to be based on delivering 
lifesaving and resuscitative capability to injured service personnel 
regardless of where they are located or the presence of pre-positioned 
echelons of care (i.e. traditional deployed military hospitals may not 
be available).
    To sustain momentum and enhance this reappraised ``Golden Hour'' 
capability, the DoD CCCRP--as part of its larger research effort--is 
planning to initiate a Civilian, Multi-Center Clinical Research Network 
in which military-relevant trauma topics can be studied. Partnering 
with civilian trauma systems and centers in such a manner is now more 
important than ever as there are fewer injured service personnel being 
cared for in Iraq or Afghanistan.
    To spur this effort and leverage civilian expertise and capacity, 
the DoD CCCRP has issued a Request for Information on the topic of a 
Civilian, Multi-Center Clinical Research Network. After open 
competition and external review, the program plans to fund the best or 
strongest of the responses from academia (trauma systems and centers) 
and industry with dollars from its FY16 budget.
    Importantly, this model of DoD-led trauma research accomplished in 
civilian trauma centers and systems is programmed to be maximally 
efficient. Specifically, this model assures that military-relevant 
trauma research topics and gaps are addressed to reduce morbidity and 
mortality from combat injury. Having the research performed in civilian 
systems and networks assures maximal translation of the knowledge and 
advances to the public and civilian medicine.
    Question. There are several public private programs the USAF 
supports such as C-STARS to provide critical training for our medical 
forces, please relay how the same could be done for trauma research?
    Answer. Research and development is somewhat different than 
developing a training site for military personnel. The DoD efforts for 
research and development are focused on researching, developing, 
finding and procuring battlefield medical solutions. The DoD has had 
great success with a consortia and partnering model for advancing and 
accelerating research and development. The Combat Casualty Care 
Research Program (CCCRP) recently released a Request for Information 
pertaining to developing a Multi-Center Clinical Research Network to 
seek input and ideas from interested institutions. Partnering with 
civilian trauma systems and centers in such a manner is now more 
important to maintain our medical forces capabilities since there are 
fewer injured service personnel being cared for in Iraq or Afghanistan.
    As part of this effort, the DoD research program is endeavoring to 
reevaluate the traditional ``Golden Hour'' in which lives can be saved. 
Because current and future casualty care scenarios may involve 
prolonged field care, long-distance en-route care (sea, land and/or 
air), the future ``Golden Hour'' needs to be based on delivering 
lifesaving and resuscitative capability to injured service personnel 
regardless of where they are located or the presence of pre-positioned 
echelons of care (i.e. traditional deployed military hospitals may not 
be available).
    To sustain this capability in the out years, the Civilian, Multi-
Center Clinical Research Network will be planned, programed and 
budgeted as part of the CCCRP's Program Objective Memorandum submission 
for Defense Health Program money.
    Importantly, this model of DoD-led trauma research accomplished in 
civilian trauma centers and systems is programmed to be maximally 
efficient. Specifically, this model assures that military-relevant 
trauma research topics and gaps are addressed to reduce morbidity and 
mortality from combat injury. Having the research performed in civilian 
systems and networks assures maximal translation of the knowledge and 
advances to the public and civilian medicine.

                             Osteoarthritis

    Question. Discuss how the impact of the serious effects of 
arthritis might be worsening, improving, or continuing to affect 
service members and veterans?
    Answer. According to the Centers for Disease Control and Prevention 
(CDC), 13.9 percent of adults 25 years and older and 33.6 percent of 
adults 65 years and older are affected by osteoarthritis (OA). 
Arthritis appears to be a significant burden among Veterans of the 
United States (US) Armed Forces. Research suggests that military 
service-related overuse and injuries may be a contributing factor for 
the increased risk of developing OA. Severe OA of the hip and knees 
causes debilitating pain and is a common cause of mobility impairments 
in elderly patients.
    The Department of Defense (DoD), along with the Department of 
Veterans Affairs (VA), have made significant strides in the past 5 
years in moving forward in ensuring that all patients with OA receive a 
full range of high quality care. The National Defense Authorization Act 
(NDAA) for Fiscal Year 2010 directed the Secretary of Defense to 
``develop and implement a comprehensive policy for the prevention, 
diagnosis, mitigation, treatment, and rehabilitation of arthritis.'' In 
May 2011, the Assistant Secretary of Defense for Health Affairs 
published a policy memorandum for Comprehensive Arthritis Management. 
This memorandum noted that the Uniformed Services University of the 
Health Sciences Consortium for Health and Military Performance had been 
conducting research on the relationship between injuries and the 
subsequent development of OA in Service Members. That research, along 
with other programs from the military services helped to inform the 
development of a joint VA-DoD Clinical Practice Guideline for the non-
surgical management of hip and knee osteoarthritis. This comprehensive, 
126-page CPG was published last year (2014) and is available on the 
DoD-VA Clinical Practice Guideline webpage at http://
www.healthquality.va.gov/.
    The DoD is continuing its efforts to address the physical and 
emotional aspects of the individual with OA, as well as the family and 
community. Treatment and rehabilitation are interdisciplinary and 
multi-modal, and all modalities which are proven safe and effective are 
considered for inclusion in individualized arthritis management plans 
of care. Comprehensive care of OA patients is provided primarily 
through our Patient Centered Medical Homes which coordinate and 
synchronize patients' care from orthopedics specialists to physical 
therapists and comprehensive pain management clinics as needed.
    Question. Explain what has been learned in osteoarthritis research 
about serious and debilitating diseases and how best to prevent them or 
mitigate their effects on service members, both during and after their 
service?
    Answer. Currently, the Congressionally Directed Medical Research 
Programs and the arthritis research community are evaluating pre-
clinical regenerative approaches to mitigate the effects of post 
traumatic osteoarthritis (PTOA) and are in the early stages of 
developing methods to prevent the secondary impact of PTOA in our 
Service Members. The osteoarthritis research community continues to 
explore multiple avenues to improve diagnostics and treatment. Since 
2009, the U.S. Army Medical Research and Materiel Command has funded 34 
projects evaluating various aspects of osteoarthritis.
    Question. With our global military mission continuing to put 
service members in harm's way under physically stressful conditions 
likely to lead to additional arthritis related disabilities, does the 
Department have any recommendations for additional research priorities 
that could build upon what we are already learning through the 
arthritis research being conducted within the CDMRP?
    Answer. Yes, research priorities in arthritis related to traumatic 
injury need to be diverse and evaluate the different avenues for the 
treatment and management of osteoarthritis to include: pharmacological, 
rehabilitative and regenerative approaches to the problem.
    Panels from multiple congressionally funded special interest 
research programs have already identified osteoarthritis as a focus 
area for program announcements for proposal solicitation including: 
Peer Reviewed Medical Research Program, Peer Reviewed Orthopedic 
Research Program and the Neuromusculoskeletal Injury Research Awards.

                            Express Scripts

    Question. We continue to receive constituent complaints about poor 
customer service and wrong and/or late prescriptions from the 
prescription provider Express Scripts. What is the Department doing to 
resolve these issues before the program is expanded to significantly 
more beneficiaries?
    Answer. The Defense Health Agency (DHA) monitors Express Scripts, 
Inc.'s (ESI) performance and compliance with contract terms through 
data metrics, government directed audits, and beneficiary 
communications. The contract metrics are based on industry standards 
and best practices. ESI is consistently compliant or above accuracy and 
customer service metrics.
    Accuracy rate: ESI/Home delivery dispensed prescriptions were 
99.998% accurate (January-March 2015).
    Timeliness of prescriptions: In December 2014, ESI shipped 95.08% 
of prescriptions in 2 days (government minimum standard is 95%); and 
99.11% of prescriptions that required a call to the beneficiary or 
physician were shipped within 7 days (government minimum standard is 
95%).
    Beneficiary satisfaction: The DHA has a contract with Deloitte 
Consulting/Zogby Analytics to conduct a quarterly survey on beneficiary 
satisfaction with Home Delivery. The latest survey covering the period 
of December 1, 2014 to February 28, 2015 shows that 97.0% of 
beneficiaries are completely, very satisfied, or satisfied while 2.3% 
of beneficiaries are completely or very dissatisfied.
    The DHA does receive reports of incidents of beneficiary 
dissatisfaction and works closely with ESI to research and resolve 
issues as well as developing any corrective action plans.
    Question. Will the new prescription-provider contract be competed? 
When is this scheduled to occur?
    Answer. On April 18, 2014, after full and open competition, DHA 
awarded the TRICARE pharmacy purchased care contract (TPharm4) to 
Express Scripts, Inc. The contract began on May 1, 2015, and extends 
through seven one-year option periods. If all seven option periods are 
exercised, the current contract would end April 30, 2022.

                     Post-Traumatic Stress Disorder

    Question. Current PTSD diagnosis within the military relies heavily 
on self-reporting and is subjective. This subjectivity leads to high 
levels of missed diagnoses and mistaken diagnoses, and consequently, a 
high economic, social, and medical burden. Are you considering some of 
the new diagnostic tests for PTSD and have you considered conducting 
research of a molecular diagnostic test such as an objective blood-
based test for diagnosing PTSD?
    Answer. Yes, the Department of Defense has been actively pursuing 
alternatives to self-report-based diagnosing procedures, including both 
brain imaging and blood-based analysis.
    The Systems Biology effort (initiated in 2009) represents our 
largest single effort toward this goal and at present this research 
consortium has identified molecular markers that circulate in the blood 
of individuals with PTSD that are not present in individuals without 
the disorder. The research is presently in the validation phase, and 
within a few years is anticipated to yield a blood-based, objective 
diagnostic test for PTSD. In addition to this effort there are several 
others within our research portfolio that share this goal. However, the 
Systems Biology group is farthest along in this research. Markers in 
this effort include genetic, epigenetic, proteomic, and metabolomic 
molecules that are consistent with expected underlying biological 
changes driving the behavioral/functional alterations consistent with 
expressed/observed PTSD symptomology.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Cole and the answers thereto 
follow:]

                      NIH/DoD Peer Review Process

    Question. As you know, the NIH is a world class bio medical 
organization and its peer review system to review and select high 
quality projects for federal funding is second to none. However, I 
understand that at DoD, for its bio medical research activity the DoD 
has its own peer review process. Is there any reason why DoD should not 
use the NIH peer review process to prevent duplication of effort on 
managing and administering and to better coordinate the Defense Health 
Agency medical research portfolio with the NIH portfolio?
    Answer. Yes, there are legal, funding timeline and management 
approach differences between military Research, Development, Test and 
Evaluation (RDTE) programs and NIH programs which prevent the use of 
the NIH peer review processes for the congressionally funded military 
RDTE programs. There are however multiple efforts between the 
Department of Defense (DoD) and the NIH for cross representation on 
agency panels and reviews, widespread sharing of research information, 
and increasing use of common databases.
    Due to the nature of Congressional Directed Medical Research 
Programs (CDMRP) appropriations and the disease- or condition-specific 
mission of its programs, CDMRP has established a flexible management 
model of adapting each program's goals on an annual basis to meet the 
current needs of the stakeholders and community. CDMRP uses a two-tier 
review system that was recommended in 1993 by the National Academy of 
Science Institute of Medicine Report ``Strategies for Managing the 
Breast Cancer Research Program: A Report to the U.S. Army Medical 
Research and Development Command''. This report called for a first tier 
of review which is a scientific and technical merit review provided by 
newly constituted study sections focused on expertise unique to the 
research applications submitted to the program and a second tier of 
review which assesses all applications received by the program in 
comparison to each other and to the applications' relevance to 
programmatic goals.
    Because of the uniquely-focused funding opportunities and highly 
variable nature of the applications, the first-tier peer review panels 
are newly-constituted with a balance of scientific experts, specialist 
reviewers, and consumer advocates who can best review the type of 
applications assigned to the panel. The second-tier programmatic review 
panel consists of subject matter experts and consumer advocates who 
represent as many of the research and topic areas as possible. These 
members are recruited from academia, advocacy groups, the military, 
other funding agencies, and industry to ensure that all relevant 
stakeholders are involved in the decision making process. Other agency 
funding processes may be iterative, where applications are more likely 
to get funded after the PI responds once or more to reviewer comments. 
This approach is only possible with planned multi-year appropriations. 
CDMRP yearly appropriations require program planning specific to that 
year with no guarantee of future funding. For CDMRP programs, every 
application competes with the other applications in a given fiscal year 
for funding based on having the highest scientific merit and being best 
aligned with the goals of the respective program.
    CDMRP's intent is to support research that addresses important and 
critical gaps that are not being covered by other funding agencies, 
complementing rather than duplicating. That philosophy continues to 
drive CDMRP's processes and is why the DoD engages and collaborates 
with expert representatives from the NIH, VA, and other non-DoD federal 
agencies by asking them to serve on peer review panels and on the 
individual programmatic panels which identify research gaps, define 
investment strategies, and make funding recommendations. The CDMRP also 
networks with multiple federal and non-federal committees to compare 
research portfolios, identify gaps in research funding, and improve 
existing research efforts. The CDMRP engages individuals from such 
federal and non-federal committees not only in the peer and 
programmatic review of applications, but also to serve on review boards 
to monitor and oversee the progress of awards. These collaborations 
strive toward synergy with other agencies and diversification of 
research portfolios, and underscore the importance of interagency 
research coordination efforts.
    Question. Are there any known legal restriction from preventing DHA 
from establishing an agreement to use the existing NIH peer review and 
portfolio analysis functions to better coordinate and leverage how 
federal bio medical research funds are spent across the federal 
government programs?
    Answer. Yes, there are legal, fiscal timeline and management 
approach differences that prevent DHA from establishing agreements to 
use existing NIH peer review and portfolio analysis functions. There 
are, however, multiple efforts between the Department of Defense (DoD) 
and the NIH for cross representation on agency panels and reviews, 
widespread sharing of research information, and increasing use of 
common databases.
    Due to the nature of Congressionally Directed Medical Research 
Programs (CDMRP) appropriations and the disease- or condition-specific 
mission of the programs, a flexible management and administration model 
is required in order to adapt each program's goals for a specified 
fiscal year to address the current Congressional language and needs of 
the stakeholders. The review process for CDMRP programs must have the 
ability to frequently adapt to accommodate varied program requirements 
and most importantly be able to focus on unique program goals. Using a 
system that cannot meet those needs would run counter to the Institute 
of Medicine guidance and risk not executing according to Congressional 
intent.
    Additionally, there are a number of DoD specific statutes--not 
regulations--that DoD must comply with which NIH might not be able or 
equipped to do so: Title 10 U.S.C. 2358, Title 10 U.S.C. 1071, and 
Title 10 U.S.C. 980. DoD must externally review certain proposals under 
Title 10 U.S.C. 1071, in very specific circumstances. The footnote to 
10 U.S.C. 1071 specifically quotes Public Law 104-201, National Defense 
Authorization Act for FY 1997 which makes this a requirement for DoD 
research programs that do not apply to NIH programs. It would be 
difficult for the NIH to accommodate such requirements.
    In addition, 10 U.S.C. 980 applies to funds appropriated to the DOD 
for a subset of research involving human subjects. 10 U.S.C. 980 is 
implemented by DOD Instruction 3216.02, and creates restrictions on 
research unique to DOD-funded research with which NIH may not be 
familiar. To the extent that NIH peer review process must deal with 
research compliance with applicable statutes, 10 U.S.C. 980 may be 
problematic for NIH to accurately apply.
    However, CDMRP is already leveraging the portfolio analysis 
functions of NIH and VA through collaborations as well as data sharing 
between systems. CDMRP, in coordination with the Defense Health Agency 
and U.S. Army Medical Research and Materiel Command (USAMRMC), is 
working with the NIH to develop the requirements and test the 
feasibility of transferring medical research application data to the 
NIH Electronic Research Administration/Data systems which is the data 
source for the Research Portfolio Online Reporting Tools (RePORTER) 
application. Upon successful implementation of the pilot, a data feed 
from USAMRMC to the NIH system is planned. This will allow multiple 
agencies and the public to have visibility of research application data 
submitted to assist in identification of potential duplication and 
facilitate funding decisions. The pilot is ongoing and set for 
completion by August 2015. Data on CDMRP executed projects from 2008-
2013 is available through Federal RePORTER. Federal RePORTER currently 
hosts data from 7 agencies--Agriculture, Defense, Environmental 
Protection Agency, Health and Human Services, National Aeronautics and 
Space Administration, National Science Foundation and Veterans Affairs.

    [Clerk's note.--End of questions submitted by Mr. Cole.]

                                         Wednesday, April 15, 2015.

                    TESTIMONY OF MEMBERS OF CONGRESS

                               WITNESSES

HON. ALAN LOWENTHAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. TED LIEU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. DAVID JOLLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. JAMES McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. DENNY HECK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. HENRY ``HANK'' JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF GEORGIA
HON. JEFF MILLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. BRADLEY BYRNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA
HON. EARL ``BUDDY'' CARTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF GEORGIA
HON. KEITH ROTHFUS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
HON. BRENDA LAWRENCE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
HON. ANN WAGNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order.
    This morning the Defense Appropriations Committee holds an 
open hearing during which Members of the House of 
Representatives are invited to bring their concerns and issues 
regarding the future posture and force structure of the 
Department of Defense directly to our attention.
    My ranking member and I are here today to take testimony 
from our colleagues in an effort to provide maximum Member 
participation as we work to draft the Department of Defense 
appropriations bill for fiscal year 2016.
    At this time, I would like to recognize my ranking member, 
Mr. Visclosky, for any comments or statement he may wish to 
make

                   Opening Statement of Mr. Visclosky

    Mr. Visclosky. Mr. Chairman, I do want to sincerely thank 
you for holding the hearing and allowing Members and outside 
witnesses to testify. One, I think it is very important to get 
our colleagues' input. Their knowledge of their districts, 
areas, and programs are vitally important to the subcommittee, 
and look forward to hearing all of their testimony. Thank you 
so much.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Our first guest this morning is Jim McGovern from the great 
State of Massachusetts. Thank you for being with us. And we are 
prepared to hear your testimony.

               Summary Statement of Congressman McGovern

    Mr. McGovern. Well, thank you very much, Mr. Chairman and 
Mr. Ranking Member. Thank you for allowing me this opportunity 
to testify today in support of funding a competitive grant 
program for nonprofits that train service dogs for our 
veterans. And specifically, I ask that the committee support a 
$5 million request for the Wounded Warriors Service Dog 
program.
    In addition, I request that the committee insert language 
addressing the benefits of canine therapy for treatment for 
PTSD and TBI symptoms. And I will include this language with my 
official statement.
    I also want to express my gratitude to the chairman and 
ranking member for their assistance in securing the initial 
funding for this program during the fiscal year 2015 
appropriations process. Last year this program was awarded $1 
million, and we are hoping to build upon that initial funding 
and continue to grow this competitive grant program.
    Mr. Chairman, so many of our veterans are returning from 
war bearing both physical and emotional scars. We must do what 
we can to ensure that they have the access to treatments that 
work. Service dogs have shown to have a positive effect on the 
treatment of PTSD and TBI symptoms, and it is not coincidental 
that we have seen a significant growth in the demand for the 
service dogs as more of our veterans are returning home and in 
a need of this assistance.
    During the last Congress, I had the opportunity to visit 
the National Education for Assistance Dog Services, or NEADS, 
which is located in Princeton, Massachusetts. I heard amazing 
stories about how service dogs are helping to treat veterans 
with physical disabilities, as well as those suffering from 
post-traumatic stress. This nonprofit organization has 
connected many deserving veterans with service dogs over the 
past few years with incredible results.
    In the last few years, NEADS, like many of the other 
nonprofits providing this crucial service, have struggled to 
meet these growing levels of demand. Many nonprofits that train 
dogs for use by veterans are underfunded. The cost of training 
the service dog varies, but estimates range from $15,000 to 
$60,000 per dog, and training can take up to 2 years. Too 
often, a veteran's need for service dogs are unmet due to 
financial constraints. This competitive grant will help ease 
the increased financial burden that these organizations are 
facing.
    In January, the VA launched a study on the potential 
benefits of service dogs for individuals with PTSD. They expect 
this study to end sometime during 2018 or 2019. But if you sit 
down with just a handful of our veterans who have received a 
service dog for PTSD, it will become as clear as day how 
helpful these dogs are.
    Mr. Chairman, with so many of our veterans coming home from 
war suffering from post-traumatic stress disorder and other 
physical disabilities, it is critical that we offer them 
multiple treatment options, and connecting veterans with 
lifesaving service dogs should be one of those comprehensive 
care options. So I ask this subcommittee and my colleagues on 
both sides of the aisle to support this competitive grant 
program at the levels requested for fiscal year 2016 so that 
our veterans can receive the treatment that they deserve.
    And let me just close with one story. One of the veterans 
that I met, Mr. Chairman and Mr. Ranking Member, had returned 
from serving in Afghanistan and could not leave his bedroom, 
never mind go to other rooms of his house, was heavily 
medicated on all kinds of prescription drugs. And then a 
service dog was introduced into his life, and he, because he 
had to care for the dog, actually, it forced him to get out of 
not only his bedroom, but out of his house. It was able to wean 
him off of all the drugs that he was on. And he is now back to 
work.
    And so I think it is very clear that these service dogs 
have an incredibly positive effect on PTSD for our returning 
veterans, and I think we ought to do everything we can to make 
them available for people. So I thank you.
    [The written statement of Congressman McGovern:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
        
    Mr. Frelinghuysen. Mr. McGovern, we thank you for your 
strong advocacy. I have a number of veterans in my home State 
of New Jersey. Very therapeutic to have these incredible 
canines who link up mentally and physically with some of these 
remarkable soldiers with very, very bad physical and mental 
wounds. So we are strongly supportive of this program and 
appreciate what will hopefully be your annual advocacy, that 
all Members hold the program dear.
    Mr. McGovern. Thank you.
    Mr. Frelinghuysen. Any comments, Mr. Visclosky?
    Mr. Visclosky. I simply would thank the gentlemen too for 
his concern about those who are returning after their service 
to our country and coming up with a good idea and being 
persistent.
    Thank you very much, Mr. McGovern. Appreciate it.
    Mr. McGovern. I want to say thank you to both of you and 
your staff for opening up this process so that all the Members, 
not just those on your committee, can have a chance to testify. 
I appreciate this very much.
    Mr. Frelinghuysen. Well, thank you. That is the idea behind 
this opportunity. Thanks so much.
    Mr. Frelinghuysen. Pleased to welcome Congressman Alan 
Lowenthal from California. We started a little bit early, but a 
little bit early is not bad down here.
    Mr. Lowenthal. No, that is wonderful.
    Mr. Frelinghuysen. We appreciate you taking time out of 
your busy schedule to be with us this morning.

               Summary Statement of Congressman Lowenthal

    Mr. Lowenthal. Well, thank you, Chairman Frelinghuysen and 
Ranking Member Visclosky, members of the committee. Thank you 
for allowing me this time to discuss with you the importance of 
STEM education for the Department of Defense, specifically the 
STARBASE program.
    Providing science, technology, education, and math 
education to America's youth is critical to the global 
competitiveness of our Nation. The STARBASE program engages 
local fifth grade elementary students by exposing them to STEM 
subjects through an inquiry-based curriculum that is currently 
active now in 56 congressional districts throughout the 
country. The program is carried out by the military service 
because the lack of STEM education and STEM-educated youth in 
America has been identified as a future national security issue 
by the Department of Defense.
    As somebody who is very close to that program and gone 
through and watches those students, I can just tell you, this 
is a wonderful, wonderful program. It is one of the most cost-
effective programs.
    We are asking again to restore the STARBASE program at a 
modest funding level of $30 million. The DOD STARBASE program 
costs only $343 per student. Last year, over 3,000 classes were 
conducted in 1,267 schools, among a diverse 413 school 
districts across the country. More than 70,000 students 
attended the program, bringing the program to a total of 
825,000 since its inception.
    I would just like to say I came back from my own STARBASE 
program, and I just received this message from Stacey 
Hendrickson of the California State Military Reserve, who is 
the director of the STARBASE program at the Los Alamitos Joint 
Forces Training Base, which is in my district. And she says, 
``Congressman Lowenthal, I wanted to let you know that one of 
our schools, the 96th Street Elementary School in Watts, earned 
their highest science standardized tests ever. We were very 
excited to hear, as all these students had shown a big increase 
in our own pre- and post-testing''--I can show you that--``and 
now these students are showing dramatic improvement on their 
API performance, the Academic Performance Index.''
    So we are now beginning to have a lot of data to support 
this. I can just tell you, to watch fifth graders on a military 
base, as I did just this past week, program robots, work with 
these robots, fifth graders, watch these robots and learn the 
scientific method as they saw the problems, as they built a 
tremendous place for them to demonstrate this, a terrain, and 
then, when that didn't work, to go back to their computers, fix 
it, understand that science is a process of correction and 
following a particular procedure.
    These are little kids, and I am amazed to watch them. And 
the fact that we have the ability on our bases to really 
inspire young children to follow science and technology and 
mathematics and engineering at this very young age, never would 
have been exposed to this.
    And we know how critical that by the fourth grade students 
begin to lose interest in science and technology, and if they 
come from environments where they are not exposed to this. It 
is really through, I think, this call by the Department of 
Defense to really promote science technology as a national 
issue, defense issue.
    And I am just really pleased to be here. I cannot think of 
a better use of $30 million. I want to thank the committee and 
the chairman last year for putting it back into the budget. I 
hope you will do the same. This is a great, great program at a 
fraction of the cost.
    And you can see also, like out at my base, how excited 
those volunteers are to teach these kids, because they feel 
like they are doing something for their country. They are 
educators frequently. I have lots of Army Reserve and National 
Guard folks, and they feel like they are really promoting, they 
are coming on the base and doing what is so important for the 
Nation.
    And they can provide these young children experiences that 
they can't get in public educational schools because they don't 
have the ability to use the computerized setting. They have 3D 
printers. We built rockets one day. Can you imagine, fifth 
graders building rockets? It is just a great program.
    [The written statement of Congressman Lowenthal follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Mr. Frelinghuysen. Mr. Lowenthal, thank you very much for 
your advocacy. We certainly know over the years that they have 
built things other than rockets. And I am glad they are doing 
it.
    And, as you are aware, when the President's budget comes 
over, the last couple of years it has been absent this STAR 
program. I can assure you that we will put the money back. It 
is something which is very important, I think, to all of our 
Members of Congress irregardless of political affiliation. And 
I think the proof is in the pudding.
    Mr. Lowenthal. And I actually have some test scores to 
indicate how our fifth graders have improved on both the pre- 
and post-tests we have done, and also now on the Academic 
Performance Index too.
    I want to thank the committee. You have been great for 
putting it back in on both sides of the aisle. And I just think 
it is a wonderful use of a very small amount of money.
    Mr. Frelinghuysen. Well, it is a national program and a 
congressional add that I think we can strongly support.
    Mr. Lowenthal. Thank you.
    Mr. Frelinghuysen. Thank you.
    Mr. Lowenthal. I really appreciate that.
    Mr. Frelinghuysen. Pleased to recognize one of our 
colleagues from the Appropriations Committee, Congressman David 
Jolly.
    David, thanks for being with us this morning.

                 Summary Statement of Congressman Jolly

    Mr. Jolly. Thank you. Mr. Chairman, Ranking Member 
Visclosky, thank you for the opportunity to touch this morning 
just very quickly on three programs, each of which have been 
submitted either through written testimony or through the 
Member request process. And I also want to thank the 
professional staff for their assistance throughout this 
process.
    The three I want to touch on this morning, though, one is a 
very small but very successful Navy program that began through 
the SBIR process, the Navy has continued to invest in. And 
believe it or not, it is actually a program that did receive a 
Rapid Innovation Award in recent years. It is a radar and 
electronic system alignment tool that has now been fully 
deployed on Aegis-class cruisers and destroyers, replacing what 
used to be a man-based system to repair down radar, down 
electronic systems over a period of days using paper-based 
manuals. This is simply an electronic radar alignment tool that 
went through the R&D process, is now being fully deployed with 
Aegis.
    My request to the committee today, though, is that the 
Rapid Innovation Award money that was awarded in the last 18 
months actually was awarded to transition this technology to 
LCS, which is really where this capability fits in terms of the 
LCS platform, reduced manpower, improved readiness. It is a 
lightweight, efficient, low-cost tool that actually does solve 
manpower needs, as well as readiness.
    My concern is because there was a Rapid Innovation Award 
for this technology awarded to, frankly, a single technology 
company, being able to sustain that technology investment going 
forward, my ask of the committee would simply be to work with 
the LCS office to make sure sufficient resources are there to 
continue the investment in this technology as it is 
transitioned to LCS.
    The second is somewhat a regional issue, but also one of 
national importance, and that is the SOCOM S&T portfolio. You 
know, in the Tampa Bay area, this is something that I see the 
impact of SOCOM S&T, not just for the warfighter, but also 
throughout the industry partners that support the warfighter. I 
also have personal relationships within the acquisition office 
there in S&T. I know the good work that they do. I know the 
innovation that they bring to the portfolio. And we all know 
the importance of keeping the SOF community within the SOF 
lanes, but allowing them to address SOF unique needs. And I 
think continued investment, robust investment in SOCOM S&T is 
critical to that.
    The last one is really one that is easy, I believe, for 
everybody in this room, but personal for so many, and it is a 
program that started in this room by my predecessor and your 
colleague, Bill Young. And that is the C.W. Bill Young 
Department of Defense Bone Marrow Program.
    That was begun in this room by this committee. That was 
continued by this committee. We have 800,000 members of the 
Armed Forces that are registered in the program, having 
provided over 10,000 donations, lifesaving donations already. 
It obviously is a program that requires the continued support 
of this subcommittee to ensure its success.
    So I would ask for your consideration of that, as well as 
the continued investment in medical research that uniquely 
comes through this committee. I mean, this subcommittee has led 
the way in medical research areas that other subcommittees have 
not been able to do, from wound healing to disease-specific 
accounts or programs. And I would ask for continued investment 
in that.
    I appreciate the time this morning. I yield back, Mr. 
Chairman.
    [The written statement of Congressman Jolly follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Frelinghuysen. The committee would like to thank Mr. 
Jolly for his advocacy in a number of areas, the areas that you 
have mentioned this morning, as well as other important aspects 
to our committee. Considering the size of our Navy, which is 
probably the smallest it has ever been, we need to make sure 
that our Navy has every capability. So certainly your bringing 
this issue of this extra technology, which makes the existing 
program even more worthwhile and capable, it is important for 
us to be aware of that and we certainly will consider that.
    And when you talk about science and technology, those are 
the initials, just to break them down, those types of 
investments for the special operations community, considering 
the burden and responsibility that has been placed on them by 
our Commander in Chief and by Members of Congress to do some 
exceptionally difficult tasks around the world, often 
unheralded and not well known. So certainly that is an aspect 
of our work that, I think, historically we have been supportive 
of, but it is good to have some greater advocacy for that as 
well.
    And lastly, just being in this room, for Mr. Visclosky and 
all of us who work on behalf of the committee, the staff, one 
of the most remarkable things about my predecessor and actually 
your predecessor, the late Congressman Bill Young, was his 
advocacy for this bone marrow program. And the science that has 
come from that program, besides the whole issue of bone 
marrow----
    Mr. Jolly. That is right.
    Mr. Frelinghuysen [continuing]. Has been transported into 
other parts of defense healthcare support and into the private 
sector in ways perhaps you know better than most of us. We had 
quite a long hearing, 2\1/2\ hours yesterday, with the Surgeon 
Generals, one of whom, Admiral Nathan, worked particularly 
closely----
    Mr. Jolly. Sure.
    Mr. Frelinghuysen [continuing]. With Congressman, former 
chairman Bill Young, and I think he was one of those who was a 
very strong advocate and supporter of the bone marrow registry 
program.
    Mr. Jolly. Right.
    Mr. Frelinghuysen. So we will be supportive of it, knowing 
that it helps a lot of those in military life, as well as 
obviously in civilian life.
    Mr. Jolly. I appreciate that.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. One, I just appreciate your participation on 
the committee.
    And in reference to Mr. Young, I think all of us are here 
because we had wonderful families and great mentors. And I 
continue to recollect a question I received from a middle 
school student a couple of years ago, and she got a gold star, 
because I had never been asked that question in 30 years. And 
she says, ``Which Member of Congress do you deal with the 
most?'' And I said, ``Oh, that is easy. Bill Young. He is a 
Republican from Florida.''
    And normally I would never addendum the Republican part, 
but I have a reasonably Democratic district. And it led to a 
wonderful discussion, is that contrary to what people see in 
the institution, there are very serious, decent people trying 
to move this country forward. And certainly you are following 
in his footsteps.
    So appreciate your concern and your participation today.
    Mr. Jolly. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Pleased to welcome Congressman Ted Lieu 
from California. Thank you very much for being with us. We got 
a little earlier start than we anticipated, but that is not all 
bad. But we are very pleased you took the time out of your busy 
schedule to be here with us.

                 Summary Statement of Congressman Lieu

    Mr. Lieu. Thank you.
    Mr. Chairman and Ranking Member Visclosky, I want to thank 
you for the tireless effort that you and your staff put forward 
to ensure that our Nation remains safe. As a lieutenant colonel 
in the United States Air Force Reserves who previously served 
on Active Duty, I have firsthand experience with the support 
this subcommittee provides to our men and women in uniform.
    I want to particularly thank the subcommittee's work on 
aerospace and space issues. As a Representative for the 33rd 
Congressional District, I work in both military and civilian 
capacities with LA Air Force Base and its Space and Missile 
Systems Center, and surrounding the base is an incredible array 
of institutions and research facilities and defense companies. 
And collocated with the base is a production line for the F-18 
fuselage, which is a program I am here to testify about today, 
which is the F-18 program.
    I would like to add my strong support for the program as 
you consider the fiscal year 2016 defense appropriations bill. 
This program has an estimated annual impact of $1 billion 
throughout California, 40 percent of which is in my district. 
And from a national security perspective, the program is at a 
critical pivot point as the Navy considers its warfighting 
requirements and the strength of its aviation fleet.
    As you know, the F-18 has provided the Navy with two unique 
and essential aircraft for our Nation's warfighter, the F-18 
Super Hornet and the EA-18G Growler. The Super Hornet remains 
the Navy's premier operational strike fighter flying from 
forward-deployed aircraft carriers. These aircraft flew their 
first missions against the Islamic State of Iraq and Levant, 
and they serve as a workhorse of Naval aviation for all 
missions in all threat environments. With a plan to be part of 
the fleet until 2040, at least, the Super Hornet is a key 
component of the Navy's aviation plan for the next three 
decades.
    Additionally, the Growler is the DoD's proven airborne 
electronic attack asset, and it provides jamming, not just for 
the Navy, but for all the Services. And the Growler is truly a 
national asset and the Department's only resource for airborne 
electronic attack. And as you know, in a time when control of 
the electromagnetic spectrum is important, it is a key 
discriminator for battle.
    Unfortunately, the fiscal year 2016 budget does not include 
funding for the continued production of either the Super Hornet 
or the Growler. After the budget submission, the Navy added 12 
F Model Super Hornets to its unfunded priority request, 
highlighting that it does not have a sufficient amount of 
aircraft in its inventory.
    And the most immediate challenge that the F-18 confronts 
right now is that they may need to close a production line if 
they can't keep building these F-18 fighters, and we are going 
to need these well into the future.
    And so with that, I would love you to consider these 12 
aircraft, and thank you so much for listening to my testimony 
today.
    [The written statement of Congressman Lieu follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Frelinghuysen. Mr. Lieu, thank you for being with us. 
Obviously, the F-18, in all of its capabilities, we are 
certainly supportive of the program, and your advocacy here 
today reinforces that. I want to thank you for being with us.
    Mr. Lieu. Thank you. And I will submit my written testimony 
as well.
    Mr. Frelinghuysen. Absolutely. Thank you so much.
    Mr. Lieu. Thank you.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. No. No.
    Mr. Frelinghuysen. Okay.
    Mr. Frelinghuysen. Pleased to welcome Congressman Denny 
Heck from Washington State. Thank you very much for being with 
us. We got off to an early start, but we are very glad to have 
you here.

                 Summary Statement of Congressman Heck

    Mr. Heck. Thank you, Chairman Frelinghuysen and Ranking 
Member Visclosky. The honor is indeed all mine, sir. I 
appreciate the opportunity to testify here today about some of 
our national defense priorities very much.
    I have the honor to represent Joint Base Lewis-McChord, 
which, as you know, is one of the largest military 
installations in America. It is in the vicinity of Interstate 
5. In fact, it straddles it. This highway is the most heavily 
traveled north-south freight corridor in the entire State of 
Washington. It carries in excess of 145,000 vehicles every day.
    Nearly 80 percent of the traffic to and from JBLM needs and 
relies on Interstate 5. Local travelers in neighboring cities 
have no other option except to use I-5 as its surface street. 
When incidents occur, it can take hours to recover. Backups of 
6 miles or more beginning at 6 a.m. are, frankly, not rare. 
They are almost the norm.
    This just isn't happening in my district. It is not 
singular to the 10th Congressional District of Washington State 
issue. Floridians are stuck on Florida State Route 85, and we 
all know that people here on the beltway are stuck on 
Interstate 95, 395, 495. And the almost daily question has 
become, ``What is the holdup?''
    The truth is military installations are still adapting to 
base realignment and short-term growth caused by troops passing 
through before being deployed. Installation growth has had a 
significant effect on regional transportation, particularly 
when an installation is located in or near an urban area. Even 
acknowledging the potential for drawdowns on military bases, 
those reductions would not nearly come close to alleviating the 
problem.
    Surrounding roads--and this is key--play an important role 
in preserving military readiness. Our Armed Forces need to 
instantly deploy, and we need functional roads in order for 
that to happen. If military personnel are caught in a jam, 
efficiency goes out the door. And the domino effect of delays 
due to congestion literally impairs our national security.
    This leaves not only military activities on bases stranded, 
but also commerce and the community stranded as well. When we 
don't have reliable roadways, economic activity comes to a 
screeching halt, literally and figuratively. Goods can't move. 
Companies lose money. The cascading inaction affects 
productivity and balance sheets, and it puts strains on 
business and workers alike.
    To be clear, the military is not to blame for this. In 
fact, based on the direction of this committee, they have done 
a lot to help mitigate the problem. They know the opportunity 
costs involved when their soldiers and civilian workers are 
stuck in traffic and can't be where they need to be. Bases have 
come up with innovative approaches to ease the pain. But the 
problem remains severe and unavoidable without more investment. 
It is a bandaid over a wound that needs stitches.
    Let's heal this mess by upgrading the transportation 
infrastructure around these bases as a part of the fiscal year 
2016 defense appropriations bill. And in that regard, sir, I 
respectfully request that the 2016 bill provide $25 million in 
appropriated funds for transportation infrastructure 
improvements associated with congestion mitigation in urban 
areas related to the 2005 BRAC recommendations.
    As you may recall, there is precedent. The defense 
appropriations bill for 2011 appropriated $300 million just for 
these purposes, and those funds were expended through the 
Office of Economic Adjustment.
    Mr. Chairman, while I have been sitting here with you this 
morning talking, people that were in gridlock when I began 
probably haven't budged an inch. They are already late for work 
or their assignment on base. They might still be in gridlock 
even when this hearing ends.
    Every one of us is all too familiar with the feeling, the 
horrible feeling of approaching an unexpected slow crawl. I 
know that feeling very well as I approach Joint Base Lewis-
McChord. We can do better and we can do more.
    Finally, I would just like to thank this committee. I was 
here almost exactly a year ago, and I asked for your help to 
finish school construction on bases where they were 
dilapidated. Within a few months, we will strike ground, break 
ground on Joint Base Lewis-McChord to build a new elementary 
school that serves predominantly special needs students. You 
did that. On behalf of my community and the parents of those 
children, I thank you very much.
    And with equal fervor, I urge you to favorably consider the 
request I brought for you today. Thank you, sir.
    [The written statement of Congressman Heck follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Frelinghuysen. Well, thank you, Mr. Heck. And thank you 
for remembering that. And I do remember you coming before the 
committee last year and telling us what a deplorable situation 
the schools were in. I mean, that is not the sort of optic we 
want to have identified with the education facilities of some 
very key young people.
    Let me say, the committee, we don't believe in gridlock 
here. We actually, as you say, we get some things done, and we 
are highly appreciative of your advocacy.
    First of all, let me salute the good work of the Joint Base 
Lewis-McChord. I have been on Interstate 5, and it is 
congested. It has been a few years since I have been out there. 
But let me salute the work of the men and women who come out of 
that joint base that have done so much to protect our freedoms 
around the world. And we will take under consideration your 
request for $25 million to see what we can do to maybe make the 
infrastructure, assure better access for the surrounding 
communities, as well as people onto the joint base.
    Mr. Heck. Thank you, sir. Joint Base Lewis-McChord, FYI, is 
the most requested posting in the entire armed services, even 
more so, I am told, than bases in places like Hawaii. I would 
invite you to come back. I would invite you both to come back 
out.
    Mr. Frelinghuysen. Look forward to it.
    Mr. Visclosky. Chairman.
    Mr. Frelinghuysen. Yes, Mr. Visclosky.
    Mr. Visclosky. I would just interject, thank you for 
thanking the committee. It doesn't always happen, but it was 
the right thing to do, so it was the easy thing to do.
    I would agree with you on the need of infrastructure. We 
had a Naval Reserve center in Gary, Indiana, on the largest 
body of freshwater on the planet Earth. That Naval Reserve base 
closed because the Navy could get very little equipment under 
the bridge on Lake Street in Gary, Indiana. And ultimately that 
facility was closed because of infrastructure within the city 
itself.
    So appreciate your concern, and we will do our best.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you very much, Mr. Heck.
    And may I thank the members of the committee, Mr. Graves, 
for being here, Judge Carter, Mr. Womack, Ms. Kaptur, and Mr. 
Ruppersberger.
    People often ask why we have this opportunity, and it 
actually gives people an opportunity to sort of lay down some 
of the issues confronting either their military base or their 
support for a local or national program. It is an opportunity 
for people to vent and advocate, and so we are pleased to 
provide this.
    It does surprise me, although this may instigate something 
for next year, how few people take advantage of this rather 
public opportunity to demonstrate their support for a 
particular military platform or for their military base. But I 
think it is a good opportunity for us to listen and learn. So 
really appreciate your taking time out of your busy schedules 
to be here.
    Pete and I would definitely be here. But to have you here, 
we are blessed.
    Mr. Visclosky. I appreciate the Members' attendance as 
well, and would point out additionally that the idea of holding 
a Members-only hearing, which was a matter of course many years 
ago, was a very good one from an institutional standpoint as 
well, to allow Members, particularly those who have not served 
in the institution for a long period of time, knowledge of how 
we interact with them. And the fact is they can have input into 
the appropriations process. Too often it has been, I think, 
observed as an insular process. That is certainly not the case 
with the Defense Subcommittee.
    But do appreciate the great attendance today, because that 
is not the norm usually.
    Ms. Kaptur. I would observe that it is still----
    Mr. Frelinghuysen. Ms. Kaptur, you have got to use your 
microphone if you want to be on the record here.
    Ms. Kaptur. This is not a terribly serious comment, but 
notice which end of the aisle is here, this part of the bench.
    Mr. Frelinghuysen. Well, we know your tenure in Congress 
has been distinguished and for many years.
    I would just like to point out we did try earlier this 
year, even though it wasn't in the public arena, many of us had 
an opportunity to meet with, I think, the 13 or 14 new Members 
of Congress that came in, both Republicans, Democrats who have 
served in the military and sort of hear what they had on their 
minds. For those of you who had the chance to find time in 
their schedule, it was most interesting to hear, including one 
of our Members who is a member of the Special Forces, just to 
get their take on their view of our defense posture and some of 
the things that the Department of Defense ought to be doing. It 
is a very interesting perspective, very valuable perspective.
    So I guess we are going to take a short recess until our 
next Member comes.
    Mr. Carter of Texas. Mr. Chairman.
    Mr. Frelinghuysen. Jump in.
    Mr. Carter of Texas. I think that the appropriations 
process is the most misunderstood process in the entire 
Congress. I think that when you talk to people about 
appropriations, Members of Congress, it is amazing how little 
they know about how this works. I don't know what we do to fix 
that. And when I was in the leadership it was just a dive room 
vacancy in the understanding of the appropriations process. I 
don't know how we fix that.
    Mr. Womack. There might be an explanation for some of that. 
Just calculate how many years in Congress half of Congress has 
been here----
    Mr. Carter of Texas. That is true.
    Mr. Womack [continuing]. Okay, or more than half, and how 
much regular order have they seen in that short period of time.
    Mr. Ruppersberger. Yeah. That is a good point.
    Mr. Womack. Zero. Zero.
    So when you are living by CRs, you don't really--I mean, 
they think that CRs are the norm. That is all they ever knew.
    I think you are absolutely right. And I have looked for 
reasons to try to figure out how do we fix that, and the only 
way you are going to fix that is to get back to regular order.
    Mr. Frelinghuysen. And it is interesting--I guess I could 
say this into the record--we look after the needs of all 
Members of Congress, irregardless of political persuasion, and 
we look after members of the committee, and we are hugely 
accommodating. But this is another opportunity for people to 
sort of come forward, front and center, to be an advocate for 
their congressional district.
    Mr. Frelinghuysen. Congressman Jeff Miller, thanks very 
much for being with us.
    Mr. Miller. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. We warmed up the room in the brief 
absence we had between you and the last witness, but we are 
very pleased to have you here.

                Summary Statement of Congressman Miller

    Mr. Miller. Thank you very much, Members. It is a pleasure 
to be here with you. I appreciate the opportunity to be able to 
testify about a critical issue to our national security, and in 
this case critical to the preventative care for our sailors and 
our airmen.
    The Navy's basic research on human resilience and 
performance in high altitude and undersea environments is of 
vital importance. To enable our continued supremacy of our U.S. 
forces in the 21st century and to prevent serious illness in 
later years identified to be caused by prolonged work in the 
related domains of aviation and diving, it is critical that the 
Navy's research into the effects of extended exposure to 
extreme pressure environments is fully funded.
    In the Navy budget, under the warfighter sustainment 
program element, the Office of Naval Research's medical 
technologies program highlights this research as a requirement 
in support of such mission areas. Unfortunately, funding for 
this program is insufficient and does not utilize DOD's premier 
aeromedical and environmental health research facility, which 
is the Naval Medical Research Unit in Dayton, Ohio.
    Recent research has shown that the low air pressure under 
which high-altitude pilots work and the resulting high 
concentrations of oxygen that they breathe leads to 
decompression sickness, including a type known as neurologic 
decompression sickness. The research cites such symptoms in 
pilots and divers as temporary and permanent cognitive decline, 
slowed thought process, and unresponsiveness beyond those due 
to the natural aging process.
    Of grave concern to me is that the effects of these 
illnesses are not too different from what researchers are now 
finding in traumatic brain injury victims. Our military needs 
to fund more basic research into the causes and methods of 
preventing these illnesses in our pilots, deep sea sailors, and 
special operators that are exposed to prolonged periods of 
extreme pressure conditions.
    There is a promising side to this issue. In 2005, the 
Defense Base Closure and Realignment Commission directed the 
establishment of the Naval Medical Research Unit in Dayton, 
Ohio, and its Joint Center of Excellence for Aeromedical 
Research at Wright-Patterson Air Force Base.
    Since that time, DOD has spent more than $40 billion to 
develop a world-class research facility supported by a 
collection of state-of-the-art equipment found at no other 
location around the world. This unique assortment of 
capabilities enables this facility to transition validated 
knowledge and effective technologies to the warfighter that 
will mitigate and prevent the effects of high-altitude and 
undersea environments.
    However, since the creation of this incredible facility, 
the Navy has been unable to fund critical research that would 
capitalize on DOD's investment and to maximize research into 
established Navy and Air Force requirements.
    I think you will agree that funding the efficient 
utilization of this facility in support of established Air 
Force and Navy requirements is good for our sailors, our 
airmen, our veterans, and of course the taxpayers of this 
country.
    As you begin your work on the fiscal year 2016 defense 
appropriation bill, I respectfully request that you provide an 
additional $8.9 million for warfighter sustainment medical 
technologies program in the Navy budget. All moneys placed on 
contract will be done so through a robust competition and will 
increase utilization of research facilities by addressing 
requirements currently established in the fiscal year 2016 
President's budget.
    I want to thank you, Mr. Chairman, the ranking member, Mr. 
Visclosky, for having this hearing, and I urge you and the 
members of the subcommittee to look closely at this issue 
during your discussion. So I appreciate the chance to visit 
with you this morning, and I would be willing to answer any 
questions in the future should they arise.
    [The written statement of Congressman Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Frelinghuysen. Mr. Miller, thank you very much for 
being with us today. This is a huge issue. This is way beyond 
what we would call the normal stress. What our pilots and 
divers go through is a remarkable neurological and probably 
chemical reaction as they go through a variety of different 
degrees of elevation or submersion. I think your being here as 
a strong advocate for this is sort of a wake-up call, and it 
has been highly educative to me, let me put it that way. And I 
think this is something that we should be taking a close look 
at.
    I did mention before you came in, we did have the Surgeon 
Generals of the Air Force, the Army, and the Navy come in 
yesterday for 2\1/2\ hours for testimony. And I sort of wish 
that we had had this as a question for Admiral Nathan and 
General Travis. But it is something that you have raised for 
our attention, and I think we are highly appreciative of your 
doing that.
    Ms. Kaptur, I did hear the word ``Ohio'' too.
    Ms. Kaptur. Yes. Yes. I just wanted to assure the 
Congressman that coming from Ohio and being one of the 
advocates for Wright-Pat and the human performance program. 
Thank you for coming today. Thank you for coming before our 
subcommittee and expressing in very clear terms why this 
research is so very important.
    And finally, after so many decades, we are paying attention 
to the impacts of this kind of heroism really on human health, 
both short term and long term. And all I can say, I kept 
thinking as I was listening to you, in my single flight on an 
F-16, the pressure and what happens to the body, frankly, I 
couldn't do that job. The average citizen has no idea of the 
physical impacts that some of these missions require of the 
individual.
    And so thank you so very much for taking the time to come 
before us today and advocate for our airmen and our seamen. 
Thank you.
    Mr. Miller. O-H-I-O.
    Ms. Kaptur. Ohio.
    Mr. Frelinghuysen. All right. Thank you very much, Mr. 
Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Pleased to welcome Congressman Bradley 
Byrne from Alabama. Thanks for being with us. I guess we are 
sort of doing this in order of arrival, even though we gave you 
a specific time.
    Welcome. Thanks very much for taking time out of your busy 
schedule.

                 Summary Statement of Congressman Byrne

    Mr. Byrne. Thank you, Mr. Chairman and Ranking Member 
Visclosky and distinguished members of the subcommittee. It is 
my pleasure to appear before you today to testify on two issues 
important to our national security, the Littoral Combat Ship 
program and the Joint High Speed Vessel program.
    Since I appeared before this group last year, I have had 
the pleasure as a member of the Armed Services Committee to 
actually be on both of these vessels, not during construction, 
but as they have actually been deployed. So I am not just 
speaking from somebody that has been on those that have been 
under construction. I have actually been on them and talked to 
the people that are actually on those ships, manning those 
ships, and the people in the Navy that are so important to that 
program.
    The LCS is an essential component of our fleet, and it is 
critical if the Navy is to support the Pentagon's pivot to the 
Asia-Pacific region, because these are shallow-draft vessels, 
they can get to places that they need to get to in that very 
important part of the world.
    Despite what you may have heard, the LCS program is 
currently realizing substantial efficiencies and savings. 
Production is stable and costs have been reduced significantly. 
The LCS is easily the most affordable surface vessel in our 
fleet today. But the LCS is not just affordable, it is also 
highly capable.
    Some of the LCS' loudest critics contend that the Navy has 
not effectively laid out its plans for the vessels. They have 
questions about the ship's survivability and lethality. These 
are important questions, but the Navy already has many of the 
answers. And although the survivability testing for the vessel 
would not officially wrap up until 2018, the Navy already 
understands how survivable and lethal the LCS is in different 
environments.
    In fact, the Navy's Small Surface Combatant Task Force 
recently studied how the current LCS operates in certain 
environments and how additional capabilities would enhance its 
ability to operate in these areas. Secretary of the Navy Ray 
Mabus described this study as ``exhaustive,'' and upon its 
completion Secretary of Defense Chuck Hagel agreed with the 
results. Secretary Hagel authorized the Navy to transition the 
LCS into a frigate, validating the need to build up the program 
from 32 ships to 52 ships.
    Now, the first 32 of these ships will be needed to complete 
the mine countermeasures mission, which is vitally important to 
operations in the 5th Fleet and the 7th Fleet areas of 
responsibility. The remaining 20 frigates will be designed to 
carry out anti-surface and anti-sub missions. These ships 
remain essential to the Navy's ability to project power and 
provide greater interoperability with our allies. And there are 
a number of our allies that are looking at these vessels for 
themselves because they work so well.
    Last month, in testimony before the Armed Services 
Committee that I serve on, Secretary Mabus said, quote, ``Any 
change to the production rate of three LCS's per year will 
significantly impact the transition to the frigate,'' close 
quote. This is an obvious but frightening observation. It has 
become abundantly clear that delaying the production of the LCS 
would significantly reduce the size of our fleet and damage 
America's national security. In turn, this would force the Navy 
to cover the same geographic area with significantly fewer 
assets.
    The LCS is the rare military program that has seen costs 
decrease over time. The costs in this program have gone down, 
not up. The LCS has adhered to stringent contractual and 
budgetary constraints and is locked into fixed-price contracts 
at a congressionally mandated cost cap. The LCS ships being 
built today are being built at an average of $350 million per 
hull, well under the cost cap. Any further reductions would 
lead to cost increases and, more importantly, put the frigate 
program at significant cost and schedule risk. Reductions would 
also greatly impact the shipyards in Alabama, my district, and 
in Wisconsin and the broader shipbuilding industrial base.
    Because of these considerations, I ask the subcommittee to 
support the Navy's request and provide the funds necessary to 
procure three Littoral Combat Ships in this year's budget.
    Next, I would like to share my support for the Joint High 
Speed Vessel, or the JHSV. The JHSV is a shallow-draft, high-
speed catamaran used for the intra-theater support of 
personnel, equipment, and supplies. And I have talked to the 
Marine Corps extensively about the Joint High Speed Vessel. It 
is a very important vessel for them. It is a low-cost vessel 
that meets a lot of their needs.
    It is the only Navy asset that combines high payload 
capacity with high speed, providing combatant commanders with a 
unique capability. In automotive terms, the vessel has been 
compared to a pickup truck. It is able to support a wide range 
of missions for all the services.
    The JHSV has demonstrated the ability to transport military 
forces, as well as humanitarian relief, personnel, and 
material. Since delivery of the initial vessel, these ships 
have supported a wide range of operations around the globe, 
including assisting in recovery operations after the Indian 
earthquake and the tsunami in 2004 and the Japanese earthquake 
and tsunami in 2011.
    As we meet, the USNS Spearhead is completing her second 
deployment in the 6th Fleet area of responsibility to support 
operations in EUCOM and AFRICOM. She is scheduled to make her 
second deployment to SOUTHCOM later this year.
    Clearly, this vessel is effectively filling a critical gap.
    The Department of Defense places a premium on the ability 
of U.S. military forces to deploy quickly to a full spectrum of 
engagements. In addition, the Department values the ability of 
U.S. Forces to debark and embark in a wide range of port 
environments, from modern to, in some cases, austere. The Joint 
High Speed Vessel has demonstrated the ability to effectively 
support these needs.
    The Joint High Speed Vessel is currently in serial 
production with a stable and highly trained workforce. We are 
benefitting from the efficiencies gained through the 
construction of the initial six vessels. In order to ensure the 
capability to build these ships and maintain the affordable 
price, we need to keep the production line open.
    Unfortunately, without further procurement in fiscal year 
2016, this line will close. Like the LCS, the Joint High Speed 
Vessel program provides the Navy with a very affordable and 
capable ship at roughly $180 million per ship. I know that 
sounds like a lot of money, but a DDG costs $1.6 billion. So at 
$180 million per ship, the Joint High Speed Vessel is a 
fraction of what other shipbuildings cost.
    The program has clearly matured in what can only be 
considered efficient serial production. We shouldn't let that 
go to waste.
    Thank you very much for your time today. I appreciate the 
opportunity to share my thoughts on these two very valuable 
ships before the subcommittee. I would be happy to answer any 
questions.
    [The written statement of Congressman Byrne follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
        
    Mr. Frelinghuysen. Mr. Byrne, thank you very much for your 
testimony. The committee welcomes it and your strong advocacy 
for the Littoral Combat Ship.
    As we have the smallest Navy in our history, we need every 
ship. It has amazing capabilities. And we obviously on this 
committee recognize your good work on the Armed Services 
Committee and the need for more rather than less just because 
of tyranny of distance, as you mention, to the Pacific, and 
also your advocacy for the Joint High Speed Vessel, which is a 
Navy-Marine combination platform, which is also very badly 
needed.
    So we will do our level best to be of support of both of 
these programs, understanding that we live within some 
restrictions of the Budget Control Act.
    Mr. Byrne. Yes, sir, Mr. Chairman. I certainly want to do 
my part to help with that as well.
    Mr. Frelinghuysen. Absolutely. Look forward to it.
    Mr. Visclosky.
    Mr. Visclosky. And just mentioned that General Rodriguez, 
when he was testifying before us, suggested that there is a 
significant need--and you mentioned AFRICOM----
    Mr. Byrne. Yes, sir.
    Mr. Visclosky [continuing]. For the Joint Vessel. Thank you 
for your testimony. Because we do have a number of Members 
here, I would point out that besides the water, we do have 
coffee available.
    Thank you very much.
    Mr. Byrne. Yes, sir.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Byrne. Thank you, sir.
    Mr. Frelinghuysen. Pleased to recognize Congressman Hank 
Johnson from Georgia. Welcome. Welcome back. You were here last 
year.

                Summary Statement of Congressman Johnson

    Mr. Johnson. Thank you. It is good to be back. Thank you 
for having me.
    Members of the subcommittee, Chairman, Ranking Member, 
thank you for the opportunity to testify in support of the 
Historically Black Colleges and Universities and Minority-
Serving Institution Program, the HBCU/MI Program. This program 
funds important Department of Defense research at HBCUs and 
MSIs around the country and is critical to our long-term 
national security.
    This program provides valuable opportunities for students 
at these institutions to gain exposure to science, technology, 
engineering, and math research at DOD labs. It also helps to 
fill the void in our STEM workforce by creating a pipeline of 
talented researchers in cybersecurity, linguistics, and data 
modeling and analysis.
    Mr. Chairman, HBCUs represent 3 percent of all 2- and 4-
year colleges, but generate 25 percent of STEM bachelor degrees 
awarded to African Americans. But sadly, despite HBCU's strong 
track record of success, the Federal Government has cut STEM 
funding at these institutions in recent years.
    Last year, this committee recognized the contributions of 
HBCUs to our STEM workforce and our economy and stood strong in 
the face of attempts to cut funding for the HBCU/MI Program. I 
urge the committee to do so again this year as the fiscal year 
2016 DOD budget comes up for debate before the committee and to 
fully fund the HBCU/MI Program at $40 million. These funds 
would go a long way towards training students for futures in 
STEM, work-study programs, scholarships, and academic support 
initiatives for students of color.
    The HBCU/MI Program already has strong ties with the Naval 
Air Force Warfare Center and several centers of battlefield 
capability enhancements. These partnerships have accelerated 
defense technology, research, and helped our Armed Forces solve 
complex technological challenges.
    This program is critical to the cultivating of STEM talent 
necessary to meet our growing technological needs, and this 
valuable program is helping America meet the global defense 
challenges that face us.
    Again, I want to thank you for the opportunity to express 
my support for this program. I respectfully urge the committee 
to reiterate its support for this program by fully funding it 
at $40 million. And with that, I will yield back.
    [The written statement of Congressman Johnson and 
Congressman Veasey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Well, thank you, Mr. Johnson, for being 
here once again. And I think the support for this program has 
been bipartisan each and every year for the many years I have 
served on this committee, and we know it is a good investment. 
I think Members of Congress have been supportive of it. And we 
appreciate your being here as a strong advocate. We are not 
going to get anywhere in our society without STEM education, 
and that needs to be in the hands of everybody. And thank you 
very much for being here.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Pleased to recognize another one of our 
colleagues who serves in the Armed Services Committee, 
Congressman Paul Cook from California. Thanks for being with 
us. Thanks for your patience.

                 Summary Statement of Congressman Cook

    Mr. Cook. Thank you, Mr. Chairman. Ranking Member 
Visclosky, Members of the subcommittee, once again thank you 
for the opportunity to testify today about an opportunity to 
improve Marine Corps tactical intelligence and support combat 
operations.
    The Marine Corps Director of Intelligence published a 
document last September called the ``Marine Corps Intelligence, 
Surveillance, and Reconnaissance Enterprise Plan for 2015-
2020.'' This is a roadmap for improving the quality and 
timeliness of intelligence passed to Marine units conducting 
combat operations. This plan addresses the intelligence 
functions across all echelons of the Marine Corps, the 
Intelligence Community, and the Joint Force. It implements the 
principles of Expeditionary Force 21, the Marine Corps' 
capstone concept for America's Force in Readiness. And to quote 
the document, it is all about providing the right intelligence 
at the right place, at the right time.
    We are facing emerging threats and existing threats 
modernizing at an unprecedented rate. Our enemies' ability to 
adapt to American capabilities requires a new American 
commitment to continue to lead technological development. We 
use this advantage to outfight, outthink our enemies, but we 
must also learn how to understand how to use this information 
that it provides, for integration of intelligence will equal 
battlefield success.
    Integration of information is a high priority for the 
Marine Corps. It reduces the production timeline, produces 
greater understanding of the battle space, and supports 
interoperability by using open standards. Providing these smart 
maps, it allows the unit commanders and combatants to better 
understand intelligence data.
    The Marine Corps requested $13.2 million for the USMC 
Intelligence/Electronic Warfare Program fiscal year 2016, a 7 
percent decrease compared to fiscal year 2015. Within that 
amount, $1.8 million is for intelligence analyst systems 
support, which integrate these new tools into the intelligence 
analysis system family of programs.
    I don't think that the fiscal year 2016 budget provides the 
Marine Corps adequate resources to implement this vision. I 
recognize the subcommittee has a very, very difficult task in 
front of it. As you craft your fiscal year 2016 bill, I am 
urging you to closely examine whether the Marines Corps 
Intelligence Community has sufficient resources to lead the way 
in the warfighting intelligence process.
    I just want to add a couple of small comments. I think last 
year when I was here I told you that intelligence and what you 
learn before you go into battle is something that is personally 
important to me. I think I used the phrase that one time I was 
the most dangerous weapon in the world as a second lieutenant 
with a map and a compass.
    Well, the world has changed, but there are always a lot of 
emerging threats. You know, Nimitz had a big advantage at 
Midway. You look at Enigma and Ultra, how they basically won 
the war for the Allies through the help of the British code 
breakers. And some of these things are going to change the 
battlefield.
    And if you look at the Army and you look at the Marine 
Corps and you look at the number of casualties that they have 
had in the last 50 years, you know, a lot of it has been on 
these battlefields. Some of it has been from such archaic 
weapons as RPGs, still explosive devices that I was 
encountering in Vietnam in 1967 and 1968. This is something, I 
think, for all unit commanders, battle commanders, and all 
troops that go in harm's way, this is a program that I hope you 
will look very carefully at. And I thank you for your 
indulgence.
    [The written statement of Congressman Cook follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Frelinghuysen. Mr. Cook, we will do our best. First of 
all, thank you for your distinguished military service. And may 
I say the committee has discussed--and there is obviously 
strong bipartisan support--more investments with ISR, you know, 
intelligence, reconnaissance and surveillance. I mean, that is 
really where we need to put some more money.
    And we know--of course, I will be solicitous--the Marines 
are the tip of the spear, and when there is a problem around 
the world, you guys and gals are out there doing it. So this is 
something we will take a very close look at, see if we could do 
a little better than we have in the past.
    Mr. Cook. Thank you, Mr. Chairman. I appreciate it.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Frelinghuysen. Mr. Carter from Georgia, welcome. Thank 
you for your patience.

                Summary Statement of Congressman Carter

    Mr. Carter of Georgia. Thank you, sir.
    Thank you, Mr. Chairman, Members of the committee. I 
appreciate you all having me here today. And it is a great 
opportunity to share with you my concerns and priorities for 
the military installations within Georgia's First Congressional 
District.
    It is an honor to represent a district which houses four 
major military installations, every branch of the military, and 
thousands of veterans who have served our country so honorably. 
With this unique military footprint, the district's defense 
elements are important not just to our State and region, but 
also to our Nation and America's interests around the world.
    The First District is the proud home of Fort Stewart and 
Hunter Army Airfield. As the largest Army installation east of 
the Mississippi River and home to the ``Rock of the Marne,'' 
the 3rd Infantry Division, Fort Stewart has a long and storied 
past as well as a vibrant role in today's national defense 
missions. Its level of significance and contributions continues 
to be a point of pride for the district, from spearheading of 
the events into Baghdad during Operation Iraqi Freedom to the 
deployment of soldiers to West Africa to help contain the Ebola 
outbreak. Today, as I speak, the 3rd ID is deployed to 
Afghanistan and Eastern Europe.
    With the Army's planned manpower drawdowns, the maintenance 
of effective troop levels and mission sets at Fort Stewart has 
become a very concerning issue. I have heard discussions about 
reducing the total number of Army brigade combat teams 
nationwide and additional manpower cuts which could affect the 
3rd ID by the reduction of one or even two BCTs. Such 
reductions would be a severe blow to the ability of the 3rd ID, 
Fort Stewart, and Hunter to provide their extraordinary 
capability to our national defense.
    Fort Stewart and Hunter are uniquely equipped and 
strategically located to deliver a devastating blow to our 
adversaries worldwide. Let me touch on that very quickly. As 
you know, Fort Stewart and Hunter are located in the Savannah 
area, in the Coastal Empire Area near the Georgia ports, near 
the Savannah Port. That gives them quick access to be deployed, 
and that is very important and something that we are very proud 
of and we view as a great asset, not only to Hunter and Fort 
Stewart, but to our Nation as a whole. It has vast training 
areas, modern facilities, and extraordinary network of 
intermodal deployment options through nearby ports and on-base 
and nearby airports.
    For those reasons and more, I am requesting that the Army 
broaden its evaluation of Fort Stewart and Hunter with regard 
to BCT reductions. That should include factors such as cost 
efficiencies of operations and speed of deployment. Speed of 
deployment, what I was just talking about, by being that close 
to a major port like the Savannah Port, the regional training 
capabilities with other installations, and community support.
    The regional capabilities and multiservice resources 
include another unique resource of national significance 
located in the First District, the Townsend Bombing Range. The 
Townsend Bombing Range is itself owned by the Marine Corps Air 
Station Beaufort and operated by the Georgia Air National 
Guard. Townsend is integral, not just to the State of Georgia, 
but also to the Air Force, Navy, Army, Air National Guard, and 
Marine Corps elements that use it.
    Recently, I have learned that the Air National Guard 
headquarters has signed over the operational control of the 
Townsend Bombing Range to the USMC because of the apparent ANG 
inability to devote the necessary personnel resources for the 
expansion of the range.
    While we are excited that the range has expanded to 
accommodate fifth-generation fighters like the F-35s, there are 
concerns about access to the range by other services and the 
provisions of adequate resources to address community concerns. 
Two counties in my district, Long and McIntosh, are in 
discussion with the Marine Corps about compensation for losses 
to their tax digests, and I am working with the Marine Corps to 
secure clarification on a number of related questions and 
issues.
    Nearby Fort Stewart, my district proudly includes the Kings 
Bay Naval Submarine Base, located in Saint Mary's, Georgia. 
Kings Bay is the home port for the Atlantic ballistic missile 
submarine fleet. The fleet of submarines located at Kings Bay 
plays an indispensable role in our Nation's security as an 
element of the Nation's nuclear triad. It is currently home to 
eight Ohio-class submarines, six of which are ballistic missile 
submarines and two of which have been converted to guided 
missile submarines.
    While these submarines fulfill a critical role in nuclear 
deterrence and readiness, they will soon be reaching the end of 
their expected timeline and the replacement will be needed. The 
last guided missile submarine is expected to be retired in 
2028, leaving the Navy with a 60 percent reduction in its 
undersea strike capacity. Again, the last guided missile 
submarine is expected to be retired in 2028, leaving the Navy 
with a 60 percent reduction in its undersea strike capacity.
    The first Ohio-class replacement submarine was originally 
scheduled to be procured in fiscal year 2019, but necessary 
deferments by the Navy has pushed back that timeline. This 
means that there may be a gap in the retirement of the Ohio-
class boats and the procurement and production of its 
replacement class of boats. Because of this, I submitted a 
programmatic request in support of the Department of Defense's 
budget line of $1.391 billion for the Ohio replacement 
development in accordance with the President's budget.
    The Virginia-class fast attack submarine is another major 
program with a critical role in defense of our Nation and our 
Navy. With the Ohio-class replacements on the horizon, 
Virginia-class submarines will continue to fulfill a larger 
role in the submarine fleet, especially with their life 
expectancy projected to reach as far as 2070.
    The Virginia Payload Module is a cost-effective way to 
preserve our undersea strike capacity by adding expanded 
capabilities and armaments to the Virginia-class submarine 
fleet. With the rise in deployment and procurement of anti-
access and aerial-denial systems, undersea strikes will, 
through necessity, assume a more dominant role in the future 
conflicts. It is through an expansion program like the Virginia 
Payload Module----
    Mr. Frelinghuysen. Mr. Carter, we are highly supportive of 
and recognize Georgia's incredible role for the Army, the Navy, 
and the Marines. I don't think there are many States that could 
match the capabilities of your warfighters who do some 
remarkable things on behalf of our country.
    We want to make sure that we give all of our colleagues an 
opportunity to speak. But I want to assure you we are focused 
on the issue of end strength. We know your pride in your 
congressional district, the incredible work at Fort Stewart, 
Hunter, Kings Bay. I have been there. They do some incredible.
    We are also focused on the submarine, the next generation 
of Ohio-class. You should know our committee has made that 
commitment in terms of technology. I think we are headed in the 
right direction. And with your advocacy, we will get across the 
finish line.
    Mr. Carter of Georgia. I apologize for taking so much time. 
But when you have got four military institutions in your 
district, it is all important. And I didn't get to mention the 
most important one, and I apologize.
    Mr. Frelinghuysen. Go right ahead. Just briefly now.
    Mr. Carter of Georgia. Moody Air Force Base located in 
Lowndes County, also in my district, home of the A-10s, I just 
have to mention to you how important that is and how important 
the A-10s are to our national security. And I just have to get 
that in, and I apologize.
    Mr. Frelinghuysen. You did it. There is no reason to 
apologize.
    Mr. Carter of Georgia. Okay.
    Mr. Frelinghuysen. Thank you, Mr. Carter.
    Mr. Carter of Georgia. Thank you very much.
    Mr. Frelinghuysen. You are a strong advocate. Your 
constituents can be proud of the good work you do on behalf of 
our country.
    Mr. Carter of Georgia. Okay. Thank you all very much.
    Mr. Frelinghuysen. Thank you.
    [The written statement of Congressman Carter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Mr. Frelinghuysen. Mr. Rothfus from Pennsylvania, thank you 
for your patience.

                Summary Statement of Congressman Rothfus

    Mr. Rothfus. Thank you, Mr. Chairman.
    Chairman Frelinghuysen, Ranking Member Visclosky, and 
Members of the subcommittee, thank you for holding this hearing 
today and for receiving my testimony for the fiscal year 2016 
defense authorization bill.
    This morning, I would like to focus my remarks on the 
Army's Aviation Restructuring Initiative. As you know, this 
policy will result in the transfer of the National Guard Apache 
helicopters to the Active Component. Army officials have stated 
that this restructuring is necessary to generate savings and 
make the remaining aviation fleet more affordable. I have long 
opposed this plan and for the second year in a row asked, Mr. 
Chairman, savings at what cost?
    Since September 11, 2001, the National Guard has repeatedly 
risen to the occasion. They have answered the call and fought 
bravely in Iraq and Afghanistan, and at the height of these 
wars nearly 50 percent of the Army's total force was a mix of 
reservists and members of the National Guard. The Pennsylvania 
National Guard alone contributed more 42,000 individual 
deployments. They have fought side by side with the Active 
Component, all while continuing to achieve their important 
mission here at home.
    ARI will have devastating impacts on all the National Guard 
has achieved. By stripping the National Guard of its Apache 
helicopters, the Army is ensuring that the National Guard will 
be less combat ready and less able to provide operational 
depth. It will also deprive our Nation of an operational 
reserve for these aircraft, which is essential to the retention 
and management of talented aircrews. This represents a 
fundamental shift in the nature and role of the National Guard. 
It runs counter to the wisdom and preference of many Members of 
Congress and their constituents.
    This issue is important in Pennsylvania and to the 1-104th 
Attack Reconnaissance Battalion in Johnstown. These highly 
trained airmen crew played an invaluable aerial support role in 
Afghanistan where they flew their Apache helicopters and fought 
alongside the Active Component.
    The Army now proposes to replace these Apaches with a 
smaller number of Black Hawks. This reduction will deprive the 
National Guard of both highly trained personnel and equipment. 
It will result in the National Guard being less effective, less 
combat capable, and less able to heed the call to defend this 
Nation both at home and abroad.
    I offered similar criticism of ARI last year and joined my 
colleagues in urging for the creation of the National 
Commission on the Future of the Army. I also advocated that 
there should be no transfers or divestment of any Army 
aircraft, including Apaches, until after the Commission has had 
sufficient opportunity to examine ARI. I applauded the House 
Armed Services Committee for including those important 
provisions in the fiscal year 2015 National Defense 
Authorization Act, but I was disappointed to see that, at the 
insistence of the Senate, the legislation also contained a 
glaring exception that allows the Army to transfer up to 48 
Apaches prior to the Commission releasing its finding and 
recommendations.
    The Commission was established to offer a deliberate 
approach to addressing force structures like ARI. So how did it 
make any sense to permit the Army to transfer these Apaches 
before the Commission has done its work? The answer is simple, 
it doesn't, and we need to put a stop to this before it is too 
late. Even National Guard Bureau Chief General Frank Grass 
admits that once these transfers begin, it will be all but 
impossible to reverse them.
    For that reason, I respectfully request that this committee 
include a simple provision in this year's defense 
appropriations bill that prohibits funding to transfer any 
Apaches until the end of fiscal year 2016. This will provide 
sufficient time for the Commission to release its report, for 
the Army and the National Guard to respond, and for Congress to 
make a reasoned and well-informed decision.
    I recognize that this committee will be forced to make many 
difficult decisions over the next few months, but this isn't 
one of them. Providing a temporary freeze on the transfer of 
Apaches just makes sense, and it will ensure that irreparable 
harm is not done to our National Guard without due 
deliberation.
    Thank you for the opportunity to address you this morning, 
and I am happy to address any questions you may have.
    Mr. Frelinghuysen. Mr. Rothfus, thank you very much for 
your strong advocacy. I can ensure you that inside this room in 
a very public manner there are many members, including yours 
truly, that are very concerned about this whole transformation 
and where the Army is going in terms of its aviation goals. And 
we have a sharp debate, and I think most of us are very highly 
supportive in recognizing the incredible work of the National 
Guards throughout all 50 States. And so it is a work in 
progress. We have slowed down a lot of what the big Army has 
wanted to do. And we will continue to focus on this issue with 
a lot of the things that you have continued to bring to our 
attention.
    Mr. Rothfus. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    [The written statement of Congressman Rothfus follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Mr. Frelinghuysen. Congresswoman Brenda Lawrence from 
Michigan, thank you very much for being with us. Thanks for 
your patience.

              Summary Statement of Congresswoman Lawrence

    Mrs. Lawrence. Good morning. I want to thank the chairman 
and the ranking member for having me here today. I want to 
thank all the members for allowing me the opportunity to 
testify.
    I was still a teenager when we pulled out of Vietnam, yet I 
remember the impact it had on our country and how it changed 
our thoughts on war and diplomacy. The role of women in this 
country was changing as well.
    Many of us only saw images on TV as our role models of 
housewives. Now, more than 200,000 women are in Active Duty 
military, including about 70 generals and admirals. Yet among 
the top ranks only 7 percent of the 976 generals and admirals 
are women. Among the enlisted, 60 percent of women are still in 
either the medical or administrative specialties. Another 30 
percent are in supply units as part of the communications 
staff. The numbers aren't much different for the female 
officers.
    To promote gender quality, we have to ensure that our 
military training reflects the true nature of combat rather 
than outdated notions of what it means to be a good soldier. 
This will require more funding.
    I am pleased that the National Defense Authorization Act 
removed several barriers to women serving and those planning to 
serve, including more gender-neutral occupational standards 
that will allow almost all military positions and units to be 
open to women, requirements that combat equipment for women are 
properly designed and fitted and meet requirement standards for 
wear, a review by the comptroller general to review recruitment 
efforts toward women and officers.
    Thankfully, the presumption of innocence by those good 
military character most likely innocent and sexual assault 
prosecutions were removed as well.
    I hope that these important aspects of the NDAA are fully 
funded and monitored by this subcommittee and by the House 
Armed Services Committee. While issues such as changes in 
combat equipment and design take time, I respectfully request 
that a report on timing.
    Cyber operations are growing and become a very important 
part of each of the services. Cybersecurity is also a gender-
neutral occupation, allowing both men and women to serve our 
country and protect our Nation as equals. We need to see this 
growing area of concern addressed through effective human 
resourcing and adequate funding for advanced technology.
    I am pleased that this committee supports funding the 
equality programs for girls in Afghanistan, but we must push 
for that same ideal here. We must lead in demonstrating that 
gender equality is not limited to private industry in foreign 
countries, but in our military too.
    Mr. Chairman, I am aware of how difficult your job is in 
these tough fiscal times, and I am aware that you serve to fund 
a part of our Nation that is critical to the very safety and 
well-being of Americans. As you consider what to provide 
funding for and what to decrease, I respectfully ask that you 
maintain full funding provisions that address changes to combat 
equipment, support for sexual assault victims, female outreach 
and recruitment programs, gender occupation policy reviews and 
program reviews. I also ask that you request a report from the 
services on the costs and timing of what I feel is critical, 
equipment changes for women.
    Let us demonstrate with our words and our dollars that the 
funding for equality should happen at home just as it does 
abroad.
    I really do appreciate being able to bring this to you 
today, being excited about being one of the 100 women serving 
in this Congress this year and proud to be a Congresswoman for 
the United States of America. Thank you.
    Mr. Frelinghuysen. You have good reason to be proud. And 
may I say that all the members of the committee may not be 
here, but Mr. Visclosky and I representing them, along with Mr. 
Ruppersberger, feel that we are actually committed to removing 
barriers to any position in the military for women. You should 
be aware that we feel very strongly about that.
    The committee has made a substantial investment, if we need 
to do it, relative to the inexcusable issue of sexual assault. 
We are not going to stand for it. We have been quite strong, 
very strong in that regard. It doesn't matter what the service 
is, what the circumstances are.
    And in terms of equipment, we obviously need to recognize 
that the equipment needs to be adjusted----
    Mrs. Lawrence. Yes.
    Mr. Frelinghuysen [continuing]. And done in a way that 
allows more women to serve in more positions. And I will agree 
with you, I think we need that to have a review as to who is in 
leadership and to make sure that we have a fair representation. 
Because certainly, given our commitment over the last couple of 
years to two wars, women have stood with men in every way, both 
domestically here at military installations, but in a lot of 
different, rough, horrible environments abroad. And so I just 
want to assure you that our committee is committed to those 
types of goals that you advocate for and have advocated so well 
for today.
    Mrs. Lawrence. Thank you so much, Mr. Chairman.
    [The written statement of Congresswoman Lawrence follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Mr. Frelinghuysen. Mrs. Wagner, Congresswoman Ann Wagner, 
thank you for being with us.

               Summary Statement of Congresswoman Wagner

    Mrs. Wagner. Thank you. I appreciate your time and your 
patience, Mr. Chairman and Ranking Member and Members of the 
subcommittee.
    I first want to extend my appreciation for the work that 
you do, as a proud mother of a son who is a West Point graduate 
and does serve in the United States Army in the 101st Airborne. 
He will receive his captain's bars on April 30, and I will be 
there on that very proud, wonderful day. And I represent 
thousands of constituents in Missouri's Second Congressional 
District that wear the uniform. I know firsthand the importance 
of the subcommittee's work for our national security.
    In the past 2 years, I have become very familiar with the 
Navy's tactical aviation capabilities. Last year this 
subcommittee responded to the Navy's requirement for more 
electronic attack capabilities by providing 15 EA-18G Growlers 
in the fiscal year 2015 budget. Those aircraft will provide a 
warfighting capability that no adversary can match. Growlers 
will keep our Navy equipped to overcome enemies today and in 
the future in all threat environments. For that, I would like 
to say thank you.
    Today, I am here to support adding F/A-18 aircraft to the 
fiscal year 2016 budget. As you know, the Navy submitted an 
unfunded requirement for 12 F/A-18F model aircraft. In 
testimony, the Chief of Naval Operations, Admiral Jonathan 
Greenert, stated that the Navy has, and I quote, ``a Super 
Hornet shortfall'' of at least two to three squadrons, the 
equivalent of 24 to 36 aircraft. An aging fleet of legacy 
aircraft, the delayed operational deployment of the F-35 
program, and a higher than anticipated utilization of Super 
Hornets in combat are contributing to this shortfall.
    To this last point, the Super Hornet is truly the workhorse 
of Naval combat operations against ISIL. It is an absolutely 
critical in-demand weapon against our enemies. To exacerbate 
the shortfall challenge, the Navy has lost, sadly, 15 Super 
Hornets and Hornets over the past 5 years to battle or training 
losses, aircraft that have not been able to be replaced by the 
Navy or Congress.
    The strike fighter shortfall identified in the unfunded 
requirement request is not a new issue to the Navy, and it is 
one identified by this subcommittee repeatedly. The HACD has 
been on the leading edge of telling the Navy to address its 
inventory challenges. We all wish that the President's budget 
request included additional F/A-18 Super Hornets, and we all 
expect the Navy to address the total extent of the shortfall in 
subsequent budgets.
    However, without aircraft in fiscal year 2016, the F/A-18 
program faces a line closure decision. The F/A-18 manufacturing 
line is the only aircraft production with the ability to build 
operational strike fighters for the Navy today and AEA aircraft 
for the entire Department of Defense. Without it, the Navy 
couldn't address its shortfall, nor could it add Growlers in 
the future.
    I would not be in front of you today if funding additional 
aircraft were not so vital to the warfighting capability, sir. 
Adding aircraft and keeping the F/A-18 line alive is the right 
thing to do to keep our military personnel safe and to keep our 
country and allies safe.
    I have provided a copy of a House letter signed by myself 
and my colleagues requesting additional aircraft. These are 
Members who have stood by the subcommittee to support defense 
appropriations in years past. I have also added a copy of the 
unfunded requirement highlighting the Navy's request for 12 
aircraft.
    Mrs. Wagner. In closing, I urge you to add 12 F/A-18 
aircraft to ensure the Navy can protect our Nation now and in 
decades to come.
    I look forward to working with you and this subcommittee 
and supporting the appropriations process as it moves through 
the House of Representatives. I stand at your service and thank 
you for yours.
    [The written statement of Congresswoman Wagner follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Frelinghuysen. Well, Mrs. Wagner, thank you for your 
testimony and congratulations on your son's promotion and his 
service to our Nation.
    I can assure you we are working very closely with the Navy. 
We obviously have some of the oldest aircraft across the broad 
spectrum of aircraft that we have to deal with and we will do 
our level best to address the issues, because obviously the F-
18 has incredible capabilities and we still need its 
capabilities.
    Mrs. Wagner. It is the workhorse, sir. And losing 15 in the 
last 5 years, we have taken a real hit. So anything that this 
subcommittee can do and anything I can do to be supportive 
through the appropriations process, I am there to serve.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. Mr. Chair, I would simply say the best for 
last.
    And also, I add my congratulations on your son.
    Mrs. Wagner. Thank you.
    Mr. Visclosky. And thank you for his service.
    Mrs. Wagner. He is a wonderful young man, and we look 
forward at the end of the month to celebrating him.
    Mr. Frelinghuysen. Well, congratulations to you.
    Committee stands adjourned. Appreciate everybody showing up 
and for their support of this hearing.
    [Clerk's note--The following written testimony was 
submitted for the record.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bischoff, Kim....................................................   406
Breedlove, General P. M..........................................     1
Byrne, Hon. Bradley..............................................   297
Carter, Hon. Earl ``Buddy''......................................   297
Cook, Hon. Paul..................................................   297
Heck, Hon. Denny.................................................   297
Horoho, Lieutenant General P. D..................................   137
Johnson, Hon. Henry ``Hank''.....................................   297
Jolly, Hon. David................................................   297
Kelly, H. O'B....................................................   441
Lawrence, Hon. Brenda............................................   297
Lieu, Hon. Ted...................................................   297
Lowenthal, Hon. Alan.............................................   297
McGovern, Hon. James.............................................   297
McHugh, J. M.....................................................    55
Miller, Hon. Jeff................................................   297
Moore, Nuala.....................................................   417
Nathan, Vice Admiral M. L........................................   137
Odierno, R. T....................................................    55
Plowe, C. V......................................................   411
Robb, Lieutenant General Dr. D. J................................   137
Rothfus, Hon. Keith..............................................   297
Syring, Vice Admiral J. D........................................    31
Taylor, Jr., J. C................................................   434
Travis, Lieutenant General Dr. T. W..............................   137
Visco, Fran......................................................   425
Wagner, Hon. Ann.................................................   297

                                  <all>
</pre></body></html>
